No. ____
IN THE
_________
JOHN MYERS,
Petitioner,
v.
RON NEAL,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
Jason T. Perkins
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000

Clifford W. Berlow
Counsel of Record
JENNER & BLOCK LLP
353 North Clark Street
Chicago, IL 60654
(312) 222-9350
cberlow@jenner.com

i
QUESTION PRESENTED
Whether the Seventh Circuit erred by holding, in
conflict with at least four other courts of appeals, that to
establish prejudice under Strickland v. Washington, 466
U.S. 668 (1984), a criminal defendant must show that if
the evidence tainted by the deficient performance of his
defense counsel is ignored, then there would not be
substantial evidence to support a conviction.

ii
RELATED PROCEEDINGS
This case arises from and is related to the following
proceedings in the State of Indiana, the United States
District Court for the Southern District of Indiana, and
the United States Court of Appeals for the Seventh
Circuit:


Myers v. State, 887 N.E.2d 170 (Ind. App. 2008)
(affirming conviction).



In re Baker, 955 N.E.2d 729 (Ind. 2011)
(suspending petitioner’s defense counsel from
practice of law for mistakes made at petitioner’s
trial and in the course of representing petitioner).



Myers v. State, 33 N.E.3d 1077 (Ind. App. 2015)
(affirming denial of post-conviction petition,
including claims under Strickland v. Washington,
466 U.S. 668 (1984)), which is reproduced in the
appendix and attached hereto at Pet. App. 37a117a.



Myers v. Superintendent, Indiana State Prison,
410 F. Supp. 3d 958 (S.D. Ind. 2019) (granting
federal habeas relief regarding Strickland
claims), which is reproduced in the appendix and
attached hereto at Pet. App. 118a-332a.



Myers v. Neal, 970 F.3d 780 (7th Cir. 2020)
(reversing grant of federal habeas relief).

iii


Myers v. Neal, 975 F.3d 611 (7th Cir. 2020)
(reversing grant of federal habeas relief, as
amended on denial of rehearing), which is
reproduced in the appendix and attached hereto
at Pet. App. 1a-36a, and Pet. App. 333a-334a.

iv
TABLE OF CONTENTS
QUESTION PRESENTED ...............................................i
RELATED PROCEEDINGS.......................................... ii
TABLE OF APPENDICES ........................................... vi
TABLE OF AUTHORITIES ........................................ vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
RELEVANT CONSTITUTIONAL PROVISION ....... 1
INTRODUCTION .............................................................. 1
STATEMENT OF THE CASE ........................................ 5
A.

State Proceedings........................................... 7

B.

District Court Proceedings ........................... 9

C.

Seventh Circuit Proceedings ...................... 10

REASONS FOR GRANTING THE PETITION........ 13
I.

THERE IS A SPLIT OF AUTHORITY ON
THE QUESTION PRESENTED ......................... 13
A.

Brady’s Rule Is Clearly Established ......... 13

v

II.

B.

Most Lower Courts Have Applied
Brady And Kyles To Strickland Claims ... 15

C.

Other Lower Courts Have Denied That
Brady And Kyles Apply To Strickland
Claims ............................................................. 18

D.

Courts Are Divided Even Within The
Seventh Circuit Itself .................................. 19

THIS CASE PRESENTS A RECURRING
AND
IMPORTANT
ISSUE
THAT
WARRANTS THIS COURT’S REVIEW .......... 22

III. THIS CASE PRESENTS AN IDEAL
VEHICLE
FOR
RESOLVING
THE
QUESTION PRESENTED ................................... 25
CONCLUSION ................................................................. 31

vi
TABLE OF APPENDICES
Appendix A: Amended Opinion of the United
States Court of Appeals for the Seventh
Circuit, No. 19-3158 (Sept. 16, 2020) .......... 1a–36a
Appendix B: Order of the Court of Appeals of
Indiana, No. 55A05-1312-PC-608 (May 28,
2015)............................................................ 37a–117a
Appendix C: Order of the United States
District Court Southern District
of Indiana, Indianapolis Division, No. 16cv-02023 (Sept. 30, 2019) ........................ 118a–332a
Appendix D: Order of the United States Court
of Appeals for the Seventh Circuit
denying petition for rehearing and
rehearing en banc (Sept. 16, 2020) ........ 333a-334a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
In re Baker,
955 N.E.2d 729 (Ind. 2011) ........................................ 7
Banks v. Dretke,
540 U.S. 668 (2004).................................................... 25
Bates v. Dow Agrosciences LLC,
544 U.S. 431 (2005).................................................... 20
Brady v. Maryland,
373 U.S. 83 (1963)........................................................ 1
Breakiron v. Horn,
642 F.3d 126 (3d Cir. 2011) ................................ 16, 17
Buck v. Davis,
137 S. Ct. 759 (2017) ................................................. 24
Carusone v. Warden, North Central
Correctional Institution,
966 F.3d 474 (6th Cir. 2020)..................................... 15
Commonwealth v. Breakiron,
729 A.2d 1088 (Pa. 1999) .......................................... 18
Cone v. Bell,
556 U.S. 449 (2009).................................................... 24

viii
In re Crace,
280 P.3d 1102 (Wash. 2012) ..................................... 18
Crace v. Herzog,
798 F.3d 840 (9th Cir. 2015)......................... 16, 17, 25
Fry v. State,
25 N.E.3d 237 (Ind. App. 2015) ................................. 7
Hampton v. State,
961 N.E.2d 480 (Ind. 2012) ...................................... 28
Ex parte Heidelberg,
No. AP-75,263, 2006 WL 3306880 (Tex.
Crim. App. Nov. 15, 2006) ....................................... 17
House v. Bell,
547 U.S. 518 (2006).............................................. 12, 27
Jackson v. Virginia,
443 U.S. 307 (1979).......................................... 2, 14, 26
Johnson v. California,
545 U.S. 162 (2005).................................................... 19
Johnson v. Scott,
68 F.3d 106 (5th Cir. 1995)........................... 15, 16, 27
Johnson v. Tice,
654 S.E.2d 917 (Va. 2008) .................................. 16, 18
Kimmelman v. Morrison,
477 U.S. 365 (1986).................................................... 24

ix
Kyles v. Whitley,
514 U.S. 419 (1995).............................. 2, 13, 18, 19, 30
Nix v. Whiteside,
475 U.S. 157 (1986)...................................................... 2
Panetti v. Quarterman,
551 U.S. 930 (2007).................................................... 30
People v. Moore,
663 N.E.2d 490 (Ill. App. 1996) ......................... 21, 22
Perry v. Leeke,
488 U.S. 272 (1989).................................................... 22
Rompilla v. Beard,
545 U.S. 374 (2005).................................................... 16
Sawyer v. Whitley,
505 U.S. 333 (1992).................................................... 24
Skakel v. Commissioner of Correction,
188 A.3d 1 (Conn. 2018)............................................ 14
Snow v. Sirmons,
474 F.3d 693 (10th Cir. 2007)................................... 15
State v. Best,
852 S.E.2d 191 (N.C. 2020) ...................................... 24
State v. Fishnick,
378 N.W.2d 272 (Wis. 1985) ..................................... 20
State v. Sholar,
912 N.W.2d 89 (Wis. 2018) ................................. 20, 21

x
Strickland v. Washington,
466 U.S. 668 (1984).................................... 1, 22, 23, 25
Strickler v. Greene,
527 U.S. 263 (1999)............................ 13, 14, 16, 24, 25
Tice v. Johnson,
647 F.3d 87 (4th Cir. 2011)....................... 3, 14, 15, 16
United States v. Kohring,
637 F.3d 895 (9th Cir. 2011)..................................... 17
Wearry v. Cain,
136 S. Ct. 1002 (2016) ............................................... 25
Wheat v. United States,
486 U.S. 153 (1988).................................................... 19
Constitutional Provision and Statute
U.S. Const. amend. VI ..................................................... 1
28 U.S.C. § 1254(1) ............................................................ 1
Other Authorities
John H. Blume & Christopher Seeds,
Reliability Matters: Reassociating Bagley
Materiality, Strickland Prejudice, and
Cumulative Harmless Error, 95 J. of
Crim. L. & Criminology 1153 (2005) .................. 3, 22
Wayne R. LaFave et al., 3 Crim. P. § 11.10(d)
(4th ed.) ........................................................................ 3

PETITION FOR A WRIT OF CERTIORARI
Petitioner John Myers respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Seventh Circuit.
OPINIONS BELOW
The Seventh Circuit’s opinion as amended on denial
of rehearing is reported at 975 F.3d 611 (7th Cir. 2020).
Pet. App. 1a-36a. The district court’s opinion granting
habeas relief is reported at 410 F. Supp. 3d 958 (S.D. Ind.
2019). Pet. App. 118a-332a.
JURISDICTION
The Seventh Circuit issued its decision on August 4,
2020 and denied a timely petition for rehearing on
September 16, 2020, while also amending its opinion.
Pet. App. 1a-36a; see also Pet. App. 333a-334a. On March
19, 2020, the Court extended the deadline to file any
petition for a writ of certiorari due on or after that date
to 150 days. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
RELEVANT CONSTITUTIONAL PROVISION
The Sixth Amendment provides in relevant part: “In
all criminal prosecutions, the accused shall enjoy the
right … to have the Assistance of Counsel for his
defence.” U.S. Const. amend. VI.
INTRODUCTION
Although two pillars of the Court’s criminal
procedure jurisprudence—Strickland v. Washington,
466 U.S. 668 (1984) and Brady v. Maryland, 373 U.S. 83
(1963)—address different constitutional protections,
they both ask courts ultimately to resolve whether a

2
defendant “received a fair trial, understood as a trial
resulting in a verdict worthy of confidence.” Kyles v.
Whitley, 514 U.S. 419, 434 (1995). This inquiry typically
is referred to as the “materiality” of the undisclosed
evidence under Brady and “prejudice” from counsel’s
deficient performance under Strickland, but regardless
of the label, the ultimate question courts must resolve
under both doctrines is whether “there is a reasonable
probability that, but for” the constitutional infirmity,
“the result of the proceeding would have been different.”
See Nix v. Whiteside, 475 U.S. 157, 175 (1986)
(Strickland); Kyles, 514 U.S. at 434-35 (Brady).
The fundamental question presented by this case is
whether these tests truly are, as this Court has
indicated, one and the same. See Kyles, 514 U.S. at 43334. That is, it asks whether the Strickland “reasonable
probability” test for prejudice is identical to the Brady
“reasonable probability” test for materiality. The
answer to that question is significant because in the
Brady context the Court has resolved that the
“reasonable probability” test “is not a sufficiency of [the]
evidence test” akin to the one established by Jackson v.
Virginia, 443 U.S. 307 (1979). See Kyles, 514 U.S. at 43435. The Court has not yet made that clear with respect
to Strickland. It should do so here.
Most courts to step into this void have held that the
Strickland reasonable probability test is the same as its
cognate under Brady—the reasonable probability test
does not require a defendant to show that the remaining,
untainted evidence is insufficient to support a
conviction. Courts taking this position instead hold that
a “reasonable probability” depends on whether defense

3
counsel’s deficient performance made it more likely that
the jury found guilt. See, e.g., Tice v. Johnson, 647 F.3d
87, 110-11 (4th Cir. 2011) (“[h]ad the confession been
suppressed,” via an objection by counsel, “there was a
reasonable probability that the jury would have
returned a different verdict”). But that is not the
unanimous view. For a minority of courts, including the
Seventh Circuit here, prejudice under Strickland turns
on whether the residual or untainted evidence can
independently support the conviction once defense
counsel’s errors are ignored.
The distinction is subtle, but important. Under the
minority approach, a criminal defendant may prevail
under Strickland only if he can overcome all the
damaging inferences a factfinder could draw (but need
not draw) from the untainted portion of the evidentiary
record. But under the majority approach, the defendant
need only show that the errors of counsel materially
increased the probability that the jurors hearing the
case would vote to convict.
The Court should answer the question presented
now and in this case. Strickland errors are among “the
most commonly raised types of post-conviction error[s],”
John H. Blume & Christopher Seeds, Reliability
Matters: Reassociating Bagley Materiality, Strickland
Prejudice, and Cumulative Harmless Error, 95 J. of
Crim. L. & Criminology 1153, 1154 (2005), and courts
often rule only on the prejudice component of a
Strickland claim, see Wayne R. LaFave et al., 3 Crim. P.
§ 11.10(d) n.269 (4th ed.) (collecting cases). Furthermore,
because the Seventh Circuit agreed with the district
court that defense counsel’s performance here was

4
indefensible, this case boils down to defining and
applying the proper test for finding prejudice under
Strickland. Pet. App. 20a-24a (affirming on
performance); id. 24a-34a (reversing on prejudice given
“substantial evidence” finding). And unlike in many
similar cases, because the state court unreasonably
applied Strickland by refusing to address prejudice
cumulatively, the reasonable probability analysis is
before the Court on a de novo standard of review. Pet.
App. 24a-27a.
Most of all, however, this case warrants the Court’s
review because the difference between the two
approaches was dispositive. Myers was convicted in a
case that was “entirely circumstantial.” Myers v. State,
887 N.E.2d 170, 196 (Ind. App. 2008) (‘Myers I’). As the
Seventh Circuit acknowledged, defense counsel’s
indefensible performance provided the prosecution its
strongest evidence both of motive and of opportunity—
motive, by failing to object to highly inflammatory,
inadmissible speculation by a prosecution expert that
the crime involved rape “until proven otherwise,” see
Pet. App. 305a-306a, and opportunity, by undermining
Myers’s otherwise strong alibi. So it was only by
drawing every disputed inference for the prosecution—
a hallmark of a sufficiency of the evidence analysis under
Jackson, but not of reasonable probability under
Brady—that the Seventh Circuit was able to determine
that Myers was not prejudiced by his attorney’s failings.
The facts of this case make it nearly impossible to
look away from the glaring and prejudicial impact of
defense counsel’s egregious errors. Whether the

5
reasonable probability test instructs a court to do just
that is the question this case presents.
STATEMENT OF THE CASE
Jill Behrman, a bicyclist and undergraduate student
at Indiana University Bloomington, left her home in
Bloomington on her bicycle shortly after 9:30 a.m. on
May 31, 2000. Pet. App. 3a, 36a; id. 38a-39a. Behrman
never reported to her on-campus job. It was not clear
which direction Behrman had traveled on her bike ride
that day—she may have ridden north, around town, or
south, away from town. Pet. App. 39a; see also Pet. App.
36a (map). A witness who knew Behrman saw her riding
south, and an FBI investigator thought there was a
“strong possibility” she rode south; someone else,
however, reported seeing “a female cyclist in her early
twenties” that might have been Behrman riding north
on either May 31 or June 1. Pet. App. 39a; id. 163a, 316a317a.
A nationwide search ensued, making news in
southern Indiana and beyond, and the investigation into
Behrman’s disappearance continued for years. Id. 39a;
see Pet. App. 265a, 286a; see also id. 280a-281a (‘“you
couldn’t go to the grocery store”’ or ‘“pick up your
laundry without talking about Jill Behrman”’ and her
whereabouts because it was “constantly discussed by
nearly everyone in the area” (citations omitted)).
Multiple suspects were considered, including a woman
facing unrelated charges who gave a vivid confession
regarding the circumstances of Behrman’s murder. Pet.
App. 46a, 104a-108a. That woman, Wendy Owings,
confessed that she and two friends ran over Behrman
with their van while high on drugs and driving south of

6
Bloomington, and that they then dumped Behrman’s
bike and other evidence after brutally killing her. Pet.
App. 104a-109a; id. 153a, 281a. Acting on this
information, investigators drained a creek and
uncovered items consistent with Owings’s confession,
though investigators did not also find Behrman’s
remains there. See id. Because prosecutors ultimately
came to doubt that they could obtain a conviction against
Owings, they declined to file charges. See id. 65a.
Nearly three years after Behrman’s disappearance,
her remains were found on March 9, 2003 in a wooded
area in a neighboring county. Pet. App. 47a. Still, the
matter remained unsolved. During that time,
investigators continued to receive tips, one of which
came from John Myers’s grandmother in 2004. Pet. App.
65a-66a; id. 3a-5a. Myers’s grandmother informed police
that her grandson had acted “strangely” years before,
around the time of Behrman’s disappearance. That tip
prompted investigators to consider Myers a suspect.
Pet. App. 66a. Myers cooperated with authorities and sat
for hours of interviews, but repeatedly made clear he
“didn’t have anything to do with the Behrman case and”
had “no knowledge other than what” he had “seen in the
newspapers” and heard as “street rumor.” Pet. App.
141a-143a (noting Myers’s “‘ten denials’ of his
involvement” including ‘“I didn’t kill Jill Behrman and I
have no involvement with Jill Behrman … I don’t know
how to convince you of that,”’ and ‘“I hate being a broken
record for you all … not only was I not involved but my
knowledge is … at zero”’) (citations omitted).

7
A. State Proceedings.
The authorities charged Myers with Behrman’s
murder. Shortly after Myers’s arrest, an inexperienced
and unprepared attorney named Patrick Baker
approached Myers and persuaded Myers to retain him.
In re Baker, 955 N.E.2d 729, 729 (Ind. 2011). Baker later
admitted he was “motivated by selfishness, expecting
that publicity from the case would lead to an increase in
business.” Id. at 729-30. Baker was suspended from the
practice of law for misconduct that he committed in
Myers’s case. Id.
The prosecution’s case was “entirely circumstantial.”
Myers I, 887 N.E.2d at 196. As is true of any criminal
trial based solely on circumstantial evidence, the
prosecution’s case regarding “opportunity, means, and
motive” thus were critical. See Fry v. State, 25 N.E.3d
237, 249 (Ind. App. 2015).
In Myers’s case, the main obstacle to a conviction was
uncertainty over which direction Behrman rode on the
day of her disappearance—“if Ms. Behrman had ridden
south on the day she disappeared, Mr. Myers had a solid
alibi” since he was at home miles away, as demonstrated
by phone records. Pet. App. 161a. But if Behrman rode
north, towards Myers, then he would have had
opportunity. Pet. App. 314a-316a. Testimony showed
she “could have ridden north” but also that “there was a
‘strong possibility’” she rode south. Pet. App. 258a-259a,
314a-319a. As the district court later explained, at least
this aspect of the jury’s inquiry thus was simple: “the
jury would only need to believe there was some
likelihood Ms. Behrman rode south to create reasonable
doubt.” Pet. App. 318a-319a. What is more, there was no

8
clear, specific evidence of motive, meaning the
prosecution also needed to provide persuasive evidence
explaining “why Mr. Myers would have randomly
murdered a stranger riding a bicycle near his residence.”
Pet. App. 323a-324a.
Any competent defense lawyer would have seized on
the uncertainty regarding Behrman’s whereabouts and
the absence of evidence regarding motive to sow
reasonable doubt. But defense counsel was not
competent. As the Seventh Circuit affirmed, defense
counsel’s performance was deficient under Strickland in
three respects:
(1) defense counsel did not object to a State expert’s
unsupported speculation that the victim’s death was
a “rape[-]murder,” an opinion the State identified as
Myers’s motive during closing argument;
(2) defense counsel did not object to (or perhaps even
understand) the inadmissible bloodhound “tracking”
evidence that placed the victim near Myers’s home,
which discredited Myers’s “otherwise strong” alibi;
and
(3) defense counsel opened the case with grandiose
false statements about how he would identify the real
culprit, which compromised the defense’s credibility
with the jury when he ultimately was unable to live
up to his promises.
See Pet. App. 118a-119a, 153a-156a, 168a-169a, 169a n.11,
284a-285a, 303a, 309a-315a, 320a; id. 20a-27a.

9
B. District Court Proceedings.
After the Indiana state courts affirmed Myers’s
conviction on direct review and rejected Myers’s
Strickland claim on collateral review, see Pet. App. 94a97a (rape testimony not prejudicial); id. 75a-79a
(assuming lack of objection to bloodhound tracking
evidence was for strategic reasons); id. 58a-67a (false
statements to jury not prejudicial), Myers petitioned for
habeas relief in federal court, id. 118a.
The district court granted Myers’s petition, finding
that defense counsel’s “serious errors all but destroyed
the defense ... and tainted the entire trial.” Pet. App.
119a. On motive, the court concluded that counsel’s
acquiescence to the “rape evidence” supplied “the only
evidence that allowed the jury to make sense of why Mr.
Myers would have randomly murdered a stranger” and
“allowed the State to create motive ... when there
otherwise was none.” Pet. App. 310a, 323a-324a.
On opportunity, the district court observed that “it
would be difficult to overstate how prejudicial the
bloodhound evidence was to Mr. Myers’s alibi” given
that the question of whether Behrman rode north
towards Myers (supplying Myers with opportunity) or
south, which meant he could not have committed the
crime, “was at best a close call, as there was not
compelling or undisputed evidence either way.” Pet.
App. 317a-319a, 322a. The jury heard that an eyewitness
who knew Behrman “told law enforcement that she saw
Ms. Behrman riding south on May 31, 2000, the day she
disappeared,” and an FBI Agent testified “there was a
‘strong possibility”’ Behrman rode south that day,
nowhere near Myers. Pet. App. 258a-260a, 315a-319a.

10
Yet other reports, possibilities, and timelines also were
presented, leading to uncertainty about Behrman’s
whereabouts that day. See Pet. App. 316a-319a.
In other words, reasonable doubt existed about
whether Behrman was even in the vicinity of Myers’s
home that day, until the prosecution’s inadmissible
bloodhound ‘tracking’ evidence was put before the jury.
That evidence, which likely sounded scientific to the
jury, indicated “that Ms. Behrman rode north to the field
where her bicycle was found and stopped there,” not far
from Myers’s home. See Pet. App. 180a, 316a. It thus
greatly simplified an otherwise confusing evidentiary
picture for the jury and “tipped the scale strongly”
towards guilt. See Pet. App. 322a-323a. Including that
plainly inadmissible bloodhound tracking evidence in the
case submitted to the jury “left Mr. Myers without a
meaningful defense theory through which any jury
would find reasonable doubt.” Pet. App. 323a.
Finding that these “three instances of deficient
performance” were “more than sufficient for Mr. Myers
to establish prejudice,” the district court declined to
resolve additional claims of ineffective assistance,
presentation of false evidence, and withholding of
exculpatory evidence. Pet. App. 170a, 251a, 331a.
C. Seventh Circuit Proceedings.
The Seventh Circuit affirmed that: (1) “[m]aking
false promises about evidence in an opening statement is
a surefire way for defense counsel to harm his
credibility”; (2) acquiescing to the alibi-destroying
inadmissible bloodhound evidence was not even an
informed decision; and (3) “[p]erhaps the starkest”
failure was permitting the State’s expert to speculate

11
that Behrman—“a young college student [who] went
missing and later turned up dead”—was raped as well as
murdered. Pet. App. 20a-24a. The Seventh Circuit
agreed with the district court that “[d]efense counsel
should have sought to prevent Myers from being
portrayed as a rapist” where the prosecution had only
inadmissible speculation and no actual evidence to
support its repeated claim “that this was a classic rape
murder.” Pet. App. 24a-28a.
But the Seventh Circuit nonetheless reversed the
district court’s finding that Myers had been prejudiced
by these errors. The court held that because the
prosecution “presented substantial evidence of Myers’s
guilt” that was not directly impacted by the errors
themselves (i.e. because substantial “untainted”
evidence existed), it was not possible for defense
counsel’s errors to have prejudiced Myers. Pet. App.
27a-28a, 34a.
The Seventh Circuit held there was no prejudice
even though “counsel’s deficient performance .…
allowed the state to supply the jury with a theory of
motive,” which the prosecution made “as plain as day in
its closing argument: ‘You know the motive in this crime
is clear ... when Doctor Radentz told you that this was a
classic rape murder.”’ Pet. App. 28a. This was so, the
court held, because “even without the testimony about
rape, the state painted that picture about Myers through
other means,” namely that he “lost his girlfriend” and
“had no luck trying to restore the relationship” and that
a jailhouse informant said that Myers used “degrading
language,” regarding “a woman,” Pet. App. 10a, 28a-29a,

12
language that may—or may not—have referred to Jill
Behrman, Pet. App. 270a-271a.1
The Seventh Circuit also held that no Strickland
prejudice ensued from defense counsel’s failure to object
to the inadmissible bloodhound tracking testimony, even
though that evidence put the victim near Myers’s home
and “all but guaranteed the jury would not credit
Myers’s alibi.” Pet. App. 21a, 29a-31a. The court reached
this conclusion because Behrman’s “bike was found
along North Maple Grove, less than a mile from Myers’s
home,” id. 29a-30a, which was perhaps sufficient,
independent evidence of Behrman’s whereabouts, were
the court to also assume that the jury disregarded the
testimony of an FBI Agent—testimony indicating that
“there was a ‘strong possibility”’ Behrman rode south
nowhere near Myers and that her bicycle may have been
later dumped by her killer or someone else along the
northern route. Pet. App. 258a-260a, 315a-319a. To the
Seventh Circuit, all that mattered was that the bike’s
recovery location created an “evidentiary obstacle for
Myers” from which a jury could have inferred
opportunity. Pet. App. 30a.
The Seventh Circuit thus summarized that because
“the prosecution presented substantial evidence of [the
defendant]’s guilt” Myers could not “show[] that he

1

This evidence was far from ironclad. See Pet. App. 270a (“Mr. Roell
almost immediately acknowledged he was unsure whether Mr.
Myers was talking about Ms. Behrman or not” and “acknowledged
that his motivation in coming forward was to obtain release” from
jail); see also House v. Bell, 547 U.S. 518, 552 (2006) (doubting
“probative value” of “incriminating testimony from inmates”).

13
suffered substantial prejudice from his trial counsel’s
errors.” Pet. App. 27a-28a.
REASONS FOR GRANTING THE PETITION
I.

THERE IS A SPLIT OF AUTHORITY ON
THE QUESTION PRESENTED.
A. Brady’s Rule Is Clearly Established.

Where the prosecution fails to disclose exculpatory
evidence, the rule of Brady “is clear.” Kyles, 514 U.S. at
434-35, 435 n.8. The reasonable probability test used to
assess materiality “is not a sufficiency of [the] evidence
test. A defendant need not demonstrate that after
discounting the inculpatory evidence in light of the
undisclosed evidence, there would not have been enough
left to convict.” Id. at 434-35. That is because “[t]he
possibility of an acquittal on a criminal charge does not
imply an insufficient evidentiary basis to convict,” and it
is wrong for a court to assume that a defendant “must
lose because there would still have been adequate
evidence to convict” even if the exculpatory evidence
had been disclosed. Id. at 435 & n.8.
Instead, the undisclosed evidence is considered
“material ‘if there is a reasonable probability that, had
the evidence been disclosed to the defense, the result of
the proceeding would have been different.”’ Strickler v.
Greene, 527 U.S. 263, 280 (1999) (quoting United States
v. Bagley, 473 U.S. 667, 682 (1985)). This does not mean
that all failures to disclose evidence render “the outcome
… unjust”; but it does mean that a conviction cannot
stand if “the favorable evidence could reasonably be
taken to put the whole case in such a different light as to
undermine confidence in the verdict.” Id. at 281, 290

14
(quoting in part Kyles, 514 U.S. at 435). It thus is error
to reject a Brady claim solely because “the record
contained ample, independent evidence of guilt.” Id. at
290. Whether “the remaining evidence is sufficient to
support the jury’s conclusions” does not determine
whether the Brady error was what led to the guilty
verdict. See id.
To be sure, there are times when a criminal
defendant seeking to overturn a conviction must
overcome a sufficiency of the evidence test. But that
occurs when a habeas petitioner makes a sufficiency of
the evidence claim—i.e. where he seeks to argue that his
right to due process was denied because the evidence
presented at trial did not establish his guilt beyond a
reasonable doubt as to each element of the offense.
Jackson v. Virginia, 443 U.S. 307, 318-19 (1979). That
more demanding standard makes sense in that due
process setting because the Jackson inquiry assumes
the adversarial process functioned properly. See id. The
Jackson analysis thus gives great weight to the fact of
the conviction itself, which dictates how the evidence
should be viewed on appeal. Id.
The situation under Brady is starkly different. At its
core, the Jackson sufficiency of the evidence inquiry
asks “whether a reasonable jury could have convicted an
adequately represented defendant” given the evidence
presented. Tice v. Johnson, 647 F.3d 87, 110 (4th Cir.
2011) (emphasis added); see also Skakel v. Comm’r of
Corr., 188 A.3d 1, 25 (Conn. 2018) (quoting Tice, 647 F.3d
at 110). The reasonable probability test under Brady,
however, asks “whether the absence of error,” i.e. the
record that should have been presented to the jury,

15
“would have given rise to a reasonable probability of
acquittal,” given that guilt must be proven beyond a
reasonable doubt. Tice, 647 F.3d at 110-11; Snow v.
Sirmons, 474 F.3d 693, 711 (10th Cir. 2007) (the point of
the Brady materiality inquiry is whether “the omitted
evidence creates a reasonable doubt that did not
otherwise exist” (citation omitted)). Thus it is an
“unreasonable application of clearly established” federal
law to reduce the Brady materiality inquiry to a
question of whether “the evidence was sufficient to
support a conviction.” Carusone v. Warden, N. Cent.
Corr. Inst., 966 F.3d 474, 479-80 (6th Cir. 2020).
B. Most Lower Courts Have Applied Brady And
Kyles To Strickland Claims.
Most courts have held that the Strickland reasonable
probability test, like its counterpart under Brady, is not
a Jackson-like sufficiency of the evidence test. This
means that most courts to address the question
presented have held that Strickland prejudice is shown
if the tainted evidence —the “evidence that the jury
should not have considered”—had enough “inculpatory
force” to meaningfully change the “prospects for
conviction,” even if the remaining “legitimate evidence”
might have theoretically been enough to support a guilty
verdict. See Tice, 647 F.3d at 111.
The Fourth and Fifth Circuits are among those
courts. Both circuits have held that given the close link
between Strickland prejudice and materiality under
Brady, “the sufficiency of the ‘untainted’ evidence
should not be the focus of the prejudice inquiry.”
Johnson v. Scott, 68 F.3d 106, 109-10 (5th Cir. 1995).
Instead, Strickland asks whether the tainted evidence

16
“put the whole case in such a different light as to
undermine confidence in the verdict.” Id. at 110, 109 n.4
(disagreeing with district court, which had “concluded
that because of the amount of other circumstantial
evidence linking [the defendant] to the murders, [the
defendant] was not prejudiced by trial counsels’
errors”); see also Johnson v. Tice, 654 S.E.2d 917, 924
(Va. 2008) (“We resolve this issue by reviewing the
remaining trial evidence, in the absence of [the
defendant]’s confession, under the Strickland
standard.”), habeas relief granted sub. nom. Tice v.
Johnson, 647 F.3d 87, 110-11 (4th Cir. 2011) (citing Scott
and finding that Virginia Supreme Court unreasonably
applied Strickland).2
The Third and Ninth Circuits take the same position.
Both have explained that “convert[ing] Strickland’s
prejudice inquiry into a sufficiency-of-the-evidence
question” is improper because it assumes “there is
categorically no Strickland error” where “the evidence
is sufficient to support the verdict” otherwise. Crace v.
Herzog, 798 F.3d 840, 849 (9th Cir. 2015) (finding
Washington Supreme Court unreasonably applied
Strickland “[b]y reducing the question to sufficiency of
the evidence”); Breakiron v. Horn, 642 F.3d 126, 136, 140
(3d Cir. 2011) (finding Pennsylvania Supreme Court
2

See also Strickler, 527 U.S. at 290 (“As we made clear in Kyles, the
materiality inquiry is not just a matter of determining whether …
the remaining evidence is sufficient to support the jury’s
conclusions.”); Rompilla v. Beard, 545 U.S. 374, 393 (2005)
(“[A]lthough we suppose it is possible that a jury could have heard
it all and still have decided on the death penalty, that is not the
test.”).

17
unreasonably applied Strickland by merely “noting that
the evidence was sufficient to convict” on a robbery
charge instead of completing the reasonable probability
analysis
regarding
a
lesser-included
offense
3
instruction). Thus, the respective courts of appeals in
Crace and in Breakiron both held that a state court had
unreasonably applied Strickland by using the
sufficiency of the evidence as a proxy or substitute for
the reasonable probability test—both state courts had
erroneously assumed that because sufficient evidence of
guilt existed on the charged offense, that meant defense
counsel’s failure to insist on a lesser-included offense
instruction could not have prejudiced the defendant.
Crace, 798 F.3d at 849; Breakiron, 642 F.3d at 140.
“Merely noting that the evidence was sufficient to
convict does not accomplish” the probabilistic weighing
exercise that Strickland requires—it does not shed light
on whether the error meant that the defendant was
exposed to a “substantial risk” of an improper
conviction. See Breakiron, 642 F.3d at 140; Crace, 798
F.3d at 849.
At bottom, the principle underlying the Third,
Fourth, Fifth, and Ninth Circuits’ approach is that it is
wrong to assume a jury would have returned a
3

See also United States v. Kohring, 637 F.3d 895, 902 (9th Cir. 2011)
(“a ‘reasonable probability’ may be found ‘even where the remaining
evidence would have been sufficient to convict the defendant’”)
(internal citations omitted); Ex parte Heidelberg, No. AP-75,263,
2006 WL 3306880, at *6 & n.45 (Tex. Crim. App. Nov. 15, 2006) (“the
question of prejudice under Strickland does not turn on whether,
discounting trial counsel’s errors of omission or commission, the
evidence was otherwise sufficient to convict”) (discussing Kyles, 514
U.S. at 434-35).

18
particular verdict just because it could reasonably have
done so. As this Court has explained, “[t]he possibility of
an acquittal” is not reduced to zero every time the
prosecution presents “adequate evidence to convict”
that is untainted by legal error. Kyles, 514 U.S. at 435 &
n.8. And even when the tainted evidence “can be
logically separated from the incriminating evidence,”
which frequently is not possible, it is not appropriate to
do so if “[t]he jury would have been entitled to find” very
different facts absent the legal error. Id. at 435 n.8, 45354.
C. Other Lower Courts Have Denied That Brady
And Kyles Apply To Strickland Claims.
In this case, the Seventh Circuit embraced a view
previously taken by the Virginia, Washington, and
Pennsylvania Supreme Courts. In Tice, for instance, the
Virginia Supreme Court sought to “resolve th[e] issue
by reviewing the remaining trial evidence” as though
the jury’s view of that evidence would not have been
colored by the damaging evidence that should not have
been presented. See Johnson v. Tice, 654 S.E.2d at 92425. Similarly, the Washington Supreme Court in Crace
identified not only what testimony said, but also what it
may have been “suggesting” and what “a juror could
conclude” from those suggestions. See In re Crace, 280
P.3d 1102, 1109 (Wash. 2012) (describing what
“[e]vidence established”). And the Pennsylvania
Supreme Court in Breakiron found that because “the
evidence supported this verdict” the defendant “cannot
show that the claimed error prejudiced him.” See
Commonwealth v. Breakiron, 729 A.2d 1088, 1095 (Pa.
1999).

19
Each of these decisions were vacated on federal
habeas review by the Courts of Appeals. Yet the
Seventh Circuit’s decision in this case tracks their now
discredited views. According to the Seventh Circuit, the
reasonable probability test under Strickland allows for
a conviction secured with “indefensible” and “clear …
deficient performance” that “suppl[ied] the jury with a
theory of motive” to be maintained by a federal court if
the prosecution, on a cold appellate record, could
otherwise point to “substantial evidence of [the
defendant’s] guilt.” Pet. App. 20a-21a, 27a-28a. To the
Seventh Circuit, so long as there is “enough left to
convict,” see Kyles, 514 U.S. at 434-35, then “substantial
evidence” of guilt forecloses a finding of prejudice under
Strickland. Pet. App. 27a-28a.
Had that de novo judgment been delivered by a state
court in the Third, Fourth, Fifth, Sixth, or Ninth
Circuits, it likely would have been identified by those
Circuits not just as wrong, but as an unreasonable
application of Strickland. The conflict between these
approaches is plain and the “substantial disagreement”
between the Circuits should be resolved by this Court.
See Wheat v. United States, 486 U.S. 153, 158 & n.2 (1988)
(granting certiorari in light of the divisions between the
Circuits as to the right to counsel).
D. Courts Are Divided Even Within The Seventh
Circuit Itself.
This Court also should grant the petition because the
States of Wisconsin and Illinois now interpret
Strickland differently from their regional Circuit. See,
e.g., Johnson v. California, 545 U.S. 162, 164 (2005)
(noting conflict between California and the Ninth Circuit

20
on federal constitutional question impacting validity of
state convictions); Bates v. Dow Agrosciences LLC, 544
U.S. 431, 436 & n.6 (2005) (noting conflict between Texas
and the Fifth Circuit).
Prior to 2018, the Wisconsin Supreme Court had at
times held, much as the Seventh Circuit did here, that
the prejudice prong of Strickland turns on whether
“sufficient evidence untainted by the error” can be
found. State v. Fishnick, 378 N.W.2d 272, 282 (Wis. 1985)
(emphasizing that “strength of the untainted evidence”
meant “the erroneously admitted evidence” was
insignificant). But in 2018, the Wisconsin Court resolved
that “reviewing courts are improperly denying
ineffective assistance claims by measuring prejudice
under a sufficiency of the evidence test[.]” State v.
Sholar, 912 N.W.2d 89, 104-05 (Wis. 2018) (“[T]he
Strickland prejudice test is distinct from a sufficiency of
the evidence test and … a defendant need not prove the
outcome would ‘more likely than not’ be different in
order to establish prejudice in ineffective assistance
cases.”). In doing so, the Wisconsin Supreme Court
observed that while “[b]oth standards require a
reviewing court to examine the evidence,” they differ in
their application: “To succeed on a sufficiency claim, a
defendant must show a record devoid of evidence on
which a reasonable jury could convict” even when
viewed ‘“most favorably to the state and the
conviction”’; meanwhile in “ineffective assistance
challenges, a defendant must establish that but for his
lawyer’s error, there is a reasonable probability the jury
would have had a reasonable doubt as to guilt.” Id. at
104.

21
Wisconsin thus recognizes the critical difference
between whether the jury “could have found guilt
beyond a reasonable doubt” on all the evidence
(sufficiency), and whether there was a “reasonable
probability” it “would have had a reasonable doubt”
absent the errors of counsel. See id. (emphasis added and
citation omitted). The Seventh Circuit, however, does
not. Only this Court can resolve the conflict.
Similarly, the Illinois Appellate Court in People v.
Moore found that a defendant convicted of driving under
the influence received constitutionally ineffective
assistance when his defense counsel failed to prevent
“highly incriminating evidence from being considered”
that had been obtained in violation “of the right against
self-incrimination.” 663 N.E.2d 490, 495 (Ill. App. 1996).
In doing so, that court rejected the prosecution’s
argument that the defendant had not been prejudiced
because the untainted evidence provided “a sufficient
evidentiary basis upon which to convict.” Id. at 496.
Though the court “agree[d] … that sufficient evidence
existed,” it found that “sufficiency of the evidence is not
the touchstone for decision under Strickland’s test of
prejudice.” Id. at 497. Citing this Court’s decision in
Kyles, the court explained:
The Strickland standard … is subject to
distortion if the evaluation focuses only on the
evidence untouched by the professional errors of
counsel. The standard falls prey to a seductive
simplicity found in the mechanical search for
untainted evidence to cleanse the prejudice by
providing a sufficient independent evidentiary
basis to convict. The prejudice referred to by the

22
Supreme Court is less mechanical and calls for
review of the fundamental fairness of the
proceeding as a whole, to determine whether, in
light of the professional errors of counsel, the
result was worthy of confidence. In this regard,
the possibility of acquittal does not imply an
insufficient evidentiary basis to convict.
Id. at 498.
The states of Wisconsin and Illinois thus share an
approach to the Strickland prejudice inquiry that is
incompatible with the Seventh Circuit’s “substantial
evidence of [the defendant’s] guilt” approach. Pet. App.
27a-28a. This Court should grant the petition and resolve
the conflict.
II.

THIS CASE PRESENTS A RECURRING
AND
IMPORTANT
ISSUE
THAT
WARRANTS THIS COURT’S REVIEW.

This Court should grant review because “the
question presented by this case is not only important,
but [is] also one that frequently arises.” Perry v. Leeke,
488 U.S. 272, 277 & n.2 (1989). Hundreds (if not
thousands) of times every year, the federal Circuits and
state appellate courts are asked to apply Strickland’s
“reasonable probability” test to the “totality of the
evidence before the judge or jury.” Strickland v.
Washington, 466 U.S. 668, 695 (1984); see also Blume &
Seeds, Reliability Matters, 95 J. of Crim. L. &
Criminology at 1153-54 (explaining that the Brady and
Strickland doctrines “have developed into the principal
safeguards of fair trials” and are frequently raised in
post-conviction review). Whether that test is met by

23
mere “substantial evidence” of guilt, or something more,
matters in many of those cases.
The Seventh Circuit’s “substantial evidence” rule
robs the Strickland prejudice analysis of the flexibility
and nuance that is critical to the just implementation of
the Sixth Amendment. The evidentiary consequences of
deficient performance will be different in every case, and
no “mechanical” rule could encapsulate the complex
weighing process that juries are often asked to perform.
See Strickland, 466 U.S. at 696. Yet the upshot of the
Seventh Circuit’s substantial evidence rule is that if
“other means” exist through which a jury could have
found guilt, then regardless of what defense counsel’s
error(s) were and what they added or subtracted to the
evidence, as a matter of law, no prejudice occurred. Pet.
App. 27a-29a.
Such a shortcut essentially means the weight and
strength of the evidence introduced as a result of
counsel’s errors can be discounted if other evidence in
the record can, with the benefit of inferences, be
summoned to take its place. In murder trials, this turns
Strickland’s fact-specific, probabilistic inquiry into a
hunt for opportunity, means, and motive in the rest of
the case. If, viewing the record in the light most
favorable to the state and conviction, those elements can
be found, no prejudice occurred. The nuances of the facts
thus fall away; it then makes no difference, for example,
whether or not “there was considerable forensic and
other physical evidence” of guilt or not, as long as the
court following the Seventh Circuit’s approach can find
“independent evidence of guilt” that can, with the
benefit of inferences, be marshaled in support of the

24
verdict. See Strickler, 527 U.S. at 290, 293 (addressing
Fourth Circuit’s misreading of Kyles).
This approach to prejudice also misses the point.
Strickland does not ask a reviewing court to decide
whether a defendant may be guilty, for as this Court has
emphasized the right to counsel is not “conditioned upon
actual innocence.” Kimmelman v. Morrison, 477 U.S.
365, 377, 379-80 (1986). Nor is the prejudice inquiry a
meaningful substitute or proxy for assessing guilt or
innocence. See Sawyer v. Whitley, 505 U.S. 333, 345
(1992) (explaining the difference between claims of
“actual innocence” and claims of “prejudice”). So in
assessing whether there is “a reasonable probability
that, without [the error], at least one juror would have
harbored a reasonable doubt,” Buck v. Davis, 137 S. Ct.
759, 776 (2017), a court should not proceed from an
assumption that the defendant is most likely guilty, as it
would under a Jackson inquiry, see Cone v. Bell, 556 U.S.
449, 474 (2009) (suggesting that determining whether
“suppressed evidence” was material “to the jury’s
finding of guilt” should be “viewed in the light most
favorable to” the defendant). The court should instead
proceed from the assumption that trial counsel’s errors
might have compromised the efficacy of the defense.4
4

See State v. Best, 852 S.E.2d 191, 202 (N.C. 2020) (“We have not
decided today that [the defendant] is guilty or innocent, that the
district attorney was right or wrong to charge him, or that [the
defendant] should be convicted or acquitted on retrial. Instead, our
review of the record in this case shows that the failure to disclose
exculpatory evidence prejudiced [the defendant]’s ability to present
a defense.”).
.

25
If there is “categorically no Strickland error” where
“the evidence is sufficient to support the verdict,” see
Crace v. Herzog, 798 F.3d at 849, then even the most
inflammatory errors of counsel can be disregarded
anytime the untainted evidence is sufficient to support
conviction. This means it would no longer be important
whether improper evidence was ‘“relied upon by the
prosecution … during its closing argument,”’ whether
such evidence “was the centerpiece of” the prosecution’s
case, or even whether the remaining evidence consisted
of “considerable forensic and other physical evidence” or
something weaker. See Banks v. Dretke, 540 U.S. 668,
701 (2004) (contrasting Strickler, 527 U.S. at 289-96); see
also Wearry v. Cain, 136 S. Ct. 1002, 1007 (2016)
(criticizing state postconviction court for “emphasiz[ing]
reasons a juror might disregard new evidence while
ignoring reasons she might not”). If the theoretical
possibility of guilt is all that matters in assessing
prejudice under Strickland, then findings of prejudice
would become rare and a court’s application of that
standard would be “mechanical,” despite what the
Strickland Court itself said. 466 U.S. at 696-97. This
Court should grant the petition to clarify this important
area of the law.
III.

THIS CASE PRESENTS AN IDEAL
VEHICLE
FOR
RESOLVING
THE
QUESTION PRESENTED.

Finally, this case presents an ideal vehicle for
clarifying Strickland’s reasonable probability test, both
because the answer to the question presented is outcome
determinative, and because the reasonable probability

26
analysis here is before the Court on a de novo standard
of review.
First, the dispositive issue in this case is whether the
Seventh Circuit is right or is wrong that Myers’s burden
under the Strickland reasonable probability test was to
show that the untainted evidence was not sufficient to
support a conviction. A federal district judge and a
unanimous panel of the Seventh Circuit both have
“conclude[d] without hesitation” that defense counsel’s
performance was “clear[ly]” “deficient”—in the words of
the Seventh Circuit, it was “indefensible,” “passive[]”
and “stark[].” Pet. App. 20a-24a (describing three
instances of deficient performance and agreeing with
district court’s conclusion “that counsel performed
deficiently”). So the only real dispute here is whether
Myers was prejudiced by those deficiencies. The
Seventh Circuit looked at the same evidence as the
district court, yet found that the mere existence of
“substantial evidence” “untainted” by error necessarily
“prevents” a prejudice finding under Strickland. Pet.
App. 27a-28a, 34a.
If the test of reasonable probability under Strickland
is a sufficiency of the evidence test, then the Seventh
Circuit’s analysis likely is correct. “[T]he case against
Myers was entirely circumstantial.” Myers I, 887 N.E.2d
at 196. That means the jury’s role was to draw
“reasonable inferences from basic facts to ultimate
facts.” See Jackson, 443 U.S. at 319. If every reasonable
inference from the record is drawn in favor of the
verdict, as would be the case under a Jackson-like
sufficiency of the evidence test, then confidence in the
jury’s verdict probably is sustainable.

27
But if the test for reasonable probability under
Strickland is the same as the test for reasonable
probability under Brady, then the Seventh Circuit is
almost certainly wrong. The question under a Brady-like
reasonable probability test is whether the tainted
evidence “put the whole case in such a different light as
to undermine confidence in the verdict.” Johnson v.
Scott, 68 F.3d at 109-10 (citation omitted). That
unquestionably is true here—the tainted rape evidence,
for example, portrayed Myers in the worst possible
light, a light this Court has acknowledged is close to per
se prejudicial. House v. Bell, 547 U.S. 518, 540-41 (2006)
(“a jury acting without the assumption” of a sex crime
“would have found it necessary to establish some
different motive, or, if the same motive, an intent far
more speculative” and the defendant’s otherwise “odd”
behavior “might appear less suspicious”).
At trial, the jury was not required to view all the
evidence in the light most favorable to the prosecution;
it was equally free—and indeed encouraged—to draw all
reasonable inferences in favor of a finding of reasonable
doubt. Again, it is not disputed that the most compelling
evidence of both motive (the rape evidence) and
opportunity (the bloodhound tracking evidence) entered
the record because of defense counsel’s errors. Without
that evidence, guilt or innocence could only be
determined from weighing complex and contradictory
possibilities. See above at 9-10.5 So while it is impossible
5

In the specific context of this case, that weighing exercise was
required to carefully consider “every reasonable theory of
innocence” and only find guilt on the basis of circumstantial
evidence “so conclusive ... as to exclude” all such theories of

28
to know on this particular record exactly which evidence
convinced the jury that Myers had motive and
opportunity,6 there can be no doubt that the most
compelling evidence of motive and opportunity played a
significant role in deciding those questions.
Indeed, without defense counsel’s egregious errors,
the prosecution would have had little evidence of motive
to point to at all, if any.7 But because of defense counsel’s
errors, the prosecution could cite an expert’s “rape
testimony … to assign a motive to what otherwise
appeared an implausible crime.” Pet. App. 27a.
innocence. Myers’s jury was instructed: “Where proof of guilt is by
circumstantial evidence only, it must be so conclusive in character
and point so surely and unerringly to the guilt of the accused as to
exclude every reasonable theory of innocence.” Pet. App. 325a
(quoting Trial Transcript at 2734, State v. Myers, No. 55D02-0604MR-00087 (Morgan Cnty., Super. Ct. Oct. 30, 2006)). This
“‘reasonable theory of innocence’” instruction is “deeply imbedded
in Indiana jurisprudence,” Hampton v. State, 961 N.E.2d 480, 484,
486 (Ind. 2012), and is an “additional cautionary instruction in
evaluating circumstantial evidence,” id. at 486-87. It “admonishes
the jury to tread lightly where the evidentiary gap between logical
certainty and guilt is more tenuous” because the case against the
defendant is entirely circumstantial. Id.
6
See State Post-Conviction Trial Court Order at 5 (explaining that
in this case “[w]hat convinced the jury to render their verdict is
unknown” as the jury simply returned a guilty verdict without
specifying the verdict’s specific evidentiary basis), Myers v.
Superintendent, No. 16-cv-02023, (S.D. Ind. filed on Apr. 14, 2017),
ECF No. 20-14 at page 88.
7
See Pet. App. 10a, 28a-29a (Seventh Circuit resorting to motive
evidence that Myers “had no luck trying to restore the relationship”
he had with his girlfriend, and ambiguous testimony from a
jailhouse informant about “a woman,” as evidence that Myers
“committed a horrific crime”).

29
Similarly, without defense counsel’s errors, there would
have been deeply conflicting evidence as to whether
Myers physically even could have committed the crime,
given the uncertainty as to Behrman’s biking route.8
But defense counsel’s errors allowed the prosecution
to put the differing reports of Behrman’s whereabouts
to the side and to rely instead on inadmissible
bloodhound tracking evidence that “put [the victim]
close to Myers’s home and doomed his alibi.” Id. Defense
counsel’s errors also allowed the jurors to resolve any
doubt they may have otherwise had about motive. See
Pet. App. 323a-326a. And where there was conflicting
evidence, defense counsel’s “false promises about
evidence in [his] opening statement” unquestionably
“harm[ed] his credibility with the jury,” hurting the rest
of the defense’s case. See Pet. App. 20a.
In sum, if the Seventh Circuit’s articulation of the
standard is correct—whether, when the ‘tainted’
evidence is ignored, there remains substantial
“untainted” evidence of Myers’s guilt, see Pet. App. 34a35a—the Seventh Circuit’s decision likely will stand. But
if the Seventh Circuit’s legal theory is wrong—as other
courts have found—then its decision cannot withstand
8

See above at 9-10; see also Pet. App. 316a (explaining that “[b]y far
the most compelling evidence” that Behrman rode north “was the
bloodhound testimony of Deputy Douthett”); id. 317a (explaining
that “the remaining evidence that Ms. Behrman rode north is just
as tenuous as … [that] showing Ms. Behrman rode south” given that
a high school classmate saw Behrman riding south, an FBI agent
thought “based on various sources of information” that there was a
“‘strong possibility’” she rode south, and that Wendy Owings
confessed to law enforcement that she hit Behrman while driving on
the southern route (citations omitted)).

30
scrutiny as it simply strains credulity on the facts here
to suggest that there is no reasonable possibility that the
verdict could have been different when defense
counsel’s errors served up the best evidence of
opportunity and motive, and destroyed the credibility of
the defense. See Kyles, 514 U.S. at 453-54 (explaining
that what matters under reasonable possibility standard
is what “the jury would have been entitled to find”
absent the legal error).
Second, this Court is not limited in this case by the
strictures that apply in most cases involving habeas
review. Because the state court failed to cumulatively
analyze the prejudice from defense counsel’s multiple
errors, the prejudice prong in this case is reviewed de
novo, as though the case arose on direct review. Pet.
App. 23a, 26a-27a; see also Panetti v. Quarterman, 551
U.S. 930, 953 (2007) (an “unreasonable application of
federal law” by a state court means that a federal habeas
court “must then resolve the claim without the
deference … otherwise require[d]”). The Court’s review
thus uniquely will owe no deference to the findings of
any lower court.
In the end, this case presents a strong vehicle to
review the question presented. The Court’s decision will
determine the fate of Myers’s habeas petition and the
Court will not be limited by a deferential standard of
review. Given the importance of the question presented,
and the divided views of lower courts on it, the petition
should be granted.

31
CONCLUSION
For the foregoing reasons, this Court should
grant the petition.
Respectfully submitted,
Clifford W. Berlow
Counsel of Record
JENNER & BLOCK LLP
353 North Clark Street
Chicago, IL 60654
(312) 222-9350
cberlow@jenner.com
Jason T. Perkins
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000

February 12, 2021

1a
Appendix A

In the

United States Court of Appeals
For the Seventh Circuit
_________________________
No. 19-3158
JOHN MYERS,
Petitioner-Appellee,
v.
RON NEAL,
Respondent-Appellant.
_________________________
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:16-cv-2023 — James R. Sweeney, II, Judge.
_________________________
ARGUED MAY 26, 2020 — DECIDED AUGUST 4, 2020
AMENDED SEPTEMBER 16, 2020

_________________________
Before FLAUM, SCUDDER, and ST. EVE, Circuit
Judges.

2a
SCUDDER, Circuit Judge. Indiana University
student Jill Behrman went for a bike ride one morning
but never returned. The police later found her bicycle
less than a mile from the home of John Myers II, on the
north side of Bloomington. Two years later a woman
named Wendy Owings came forward confessing to the
murder, but the case was reopened when a hunter came
upon Behrman’s remains far from the location Owings
described. A renewed investigation led the authorities
to Myers, who was eventually charged with the murder.
Six years after Behrman’s disappearance, a jury
convicted him. Multiple Indiana courts affirmed. Myers
then sought relief in federal court, and the district court
granted his application for a writ of habeas corpus,
concluding that Myers’s counsel performed so
deficiently at trial as to undermine confidence in the
jury’s guilty verdict. We reverse.
The district court was right about the
performance of Myers’s trial counsel. It was deficient
and plainly so in at least two ways. What leads us to
reinstate Myers’s conviction, though, is the strength of
the state’s case against him separate and apart from
those errors. Among the most convincing evidence were
the many self-incriminating statements that Myers
made to many different people, like telling his
grandmother that, if the police ever learned what he did,
he would spend the rest of his life in jail. The weight of
these statements, when combined with other evidence,
leads us to conclude that his counsel’s deficient
performance did not prejudice him. The proper outcome
is to respect the finality of Myers’s conviction in the
Indiana courts.

3a
I.
A. The Murder and Investigation
Jill Behrman disappeared during a morning
bicycle ride on May 31, 2000. Local authorities and the
Bloomington community sprung to action with
assistance from volunteer search groups, neighboring
police forces, state authorities, and eventually the FBI.
The police established the timeline of that morning:
Behrman, a skilled cyclist, planned to go for a ride before
starting work at noon at the University’s Student
Recreational Sports Center. She logged off her
computer at 9:32 a.m. at her parents’ house, which was
close to the center of town. Two people reported seeing
Behrman’s bike lying by the road near farmland
northwest of Bloomington at some point around noon
that day. Nobody could locate her, though.
Initial leads pointed quite literally in different
directions. Which way Behrman rode her bike that
morning was one of the unsolved questions in the
investigation and became a focus of the eventual trial.
Everyone agreed that she started her ride from her
parents’ house in Bloomington. Whether she rode north
or south was what mattered. Behrman’s riding north
was important to the theory the state would present at
trial because it placed her near the home of John Myers.
But some early leads suggested that Behrman rode
south that morning. The Appendix contains a map with
markings of the locations pertinent to the case.
Myers lived about a mile from where Behrman’s
bike was found on North Maple Grove. Given this

4a
proximity, Bloomington Detective Rick Crussen
interviewed him on June 28, 2000. Myers stated that he
had been on vacation the week of Behrman’s
disappearance. He added that he had been “here and
there” but mainly at home because his plans to take a
trip with his girlfriend Carly Goodman had fallen
through. While checking Myers’s explanations, the
authorities learned that his relationship with Goodman,
a high school senior at the time, ended a few weeks
earlier than he had described. Goodman also told the
police that she had no plans to go anywhere with Myers.
In 2002, a woman named Wendy Owings came
forward and confessed to Behrman’s murder. Owings, a
Bloomington resident, was facing unrelated felony
charges when authorities interviewed her and asked her
whether she knew about the Behrman disappearance—
which by then was widely known around town. Owings
faced up to 86 years’ imprisonment and believed she
could benefit by cooperating and confessing to the
murder. Owings then decided to lie to the police,
thinking that falsely admitting to the murder would
mean less jail time. She did so by concocting the story
that she and two friends were driving and using drugs
when they accidentally hit Behrman on her bicycle.
Owings said that the collision took place on Harrell Road
on Bloomington’s south side, roughly 20 miles from
where Behrman’s bike was found. To cover up the
accident, Owings explained, they loaded Behrman’s
body into their car, wrapped her in a plastic sheet
secured with bungee cords, stabbed her, and dumped
her body in Salt Creek. Investigators were able to
corroborate some of Owings’s information: they drained

5a
the creek and found a knife, plastic tarp, and bungee
cords. Although Behrman’s body was not recovered, the
police closed the investigation into her disappearance.
Nearly
three
years
after
Behrman’s
disappearance, in March 2003, a father and son hunting
in the woods north of Bloomington came across a human
jawbone. The woods were about 20 miles north of where
Behrman’s bike was found. The authorities and a
forensic expert surveyed the scene and collected other
skeletal remains. They determined based on dental
records that the remains belonged to Jill Behrman.
Recognizing her story no longer added up, Owings
recanted her confession and admitted to lying about the
murder in hopes for leniency on other charges.
The authorities reopened the investigation after
Owings’s recantation, but no meaningful breakthrough
occurred until 2004. It was then that Detective Rick
Lang turned his focus to Myers based on unexpected
information provided by Myers’s own family. His
grandmother Betty Swaffard came forward and told the
authorities that Myers had made a series of suspicious
and incriminating comments about Behrman’s
disappearance. Others also reported incriminating
statements Myers made to them about the case. His
former girlfriend, Carly Goodman, likewise informed the
police about a time Myers took her to the approximate
location in the woods where Behrman’s remains were
later found. These developments led the state to
conclude it had enough evidence to bring charges. In
April 2006 a grand jury indicted Myers for the murder
of Jill Behrman.

6a
B. The Trial
1.

Opening Statements

Trial began on October 16, 2006. In its opening
statements, the prosecution highlighted Myers’s many
incriminating statements, focusing especially on his
grandmother who felt compelled to alert the authorities
despite strong feelings of family loyalty. The state’s
theory hinged on Behrman riding her bike along a
northern route on North Maple Grove near Myers’s
home, which the state said they would prove by
presenting bloodhound scent evidence.
Defense counsel opened by suggesting Myers had
an alibi: the morning that Behrman disappeared, Myers
made phone calls from the landline in his northside home
at 9:15, 9:17, 9:18, 10:35, and 10:47 a.m. That timing,
defense counsel suggested, rendered Myers’s
involvement impossible if Behrman rode her bike not
north (in the direction of Myers’s home) but instead to
the south along Harrell Road. The officers involved in
the first investigation considered that route possible
after speaking to one of Behrman’s classmates and to
Wendy Owings, both of whom said they saw Behrman on
that road on the day she disappeared.
Myers’s counsel also used his opening statement
to offer the jury two alternative suspects for the murder.
The first was Wendy Owings, the person who confessed
to the murder but later recanted her story after the
police recovered Behrman’s remains in a different place
than she had identified. Defense counsel alternatively
sought to place blame on Brian Hollars, a Bloomington

7a
resident who worked with Behrman at the Student
Recreational Sports Center. But in contending that
Hollars was responsible for Behrman’s murder, defense
counsel made certain misrepresentations. He promised
the jury evidence that Hollars and Behrman were
romantically involved and were seen fighting the day
before she disappeared. Counsel also represented that a
bloodhound followed Behrman’s scent in the direction of
Hollars’s house but that an officer stopped the dog
before it could reach the front door. All of those promises
rang hollow, as defense counsel never presented any
such evidence.
2.

The State’s Case Against Myers

The evidence presented during the first few days
of trial focused on how Behrman’s remains were
uncovered, identified, and analyzed. Then the state
presented evidence about her cycling habits and
movements the day she disappeared. Brian Hollars
testified for the prosecution, described Behrman’s work
at the recreational center, and offered an alibi by
informing the jury that he was at work the day of the
disappearance. His testimony was not meaningfully
challenged.
As the state promised, it presented evidence
supporting its theory that Behrman rode north on North
Maple Grove, near Myers’s home. Foremost, the state
presented evidence showing the location at which
Behrman’s bike was found. Deputy Charles Douthett,
who conducted a search with his bloodhound several
days after the disappearance, likewise testified that the
dog tracked Behrman’s scent along parts of the northern

8a
route. The dog alerted to Behrman’s scent not only in the
general direction of Brian Hollars’s home but also near
the location of her bike and indeed even a touch north in
the direction of Myers’s home. The jury heard no
evidence that the bloodhound tracked Behrman to
Hollars’s doorstep as defense counsel told the jury in his
opening statement.
The state’s witnesses also included members of
Myers’s own family. His mother recounted for the jury a
time in 2001 when Myers returned from fishing in the
woods and reported finding a “bone” and “panties.”
Myers’s aunt Debbie Bell testified that two months
before Behrman’s disappearance, Myers called asking
for help watching his daughter because he needed time
alone. Bell told the jury she remembered Myers pointing
to problems with his girlfriend Carly Goodman and
saying that he “felt like he was a balloon full of hot air
ready to burst.” She also described Myers’s demeanor on
the day Behrman disappeared, recalling that he showed
up at his parents’ home crying and saying he was leaving
town.
Myers’s grandmother Betty Swaffard testified
despite what she described as conflicting feelings of
family loyalty. She told the jury that early on Myers said
he was a suspect in Behrman’s disappearance and was
afraid to drive past the police roadblocks near his home.
She further recounted Myers’s statements four years
later in 2004, when he called and asked her to take care
of his daughter. He explained that he needed time to
himself because he had “a lot of things” to think about.
When Swaffard asked what was wrong, Myers said that

9a
“if the authorities knew” what he had done he would “be
in prison for the rest of [his] life.” As he dropped off his
daughter, Myers was crying and told his grandmother
that he wished he “wasn’t a bad person” and that he
hadn’t “done these bad things.” Defense counsel did not
meaningfully cross-examine these family members.
The state also presented evidence about Myers’s
unusual behavior around the time of Behrman’s
disappearance. The jury heard, for example, a neighbor
explain that Myers had covered the windows of his
trailer and moved his car on the day Behrman went
missing. Myers said he parked elsewhere so nobody
could see he was home.
Nine additional witnesses testified that Myers
brought up Behrman’s disappearance—sometimes in
highly inculpatory terms—between 2000 and 2006. One
of those witnesses was the husband of Myers’s cousin,
who recalled him saying at a family gathering in late
2001 that he bet Behrman’s body would be found in the
woods.
Another witness, Myers’s former coworker Dean
Alexander, told the jury that while out on a furniture
delivery, Myers asked him if he had heard about the
Behrman case. Myers proceeded to point out where
Behrman’s bike was found and said that he had been
questioned by police a couple of times because he lived
close by. Alexander also told the jury that Myers then
went further and, while driving north, gestured out the
window and said, “if he was ever going to hide a body, he
would hide it up this way in a wooded area.” The state
also called Kanya Bailey, a former girlfriend of Myers,

10a
who said that in 2000 or 2001, he pointed to the spot
where Behrman’s bike was found and told her that he
was the one who found it.
The state presented further testimony from John
Roell, who was in jail for a petty offense and shared a cell
with Myers for two days in May 2005. Roell recounted
for the jury certain statements Myers made about
Behrman. More specifically, Roell came forward to
authorities to report that Myers brought up the
Behrman case and mentioned her bicycle three or four
times. Roell described how Myers paced nervously
about the cell, appeared to be angry, once referred to a
woman—who Roell believed was Behrman—as a
“bitch,” and said that “if she wouldn’t have said
anything, this probably . . . none of this would have
happened.”
Myers’s former girlfriend Carly Goodman also
testified for the prosecution and told the jury about the
time in March 2000 when Myers drove her to a clearing
in the woods north of Bloomington. Six years later,
Detective Lang drove her back to the same general area
and, without prompting, Goodman stated that she
recognized the area as the location where Myers had
taken her before. That area was less than one mile from
where the Morgan County hunter found Behrman’s
remains. On cross-examination Goodman acknowledged
that she had little explanation for how she recognized
that clearing compared to any other.
Additional evidence supporting the prosecution’s
theory came from pathologist Stephen Radentz. He
testified that Behrman had been killed by a shotgun

11a
wound to the back of the head. He also opined that the
physical evidence surrounding the scene, including the
failure to locate any clothing, led him to conclude that
Behrman was raped before she was murdered.
A firearms expert also testified and explained
that the murder weapon, which was never recovered,
likely was a 12-gauge shotgun. The state presented
testimony from Myers’s brother, who explained that he
kept a 12-gauge shotgun at his parents’ house but
noticed the gun was missing when he moved home for a
month in June 2000.
3.

The Defense Case

The defense called only two witnesses. The first
was Gary Dunn, the FBI investigator who led the initial
inquiry into Behrman’s death and considered seriously
the possibility that she had biked along a southern route
away from Myers’s home. After Dunn stepped down,
defense counsel admitted being unprepared to call their
next witness because they “didn’t anticipate having to
put on [their] case this early” — the state had rested its
case earlier than the trial schedule anticipated.
Jason Fajt, an officer responsible for processing
physical evidence in the case, also testified. Fajt
presented books about pregnancy and reproductive
health found in Behrman’s bedroom, presumably to
bolster the defense’s theory that Behrman had a
relationship with Brian Hollars and became pregnant
with his child. Fajt also showed the jury the tarp, knife,
and bungee cords found in Salt Creek that were

12a
consistent with the confession that Wendy Owings later
recanted.
4.

Closing Arguments

The state used its summation to argue that the
trial evidence exposed two of Myers’s obsessions: his exgirlfriend Carly Goodman and Behrman’s bicycle. The
prosecutor reminded the jury of the many witnesses
who described Myers’s statements about Behrman’s
bike. The state likewise emphasized Myers’s statements
to his grandmother and aunt, urging the jury to see them
as confessions to the murder.
The state also described Myers’s activities the
morning of the murder, painting his calls to various
parks and drive-in movies as a “last-ditch effort to get
[his girlfriend] Carly back” and explaining that he was
“trying to get control back” over her. The state
connected the two apparent obsessions by establishing a
motive: Myers wanted to control Goodman but could not,
so instead he took Behrman, who was merely in the
wrong place at the wrong time, to the same clearing in
the woods where he had driven Goodman. Based on the
evidence, the state argued, Myers’s need to control
women motivated what Dr. Radentz called a “classic
rape homicide.”
On the defense side, Myers’s counsel followed up
with a watered-down version of his original theory, since
much of it had been discredited during trial. Defense
counsel reemphasized Myers’s alibi and that the
evidence about which way Behrman rode was a wash.

13a
He touched on the Wendy Owings theory and posited
that the physical evidence did not rule out a stabbing.
When it came to Brian Hollars, counsel shied
away from his original theory. He still suggested that
Behrman might have been murdered because she was
pregnant, a theory he gleaned from books about the
topic and contraception found in her bedroom. But
counsel said that the person responsible for the murder
could have been Hollars “or maybe it was another man
entirely.” The defense also noted that Myers had no
clear motive for the murder and stressed the lack of
physical evidence connecting him to it.
The jury deliberated for less than two hours and
returned a guilty verdict. The trial court later sentenced
Myers to 65 years’ imprisonment. The Indiana Court of
Appeals affirmed Myers’s conviction and sentence on
direct review. See Myers v. State, 887 N.E.2d 170 (Ind.
Ct. App. 2008). The Indiana Supreme Court then
declined review. See Myers v. State, 898 N.E.2d 1228
(Ind. 2008) (unpublished table decision).
C. Requests for Postconviction Relief in State
Court
Myers began his quest for postconviction relief by
filing a petition in the trial court alleging that his counsel
had performed so ineffectively at trial as to violate the
Sixth Amendment. To support his petition, Myers
pointed to an order of the Indiana Supreme Court
finding that defense counsel, Patrick Baker, had
engaged in professional misconduct during the trial, and
suspending his license to practice for six months. See In

14a
re Baker, 955 N.E.2d 729 (Ind. 2011). The Indiana
Supreme Court found that Baker breached his ethical
duties not only by making false promises to the jury
during his opening statement, but also by improperly
soliciting Myers as a client and then falsely promising to
represent him free of charge.
While Myers alleged multiple instances of
ineffective assistance in his state postconviction petition,
three specific errors came to form the focus of his
request for relief:
1. False promises: Counsel’s broken
promises to the jury in his opening
statement destroyed his credibility
and left jurors confused about his
theory of defense.
2. Bloodhound evidence: Counsel’s
failure to object to unreliable
bloodhound evidence allowed the
jury to conclude that Behrman
traveled near Myers’s home,
providing him the opportunity to
commit the murder.
3. Rape testimony: Counsel failed to
object to Dr. Radentz’s testimony
that the circumstances around
Behrman’s murder suggested she
was raped. And that testimony
allowed the jury to find a sexual
assault
motive,
which
was

15a
unfounded and resulted in severe
prejudice.
The Indiana trial court denied relief. It noted that
defense counsel did make misrepresentations during his
opening statement but said that they did not affect the
trial’s outcome because the judge instructed the jurors
not to base their decision on the statements and
arguments of counsel. The trial court also rejected all of
Myers’s other contentions that his counsel performed
deficiently at trial.
The Indiana Court of Appeals affirmed the denial
of post-conviction relief. See Myers v. State, 33 N.E.3d
1077 (Ind. Ct. App. 2015). The court evaluated Myers’s
three primary contentions of ineffective assistance of
counsel this way:
1. False promises: The court found
deficient performance because
defense counsel knew or should
have known that no evidence
supported his contentions that a
bloodhound detected Behrman’s
scent at Hollars’s home. (The court
did not address counsel’s false
promise about evidence showing
that Hollars and Behrman were
seen fighting the day before her
disappearance.) The false promise
about the bloodhound evidence did
not result in prejudice, however, as
defense counsel was able to present
some evidence suggesting the

16a
possibility that Hollars had a
romantic interest in Behrman. That
evidence, the court reasoned, came
from Behrman’s cousin, who
testified that some unidentified
“older man” had asked Behrman out
on a date.
2. Bloodhound evidence: Though
defense counsel testified at the
postconviction hearing that he did
not remember ever researching the
admissibility
of
bloodhound
evidence, the court concluded that
Myers failed to overcome the
presumption that counsel’s choice
not to object to the evidence was
strategic. Finding no deficient
performance on this score, the court
never reached the prejudice
question.
3. Rape testimony: The court forwent
a deficient performance analysis
and concluded that Baker’s failure
to object to the testimony from Dr.
Radentz did not prejudice Myers at
trial. The court determined that
counsel
successfully
crossexamined Dr. Radentz and elicited
the acknowledgment that his
conclusion about rape was not

17a
based on any physical evidence
from Behrman’s remains.
Before denying relief, the state appellate court
paused to address Myers’s contention that counsel’s
errors, when aggregated, affected the jury’s decision
and thereby amounted to ineffective assistance of
counsel. The court underscored its finding that Myers
had failed to show even one instance of his counsel
performing deficiently in a way that resulted in
prejudice. Without even one error to point to, the court
reasoned, there was nothing to aggregate as part of any
cumulative prejudice analysis.
The Indiana Supreme Court again declined
review. See Myers v. State, 40 N.E.3d 858 (Ind. 2015)
(unpublished table decision). It was then that Myers
sought postconviction relief in federal court.
D. District Court’s Award of Federal Habeas
Relief
In a 146-page opinion, the district court focused
much of its analysis on what it found were three serious
errors committed by Myers’s trial counsel: making false
promises regarding the Brian Hollars evidence during
opening statements, not objecting to the bloodhound
evidence, and failing to preclude Dr. Radentz’s
testimony about Behrman likely being raped. Myers v.
Superintendent, Indiana State Prison, 410 F. Supp. 3d
958, 981, 991, 1016 (S.D. Ind. 2019).
Turning to prejudice, the district court
determined that the Indiana Court of Appeals, as the

18a
last court to have considered the merits of Myers’s
ineffective assistance claim, considered each allegation
of ineffective assistance in isolation, rather than focusing
on their cumulative effect. See id. at 1021-23. The failure
to consider the combined effect of the errors, the district
court concluded, amounted to an unreasonable
application of the clearly established direction the
Supreme Court provided in Strickland v. Washington,
466 U.S. 668 (1984). See id.
From there the district court found that “no
fairminded jurist could conclude that trial counsel’s
cumulative errors did not meet Strickland’s prejudice
standard.” Myers, 410 F. Supp. 3d at 1054. The court
underscored that, while the state’s evidence was
sufficient to convict Myers, “it is far from a strong case
of guilt” and, as a result, “the prejudice caused by trial
counsel’s errors more likely impacted the verdict.” Id. at
1034. Indeed, the district court found that the
“cumulative impact of trial counsel’s errors was
devastating to Mr. Myers’s defense.” Id. at 1050. The
court granted habeas relief on that basis.
II.
While this appeal owes some of its complexity to
the federal habeas corpus framework, the proper
starting point is familiar. To evaluate a claim of
ineffective assistance of counsel, we apply the standard
the Supreme Court announced in Strickland v.
Washington and ask whether defense counsel’s
performance was deficient and resulted in prejudice. 466
U.S. at 687. The deficient performance prong requires
that the defendant show that his counsel’s errors were

19a
so far below the level of competent representation that
it was as though he had no counsel at all. See id. On the
prejudice prong, the defendant must show “a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Id. at 694.
That hill is even steeper for issues that the state
court decided on the merits. Through its enactment of
the Antiterrorism and Effective Death Penalty Act of
1996, Congress has allowed a federal court to award
habeas relief to those like John Myers convicted of
crimes under state law only if the state court’s ruling
“was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court,” or “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d)(1), (2). This is no easy task. See Cullen
v. Pinholster, 563 U.S. 170, 181 (2011) (describing the
federal habeas standard as “difficult to meet” and
“highly deferential”). The deferential standard reflects
Congress’s decision to require federal courts to afford
substantial respect to the interests of comity and finality
embodied in state court judgments of conviction.
By its terms, however, so-called AEDPA
deference does not apply to federal claims that the state
court did not address on the merits. See 28 U.S.C. §
2254(d) (providing that the deferential standard of
review applies to “any claim that was adjudicated on the
merits in [s]tate court proceedings”). When a state court
reaches only one part of Strickland’s two-pronged

20a
analysis, we review the unaddressed prong de novo. See
Wiggins v. Smith, 539 U.S. 510, 534 (2003) (reviewing de
novo whether the defendant was prejudiced for
purposes of the Strickland analysis because the state
court did not reach the issue).
A. Deficient Performance
We agree with the district court that defense
counsel’s performance fell short of “the legal profession’s
objective
standards
for
reasonably
effective
representation.” See Anderson v. Sternes, 243 F.3d 1049,
1057 (7th Cir. 2001) (citing Strickland, 466 U.S. at 68788). We reach that conclusion whether we evaluate
counsel’s performance de novo or by affording the
Indiana Court of Appeals’s assessment the deference
prescribed by § 2254(d)(1).
False promises. Defense lawyers often argue for
acquittals on the basis that the authorities charged the
wrong person. Myers’s counsel sought to do just that but
went too far. Counsel promised to present evidence that
Brian Hollars killed Behrman, even though he had to
know he could not follow through on that promise at
trial. No evidence supported the promises to prove that
a bloodhound tracked Behrman’s scent to Hollars’s home
or that Hollars was seen arguing with Behrman a day or
two before she disappeared. Without such evidence,
counsel’s promises went unfulfilled. Making false
promises about evidence in an opening statement is a
surefire way for defense counsel to harm his credibility
with the jury. See United States ex rel. Hampton v.
Leibach, 347 F.3d 219, 257 (7th Cir. 2003). The state
wisely concedes that Myers’s counsel’s false promises

are indefensible—a
performance.

21a
clear instance

of

deficient

Bloodhound evidence. The analysis is not as
straightforward with Myers’s contention that his
counsel should have objected to the testimony that a
bloodhound tracked Behrman’s scent along a northern
route and ultimately to the location of where her bike
was found. The prosecution used this evidence to put
Behrman—not just her bike—in north Bloomington,
near Myers’s home. Myers’s counsel may have thought
that it was more difficult to assign blame to Hollars
without evidence putting Behrman in north
Bloomington the morning of her disappearance.
But the district court was right in its observation
that counsel so passively allowing the bloodhound
evidence all but guaranteed the jury would not credit
Myers’s alibi that he was at home making telephone calls
on a landline for a good part of the morning when
Behrman disappeared. And the district court was
equally correct that, at the very least, defense counsel
should have investigated the admissibility of bloodhound
evidence and made an informed decision about whether
to seek its exclusion. We, too, are troubled by counsel’s
acknowledgment at the postconviction hearing that he
did not recall doing anything to assess the admissibility
of the bloodhound evidence. Plain and simple, counsel
missed the issue.
In these circumstances, we are inclined to agree
with the district court that counsel’s failure to object
amounted to deficient performance and that the Indiana
Court of Appeals’s conclusion to the contrary was

22a
unreasonable, as it assumed without any evidentiary
foundation in the record that counsel’s failure to object
reflected a considered and reasonable strategic decision.
See Strickland, 466 U.S. at 690-91 (“[S]trategic choices
made after thorough investigation of law and facts
relevant
to
plausible
options
are
virtually
unchallengeable; and strategic choices made after less
than complete investigation are reasonable precisely to
the extent that reasonable professional judgments
support the limitations on investigation.”); Wiggins, 539
U.S. at 521 (emphasizing the same point).
Rape testimony. Perhaps the starkest example of
deficient performance came from counsel’s failure to
object to testimony stating that the circumstances
around the murder were consistent with Behrman being
raped before she was killed. Dr. Radentz, a forensic
pathologist, investigated Behrman’s remains and the
scene surrounding their recovery and concluded that the
cause of death was a “shotgun wound to the back of the
head.” That conclusion alone presented an obstacle for
Myers’s theory that Wendy Owings’s recanted
confession (that she ran over Behrman with her car,
stabbed her to death, and then dumped her body in Salt
Creek) was in fact true. But Dr. Radentz also testified
that Behrman’s remains being found in a remote place
without any clothing suggested that she was raped.
In state postconviction review, the Indiana Court
of Appeals did not consider whether the failure to object
to Dr. Radentz’s testimony reflected deficient
performance, preferring instead to take the permissible
course of going straight to Strickland’s prejudice prong.

23a
See Strickland, 466 U.S. at 697 (“[A] court need not
determine whether counsel’s performance was deficient
before examining the prejudice suffered by the
defendant as a result of the alleged deficiencies.”). That
analytical route has a consequence for our review of
Myers’s request for federal habeas relief: we lack any
state court determination on the deficient performance
prong to which to review or defer under § 2254(d)(1). See
Quintana v. Chandler, 723 F.3d 849, 853 (7th Cir. 2013)
(“[W]hen a state court makes the basis for its decision
clear, [§] 2254(d) deference applies only to those issues
the state court explicitly addressed.”) (citing Wiggins,
539 U.S. at 534). Our review therefore proceeds de novo.
Having taken our own fresh and thorough look at
the trial record, we conclude without hesitation that
defense counsel’s failure to object to Dr. Radentz’s
testimony was “outside the wide range of professionally
competent assistance.” Strickland, 466 U.S. at 690.
Counsel provided no explanation for this failure, and our
role is not to search for one to excuse his deficient
performance. See Wiggins, 539 U.S. at 526-27; Brown v.
Sternes, 304 F.3d 677, 691 (7th Cir. 2002).
While the Indiana Court of Appeals was right to
note that defense counsel did manage to elicit
acknowledgment from Dr. Radentz that he could not
prove Behrman was raped, the observation only goes so
far. Defense counsel himself was responsible for
provoking the testimony most harmful to Myers. On
direct examination, Dr. Radentz raised only the
possibility of a rape-homicide and even then only in
passing. But it was defense counsel’s imprecise and

24a
prolonged questioning on cross-examination that
allowed Dr. Radentz to underscore his certainty that a
rape occurred. Indeed, in response to defense counsel’s
questions, Dr. Radentz testified that he considered the
case “a rape homicide and dumping until proven
otherwise.”
Preventing the jury from hearing a word about a
rape motive should have been a priority for counsel.
Everyone should agree that the introduction of evidence
of sexual violence, especially in a case where a young
college student went missing and later turned up dead,
can be prejudicial. See House v. Bell, 547 U.S. 518, 541
(2006). And in prosecuting Myers, the state did not use
Dr. Radentz’s testimony solely to explain where and how
Behrman was murdered. It instead relied on the
testimony to support its theory of motive: that Myers
raped Behrman before shooting her as a display of his
desire to control women. Defense counsel should have
sought to prevent Myers from being portrayed as a
rapist.
In the end, we agree with the district court that
counsel performed deficiently. We turn now to whether
any of counsel’s errors resulted in substantial prejudice
to Myers.
B. Prejudice
Errors are prejudicial when there is a
“reasonable probability” that the trial would have come
out differently without them. Strickland, 466 U.S. at
694; see also Cook v. Foster, 948 F.3d 896, 908 (7th Cir.
2020) (explaining and applying the same standard). “A

25a
reasonable probability,” the Supreme Court has
explained, “is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at 694.
While the Supreme Court has avoided assigning a
numerical probability to the inquiry, it has explained
that the likelihood of a different result need not be “more
likely than not” but nonetheless “must be substantial.”
Harrington v. Richter, 562 U.S. 86, 111-12 (2011).
Where, as here, the record shows more than one
instance of deficient performance, the Sixth Amendment
requires that we approach the prejudice inquiry by
focusing on the cumulative effect of trial counsel’s
shortcomings. This direction comes from Strickland
itself, where the Supreme Court instructed courts to
“consider the totality of the evidence before the judge or
jury.” 466 U.S. at 695. “Taking the unaffected findings as
a given, and taking due account of the effect of the errors
on the remaining findings, a court making the prejudice
inquiry must ask if the defendant has met the burden of
showing that the decision reached would reasonably
likely have been different absent the errors.” Id. at 696.
We have read Strickland just this way—as
mandating a cumulative assessment of prejudice—on at
least five prior occasions. See, e.g., Harris v. Thompson,
698 F.3d 609, 648 (7th Cir. 2012) (“The question is
whether counsel’s entire performance at the hearing
prejudiced Harris. By analyzing each deficiency in
isolation, the [state] appellate court clearly misapplied
the Strickland prejudice prong.”); Sussman v. Jenkins,
636 F.3d 329, 360 (7th Cir. 2011) (assessing the
“cumulative impact” of counsel’s two errors); Goodman

26a
v. Bertrand, 467 F.3d 1022, 1030 (7th Cir. 2006)
(reversing the district court’s denial of a § 2254
application because the state appellate court
unreasonably applied federal law by “evaluating each
error in isolation” and not in their totality); Washington
v. Smith, 219 F.3d 620, 634-35 (7th Cir. 2000) (explaining
that the Strickland prejudice inquiry required an
assessment of “the totality of the omitted evidence” and
the other evidence presented to the jury); Alvarez v.
Boyd, 225 F.3d 820, 824 (7th Cir. 2000) (explaining that
the need to analyze errors together because their
“synergistic” effects can make the “whole . . . greater
than the sum of its parts”).
The Indiana Court of Appeals did not undertake
a cumulative prejudice inquiry. It instead relied on its
assessment of each individual error in isolation and then
reasoned that because no one error met each of
Strickland’s two prongs, a cumulative analysis was
unnecessary. The court defended its approach with
sparse reasoning: “We have reviewed each of Myers’
claims of error in detail and concluded that none of them
amount to ineffective assistance of counsel.” Myers, 33
N.E.3d at 1114. It then offered the view that “trial
irregularities” cannot be combined to “gain the stature
of reversible error.” Id. (citing Kubsch v. State, 934
N.E.2d 1138, 1154 (Ind. 2010)). That legal observation is
at odds with Strickland itself and our prior conclusions.
In these circumstances, where the state habeas
court has not conducted a cumulative prejudice analysis,
we must undertake the inquiry on our own in the first
instance. See Goodman, 467 F.3d at 1030-31 (considering

27a
the impact of counsel’s errors in light of the strength of
the other evidence presented to the jury de novo and
therefore without deference to the state court’s
findings).
It is here that we part ways with the district
court. In evaluating the state’s evidence against Myers,
assessing defense counsel’s errors, and projecting how
the trial may have proceeded differently absent those
errors, the district court found itself lacking confidence
in the jury’s guilty verdict. The court emphasized the
absence of physical evidence linking Myers to the
murder and, even more generally, any proof of a prior
connection between him and Behrman. And, as the
district court saw it, the absence of such proof is what
made Dr. Radentz’s rape testimony so prejudicial to
Myers, for it allowed the jury to assign a motive to what
otherwise appeared an implausible crime. So, too, did the
district court find that Myers suffered substantial
prejudice when his counsel made no meaningful effort to
show that Behrman rode her bike south (not north
toward Myers’s home) the morning she disappeared.
That evidence would have been difficult for the
prosecution to overcome, given the landline telephone
records showing that Myers was home making calls that
morning. And that point is why, in the district court’s
view, the bloodhound scent evidence mattered: it put
Behrman close to Myers’s home and doomed his alibi.
We see the evidence differently. Far from weak,
the prosecution presented substantial evidence of
Myers’s guilt. The district court failed to appreciate that,
when taken together, the evidence of Myers’s guilt

28a
overwhelmed any prejudicial effect of defense counsel’s
failings. The weight of the state’s case against Myers
prevents him from showing that he suffered substantial
prejudice from his trial counsel’s errors. See Strickland,
466 U.S. at 696 (“[A] verdict or conclusion only weakly
supported by the record is more likely to have been
affected by errors than one with overwhelming record
support.”); Cook, 948 F.3d at 909 (emphasizing the same
point).
To be sure, counsel’s deficient performance
undoubtedly had some impact on the trial. The most
troubling aspect of counsel’s deficient performance—
failing to object to Dr. Radentz’s testimony that
Behrman was raped before she was murdered—allowed
the state to supply the jury with a theory of motive. The
state made the point as plain as day in its closing
argument: “You know the motive in this crime is clear . .
. when Doctor Radentz told you that this was a classic
rape murder. Rape is a crime of control. Rape is not a sex
crime. It is pure and simple control over another human
being and dominating them.” The state used Dr.
Radentz’s opinion to underscore the narrative that
Myers, while reeling from his breakup with Carly
Goodman, had a need to control people, especially
women.
But even without the testimony about rape, the
state painted that picture about Myers through other
means. The jury heard testimony showing that Myers
lost his girlfriend, Carly Goodman, and had no luck
trying to restore the relationship, including by
unexpectedly showing up at her senior class trip and

29a
trying to join her at an amusement park in Louisville
before being turned away. The jury also heard from John
Roell, who shared a cell with Myers in May 2005, that
Myers spoke about Behrman using degrading language
and saying that nothing had to happen to her if she would
not have said anything—statements evincing Myers’s
attempt to exert control over her. With all of this
evidence, the state portrayed a defendant who lost
control of one relationship and committed a horrific
crime as part of trying to exercise control over a young
woman of a similar age.
As for counsel’s false promises during his opening
statement, we do not doubt that those damaged the
theory of defense that Brian Hollars committed the
murder. The jury never heard any testimony about a
bloodhound alerting to Behrman’s scent near Hollars’s
home or any argument between Hollars and Behrman in
the days before her disappearance.
Counsel’s errors also weakened Myers’s alternate
theory that Wendy Owings committed the murder.
Recall that when she confessed, Owings said that she hit
Behrman on Harrell Road on the south side of
Bloomington. But by not objecting to the bloodhound
evidence, counsel let the state provide support for its
theory that Behrman rode her bike in the opposite
direction the morning she went missing, making
Owings’s involvement seem implausible, especially
given the recanted and admittedly false confession.
In evaluating the whole trial picture, however, it
becomes clear that the viability of the Hollars and
Owings theories was significantly undermined for

30a
reasons other than counsel’s mistakes. The Owings
theory depended on Behrman riding south, but apart
from the bloodhound scent testimony, the jury heard
evidence that she rode in the opposite direction.
Remember that Behrman’s bike was found along North
Maple Grove, less than a mile from Myers’s home.
Nothing about the bloodhound scent testimony changed
that evidentiary obstacle for Myers. And from the
outset, Hollars was not a serious suspect in the case.
Indeed, the jury learned that the authorities initially
considered Hollars due only to the admonitions from a
psychic in Michigan.
Much more significant, the state called both
Hollars and Owings to testify at trial. Owings explained
in detail the pressure she felt from investigators and her
own defense attorney to cooperate and confess to
murdering Behrman since she was facing significant
time on other charges. She also described how she
formulated the fake story, in part by relying on her
childhood experiences swimming and fishing in Salt
Creek. For his part, Hollars denied any involvement in
Behrman’s disappearance, described the very limited
interactions he had with Behrman during her work at
the Indiana University recreation center, and explained
that he was at work on the campus the morning she
disappeared.
Simply put, Myers could not compete with the
testimony the prosecution presented from Owings and
Hollars—evidence presented almost certainly to prove
to the jury that the state had charged the right person
with Behrman’s murder. The testimony from Owings

31a
and Hollars diminished the strength of Myers’s defense
to a much greater extent than any prejudice that
independently followed from counsel’s failure to object
to the bloodhound scent evidence or misleading opening
statement.
So, while we are quick to acknowledge counsel’s
errors, we are confident that the defense theories that
they impacted were sufficiently undermined, if not
overwhelmed, by evidence presented at trial. Any
impact from those errors on the jury’s verdict pales in
comparison to the strength of the evidence the state
presented against Myers:


Behrman’s bike was found less than a
mile from Myers’s home;



The very day Behrman went missing,
Myers was seen crying and took steps
to cover his windows with blankets and
move his car to prevent anyone from
knowing he was home;



Myers took his girlfriend to the
approximate location in the Morgan
County woods where a hunter later
came upon Behrman’s remains;



Myers had access to a 12-gauge
shotgun like the one that the experts
opined was used in Behrman’s murder;
and



32a
Myers
made
multiple
selfincriminating statements to many
different people, with at least one of
those statements being tantamount to
confessing to committing the murder.

The last point bears especially significant weight.
The incriminating statements Myers made to so many
different people following Behrman’s disappearance
make all the difference in determining whether defense
counsel’s errors substantially affected the outcome of
the trial. During an interview with the investigators in
2005, he insisted that had not discussed the Behrman
case with anyone except law enforcement—a position at
extreme odds with much of the other testimony that the
jury heard. See United States v. Rajewski, 526 F.2d 149,
158 (7th Cir. 1975) (“It is well settled that untrue
exculpatory statements may be considered as
circumstantial evidence of the defendant’s consciousness
of guilt.”). Myers put himself front and center in the
murder, conveying to many people an obsession with
Behrman’s disappearance and death and thereby
thwarting a meaningful chance of a successful defense at
trial.
The list is long, so we will recap just a few of the
most revealing and inculpatory statements that Myers
made. Just after Behrman went missing, Myers called
his grandmother Betty Swaffard and asked for $200,
telling her that he was a suspect in the case. Around the
same time, he showed up at his parents’ home crying and
said he was leaving town and never coming back.

33a
Swaffard’s full testimony was devastating for
Myers. She told the jury that in 2004 her grandson called
her and said that he had “a lot of things [he] need[ed] to
think about.” He then went further and told her that if
the authorities knew about the things on his mind he
would “be in prison for the rest of [his] life.” Later that
night when he dropped his daughter off at Swaffard’s
house, he cried and told her that he wished he “hadn’t
done these bad things.” Swaffard heard these
statements as relating exclusively to Behrman, and,
despite feelings of deep-seated family loyalty, felt
compelled to come forward and share the information
with the authorities.
Remember
too
that
after
Behrman’s
disappearance, Myers told his mother that he had been
fishing in a creek in the woods and came upon a “bone”
and “panties.” He likewise told his cousin’s husband
(before the authorities recovered Behrman’s remains)
that he bet the police would find Behrman’s body in the
woods.
Aside from these statements to family members,
the jury heard from an array of friends, acquaintances,
and community members recalling similar comments.
For example, Myers spoke frequently of the Behrman
case and even aggrandized his role in it, like falsely
telling his ex-girlfriend that he was the one who found
Behrman’s bike. Even more, he told his former coworker
Dean Alexander during a discussion about Behrman that
if he was going to hide a body, he would hide it up north
in a wooded area. Myers’s comment foreshadowed what
happened over a year later—Behrman’s remains were

34a
found in the woods just north of Bloomington. And then
there was John Roell, Myers’s former cellmate who told
the jurors that Myers brought up Behrman and her
bicycle repeatedly, called her a “bitch,” and said “if she
wouldn’t have said anything, this probably . . . none of
this would have happened.”
All of this testimony regarding the unsolicited
statements that Myers made to those around him about
Behrman’s disappearance and murder went untainted
by any of his trial counsel’s errors and by any measure
defeated his defense.
Our examination of the record leaves us of the
firm conviction that even without counsel’s errors, the
jury would have reached the same conclusion and found
John Myers guilty of murdering Jill Behrman. Because
of the strength of the evidence presented at trial, our
confidence in the jury’s decision is not undermined. See
Lee v. Avila, 871 F.3d 565, 571 (7th Cir. 2017) (finding no
prejudice despite deficient performance when “the
state’s case was very strong” and made a different
outcome “not reasonably probable”). Myers has fallen
short of demonstrating what the Supreme Court has told
us is essential to relief rooted in a claim of ineffective
assistance of counsel—that the “likelihood of a different
result must be substantial.” Richter, 562 U.S. at 111-12.
We close by noting that the district court, while
granting Myers relief based on the three instances of
ineffective assistance of counsel analyzed in this opinion,
acknowledged but did not definitively resolve other,
lesser alleged instances of ineffective assistance. Our
analysis of the strength of the state’s evidence forecloses

35a
relief based on these other allegations of ineffective
assistance. But we do remand for the sole purpose of
allowing the district court to address the two claims
Myers advanced under Brady v. Maryland, 373 U.S. 83
(1963), in his § 2254 application. The district court
reserved judgment on these claims. Our conclusions
regarding the strength of the state’s evidence may well
foreclose relief on those claims too, but the district court
should assess the question in the first instance as neither
party briefed the claims in this appeal.
We REVERSE the order granting Myers’s
petition for a writ of habeas corpus and REMAND for
the sole and limited purpose of allowing the district court
to consider the unresolved Brady claims identified
above.

36a
Appendix

1. John Myers’s home
2. Location where Jill Behrman’s bike was
found
3. Brian Hollars’s home and location where one
resident thought he saw Behrman cycling
4. Jill Behrman’s home
5. Location where another resident thought she
saw Behrman cycling and where Wendy
Owings said she was driving
Not pictured: Jill Behrman’s remains were found
about 20 miles north of Point 2.

37a
Appendix B
ATTORNEYS FOR
APPELLANT

ATTORNEYS FOR
APPELLANT

Stephen T. Owens
Public Defender of Indiana

Gregory F. Zoeller
Attorney General of
Indiana

Anne Murray Burgess
Joanna Green
Deputy Public Defenders
Indianapolis, Indiana

Ian McLean
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
John R. Myers II,
Appellant-Petitioner,
v.
State of Indiana,
Appellee-Respondent

May 28, 2015
Court of Appeals Cause No.
55A05-1312-PC-608
Appeal from the Morgan Superior
Court
The Honorable G. Thomas Gray,
Judge
Cause No. 55D01-0902-PC-33

Friedlander, Judge.
[1] John R. Myers II appeals from the denial of his
petition for post-conviction relief (PCR). He raises
the following restated issues on appeal:

38a
1. Did the post-conviction court err in concluding
that Myers was not denied the effective
assistance of trial counsel?
2. Did the post-conviction court err in concluding
that Myers’s due process rights were not
violated by the State’s alleged failure to disclose
all exculpatory evidence to the defense?
3. Did the trial court err in concluding that Myers
was not entitled to relief based on his claims of
prosecutorial misconduct?
[2] We affirm.
[3] The facts underlying Myers’s conviction were set
forth as follows in this court’s opinion arising out of
his direct appeal:
In the spring of 2000, John Myers II lived
approximately seven tenths of a mile from
the intersection of North Maple Grove
Road and West Maple Grove Road, at 1465
West Maple Grove Road, north of
Bloomington in Monroe County. Myers
was on vacation from work the week of
May 29 through June 2.
On the morning of May 31, 2000’, Jill
Behrman, an accomplished bicyclist who
had just completed her freshman year at
Indiana University, left her Bloomington
home to take a bicycle ride. She logged off
of her home computer at 9:32 a.m.

39a
Behrman did not report to the Student
Recreational Sports Center, where she
was scheduled to work from noon to 3:00
p.m. that day, nor did she appear at a
postwork lunch scheduled with her father
and grandparents. Following nationwide
search efforts, Behrman’s remains were
ultimately discovered on March 9, 2003, in
a wooded area near the intersection of
Warthen and Duckworth Roads in Morgan
County. The cause of her death was ruled
to be a contact shotgun wound to the back
of the head.
With respect to the events surrounding
Behrman’s disappearance, one report
indicated that a young woman matching
Behrman’s description was seen riding her
bicycle north of Bloomington on North
Maple Grove Road at approximately 10:00
a.m. the morning of May 31. A tracking dog
later corroborated this report. While
another report placed Behrman south of
Bloomington at 4700 Harrell Road at
approximately 9:38 a.m., some authorities
later discounted this report due to her logoff time of 9:32 a.m. and the minimum
fourteen minutes it would take to bicycle
to Harrell Road. The tracking dog did not
detect Behrman’s scent trail south of
Bloomington.
At approximately 8:30 a.m. on the morning
of May 31, 2000, in the North Maple Grove

40a
Road area, a witness saw a white
“commercial looking” Ford van without
identification on its doors or sides drive
slowly past his driveway on North Maple
Grove Road, heading south. Two men were
inside the van. This witness saw the van
two additional times that morning by
approximately 9:00 a.m. and later
identified the van as “exactly like” a
Bloomington Hospital van.
At some point before noon on May 31, 2000,
another witness saw a bicycle later
determined to be Behrman’s lying off of
the east side of North Maple Grove Road
near the intersection of North Maple
Grove Road and West Maple Grove Road.
The location of the bicycle was
approximately one mile from Myers’s
residence and ten and one-half miles from
Behrman’s house.
On May 31, the date of Behrman’s
disappearance, two witnesses separately
noted that the windows in Myers’s trailer
were covered, which was unusual. One of
these witnesses also observed that
Myers’s car was parked fifty yards from its
normal location and remained out of sight
from the road for approximately three
days. Myers told this witness that he had
parked his car in that secluded spot
because he did not want anyone to know he
was home.

41a
Myers’s account of his activities during his
vacation week of May 29 through June 2
was reportedly that he was “here and
there.” Myers’s employer at the time was
the Bloomington Hospital warehouse,
where he had access to two white panel
Ford vans. Besides being “here and there,”
Myers indicated that he had been mostly
at home, that he had gone to a gas station,
and that he had gone to Kentucky
Kingdom but found it was closed. Myers
additionally stated that he and his
girlfriend, Carly Goodman, had cancelled
their plans to go to Myrtle Beach, South
Carolina, and to Kings Island, Ohio, that
week. Phone calls made from Myers’s
trailer on May 31 were at the following
times: 9:15 a.m.; 9:17 a.m.; 9:18 a.m.; 10:37
a.m.; 10:45 a.m.; and 6:48 p.m. Myers’s
mother, Jodie Myers, testified that she had
1
made those calls. The calls were to drivein theaters and various state parks.

1

Myers asserts that this is an inaccurate reflection of the record.
After reviewing Jodie Myers’s testimony, we agree. Although a
portion of her testimony, when viewed in isolation, appears to
support the assertion that she made the phone calls on May 31, 2000,
her testimony when read in its entirety reveals otherwise. Instead,
Jodie testified that after obtaining her son’s telephone records for
that date, she called the listed numbers to determine to whom they
belonged. It is apparent to us that the jury was not misled into
believing that Jodie had placed the phone calls, and the State made
no such argument. It is also apparent that this court’s

42a
Myers was reportedly almost hysterical on
May 31 and spoke of leaving town and
never coming back. Myers’s aunt, Debbie
Bell, observed that Myers had been very
depressed in the preceding month and
believed that this was due to problems
with his girlfriend. In late April 2000,
Myers had called Bell because he had been
having problems with his girlfriend and
felt like “a balloon full of hot air about to
burst.”
Carly Goodman was Myers’s girlfriend
beginning in approximately late October
1999. In March of 2000, Myers took
Goodman for a long drive through Gosport,
“over a bridge where there was a creek
and into some woods.” Myers pulled his car
into a clearing in the woods where the two
of them argued, which scared Goodman.
Although it was nighttime, Goodman
observed the appearance of this clearing
from the car’s headlights. In late April or
early May of 2000, Goodman broke off her
relationship with Myers. Goodman denied
that she and Myers had ever made plans to
go to Myrtle Beach or to Kings Island the
week of May 29.
On June 5, 2000, Bell again spoke with
Myers. Myers mentioned that a girl had
misunderstanding of the record had no impact on its resolution of
Myers’s direct appeal.

43a
been abducted in the area, and he was
afraid he would be blamed for it. Myers
further stated that the girl’s bicycle had
been found about a mile from his house and
that “they blame [him] for everything.”
Myers additionally asserted, “[T]hey
haven’t found her body yet” and guessed
that the girl was dead. In that same
conversation, Myers indicated that he had
been stopped by a roadblock and was
“scared” of roadblocks, but he later
changed his mind, laughed, and said he was
not really “scared.”
Following a tip due to this conversation, on
June 27, 2000, Detective Rick Crussen of
the Bloomington Police Department
interviewed Jodie and Myers’s father,
John Myers Sr., at their residence at 3909
West Delap Road. The following day,
Detective Crussen interviewed Myers.
On June 27, 2000, immediately after
Detective Crussen interviewed Myers’s
parents and the day before he interviewed
Myers, Myers called his grandmother,
Betty Swaffard, and asked to borrow $200.
Myers told Swaffard he was unable to
come to her house for the money because
there were roadblocks on Maple Grove
Road, and he did not want to leave his
home. Myers-additionally stated that he
was a suspect in the Jill Behrman

44a
disappearance. Myers did not come to
Swaffard’s home for the money.
In July 2000, Bell noticed that John Myers
Sr. was unusually nervous and agitated
when in Myers’s presence. Sometime in
approximately August of 2000, Myers’s
brother, Samuel, who owned a twelvegauge shotgun and had stored it at his
parents’ house on Delap Road since
approximately 1997, noted that the gun
was missing.
Myers raised the topic of Behrman’s
disappearance multiple times and in
multiple
contexts
following
her
disappearance. Before Detective Crussen
interviewed him, Myers falsely stated to
his Bloomington Hospital supervisor that
police had questioned him in connection
with Behrman’s disappearance because
her bicycle was found close to his home.
Also in June of 2000, Myers stated to a coworker that he wondered whether
authorities had investigated a barn in a
field located on Bottom Road off of Maple
Grove Road. Additionally, some weeks
after Behrman disappeared, Myers told
another co-worker during a delivery run
that Behrman’s bicycle was found in his
neighborhood, and that Behrman was
probably abducted near that site. Later in
2000 or 2001, while driving with his thengirlfriend, Kanya Bailey, Myers directed

45a
Bailey’s attention to a location a short
distance from his mother’s residence and
stated he had found Behrman’s bicycle
there.
In the late spring to late summer of 2001,
Myers again raised the topic of Behrman’s
disappearance with another co-worker. As
the two were driving on Bottom and Maple
Grove Roads, Myers pointed out where he
lived and stated that Behrman’s bicycle
had been found close to where he used to
live. A short time later, while on Maple
Grove Road, Myers stated that if he was
ever going to hide a body he would hide it
in a wooded area up “this way,” pointing
north. On another occasion, Myers stated
to this co-worker that he knew of someone
in
Florida
who
had
Behrman’s
identification card or checkbook.
Sometime in November or December of
2001, Myers raised the topic of Behrman’s
disappearance with a family member,
indicating his bet that Behrman would be
found in the woods. During this
conversation, Myers further indicated his
familiarity with the Paragon area and with
Horseshoe Bend, where he liked to hunt.
Also in 2001, Myers stated to his mother,
Jodie, that he had been fishing in a creek
and had found a pair of panties and a bone
in a tree. Jodie suggested that this might

46a
be helpful in the Behrman case, and Myers
agreed to call the FBI. FBI Agent Gary
Dunn later returned the call and left a
message. Myers told Jodie that they
should save the answering machine tape in
case they were questioned.
Sometime in 2002, Wendy Owings
confessed to Behrman’s murder, claiming
that she, Alicia Sowders-Evans, and Uriah
Clouse struck Behrman with a car on
Harrell Road, stabbed her with a knife in
her chest and heart, wrapped her body in
plastic tied with bungee cords, and
disposed of her body in Salt Creek. In
September 2002, authorities drained a
portion of Salt Creek. They found, among
other things, a knife, a bungee cord, and
two sheets of plastic. Owings later
recanted her confession.
On March 27, 2002, Myers, who at the time
was in the Monroe County Jail on an
unrelated charge, told Correctional Officer
Johnny Kinser that he had found some
letters in some food trays one morning that
he believed Kinser should look at,
apparently in connection with the
Behrman disappearance. Myers said he
felt bad about what had happened to that
“young lady” and that he wished to help
find her if he could. Myers additionally
compiled a list of places potentially
providing clues to Behrman’s location.

47a
Indiana State Police Trooper James
Minton investigated the list, including
gravel pits off of Texas Ridge Road
between Stinesville and Gosport. A route
from Gosport to the intersection of
Warthen and Duckworth Roads in Morgan
2
County passes by Horseshoe Bend.
On March 9, 2003, Behrman’s remains
were discovered by a hunter in a wooded
area near the intersection of Warthen and
Duckworth Roads in Morgan County
approximately thirty-five to forty yards
from a clearing in the timber north of
Warthen Road. Authorities recovered
approximately half of the bones in
Behrman’s skeleton. No soft tissue
remained. Six rib bones were among the
bones missing from her skeleton. There
was no evidence of stab or knife wounds,
nor was there evidence of blunt force
trauma. Investigators recovered a
shotgun shell wadding from the scene, as
well as 380 number eight shot lead pellets.
The wadding found at the scene was
2

Myers asserts that this court’s opinion in his direct appeal reflects
a misunderstanding concerning the content of the list of locations
Myers compiled. Myers apparently believes that the opinion stated
that the note listed a route to the site at which Behrman’s remains
were eventually discovered. The opinion contains no such assertion.
Instead, the court noted that a route between Gosport, near one of
the places on the list, and the area where Behrman’s remains were
later found passes by Horseshoe Bend, an area where Myers liked
to hunt.

48a
typical of a twelve-gauge shotgun shell
wadding. The cause of Behrman’s death
was ruled to be a contact shotgun wound to
the back of the head. Scattered skull
fragments and the presence of lead pellets
in a variety of places, together with certain
soil stains consistent with body
decomposition, suggested that after being
shot, Behrman’s body had come to rest and
had decomposed at the spot where it was
found. No clothing was found at the scene.
There is nothing in the record to clarify
whether Behrman’s clothing, if it had been
left at the scene, would or would not have
completely disintegrated prior to her body
being found.
In March 2003, Myers told another coworker, who had brought a newspaper to
work announcing the discovery of
Behrman’s remains, that the woods
pictured in the newspaper article looked
familiar to him, and that he had hunted
there before. According to this co-worker,
the woods pictured in the newspaper
article did not appear distinctive. Myers
also stated that it was good that Behrman
had been found and that he was surprised
that he had not been contacted because he
knew the people who police thought had
committed the crime. Myers knew Wendy
Owings, who had falsely confessed to the
crime, as well as Uriah Clouse and Alicia

49a
Sowders-Evans. Myers had a “cocky” tone
of voice when he made these comments,
according to the co-worker.
More than a year later, in November 2004,
Myers called his grandmother, Swaffard.
Myers, who was upset and stated that he
needed time to himself, said to Swaffard,
“Grandma, if you just knew the things that
I’ve got on my mind. [I]f the authorities
knew it; I’d be in prison for the rest of my
life.” Myers further stated that his father,
John Myers Sr., “knew” and had “[taken] it
to the grave with him.” Subsequently,
when Myers arrived at Swaffard’s house,
he said with tears in his eyes, “Grandma, I
wish I wasn’t a bad person. I wish I hadn’t
done these bad things.”
Indiana State Police Detectives Tom
Arvin and Rick Lang interviewed Myers
again on May 2, 2005. During this taped
interview, Myers denied having told
anyone in his family that he was “scared”
of the roadblocks or that he had talked to
anyone besides the police about the case.
Also in May of 2005, Myers, who was again
in the Monroe County Jail on an unrelated
charge, mentioned to his bunkmate that
the state police were investigating him
because Behrman’s bicycle had been found
in the vicinity of his house. Myers made
approximately three or four references to
Behrman’s bicycle and was nervous and

50a
pacing at the time. During that
conversation, Myers, who was also angry,
made reference to the “bitch,” and stated
to this bunkmate, “[I]f she [referring to
Behrman] wouldn’t have said anything, . . .
none of this would have happened.”
On February 17, 2006, Detective Lang
took Goodman on a thirty-six-mile drive
north of Myers’s home on Maple Grove
Road and into rural Morgan County.
Goodman recognized a clearing in the
woods near the corner of Warthen and
Duckworth Roads, approximately thirtyfive to forty yards from where Behrman’s
remains were discovered, as the place that
Myers had driven her in March 2000.
Myers v. State, 887 N.E.2d 170, 176-80
(Ind. Ct. App. 2008) (footnotes and
citations to the record omitted), trans.
denied. A grand jury indicted Myers for
Behrman’s murder in April 2006. A
twelve-day jury trial commenced on
October 16, 2006, at the conclusion of which
Myers was found guilty as charged and
sentenced to a term of sixty-five years.
This court affirmed Myers’s conviction on
direct appeal and our Supreme Court
denied transfer.
[4] Myers filed a pro se PCR petition on February 2,
2009. Counsel subsequently entered appearances on
Myers’s behalf and amended the petition. An

51a
evidentiary hearing was held over several days in
April and May 2013, at the conclusion of which the
post-conviction court took the matter under
advisement. The post-conviction court issued its
written order denying Myers’s PCR petition on
November 18, 2013. Myers now appeals.
[5] In a post-conviction proceeding, the petitioner bears
the burden of establishing grounds for relief by a
preponderance of the evidence. Bethea v. State, 983
N.E.2d 1134 (Ind. 2013). “When appealing the denial
of post-conviction relief, the petitioner stands in the
position of one appealing from a negative judgment.”
Id. at 1138 (quoting Fisher v. State, 810 N.E.2d 674,
679 (Ind. 2004)). In order to prevail, the petitioner
must demonstrate that the evidence as a whole leads
unerringly and unmistakably to a conclusion
opposite the post-conviction court’s conclusion.
Bethea v. State, 983 N.E.2d 1134. Although we do not
defer to a post-conviction court’s legal conclusions,
we will reverse its findings and judgment only upon
a showing of clear error, i.e., “that which leaves us
with a definite and firm conviction that a mistake has
been made.” Id. at 1138 (quoting Ben—Yisrayl v.
State, 729 N.E.2d 102, 106 (Ind. 2000)).
1.
[6] Myers first argues that his trial counsel were
3
constitutionally ineffective. A petitioner will prevail

3

Myers was represented at trial by the father-son defense team of
Hugh and Patrick Baker, with Patrick Baker acting as lead counsel.

52a
on a claim of ineffective assistance of counsel only
upon a showing that counsel’s performance fell
below an objective standard of reasonableness and
that the deficient performance prejudiced the
petitioner. Bethea v. State, 983 N.E.2d 1134. To
satisfy the first element, the petitioner must
demonstrate deficient performance, which is
“representation that fell below an objective
standard of reasonableness, committing errors so
serious that the defendant did not have the ‘counsel’
guaranteed by the Sixth Amendment.” Id. at 1138
(quoting McCary v. State, 761 N.E.2d 389, 392 (Ind.
2002)). To satisfy the second element, the petitioner
must show prejudice, which is “a reasonable
probability that, but for counsel’s errors, the result
of the proceeding would have been different.” Id. at
1139. “A reasonable probability is one that is
sufficient to undermine confidence in the outcome.”
Kubsch v. State, 934 N.E.2d 1138, 1147 (Ind. 2010)
(quoting Strickland v. Washington, 466 U.S. 668, 694
(1984)).
[7] There is a “strong presumption” that counsel
rendered adequate service. Bethea v. State, 983
N.E.2d at 1139. “We afford counsel considerable
discretion in choosing strategy and tactics, and
[i]solated mistakes, poor strategy, inexperience, and
instances of bad judgment do not necessarily render
representation ineffective.’” State v. Hollin, 970
N.E.2d 147, 151 (Ind. 2012) (quoting Timberlake v.
State, 753 N.E.2d 591, 603 (Ind. 2001)) (alteration in
Except where we find it necessary to differentiate between the two,
we will refer to both Bakers collectively as “trial counsel.”

53a
original). Indeed, “strategic choices made after
thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable; and
strategic choices made after less than complete
investigation are reasonable precisely to the extent
that reasonable professional judgments support the
limitations on investigation.” Strickland v.
Washington, 466 U.S. at 690-91. Moreover, because
a petitioner must prove both deficient performance
and prejudice in order to succeed, the failure to
prove either element defeats the claim. See Young v.
State, 746 N.E.2d 920 (Ind. 2001) (holding that
because the two elements of Strickland are separate
and independent inquiries, the court may dispose of
the claim on the ground of lack of sufficient prejudice
if it is easier). Myers has raised numerous claims of
ineffective assistance of trial counsel. We address
them each in turn.
A.
[8] Myers raises a number of arguments with respect to
the admission into evidence of a redacted version of
his May 2, 2005 police interrogation. First, lie argues
that trial counsel were ineffective for agreeing to the
redactions because portions of the statement in
which he denied any involvement in Behrman’s
disappearance and murder were excised, and those
statements would have been helpful to the defense.
[9] The interrogation in question was conducted in two
parts. In the first part of the interview, Myers was
questioned by Indiana State Police Detectives Rick.
Lang and Tom Arvin, and Myers repeatedly denied

54a
any involvement in or knowledge of Behrman’s
disappearance and murder. Myers was then arrested
on a separate charge of receiving stolen property,
booked, fingerprinted, and swabbed for DNA.
Thereafter, a second, post-arrest interview was
conducted by Detective Jeff Heck, during which
Myers again denied any involvement in Behrman’s
disappearance and murder. The State, defense, and
trial court spent a substantial amount of time
discussing redactions of the interrogation.
Ultimately, the jury heard an audio recording of and
was provided with a written transcript of the
partially redacted pre-arrest interview; the postarrest interview was omitted entirely. Myers does
not appear to object to the manner in which the prearrest interview was redacted. Instead, he argues
that the jury should also have heard the post-arrest
interview.
[10] We have reviewed both the redacted and unredacted
interrogation, and Myers has not established either
deficient performance or prejudice stemming from
the redaction of the post-arrest interview. The postarrest interview contained several long monologues
in which the interviewer attempted to appeal to
Myers’s moral sensibilities, followed by relatively
short responses from Myers. Some of these
monologues spanned several pages of transcript and
made specific reference to Myers’s past substance
abuse and recovery process. The trial court
described the post-arrest interview as largely filled
with “a lot of irrelevant gibberish” that “add[ed]
nothing to the factual determination in this case.”

55a
Trial Transcript at 26. We think this is a fair
characterization. Although Myers continued to
proclaim his innocence in the post-arrest interview,
his denials of involvement were merely cumulative
of his previous statements in the pre-arrest
interview, which the jury heard. Myers also made
statements in the post-arrest interview that the
jury could have viewed as flippant under the
circumstances. For example, at one point, Myers
stated, “you know, as we’re sitting there talking, I’m
thinking cigarettes, I’m thinking coffee[.]” PCR
Exhibit 305A at 154. It was not deficient
performance for trial counsel to agree to redact the
post-arrest interview in its entirety because it could
have harmed Myers and, in any event, would have
added little, if anything, to the pre-arrest interview.
For the same reason, Myers was not prejudiced by
the redaction.
[11] Myers also argues that counsel performed
deficiently by failing to object to portions of
Detective Arvin’s and Detective Lang’s testimony
concerning the May 2, 2005 interrogation.
Specifically, Myers notes that counsel did not object
to Detective Arvin’s testimony that Myers’s
demeanor during the interview was “nonchalant”
and “cavalier” and that his answers appeared to be
rehearsed. Trial Transcript at 2207. Additionally, on
cross-examination by trial counsel, Detective Arvin
asserted that Myers never “adamantly” or
“expressly” denied guilt. Id. at 2211-12. In response
to a jury question, Detective Arvin again testified
that Myers’s demeanor was nonchalant and cavalier.

56a
Additionally, Detective Lang testified that he did
not expect Myers to confess to the murder based on
his “prior intelligence” and because “murder is one
of the least things someone is going to confess to.”
Id. at 2380-81. According to Myers, these statements
constituted inadmissible opinion testimony.
[12] The sum total of Myers’s argument that this
testimony was inadmissible is contained in the
following conclusory statement in his appellant’s
brief: “The opinion evidence offered by [Detective]
Arvin was objectionable, irrelevant and prejudicial.
Ind. Evidence Rule 701; Hensley v. State, 448
N.E.2d 665, 667 (Ind. 1983) (lay witnesses may not
give opinions where jury is well qualified to form an
opinion).” Appellant’s Brief at 28-29. Assuming
arguendo that the testimony was objectionable,
Myers has not established prejudice. With respect to
Detective Arvin’s testimony that Myers never
adamantly or expressly denied guilt, trial counsel
went on to elicit testimony clarifying that Myers
had, in fact, denied involvement in Behrman’s
disappearance and murder “numerous” times. Trial
Transcript at 2211. With respect to the
characterizations of Myers’s responses as rehearsed
and his demeanor as nonchalant and cavalier, the
jury heard the audio recording of the redacted
interview and received a written transcript thereof,
and was therefore able to draw its own conclusions
as to whether Myers’s responses and tone were
inappropriately casual. Myers has made no attempt
to explain how Detective Lang’s testimony that he
did not expect Myers to confess prejudiced him, and

57a
we are unable to imagine how it might have done so.
Myers has not established that the outcome of the
trial would have been different had his trial counsel
objected to this testimony.
[13] Finally, Myers takes issue with trial counsel’s failure
to challenge the State’s characterization of the
May 2, 2005 interrogation in its opening statement
and closing argument. Specifically, Myers takes
issue with the prosecutor’s assertion in opening
statements
that
Myers’s
demeanor
was
nonchalant—but, as we explained above, the jury
heard Myers’s interview and was able to draw its
own conclusions in this regard. Myers also notes that
the State used a Powerpoint slide presentation in its
closing argument, and several of the slides included
claims that Myers never denied guilt. The
presentation consisted of over sixty slides, five of
which bore the subheading “When pressed
Defendant never denies guilt”, followed by excerpts
from the transcript of Myers’s interrogation. PCR
Exhibit 132. We note, however, that the slide
presentation was not admitted as an exhibit at trial;
instead, it was used by the State solely as a visual
aid during closing arguments. Moreover, our review
of the trial transcript reveals that the State did not
verbally assert in its closing argument that Myers
never denied guilt. The defense, on the other hand,
emphasized in its closing argument that Myers
repeatedly denied guilt during his police
interrogation. Most importantly, the jury was
provided a transcript and heard an audio tape of the
interrogation, during which Myers repeatedly

58a
denied
any
involvement
in
Behrman’s
disappearance and murder. Under these facts and
circumstances, we cannot conclude that Myers has
established that he suffered prejudice as a result of
trial counsel’s failure to object to the use of the
slides.
B.
[14] Next, Myers argues that trial counsel Patrick Baker
was ineffective for telling the jury in opening
statements that the defense would present certain
evidence, and then failing to do so. Specifically,
during opening statements, Patrick Baker stated
that during a search for Behrman shortly after her
disappearance, a bloodhound alerted to the
residence of Brian Hollars, who trial counsel had
identified as an alternative suspect, but that the dog
was called off. Counsel also told the jury that there
was evidence that Hollars and Behrman were seen
arguing days before she disappeared. Trial counsel
did not present evidence to support these claims.
[15] The parties acknowledge that Patrick Baker was
professionally disciplined for, among other things,
stating that a dog had alerted at Hollars’s home. See
In re Baker, 955 N.E.2d 729 (Ind. 2011). Our
Supreme Court found that “[t]hese statements were
false and Respondent should have known that no
evidence would be admitted at trial to support
them.” Id. at 729. The court noted, however, that
there was no allegation in the disciplinary
proceedings that counsel had provided substandard
services to Myers or that Myers or the State were

59a
prejudiced by the misrepresentation in his opening
statement. We will presume, however, that an
attorney who tells the jury that he will present
evidence that he either knows or should know will
not be presented has acted unreasonably for the
purposes of the Strickland analysis. Thus, at least
with respect to trial counsel’s statement that a
search dog alerted to Hollars’s residence, we accept
Myers’s argument that trial counsel’s performance,
was deficient. We are left to consider whether the
statements prejudiced Myers within the meaning of
Strickland.
[16] In support of his argument that trial counsel’s
unfulfilled promise in this regard amounted to
ineffective assistance of counsel, Myers directs our
attention to two decisions of the United States
Court of Appeals for the Seventh Circuit: United
States ex rel. Hampton v. Leibach, 347 F.3d 219 (7th
Cir. 2003) and Barrow v. Uchtman, 398 F.3d 597 (7th
Cir. 2005). As this court has explained, “although
decisions of the Seventh Circuit `are entitled to our
respectful consideration,’ its decisions on questions
of federal law are not binding on state courts.”
Jackson v. State, 830 N.E.2d 920, 921 (Ind. Ct. App.
2005). Even so, we conclude that the cases cited do
not mandate the conclusion that Myers’s trial
counsel was ineffective.
[17] In United States ex rel. Hampton v. Leibach, 347
F.3d 219, the Seventh Circuit found that Hampton’s
trial counsel was ineffective for failing to investigate
exculpatory eyewitnesses to the crime. The court
also considered Hampton’s argument that his trial

60a
counsel was ineffective for failing to fulfill two
promises made during opening statement. First,
Hampton’s trial counsel stated that Hampton would
testify that he was not involved in the gang-related
attack for which he was on trial, and second, that the
evidence would show that Hampton was not a
member of or involved with any gang.
[18] The
court
explained
that
unforeseeable
developments at trial may justify reversals of this
nature, but that “when the failure to present the
promised testimony cannot be chalked up to
unforeseeable events, the attorney’s broken promise
may be unreasonable, for `little is more damaging
than to fail to produce important evidence that had
been promised in an opening.’” Id. at 257 (quoting
Anderson v. Butler, 858 F.2d 16, 17 (1st Cir. 1988)).
The court concluded that to the extent trial counsel
had legitimate reasons to conclude that Hampton
should not testify, those reasons should have been
obvious from the outset of the case. In reaching its
conclusion that counsel’s performance was
unreasonable, the court emphasized the fact that
trial counsel had explicitly promised the jury that
Hampton himself would testify, reasoning that
“Hampton’s unexplained failure to take the witness
stand may well have conveyed to the jury the
impression that in fact there was no alternate
version of the events that took place, and that the
inculpatory testimony of the prosecution’s witnesses
was essentially correct.” Id. at 258.
[19] The court also found trial counsel’s failure to present
testimony that Hampton was not involved with a

61a
gang unreasonable, noting that such evidence would
bear on the likelihood that he had participated in a
crime with “unmistakable gang overtones.” Id. at
259. Testimony of this nature was readily available
to counsel; he simply failed to pursue it. The court
concluded that counsel’s failure to present such
evidence “could only have undercut the credibility of
the defense with the jury.” Id. With respect to the
prejudice element of the Strickland standard,
however, the court concluded that trial counsel’s
“breach of the promises he made in the opening
statement was not so prejudicial that it would
support relief in and of itself[.]” Id. at 260. Rather,
the breach “serve[d] to underscore the more
important failure to investigate exculpatory
occurrence witnesses.” Id.
[20] In Barrow v. Uchtman, 398 F.3d 597, the Seventh
Circuit again encountered a claim that counsel was
ineffective for failing to deliver on promises made
during opening statements. In Barrow, trial counsel
in opening statement informed the jury that “we will
tell you about” the crime and the defendant’s denial
of involvement. Id. at 606 n.7. During the trial,
however, Barrow’s counsel presented no evidence
whatsoever in defense. The court concluded that
Barrow had not established that he was prejudiced
by trial counsel’s failure to deliver on his promise to
present exculpatory evidence. In reaching this
conclusion, the court carefully distinguished
Hampton, noting that in that case, the court had
“placed special importance on the fact that trial
counsel had specifically promised the jury that the

62a
defendant would testify himself.” Id. at 606
(emphasis in original). Barrow’s counsel, on the
other hand, made no explicit promise that Barrow
would testify; rather, he promised to present other
exculpatory evidence. The court also noted that the
nature of the evidence against Barrow was
qualitatively different from that in Hampton. In
Hampton, the sole evidence against the defendant
was eyewitness testimony, but the primary evidence
against Barrow was his own confession. Under these
circumstances, Barrow’s personal testimony was far
less critical than Hampton’s. Moreover, the content
of Barrow’s proposed testimony was unlikely to
have altered the ultimate verdict given the
abundant evidence against him. Thus, the court
concluded, Barrow could not establish that he was
prejudiced by his trial counsel’s unfulfilled promises.
[21] Like the court in Barrow, we also conclude that
Myers was not prejudiced by trial counsel’s
unfulfilled promises. First, we note that trial counsel
made no promise that Myers himself would testify.
Patrick Baker’s representations that evidence
would be presented that a dog had followed
Behrman’s scent to Hollars’s residence and that
Hollars and Behrman had been seen arguing shortly
before her disappearance are more akin to the
promises of trial counsel in Barrow to present
exculpatory evidence.
[22] Moreover, although trial counsel failed to deliver on
these specific promises, other evidence casting
suspicion on Hollars was presented to the jury.
Evidence was presented establishing that Hollars

63a
had hired Behrman to work at Indiana University’s
Student Recreational Sports Center (SRSC) and
that Hollars and Behrman shared an interest in
cycling. In fact, Hollars had given Behrman his
telephone number because he was trying to sell a
bicycle and believed someone in Behrman’s cycling
club might be interested. Becky Shoemake, who was
Behrman’s cousin, roommate, and closest friend on
campus, testified that Behrman had confided in her
that an older man had asked her out and that
Behrman was concerned because the man was old
enough to drink, but Behrman was not. Shoemake
did not know the man’s identity or if Behrman
accepted the date. Detective Lang testified that
Behrman’s mother had told him that Behrman was
probably sexually active during her second
semester. Trial counsel admitted into evidence
condoms, a pregnancy test, a package of emergency
contraceptive pills, and several books on pregnancy
found in Behrman’s room. Behrman’s mother told
Detective Crussen that Hollars had called the
Behrman residence three or four times on June 1,
2000, which she found strange. Evidence was also
presented that Hollars was married and that he
owned a twelve-gauge shotgun and loaded his own
shotgun shells using number eight shot, the same
size used in Behrman’s murder. Importantly, the
jury was presented with evidence that a bloodhound
tracked Behrman’s scent near Hollars’s residence.
Hollars testified that he was questioned by police on
the day of Behrman’s disappearance and again by
Detective Arvin in 2003, and he believed that he was
under suspicion.

64a
[23] From the jurors’ questions, it is clear that the jury
considered the possibility of Hollars’s involvement
in Behrman’s murder. A juror asked Behrman’s
mother questions about when Behrman first met
Hollars. Additionally, a juror asked Wes Burton,
Behrman’s supervisor at the SRSC, whether
Hollars was romantically interested in Behrman.
The jurors also wanted to know whether written
records could corroborate Hollars’s and Burton’s
recollections that they had been working together at
the SRSC at the time Behrman went missing. A
juror also asked if Hollars had left the SRSC at any
time on May 31, 2000, and Hollars admitted that he
had left the premises to check on athletic fields.
[24] The jurors also took note of the possibility that
Behrman was pregnant. A juror asked Behrman’s
mother if Behrman had appeared to be sick,
nauseated, fatigued, or lightheaded, and Behrman’s
mother recalled that Behrman had felt poorly one
morning in May. A juror also asked Behrman’s
mother if she believed Behrman would have
confided in her if she had been pregnant. The jurors
did not, however, question the canine handler who
testified concerning the bloodhound search
conducted a few days after Behrman’s
disappearance about trial counsel’s claim that a dog
had alerted at Hollars’s residence but been pulled
off. We therefore conclude that counsel has not
established prejudice stemming from trial counsel’s
failure to fulfill his promise to present evidence that
the bloodhound alerted to Hollars’s residence and

65a
that Hollars was seen arguing with Behrman shortly
before her disappearance.
[25] Myers also argues that Patrick Baker was
ineffective for failing to deliver on his claim in
opening statement that Carl Salzman, the Monroe
County Prosecutor at the time of Behrman’s
disappearance, would testify that Myers was never
a suspect and that Owings, Sowders-Evans, and
Clouse were his primary suspects. In support of this
argument, Myers directs our attention to Salzman’s
deposition testimony, taken just days before trial, in
which Myers claims Salzman “said exactly the
opposite[.]” Appellant’s Brief at 31.
[26] Myers overstates Salzman’s deposition testimony.
Salzman testified in his deposition that his office
investigated Behrman’s disappearance until her
remains were discovered in Morgan County, at
which time the investigation was turned over to
Morgan County officials. Salzman testified that
during the Monroe County investigation, he never
filed charges against anyone in Behrman’s
disappearance. Salzman was presented with a
probable cause affidavit for Wendy Owings, and he
testified that the plan was to use the charge to get
to Sowders-Evans and Clouse. Salzman declined to
file charges against Owings because he did not
believe the evidence was sufficient. Salzman was
never presented with a probable cause affidavit for
Myers.
[27] Salzman testified further that after Morgan County
took over the investigation, he continued to receive

66a
tips from members of the community and jail
inmates, which he would pass on to Detective Lang.
One such tip came from Betty Swaffard, Myers’s
grandmother, who told Salzman that Myers had
been behaving strangely at the time of Behrman’s
disappearance. Salzman found Swaffard to be
credible and her story to be compelling, so he passed
it on to Detective Lang and urged him to investigate
further. Thus, from Salzman’s testimony, it is
apparent that Myers was not presented to Salzman
as a suspect during Salzman’s official investigation
as the Monroe County Prosecutor. While it appears
that Salzman eventually came to personally suspect
Myers based on Swaffard’s testimony, this occurred
well after his official involvement in the case ended.
During the Monroe County investigation, the only
person Salzman considered charging was Wendy
Owings. Thus, while Patrick Baker’s assertion that
Myers was not one of Salzman’s suspects could have
been clearer, it was not demonstrably false.
[28] Nevertheless, because Salzman did not testify at
trial, Patrick Baker’s promise concerning the
substance of his testimony necessarily went
unfulfilled. We note, however, that at the PCR
hearing, Myers elicited no testimony from trial
counsel concerning the failure to call Salzman as a
witness. Because Myers has made no attempt to
discount the possibility that trial counsel made a
strategic decision not to call Salzman to testify, he
has not satisfied his burden of establishing deficient
performance on this issue. See United States ex rel.
Hampton v. Leibach, 347 F.3d 219 (explaining that

67a
unexpected developments at trial may justify an
attorney’s decision not to present evidence promised
in opening statements); Specht v. State, 838 N.E.2d
1081, 1087 (Ind. Ct. App. 2005) (explaining that “an
action or omission that is within the range of
reasonable attorney behavior can only support a
claim of ineffective assistance if that presumption is
overcome by specific evidence as to the performance
of the particular lawyer”), trans. denied. Nor has he
established sufficient prejudice to justify relief on
this basis. The jury was presented with ample
evidence that the initial investigation focused on
Owings, Sowders-Evans, and Clouse, and that
Myers was not developed as the primary suspect
until much later. Under these facts and
circumstances, we cannot conclude that trial
counsel’s failure to elicit testimony from Salzman on
this issue had an appreciable impact on the jury.
C.
[29] Next, Myers argues that trial counsel were
ineffective for failing to adequately undermine the
State’s theory that Behrman had ridden her bicycle
north on North Maple Grove Road, i.e., in the
direction of Myers’s residence, on the date she
disappeared. According to Myers, it was crucial for
the defense to establish that Behrman took a route
south of Bloomington that morning because if she
did so, phone records placing Myers at his residence
that morning would have exonerated him.
[30] Myers’s arguments on this issue presume that the
only reasonable strategy trial counsel could have

68a
pursued was one that depended heavily on
establishing that Behrman rode south rather than
north on the date of her disappearance. But trial
counsel were not limited to presenting a single
theory of defense. Indeed, in a case such as this,
based solely on circumstantial evidence, the most
advantageous approach may be to establish
reasonable doubt by presenting multiple possible
alternative theories of the crime that point away
from the accused’s guilt. As the U.S. Supreme Court
has explained, “[t]o support a defense argument that
the prosecution has not proved its case it sometimes
is better to try to cast pervasive suspicion of doubt
than to strive to prove a certainty that exonerates.”
Harrington v. Richter, 562 U.S. 86, 109 (2011).
[31] At the PCR hearing, when asked what he wanted
the jury to believe concerning Behrman’s bicycle
route, Patrick Baker initially stated that he “didn’t
want her going north.” PCR Transcript at 598. He
went on to clarify, however, that he had “two
theories, a southern route and a northern route”. Id.
Specifically, he testified as follows:
We wanted the jury to believe that she
couldn’t have made it to [Myers’s] house
and back in time for work. So I don’t know
if we differentiated between the southern
route and maybe partially of the northern
route but we wanted the jury to believe
that she couldn’t have ridden to his house
and back.

69a
Id. at 598-99. Thus, it was not trial
counsel’s strategy to eliminate the
possibility that Behrman had ridden
north—rather, trial counsel sought to
establish that Behrman would not have
followed the north route all the way to
Myers’s residence in light of her schedule
that day.
[32] We cannot conclude that trial counsel’s decision to
pursue a defense theory that allowed for the
possibility that Behrman had ridden north was
unreasonable. As an initial matter, we note that trial
counsel presented evidence supporting the theory
that Behrman had ridden south. Trial counsel
elicited testimony that Maral Papakhian, a high
school classmate of Behrman’s, had reported seeing
Behrman riding her bike on Harrell Road, i.e., the
southern route, on the morning of her
disappearance. The jury was also presented with
evidence of Owings’s confession, in which she stated
that she and Sowders-Evans had been passengers in
Clouse’s vehicle when he struck Behrman and
abducted her on Harrell Road. Additionally, in both
opening statements and closing arguments, trial
counsel argued that the evidence presented
supported a conclusion that Behrman had ridden
south.
[33] We also note, however, that trial counsel’s Hollars
theory was premised in part on the fact that a
bloodhound had scented Behrman on the northern
route near Hollars’s residence. Thus, presenting a
theory of defense that depended on proving to a

70a
certainty that Behrman had ridden south would
have undermined this alternative theory. Moreover,
there was other evidence that Behrman had ridden
north. Robert England testified that he saw a cyclist
matching Behrman’s description riding north on
Maple Grove Road either at 10:00 a.m. on the day
Behrman disappeared or at 9:00 a.m. the next day.
Moreover, Behrman’s bike was discovered on the
north route, less than one mile from Myers’s
residence. Although it has been suggested that
Behrman could have taken the south route, been
abducted and subdued there, and her bike dumped
on the north route, the timeline for such a scenario
is tight. Behrman logged off of her computer at 9:32
a.m. and her bike was spotted near Myers’s
residence “before noon.” Trial Transcript at 1226.
Additionally, evidence from the bloodhound tracking
search was consistent with Behrman having ridden
the bike to its final location as opposed to being
driven there in a vehicle. Thus, although it is not
impossible for the bike to have been dumped, we
cannot conclude that it was unreasonable for trial
counsel to decline to pursue a theory of defense that
was wholly dependent on the jury reaching such a
conclusion. While it might have been helpful to the
defense to conclusively eliminate the possibility that
Behrman had ridden north that morning, the
evidence simply did not allow for such certainty.
[34] Moreover, none of the evidence Myers argues should
have been used to impeach the theory that Behrman
rode north was particularly strong. For example,
Myers argues that trial counsel should have

71a
established that shortly after Behrman’s
disappearance, police investigated routes south and
east of Bloomington. Considering the breadth of the
investigation in this case and the fact that
investigators were simultaneously investigating
possible routes north of Bloomington, such evidence
was unlikely to impress the jury. Myers also
suggests that evidence should have been presented
to the effect that investigators and Behrman’s
family believed “[f]or years” that Behrman had
ridden south. Appellant’s Brief at 33. But the jury
was well aware that investigators primarily pursued
Owings’s confession, which placed Behrman on the
south route, until Behrman’s remains were
discovered.
[35] Myers also argues that trial counsel should have
cross-examined Behrman’s parents “on their prior
belief their daughter would not have ridden north
based on the limited time she had, her riding habits
and her habits preparing for work and leaving the
house.” Id. at 33. The PCR court found that declining
to pressure the Behrmans about the specifics of
their daughter’s bike route reflected a valid trial
strategic decision to avoid alienating the jury by
4
upsetting grieving parents. In any, event,
4

Myers argues that trial counsel was not concerned about alienating
the jury because Patrick Baker cross-examined Behrman’s mother
extensively about “whether her murdered daughter might have
been pregnant with a married man’s baby.” Appellant’s Brief at 34.
We note, however, that Patrick Baker testified at the PCR hearing
that he believed that evidence concerning a possible pregnancy was
crucial. It was not unreasonable for trial counsel to forego intense

72a
Behrman’s parents clearly did not know which
direction she had ridden that day, and we cannot
conclude that cross-examining them as to their
guesses on the matter would have had a significant
impact on the jury. Finally, Myers argues that trial
counsel should have impeached the testimony of Dr.
Norman Houze, a cyclist who conducted a timed ride
from the Behrman residence to the location where
Behrman’s bike was discovered, with evidence that
the ride was accomplished with a police escort.5 But
Myers has not directed our attention to any evidence
suggesting that the police escort had an appreciable
impact on the speed at which the ride was
conducted. For all of these reasons, we also conclude
that Myers has not established the requisite
prejudice.
[36] Myers also argues that trial counsel were ineffective
for failing to object to hearsay testimony
discrediting Papakhian’s sighting of Behrman on
Harrell Road on the morning of her disappearance.
Hearsay is an out-of-court statement offered in
court to prove the truth of the matter asserted.
Boatner v. State, 934 N.E.2d 184 (Ind. Ct. App.
2010). As a general rule, hearsay is inadmissible
unless the statement falls within one of the

cross-examination on other, less important issues in order to avoid
appearing antagonistic.
5

The results of the timed ride suggested that Behrman might have
been able to take the northern route and still make it to work at the
SRSC in time for her shift. Trial counsel cross-examined Dr. Houze
extensively.

73a
established hearsay exceptions. Yamobi v. State, 672
N.E.2d 1344 (Ind. 1996).
[37] Detective Arvin testified that Papakhian told police
she believed she saw Behrman on the 4700 block of
Harrell Road on the morning of Wednesday, May 31,
but that she could not be one hundred percent
certain that she had not seen her on Tuesday.
Detective Arvin testified further that when he
interviewed Papakhian, she recalled having an
argument with her boyfriend at a small party the
night before the sighting, and she named several
other people who had attended the party. Detective
Arvin testified that he interviewed five people as a
result of his interview with Papakhian, and that he
ultimately reported to Detective Lang “that the
timeline that [Papakhian] had presented did not fit.”
Trial Transcript at 2203. He testified further that
based on his investigation, he believed that it was
more likely that Papakhian had seen Behrman on
Tuesday, the day before her disappearance.
Detective Arvin explained that Papakhian told him
that she regularly left her house forty-five minutes
before her 10:20 a.m. class (i.e., at 9:35 a.m.) and
Detective Arvin determined that it would take her
only three minutes to drive to the 4700 block of
Harrell Road. Because Behrman had logged off of
her computer at 9:32 a.m., and it would take a
minimum of fifteen minutes for her to bike from the
Behrman residence to Harrell Road (not including
additional time to change clothes, put on cycling
shoes, fill a water bottle, etc.), Detective Arvin
believed that Behrman could not have made it to the

74a
4700 block of Harrell Road in time for Papakhian to
have seen her there on the date of her
disappearance.
[38] Myers argues that Detective Arvin testified to
statements made to him by the other partygoers
Papakhian identified, and that a hearsay objection to
6
this testimony would have been sustained. But
Myers has not directed our attention to a single outof-court statement made by these unnamed
individuals and admitted into evidence through
Detective Arvin’s testimony. Instead, Detective
Arvin testified that after interviewing Papakhian
and five other witnesses, he came to the conclusion
that Papakhian’s timeline did not fit and she had
probably seen Behrman on Tuesday. When giving a
further explanation of why he reached the
conclusion, Detective Arvin referred not to any
statements or information gathered from the
partygoers, but to the timeline he had worked out
based on Papakhian’s statements and Behrman’s
computer logoff time. Because Myers has not
established that Detective Arvin testified to any
out-of-court statements made by the unnamed
witnesses he interviewed, Myers has not established
6

Myers makes no argument that counsel should have objected when
Detective Arvin testified at length to out-of-court statements made
by Papakhian, and for good reason. Because Papakhian did not
testify at trial, the only way to get evidence of her sighting before
the jury was through the testimony of others. Myers makes no
argument that trial counsel were ineffective for failing to call
Papakhian as a witness, and Papakhian did not testify at the PCR
hearing.

75a
that trial counsel were ineffective for failing to
object based on hearsay.
D.
[39] Myers also argues that his trial counsel were
ineffective for failing to object to the admission of
evidence of a bloodhound tracking search, or
alternatively for failing to impeach the reliability of
such evidence. At trial, Porter County Sheriff’s
Deputy and canine handler Charles Douthett
testified concerning a search he performed with his
bloodhound, Sam. Deputy Douthett testified that he
had been working with Sam for over ten years, and
that he and Sam had attended numerous seminars
and trainings and worked homicide investigations in
six states. Deputy Douthett testified further that he
and Sam had conducted numerous real-world
tracking searches, including some cases involving
tracking bicyclists. Deputy Douthett went on to
describe the process used to present a bloodhound
with a scent and to track that scent.
[40] Deputy Douthett testified further that the FBI
contacted him and asked him to come to
Bloomington to conduct a tracking search in the
Behrman case. An exhaustive description of the
tracking search is not necessary here. It suffices for
our purposes to note that Deputy Douthett and Sam
were taken to a spot on North Maple Grove Road
roughly one-half mile southwest of where
Behrman’s bike had been discovered. Sam tracked
Behrman’s scent to the spot the bike had been found
and continued tracking the scent northward briefly

76a
before losing the scent and doubling back to the
starting point of the search. At that point, Deputy
Douthett and Sam got into a vehicle and were driven
southward along the path Sam had been following.
They stopped and got out of the vehicle at an
intersection a few hundred yards away from
Highway 37. Hollars’s residence is very close to this
intersection. Sam was able to pick the scent back up
at that point and she followed it across Highway 37
before turning south on Kinser Pike.
[41] Myers argues that evidence of the bloodhound
tracking search was inadmissible, or at the very
least subject to impeachment on the basis of its
unreliability. In support of this argument, he cites a
line of Indiana Supreme Court cases supporting the
proposition that bloodhound tracking evidence is too
unreliable to be admissible. See Hill v. State, 531
N.E.2d 1382 (Ind. 1989); Brafford v. State, 516
N.E.2d 45 (Ind. 1987); Ruse v. State, 186 Ind. 237, 115
N.E. 778 (Ind. 1917). The State notes, however, that
all of these cases were decided prior to the adoption
of the Indiana Rules of Evidence. In his reply brief,
Myers appears to concede that the line of cases he
cited in his appellant’s brief are no longer
controlling. Instead, he argues that the admission of
the bloodhound tracking evidence would now be
evaluated under Indiana Evidence Rule 702(b),
which provides that “[e]xpert scientific testimony is
admissible only if the court is satisfied that the
expert testimony rests upon reliable scientific
principles.” According to Myers, the application of
Rule 702(b) would result in the exclusion of

77a
bloodhound tracking evidence because “[a] dog’s
accuracy relies upon too many variant and
subjective factors to be considered reliable”. Reply
Brief at 8. Myers also argues that even if bloodhound
tracking evidence might be deemed admissible
under the current rules of evidence, trial counsel
were ineffective for failing to impeach the evidence
by establishing its unreliability.
[42] We need not address whether the bloodhound
tracking evidence in this case was admissible or
subject to impeachment. “[A]n objection to
inadmissible evidence may be waived as part of
reasonable trial strategy, which will not be secondguessed by this court.” Nordstrom v. State, 627
N.E.2d 1380, 1385 (Ind. Ct. App. 1994), trans.
denied. Trial counsel may also choose to forego
opportunities to impeach evidence when doing so
serves a reasonable strategic purpose. See Kubsch v.
State, 934 N.E.2d 1136 (concluding that counsel’s
decision not to impeach a witness was a matter of
trial strategy and did not amount to ineffective
assistance).
[43] At the PCR hearing, Patrick Baker testified that he
could not recall whether he considered objecting to
the bloodhound tracking evidence. Likewise, he
could not recall whether he considered consulting
with an expert on bloodhounds or researched the
admissibility of such evidence, although he believed
he or someone in his office had probably done some research on the issue. He noted on crossexamination that the bloodhound evidence put

78a
Behrman within a reasonable proximity of Hollars’s
house around the time of her disappearance.
[44] It is Myers’s burden to overcome the presumption
that there were strategic reasons for the decisions
trial counsel made. If Myers cannot satisfy that
burden, he cannot establish deficient performance.
Patrick Baker’s inability to recall at the time of the
PCR hearing whether he researched bloodhound
evidence or considered objecting to its introduction
at trial over six years earlier is insufficient to
overcome the presumption in this case. This is so
because we judge counsel’s performance “by the
standard of objective reasonableness, not his
subjective state of mind.” Woodson v. State, 961
N.E.2d 1035, 1041 (Ind. Ct. App. 2012) (citing
Harrington v. Richter, 562 U.S. 86), trans. denied.
“Although courts may not indulge ‘post hoc
rationalization’ for counsel’s decisionmaking that
contradicts the available evidence of counsel’s
actions, neither may they insist counsel confirm
every aspect of the strategic basis for his or her
actions.” Harrington v. Richter, 562 U.S. at 109
(internal citation omitted).
[45] Judging trial counsel’s performance by an objective
standard of reasonableness, as we must, we conclude
that there were valid strategic reasons for declining
to object to or impeach the bloodhound tracking
evidence irrespective of Patrick Baker’s inability to
recall his thoughts on the subject. One of trial
counsel’s tactics throughout trial was to cast
suspicion on Hollars, and the bloodhound tracking
evidence supported that strategy because it placed

79a
Behrman near Hollars’s residence. Indeed, trial
counsel relied on the bloodhound tracking evidence
and its link to Hollars in both opening statements
and closing arguments. We will not speculate on the
ultimate wisdom of trial counsel’s strategic decisions
on this issue. Because Myers has not overcome the
presumption that trial counsel acted competently in
declining to object to or impeach the bloodhound
tracking evidence, he has not established ineffective
assistance in this regard.
E.
[46] Next, Myers argues that his trial counsel were
ineffective for failing to impeach Betty Swaffard’s
testimony.
Swaffard,
Myers’s
maternal
grandmother, testified to certain statements Myers
made to her following Behrrnan’s disappearance.
Specifically, Swaffard testified that on June 27, 2000,
the date Detective Crussen interviewed Myers’s
parents, Myers called Swaffard and asked to borrow
money. Swaffard told Myers that he would have to
come to her house to pick up the money, and he said
he could not come because there were road blocks up
on Maple Grove Road, and he did not want to go out
because he was a suspect in Behrman’s
disappearance. Swaffard testified further that in
November 2004, Myers called her and asked her to
look after his daughter because he needed some time
alone to think. Swaffard asked what was on his mind,
and Myers said, “Grandma, if you just knew the
things that I’ve got on my mind. . . . [I]f the
authorities knew it, I’d be in prison for the rest of
my life.” Trial Transcript at 1833. Myers stated

80a
further that his father had known it and “took it to
the grave with him.” Id. Later that evening, when
Myers dropped his daughter off at Swaffard’s house,
he had tears in his eyes and said, “Grandma, I wish
I wasn’t a bad person. I wish I hadn’t done these bad
things.” Id. at 1833-34. On cross-examination, trial
counsel asked Swaffard only two questions, both of
which were apparently intended to establish that
Swaffard had developed an unusually close
relationship with Detective Lang. First, counsel
asked Swaffard whether she knew Detective Lang’s
telephone number, and she responded affirmatively.
Second, counsel asked what Detective Lang’s phone
number was, and Swaffard began to answer but was
interrupted by an objection from the State. The trial
court sustained the objection, and trial counsel
declined to cross-examine Swaffard further.
[47] On appeal, Myers argues that trial counsel were
ineffective for failing to use recordings of telephone
conversations between Myers and Swaffard to
impeach Swaffard’s testimony at trial. We note that
in May 2005, with Swaffard’s permission, Detective
Lang began recording Swaffard’s phone calls with
Myers. Some of these recordings were of telephone
calls Myers made to Swaffard from jail, in which
Myers told Swaffard that he had been interviewed
concerning Behrman’s death and denied any
involvement or knowledge thereof At the PCR
hearing, Patrick Baker testified that he had heard
the recorded phone calls, but his strategy with
respect to Swaffard was to get her off the witness
stand as quickly as possible. He testified that

81a
Swaffard gave very damaging evidence, that her
demeanor and presentation were credible, and that
it was extremely challenging to explain to the jury
why a grandmother would falsely implicate her
grandson in a murder.
[48] On appeal, Myers argues that this was not a
reasonable trial strategy, and that trial counsel were
required to make a greater effort to impeach
Swaffard precisely because her testimony was
damaging and appeared credible. This is the sort of
second-guessing of trial strategy in which we will
not engage on appeal. “It is well settled that the
nature and extent of cross-examination is a matter
of strategy delegated to trial counsel.” Waldon v.
State, 684 N.E.2d 206, 208 (Ind. Ct. App. 1997),
trans. denied. Myers has not established that a
strategy of limiting the jury’s exposure to
Swaffard’s testimony and denying her the
opportunity to elaborate further thereon fell outside
the wide range of constitutionally competent
assistance.
[49] In any event, Myers has not directed our attention
to any particularly persuasive impeachment
evidence contained within the telephone recordings.
Although Myers denied any involvement in or
knowledge of what happened to Berhman in the
phone calls he made to Swaffard from the jail, he did
so after being made aware that he was a suspect in
the case. Additionally, he acknowledged during the
conversations that he knew that telephone calls
made from the jail are recorded. In light of these
facts, Myers’s denials of involvement were unlikely

82a
to sway the jury, and they do nothing to explain why
Swaffard would falsely implicate Myers. Moreover,
in order to impeach Swaffard with the recordings,
trial counsel would have had to make the jury aware
that Myers’s own grandmother had voluntarily
agreed to allow Detective Lang to record her
conversations with Myers. The damaging effect of
such evidence would likely outweigh its minimal
impeachment value.
[50] Myers also argues that counsel was ineffective for
failing to object to what he calls “religious vouching”
for Swaffard’s credibility. Appellant’s Brief at 43.
Specifically, Swaffard was allowed to testify, albeit
briefly and without great detail, concerning her
religious involvement, including her affiliation with
a specific church, her studies’ at a Bible college, and
religious writings she has authored. According, to
Myers, this testimony “served no purpose other
than to portray [Swaffard] as a God-fearing woman
who wouldn’t lie.” Id. at 43. Myers argues that the
error was compounded when the State made
reference to Swaffard’s faith in its closing argument,
stating that she came forward after “great prayer
and . . . thought” and that “by the grace of God she
came forward and told you the truth[.]” Trial
Transcript at 1247, 2827.
[51] At trial, Myers’s counsel objected to the State’s line
of questioning regarding Swaffard’s religious
involvement on the basis of relevance. The trial
court overruled the objection and explained that it
would allow “some introductory questions just so
the jury knows who the witness is.” Id. at 1813. On

83a
appeal, Myers argues that trial counsel’s objection
was insufficient because “he did not provide a
specific rule.” Appellant’s Brief at 43. We note,
however, that Myers has also failed to cite any
specific rule of evidence in his appellant’s brief in
support of this assertion that Swaffard’s testimony
amounted to impermissible “religious vouching.”
Instead, he argues that “[v]ouching testimony
invades the province of the jury”, and he cites two
cases, both of which address issues concerning adult
witnesses vouching for the truthfulness of victims in
child molesting cases. Id. The State, however, has
directed our attention to Indiana Evidence Rule 610,
which provides that “[e]vidence of a witness’s
religious beliefs or opinions is not admissible to
attack or support the witness’s credibility.”
[52] The testimony Myers argues amounted to
impermissible religious vouching was part of
general background information Swaffard was
asked to give about her life. She testified that she
had lived in her home for forty-five years, that she
was homemaker, that her husband was deceased,
and that her hobbies included reading, writing, and
gardening. She testified further that she had
completed some studies at a Bible college and
authored a children’s Bible school curriculum. The
State then asked Swaffard whether she attended a
specific church, and trial counsel objected to the line
of questioning based on relevance. The trial court
overruled the objection, and Swaffard went on to
testify that she had attended Maple Grove Christian
Church for nine years, that she wrote poetry and

84a
ladies’ devotionals, and she gave more background
about her children and family.
[53] We cannot conclude that Swaffard’s testimony
concerning her religious involvement constitutes
vouching, religious or otherwise. Although the
relevance of Swaffard’s religious involvement is
certainly questionable (hence trial counsel’s
objection on that basis), her testimony contained no
express or implied assertion that she was more or
less likely to tell the truth due to her religious
beliefs. Thus, Myers has not established a
reasonable probability that an objection on this basis
would have been sustained. See Passwater v. State,
989 N.E.2d 766 (Ind. 2013) (explaining that to
prevail on a claim of ineffectiveness based on failure
to object, the defendant must establish a reasonable
probability that the objection would have been
sustained). Moreover, Myers has not established
that he was prejudiced by Swaffard’s testimony in
this regard. Swaffard’s testimony concerning her
involvement in church and religious activities was
short and not greatly detailed. More importantly,
Swaffard testified that Myers was her grandson and
that she loved him and had been close with him since
he was a small child. In light of the evidence
concerning Swaffard’s relationship with Myers and
the absence of any motive to lie, we are unconvinced
that testimony concerning her religious involvement
had a significant impact on the jury’s assessment of
her credibility.
[54] To the extent Myers argues that the prosecuting
attorney’s remarks in closing argument crossed the

85a
line into impermissible religious vouching, we note
that the State’s references to Swaffard’s religion
were brief and vague at best. The State’s use of the
common phrase “by the grace of God” conveyed
nothing about Swaffard’s religious beliefs, nor did its
statement that Swaffard was “the last of a dying
breed. A generation of people where truth mattered
more than anything else, where telling the truth was
an oath that was taken seriously.” Trial Transcript
at 2827, 2754-55. If anything, these statements
suggested that Swaffard was more likely to tell the
truth because of her age, not because her religious
convictions compelled her to do so.
[55] The State’s remark that Swaffard came forward
“with great prayer” is arguably a more direct
reference to her religion, but when viewed in
context, it is apparent that the statement did not
imply that Swaffard was credible because of her
religious beliefs. Id. at 2747. The statement was
made as part of the following argument:
And stop for a moment to think how much
doubt . . . how much reasonable doubt
[Swaffard] had overcome before she came
forward with what she knew. She knew
what it would do to the family. You saw
what Jodie, Sam, and Luke did. They
circled the wagons. But she told you one
thing, [Swaffard] did, didn’t she? That her
conscience wouldn’t let her sleep unless
she came forward. Think how hard it
would be for any grandmother to do. You
know, as you get older you start thinking

86a
about your family legacy. You start
thinking about what’s important in life and
with . . . with many tears and with great . .
. with great prayer and . . . and thought,
[Swaffard] did come forward. This is a case
about relationships.
Id. Thus, it is apparent that the State was arguing
that it was very difficult for Swaffard to come
forward due to the impact her cooperation with the
investigation would have on her familial
relationships, but that her conscience nevertheless
compelled her to do so. In other words, the State
argued that Swaffard was credible because she came
forward with reservations and at great personal
expense. The brief reference to prayer did nothing
to imply that Swaffard was more credible because of
her religious beliefs.
[56] Moreover, Myers did not question trial counsel at
the PCR hearing with respect to his failure to object
to these statements. Our Supreme Court has held
that, because counsel is presumed to be competent,
“an action or omission that is within the range of
reasonable attorney behavior can only support a
claim of ineffective assistance if that presumption is
overcome by specific evidence as to the performance
of the particular lawyer.” Morgan v. State, 755
N.E.2d 1070, 1074 (Ind. 2001). Under the
circumstances presented here, trial counsel could
have concluded that objecting to the State’s vague,
passing references to Swaffard’s religious
convictions would only draw more attention to them,
and Myers has presented no evidence to the

87a
contrary. See Smith v. State, 822 N.E.2d 193 (Ind. Ct.
App. 2005) (noting that it is reasonable strategy for
counsel not to object to certain evidence to avoid
drawing unfavorable attention to it). In any event,
we are unconvinced that the complained-of
statements had an impact on the jury’s verdict. For
these reasons, Myers has established neither
deficient performance nor prejudice stemming from
counsel’s failure to object to so-called religious
vouching.
F.
[57] Myers next argues that trial counsel were
ineffective for failing to adequately impeach Carly
Goodman’s testimony. Goodman testified that one
night in March 2000, Myers, her then-boyfriend,
took her for a long car ride through Gosport to a
wooded area, where he parked in a “clearance”
surrounded by a wooded area. Trial Transcript at
1899. Goodman testified that after Myers stopped
the car, the couple argued and that she was afraid
and wanted to go home. Goodman testified further
that in February of 2006, she went for a drive with
Detective Lang to identify places that Myers had
taken her during their relationship. She recognized
one place as the wooded area where she and Myers
had argued in March 2000. This was the same area
where Behrman’s remains were discovered in 2003.
Myers’s trial counsel conducted a relatively short
cross-examination, in which he asked a number of
questions designed to create doubt as to the whether
the site was sufficiently distinctive-looking for
Goodman to reliably differentiate it from other

88a
nearby wooded areas. On appeal, Myers argues that
trial counsel should have impeached Goodman with
her prior, allegedly inconsistent statements about
the site.
[58] At the PCR hearing, Patrick Baker testified that his
strategy with respect to Goodman’s crossexamination was similar to his strategy with
Swaffard—he sought to get Goodman off the
witness stand as quickly as possible. He testified
further that Goodman “had a lot of information,
404(b) evidence, that regarded domestic battery
situations with [Myers]. Regarded her being held
against her will in a trailer, I think, for three or four
days without any clothes. I think protective orders
that she had filed against [Myers.]” PCR Transcript
at 581. He explained that this information had been
ruled inadmissible, but he still had concerns about
Goodman bringing it up. Moreover, when asked
whether he had planned to impeach Goodman with
prior inconsistent statements, counsel responded
that he did not recall specifically, but that any
strategies he had devised changed during
Goodman’s testimony because she displayed a
palpable demeanor of fear toward Myers.
[59] Myers dismisses trial counsel’s explanation of his
strategy as unreasonable. He asserts that counsel
could have cross-examined Goodman concerning her
prior statements made to Detective Lang at the
time she identified the site without eliciting or
opening the door to prejudicial and inadmissible
testimony. Further, Myers argues that fearful
witnesses are “a reality of criminal defense for which

89a
7
counsel should be prepared.” Appellant’s Brief at
45. We will not engage in this sort of secondguessing of trial counsel’s strategic decisions
concerning the nature and scope of crossexamination. Myers has not established that his trial
counsel’s strategy was unreasonable; to the
contrary, it was quite reasonable for trial counsel to
minimize the jury’s exposure to Goodman’s fearful
demeanor and avoid any inadvertent mention of
highly prejudicial and inadmissible evidence by
limiting the scope and duration of his crossexamination,
while
simultaneously
eliciting
testimony casting doubt on the reliability of her
identification of the area.
[60] Moreover, Myers has again failed to establish the
requisite prejudice. Much of the impeachment
evidence Myers argues should have been used
during Goodman’s cross-examination was explored
through Detective Lang’s testimony. For example,
Myers argues that trial counsel should have
impeached Goodman with Detective Lang’s
testimony during the grand jury proceedings that
Goodman recognized the area due to a humming
sound the tires made as they drove across a metal
bridge. The bridge, however, was not installed until

7

Myers does not, however, make any attempt to explain what such
“preparation” would entail or propose an alternative strategy for
dealing with such witnesses. It appears to us that one obvious
strategy could be to limit cross-examination of such witnesses, as
trial counsel did in this case.

90a
2001, well after Goodman’s March 2000 car ride with
Myers.
[61] Contrary to Myers’s assertion on appeal, Detective
Lang’s grand jury testimony did not establish that
Goodman recognized the area due to the sound of the
tires on the bridge. Although Detective Lang
mentioned the humming sound the tires made, he
did not state that the sound is what triggered
Goodman’s memory. Instead, Detective Lang
described the bridge and the humming sound, and
said it was at that point that Goodman stopped him
midsentence and said that that the area looked more
familiar to her than any of the other places they had
been. Detective Lang later clarified that Goodman
“did not indicate on the bridge. That’s just where she
interrupted my sentence and said, this place looks
more familiar. She didn’t say the bridge was more
familiar, I remember that sound. She just said this
place looks more familiar than any place we’ve been
up to that point.” Grand Jury Transcript at 6104.
Indeed, in her own grand jury testimony, Goodman
specifically stated that it was not the bridge that
caused the area to be recognizable to her. Instead,
she stated that she recognized a nearby creek,
woods, steep hills with rocks on them, and an area
she described as a “cutoff”, which was not a road but
provided enough clearance to allow a person to drive
a short distance into the woods. Id. at 4080.
[62] Moreover, trial counsel did, in fact, raise the issue of
Goodman’s recognition of the bridge with Detective
Lang. Specifically, trial counsel elicited testimony
from Detective Lang concerning the date the bridge

91a
was constructed, and he asked Detective Lang
whether it was true that Goodman recognized the
bridge. Detective Lang responded that Goodman
did not recognize the bridge, and instead recognized
the area. Detective Lang’s trial testimony is
supported by both his and Goodman’s grand jury
testimony. For these reasons, it is apparent that any
further attempt to impeach Goodman or Lang using
their grand jury testimony on this point would have
8
been unsuccessful.
[63] Myers also makes much of the fact that Goodman
told Detective Lang that the wooded area where
Behrman’s remains were found was similar to, or
looked like, the place Myers took her in March 2000
instead of positively identifying the area. At trial,
however, when shown a picture of the area in which
Behrman’s remains were discovered, she responded
“[t]hat’s where he took me.” Trial Transcript at
8

Myers also argues that trial should have used Detective Lang’s
report to impeach his testimony that Goodman recognized a clearing
in the woods. According to Myers, “[Detective] Lang did not
document Goodman’s recognition of a cut-away in his report
prepared contemporaneous with the trip.” Appellant’s Brief at 11.
Myers has not, however, directed our attention to a copy of
Detective Lang’s report appearing in the record. We will not scour
the extremely voluminous record in this case in search of support
for Myers’s contentions on appeal. Because Myers has not
adequately supported this claim with citation to the record, it is
waived. See Smith v. State, 822 N.E.2d 193 (Ind. Ct. App. 2005).
Waiver notwithstanding, at trial, Detective Lang and Goodman
both testified that Goodman recognized the clearing in the woods.
It is unlikely that the possibility that Detective Lang omitted this
fact in his report would have significantly undermined their
testimonies in this regard.

92a
1900. Our review of transcript reveals that trial
counsel did a more than adequate job of calling into
question the reliability of Goodman’s identification
of the area. On cross-examination, trial counsel
elicited the following testimony:
Q. . . . How do you differentiate that picture from
any other picture that’d be taken in the woods?
A.
Because of the way the clearance is.
Q.
How do you rec . . . differentiate that
clearance from any other clearance?
A.
It’s . . . it’s just what looks familiar to me.
Q.
But you don’t know . . . that could be
anywhere, correct?
A.
Yes.
Id. at 1906. Moreover, Detective Lang testified that
Goodman told him that the area “look[ed] more
familiar to [her] that anyplace we’ve been.” Id. at
2413. Because the jury was presented with
testimony that Goodman told Detective Lang that
the area looked familiar instead of positively
identifying the area, as well as with Goodman’s own
testimony that the area just “look[ed] familiar”, id.,
counsel did not perform deficiently by failing to use
Detective Lang’s grand jury testimony to establish
those facts.
[64] Myers also argues that his trial counsel were
ineffective for failing to object to Goodman’s
description of Myers’s behavior during the March
2000 car trip, which he calls “prejudicial 404(b)
testimony”. Appellant’s Brief at 46. Myers does not,
however, cite the applicable language of Indiana

93a
Evidence Rule 404(b) or make any attempt to apply
it. Accordingly, this argument is waived for lack of
cogency. See Davis v. State, 835 N.E.2d 1102, 1113
(Ind. Ct. App. 2005) (explaining that “[a] party
waives an issue where the party fails to develop a
cogent argument or provide adequate citation to
authority and portions of the record”), trans. denied.
[65] To the extent Myers has made a coherent argument
on this point, it essentially boils down to an assertion
that, in light of other testimony suggesting that
Behrman may have been raped, Goodman’s
testimony left the jury with the impression that
Myers had raped her during the March 2000 car trip.
In support of this argument, Myers directs our
attention to Goodman’s testimony that during the
trip, she did not kiss Myers, she wanted to go home,
and that she was afraid, as well as her testimony that
Myers refused to take her home, and that they both
got out of the car and stayed at the location for thirty
to forty-five minutes before Myers finally took her
home. Myers’s argument on this point is
unconvincing. Goodman told the jury what
happened once they reached the clearing in the
woods—she and Myers argued and Myers refused to
take her home, which scared her. Nothing about
Goodman’s testimony implied that she had been
raped.
[66] In any event, it is apparent that the testimony was
admitted to show that Myers was familiar with the
area in which Behrman’s remains were discovered
and to explain why Goodman was still able to
remember the location so vividly several years later,

94a
and not to establish that Myers had a propensity to
commit murder or any other crime. Thus, the
testimony did not violate Evidence Rule 404(b), and
Myers points to no danger of unfair prejudice aside
from his unpersuasive argument that the testimony
left the jury with the impression that Goodman had
been raped. See Embry v. State, 923 N.E.2d 1, 9 (Ind.
Ct. App. 2010) (explaining that “[i]n assessing the
admissibility of 404(b) evidence a trial court must (1)
determine that the evidence of other crimes,
wrongs, or acts is relevant to a matter at issue other
than the defendant’s propensity to commit the
charged act and (2) balance the probative value of
the evidence against its prejudicial effect pursuant
to Indiana Evidence Rule 403”), trans. denied. Thus,
Myers has not established a reasonable probability
that an objection on the basis of Evidence Rule
404(b) would have been sustained, and he is
consequently unable to show that counsel performed
deficiently by failing to object on that basis.
G.
[67] Next, Myers argues that trial counsel were
ineffective for failing to object to testimony
suggesting that Behrman had been raped.
Specifically, forensic pathologist Dr. Stephen
Radentz testified that the condition in which
Berhman’s remains were discovered was consistent
with a classic rape-homicide scenario. Additionally,
Dr. Radentz responded affirmatively to a jury
question asking whether he believed Berhman had
been raped. During follow-up cross-examination by
Myers’s trial counsel, Dr. Radentz admitted that

95a
there was no physical evidence that a rape had
occurred. When questioned further by the State, Dr.
Radentz testified that, based on his training and
experience, he nevertheless believed that Berhman
had been raped because the location and condition of
the remains were consistent with a rape-homicide.
The State referenced Dr. Radentz’s rape testimony
in closing arguments.
[68] On direct appeal, Myers argued that Dr. Radentz’s
references to rape amounted to fundamental error.
Another panel of this court concluded that the
admission of Dr. Radentz’s rape testimony violated
Evidence Rule 403 because Myers was not charged
with rape and there was no physical evidence to
support the rape determination. Myers v. State, 887
N.E.2d 170. The court went on, however, to conclude
that the admission of the evidence did not amount to
fundamental error. Id. The court reasoned as
follows:
We conclude that any error in the
admission of Dr. Radentz’s rape testimony
did not substantially influence the outcome
of the trial. The question of rape was
peripheral to the murder charge and
received relatively minimal attention at
trial. To the extent the possibility of rape
was at issue, defense counsel thoroughly
cross-examined Dr. Radentz, eliciting his
testimony that there was no physical
evidence that Behrman had been raped
and that the only basis upon which he
opined that a rape had occurred was his

96a
training and experience with respect to
circumstances surrounding the general
disposal of human remains. Furthermore,
the trial court excluded all evidence
tending to link Myers to inappropriate
sexual conduct. The references to rape,
therefore, did nothing to implicate Myers
as the perpetrator of this charged crime,
which was the central issue at trial.
Id. at 187.
[69] Myers is correct that this court’s conclusion on
direct appeal that the admission of Dr. Radentz’s
rape testimony did not amount to fundamental error
does not necessarily preclude a finding that
counsel’s failure to object thereto amounted to
ineffective assistance. See Benefield v. State, 945
N.E.2d 791 (Ind. Ct. App. 2011). To establish
fundamental error, a defendant must show that the
alleged error was so prejudicial as to make a fair
trial impossible. Ryan v. State, 9 N.E.3d 663 (Ind.
2014). To satisfy the prejudice element of an
ineffective assistance of counsel claim, on the other
hand, a defendant must establish that there is a
reasonable probability that the result of the
proceeding would have been different but for
counsel’s unprofessional errors. Massey v. State, 955
N.E.2d 247 (Ind. Ct. App. 2011). Thus, this court has
noted “that there is a subtle distinction between the
fundamental error and ineffective assistance
prejudice standards.” Benefield v. State, 945 N.E.2d
at 803. Although the fundamental error standard

97a
“presents a higher bar”, “the two standards may
frequently lead to the same result”. Id. at 804, 803.
[70] This is one such case. For the same reasons this
court on direct appeal concluded no fundamental
error occurred, we also conclude that Myers has not
established prejudice sufficient to warrant a finding
of ineffective assistance of counsel. We agree with
the panel’s conclusion that Dr. Radentz’s rape
testimony did not substantially influence the
outcome of the trial. Accordingly, Myers has not
established a reasonable probability that the
outcome of the trial would have been different but
for counsel’s failure to object.
H.
[71] Next, Myers argues that his trial counsel was
ineffective for failing to object to what he calls
irrelevant and highly prejudicial gun evidence.
Specifically, Myers points to the testimony of Billy
Dodd, Myers’s neighbor at the time of Behrman’s
disappearance, that a number of rifles and shotguns
were kept in a barn near Myers’s trailer.
Additionally, Debbie Bell, Myers’s aunt, testified
that Myers sold her husband a shotgun at Myers’s
father’s funeral in December 2000, several months
after Behrman’s disappearance. Detective Lang
testified that he retrieved that gun from Bell.
Although the record reveals that this gun, as well as
several others that Myers sold or distributed to
relatives, had been stolen from the barn near
Myers’s trailer, the jury was not made aware of that

98a
fact and evidence of Myers’s resulting conviction for
receiving stolen property was excluded.
[72] “Evidence that the defendant had access to a
weapon of the type used in the crime is relevant to a
matter at issue other than the defendant’s
propensity to commit the charged act.” Rogers v.
State, 897 N.E.2d 955, 960 (Ind. Ct. App. 2008),
trans. denied. On the other hand, “[e]vidence of
weapons possessed by a defendant but not used in
the crime for which the defendant is charged should
generally not be introduced because the evidence is
irrelevant and highly prejudicial.” Oldham v. State,
779 N.E.2d 1162, 1174 (Ind. Ct. App. 2002). On
appeal, Myers argues that trial counsel should have
objected to all evidence relating to the guns from the
barn on the basis of relevance because Detective
Lang’s grand jury testimony established that they
were not stolen until November 2000, well after
Behrman’s disappearance, and therefore could not
9
have been the murder weapon. But Detective
Lang’s testimony was hardly conclusive on this
point. Detective Lang testified as follows before the
grand jury:

9

Citing the same portion of the grand jury transcript, Myers also
claims that the State acknowledged during the grand jury
proceedings that the murder weapon was not among the guns taken
from the barn. The transcript contains no such concession, and even
if it did, Myers has not directed our attention to any authority or
made any argument remotely supporting the proposition that the
State would be somehow bound by a statement it made in the midst
of an ongoing grand jury investigation.

99a
I talked to Mr. Maher, [the owner of the
barn], the burglary he reported it
November 2000, which would have been
after the death obviously of [Behrman]. I
asked him if it could be possible that he
would not have known between May and
November when he reported it that any of
those weapons were missing? In his
opinion, he said no. I don’t know. You know
I mean he . . . if they were all missing, I’m
sure he’s correct. If he took one, you know,
it could have been out and he would not
[have] noticed it in my opinion. But, he said
that the air conditioner was removed and
that was what tipped him off that
something was wrong and then he found
the guns were gone, so. He stated that he
made trips to the barn on several occasions
enough between May and November that
he would have known somewhere in
between that time that they would have
been gone.
Grand Jury Transcript at 5483-84.
[73] The post-conviction court found testimony
concerning the guns relevant because they (or at
least one of them) could have been taken during a
previous, undiscovered entry. We agree. Unlike in
Oldham v. State, here there was no conclusive
scientific proof that the weapons at issue were not
used in the crime. The fact that the owner of the
barn believed that he would have noticed if the guns
were stolen prior to Behrman’s death goes to the

100a
weight to be attributed to the evidence, not its
10
admissibility. Thus, Myers has not established that
the gun testimony was irrelevant.
[74] Myers has also failed to establish prejudice arising
from the admission of the gun evidence in this case.
There was other evidence presented at trial to
establish that Myers had access to shotguns like the
one used to kill Behrman. Samuel Myers, Myers’s
brother, testified that he owned a twelve-gauge
shotgun, which he kept at his parents’ house. Samuel
testified further that he noticed that his shotgun was
missing around August of 2000 and that he was
never able to locate the weapon. Myers’s other
brother, Lucas Myers, also testified that Myers had
access to shotguns at their parents’ house, and
Richard Swinney, Myers’s cousin by marriage,
testified that Myers told him that he hunted with a
twelve-gauge shotgun. Accordingly, additional
evidence to the effect that Myers had access to and
possession of such weapons was unlikely to have had
a significant impact on the outcome of the trial.
Moreover, evidence was presented that many people
in the community possessed similar weapons for
hunting purposes and that Myers was himself a
hunter. Thus, Myers’s possession of such weapons,
standing alone, was unlikely to be viewed by the
jury as indicative of dangerousness or criminal
activity. For all of these reasons, Myers has not
established that his trial counsel were ineffective for
failing to object to testimony that guns were stored
10

The owner of the barn did not testify at the PCR hearing.

101a
in a barn near Myers’s trailer and that Myers sold a
shotgun to his uncle.
I.
[75] Myers next argues that trial counsel were
ineffective for failing to object to the testimony of
jailhouse informant John Roell. As we have already
noted, “in order to prevail on a claim of ineffective
assistance due to the failure to object, the defendant
must show a reasonable probability that the
objection would have been sustained if made.”
Passwater v. State, 989 N.E.2d at 773. Myers has not
satisfied-this burden.
[76] Roell testified at trial that he had been Myers’s
cellmate in the Monroe County Jail in May 2005. He
testified further that Myers told him he was waiting
to be questioned by the Indiana State Police
concerning Behrman’s bicycle. According to Roell,
Myers appeared nervous and angry, and at one point
stated “if she wouldn’t have said anything, none of
this probably would have happened.” Trial
Transcript at 2270-71. Roell understood Myers to be
referring to Behrman when he made this statement,
and Roell testified further that Myers referred to
Behrman as a bitch.
[77] Myers contends that counsel should have objected to
Roell’s testimony pursuant to Indiana Evidence
Rule 403. This rule provides, in pertinent part, that
relevant evidence may be excluded “if its probative
value is substantially outweighed by a danger of . . .
unfair prejudice[.]” Ind. Evid. R. 403. “All evidence

102a
that is relevant to a criminal prosecution is
inherently prejudicial; thus proper inquiry under
Evidence Rule 403 boils down to a balance of the
probative value of the proffered evidence against
the likely unfair prejudicial impact of that evidence.”
Fuentes v. State, 10 N.E.3d 68, 73 (Ind. Ct. App.
2014), trans. denied. “When determining the likely
unfair prejudicial impact, courts will look for the
dangers that the jury will (1) substantially
overestimate the value of the evidence or (2) that the
evidence will arouse or inflame the passions or
sympathies of the jury.” Duvall v. State, 978 N.E.2d
417, 428 (Ind. Ct. App. 2012) (quoting Carter v. State,
766 N.E.2d 377, 382 (Ind. 2002)), trans. denied.
[78] The crux of Myers’s argument is that the probative
value of Roell’s testimony was low because he was
not a credible witness due to inconsistencies among
his initial statement to police, his deposition
testimony, and his trial testimony. But it was for the
trier of fact, not the trial court, to judge Roell’s
credibility. Ultimately, Myers’s argument in this
regard goes to the weight to be afforded to Roell’s
testimony, not its admissibility. See Embrey v. State,
989 N.E.2d 1260, 1268 (Ind. Ct. App. 2013)
(“[i]nconsistencies in witness testimony go to the
weight and credibility of the testimony, the
resolution of which is within the province of the trier
of fact” (internal quotation omitted)). Roell’s
testimony, if credited by the trier of fact, was highly
probative of Myers’s guilt.
[79] Myers also argues that the admission of Roell’s
testimony posed a significant danger of unfair

103a
prejudice because, in order to fully impeach Roell,
Myers would have had to use Roell’s prior statement
to police, which contained information more
damaging to Myers’s defense than Roell’s trial
11
testimony. “Unfair prejudice addresses the way in
which the jury is expected to respond to the
evidence; it looks to the capacity of the evidence to
persuade by illegitimate means, or the tendency of
the evidence to suggest decision on an improper
basis....” Ingram v. State, 715 N.E.2d 405, 407 (Ind.
1999) (internal quotation marks omitted).
[80] Nothing in Roell’s testimony was likely to prompt
the jury to convict Myers on an improper basis.
Myers has cited no relevant authority supporting
the proposition that evidence may be considered
unfairly prejudicial because it forces counsel make
difficult strategic decisions with respect to its
impeachment. We decline to develop this argument
on his behalf. Because Myers has not satisfied his
burden of establishing that an objection to Roell’s
testimony on the basis of Evidence Rule 403 would
have been sustained, he has consequently failed to
establish deficient performance and resulting
prejudice.
11

In support of this assertion, Myers cites only the deposition of
Detective Cody Forston of the Bloomington Police Department. In
the deposition, Detective Forston recounted Roell’s statement to
him, noting specifically that Roell told him that Myers had stated
that Behrman had been sexually assaulted and that “if the dumb
bitch would have done what [he] had told her, she wouldn’t be dead
now.” PCR Exhibit 239, p. 14. Roell did not make these statements
in his deposition or trial testimony.

104a
J.
[81] Next, Myers argues that his trial counsel were
ineffective for failing to present all available
evidence tending to establish the guilt of Owings,
Sowders-Evans, and Clouse, and for failing to
investigate and discover additional evidence to that
effect. This argument is nothing more than a request
to substitute Myers’s PCR counsel’s strategic
judgment, informed by hindsight, for that of Myers’s
trial counsel, which we will not do.
[82] In 2002, Owings confessed to the police that she,
Sowders-Evans, and Clouse had killed Behrman. In
the story Owings gave police, she and SowdersEvans were riding around with Clouse in his pickup
truck and using drugs when Clouse struck a girl
riding a bike on Harrell Road. Clouse stopped and
loaded the injured and incapacitated girl into the
back of the truck and wrapped her in plastic secured
with bungee cords before placing the bicycle on top
of her. Owings went on to state that Clouse then
drove them all to Salt Creek, where the three of
them took turns stabbing the girl in the chest before
Clouse and Sowders-Evans pushed the body into the
water. Neither Sowders-Evans nor Clouse ever
confessed to the police, and Owings recanted her
confession after Behrman’s remains were
discovered in Morgan County.
[83] The State called Owings as a witness at Myers’s
trial. Owings testified that when she was questioned
by Detective Lang in April 2003, she denied any
knowledge of Behrman’s disappearance. She

105a
testified further that she had previously lied about
her involvement because she was facing a potential
eighty-six-year sentence for various unrelated
felonies, and her attorney had urged her to come
forward with anything she knew about the case in an
attempt to curry favor with the prosecution. Owings
testified that she had named Clouse and SowdersEvans because “[f]rom the very first time I was
questioned, those were the two names that I was
supposedly to be with [sic] or around at the time of
the said incident. They thought that all three of us
were together.” Trial Transcript at 2094. She also
testified that parts of her testimony were based on
places she had been with Sowders-Evans in the past.
Owings testified further that she had told police that
the body was wrapped in plastic to explain why she
was unable to identify the type of clothing Behrman
had been wearing and that she said they had
disposed of the body in Salt Creek “[b]ecause there’s
so much stuff in there . . . I figured . . .they couldn’t
even dive in it . . . . I knew they wouldn’t find her[.]”
Id. at 2098. Owings stated that she recanted her
confession after Behrman’s remains were
discovered because she believed that scientific
evidence would exclude her.
[84] Additionally, the State introduced into evidence a
letter Owings received from her attorney prior to
her confession. In the letter, Owings’s attorney
painted an exceptionally dire picture of Owings’s
prospects. Specifically, he wrote that “we might be
talking about you being locked up until just about
everyone you know has died of old age.” PCR

106a
Exhibit 301. Her attorney went on to write that he
had heard that Owings might know something about
the Behrman case, and told her “[f]or the sake of
your children, your family, and your own life, if there
is anything you can tell these people the time is
NOW.” Id. He added that he had gotten “the distinct
impression you might not be punished for anything
to do with the Behrman case, and might get
considerably better treatment in these other
matters, if you can help solve this.” Id. He also wrote
that Sowders-Evans, who was apparently also
incarcerated, was trying to get out of jail, and that if
Sowders-Evans talked first, Owings would be
“sunk.” Id.
[85] Myers argues that trial counsel were ineffective for
failing to present certain testimony and witnesses
supporting the theory that Owings, Sowders-Evans,
and Clouse murdered Behrman. Trial counsel Hugh
Baker, however, testified that the defense team
made a strategic decision not to pursue Owings’s
confession as its primary theory of defense.
Specifically, he testified as follows:
. . . [W]e felt that trying to present to a jury
and convince a jury what the Federal
Bureau of Investigations, the Bloomington
Police Department, and the Indiana State
Police had concluded was false was not a
good strategy, that is the Owings’
confession. She’d recanted this confession.
And they hadn’t found Jill Behrman in
the . . . in Salt Creek. Rather, she was
found . . . her remains were found in

107a
Morgan County and she . . . hadn’t died
from drowning but she’d died from 99.9
percent certainty of being shot.
PCR Transcript at 840. For these reasons, a
decision not to pursue the Owings theory would
clearly reflect a reasonable strategic judgment.
Myers, however, asserts that trial counsel did, in
fact, pursue the Owings theory at trial, and it was
therefore deficient performance not to present more
evidence to support it.
[86] The record reveals that trial counsel pursued the
Owings theory to some extent. Hugh Baker elicited
testimony from Owings on cross-examination that
she had discussed Behrman’s disappearance with
several acquaintances and made incriminating
statements to at least one of them. He also elicited
testimony from Owings concerning the substance of
her confession to police, and the fact that she had
first been interviewed in connection with the
Behrman case in June of 2000. Trial counsel also
touched on the Owings theory with other witnesses
throughout trial. Trial counsel elicited testimony
from Dr. Radentz that not all of Behrman’s bones
were recovered, and that it was possible (though
unlikely) for her to have been stabbed without
leaving marks on her skeletal’ remains. Trial counsel
also elicited testimony from Detective Lang and
FBI Agent Gary Dunn that the FBI had drained
part of Salt Creek looking for Behrman’s remains, a
task which took several weeks. A search of the
drained creek yielded a retractable knife, a bungee
cord, and two pieces of plastic sheeting, which were

108a
consistent with items Owings mentioned in her
confession. Trial counsel also elicited testimony from
Agent Dunn that he had received a tip that the body
had been moved and presented evidence that
Papakhian had reported seeing Behrman on Harrell
Road on the morning of her disappearance. In
closing arguments, Patrick Baker told the jury that
there were two theories leading away from Myers’s
guilt and toward that of others—the Owings theory
and the Hollars theory.
[87] Essentially, Myers argues that trial counsel was
obligated to take an all-or-nothing approach to the
Owings theory—either forego it entirely or present
all evidence supporting it. We are unpersuaded by
this argument. It is noteworthy that it was the State
who first informed the jury of Owings and her
recanted confession in its opening statement. The
State did so in an effort to explain the delay in
Myers’s development as the primary suspect, and
presumably to get ahead of any attempt by the
defense to cast suspicion on Owings and her alleged
accomplices. Likewise, it was the State who called
Owings to testify at trial. Under these
circumstances, trial counsel did not act
unreasonably by making a strategic decision to
attempt to present just enough evidence to keep the
possibility of Owings’s involvement alive in the
minds of the jurors, without making the Owings
theory the crux of Myers’s defense. Indeed, it
appears to us that trial counsel’s decision to pursue
the Owings theory to only a limited extent was
actually quite shrewd because it prevented the jury

109a
from being exposed to all of the many conflicting
versions of the story Owings, Sowders-Evans, and
12
Clouse allegedly told. This information might have
resulted not only in the elimination in the jurors’
minds of the possibility that Owings’s confession
was true, but also in trial counsel’s loss of credibility
with the jury. As the State argues in its brief, “the
best counsel could hope for was to keep Owings on
the delicate, razor-thin edge of jurors’ credibility
assessments. That strategy would have been ruined
if counsel had pursued the over-zealous course of
action advocated by Myers in this proceeding.”
Appellee’s Brief at 50. Accordingly, Myers has not
established that trial counsel performed deficiently
13
in this regard.

12

Versions of the story were told in which Behrman was struck by
a pickup truck, a car, and an SUV. Clouse allegedly told a cellmate
that Behrman’s body was wrapped in black plastic, while Owings
had told the police the plastic was off-white. Some versions of the
story varied wildly from Owings’s confession to police. For example,
both Owings and Sowders-Evans allegedly told others that
Behrman’s body had been dismembered, and more than one version
of the story was told in which Behrman was kept in the trunk of a
car for days before being killed. Additionally, Sowders-Evans and
Owings both allegedly told stories of killing Behrman that involved
a completely different cast of characters than that featured in
Owings’s confession to the police. Owings allegedly gave one
account of Behrman’s abduction and murder that included a brutal
rape.
13

To the extent Myers argues that trial counsel failed to investigate
and discover additional evidence supporting the Owings theory, we
conclude that the limitations on the investigation were the result of
trial counsel’s reasonable strategic decision to limit reliance on the
Owings theory. See Strickland v. Washington, 466 U.S. 668.

110a
[88] We also conclude that Myers was not prejudiced by
trial counsel’s decision not to present additional
evidence supporting the Owings theory. Myers
makes no argument that counsel failed to present
any physical evidence—rather, he claims that
counsel should have presented testimony
concerning incriminating statements Owings,
Clouse, and Sowders-Evans made to others, as well
as testimony corroborating parts of Owings’s
confession and evidence that Sowders-Evans fled
14
the state during the investigation. But the jury was
aware of the most powerful evidence against
Owings—her own confession to police. The jury was
also aware that prior to the discovery of Behrman’s
remains, police put enough stock into Owings’s
confession to go to the extreme effort of draining
part of Salt Creek, and that some corroborating
physical evidence was discovered as a result.
Additionally, trial counsel presented evidence that
Papakhian had seen Behrman on Harrell Road on
the date of her disappearance. Moreover, much of
the testimony Myers argues trial counsel should
15
have introduced might have been inadmissible, and
14

Myers also argues that trial counsel should have presented
evidence that Owings, Clouse, and Sowders-Evans gave false or
shaky alibis. We note that Myers has not directed our attention to
any evidence that Sowders-Evans ever provided an alibi. Moreover,
Myers has not directed our attention to any portion of the record
indicating that the jury was presented with evidence that any of the
three had ever provided an alibi. Thus, there was no need for
counsel to impeach those alleged alibis.
15

There are obvious hearsay problems with much of this evidence.
Myers has made no attempt to establish that the statements at issue

111a
much of the evidence Myers argues corroborated
Owings’s confession was shaky and could easily be
explained away by Owings’s testimony that she
based parts of her confession on things that had
16
actually happened.
[89] In any event, even if trial counsel had presented a
parade of credible witnesses to testify that Owings,
Clouse, and/or Sowders-Evans had confessed to
hitting Behrman with a car, wrapping her in plastic,
stabbing her in the chest, and dumping her body in
Salt Creek, the fact remains that the confession
simply did not mesh with the physical evidence.
Behrman’s remains were found in a remote, wooded
fall within an established exception to the hearsay rule, and we
decline to develop this argument on his behalf
16

In her confession, Owings stated that the night before Behrman’s
abduction, she and Sowders-Evans walked to a house at the corner
of Rockport and That Road and asked to use the telephone. Alice
O’Mullane lives at that corner, and she provided an affidavit stating
that she remembered two girls coming to her home after midnight
and asking to use the phone “[s]ome time in 2002”. PCR Exhibit 134.
Owings also testified that Clouse ran a Jeep off Lampkins Ridge
Road while en route to Salt Creek after hitting Behrman with the
truck. DL Poer testified at the PCR hearing that in 2000, she lived
off of Lampkins Ridge Road and drove a Jeep. Poer recalled almost
being run off the road by a red truck in May 2000, but she gave
conflicting statements as to the precise date in May. Owings later
told Detective Lang that she had made up this portion of the story
because she was familiar with the road and knew that people are
often run off the road there. Poer also testified that the stretch of
road was very dangerous. Given these witnesses’ uncertainty
concerning the dates of these events, as well as Owings’s testimony
that she based parts of her story on things that actually happened,
we cannot conclude that this evidence would have had a significant
impact on the jury.

112a
area, not in Salt Creek. There was no evidence that
Behrman had been stabbed or struck by a car, but
there was clear evidence that she had been shot in
the head with a shotgun at the location where her
remains were discovered. Although trial counsel
elicited testimony from Agent Dunn that he had
received a tip that the body had been moved,
evidence was presented that the visibility in Salt
Creek was extremely poor, and even the FBI was
forced to go to the extreme measure of draining the
creek in order to search it. Convincing the jury that
Owings, her alleged accomplices, or their associates
could have managed to remove the body from the
creek would have been challenging, to say the least.
Given the numerous, obvious weaknesses of the
Owings theory, we cannot conclude that the decision
not to pursue the theory to the extent Myers now
advocates resulted in prejudice to Myers.
Consequently, his claim of ineffective assistance of
counsel on this basis fails.
K.
[90] Finally, Myers claims that the cumulative effect of
trial counsel’s errors amounted to ineffective
assistance entitling him to a new trial. We have
reviewed each of Myers’s claims of error in detail
and concluded that none of them amount to
ineffective assistance of counsel. Indeed, most of
Myers’s claims of ineffective assistance are nothing
more than quarrels with trial counsel’s reasonable
strategic decisions. “Alleged ‘[t]rial irregularities
which standing alone do not amount to error do not
gain the stature of reversible error when taken

113a
together.’” Kubsch v. State, 934 N.E.2d at 1154
(quoting Reaves v. State, 586 N.E.2d 847, 858 (Ind.
1992)) (alteration in original). Accordingly, we are
unpersuaded by Myers’s cumulative error
argument.
2.
[91] Next, Myers argues that the State violated his due
process rights by failing to disclose all exculpatory
evidence to the defense. In Brady v. Maryland, the
United States Supreme Court held that “the
suppression by the prosecution of evidence
favorable to an accused upon request violates due
process where the evidence is material either to
guilt or to punishment, irrespective of the good faith
or bad faith of the prosecution.” 373 U.S. 83, 87
(1963). In order to prevail on a Brady claim, the
defendant must establish: “(1) that the prosecution
suppressed evidence; (2) that the evidence was
favorable to the defense; and (3) that the evidence
was material to an issue at trial.” Stephenson v.
State, 864 N.E.2d 1022, 1056-57 (Ind. 2007) (quoting
Conner v. State, 711 N.E.2d 1238, 1245-46 (Ind.
2000)). Under Brady, evidence is considered
material if the defendant establishes a reasonable
probability that the result of the proceeding would
have been different had the State disclosed the
evidence. Stephenson v. State, 864 N.E.2d 1022. The
State will not be found to have suppressed material
information if such information was available to the
defendant through the exercise of reasonable
diligence. Id.

114a
[92] Myers concedes that he cannot identify even one
specific piece of evidence that the State suppressed.
Instead, he asserts that in the course of
investigating Myers’s post-conviction claims, postconviction counsel received over 8,000 pages of
documents directly from the FBI and the
Bloomington Police Department, and the State did
not document transferring any of these materials to
the defense prior to trial in its discovery notices. At
the PCR hearing, however, evidence was presented
that trial counsel received additional discovery that
was not documented by the State. Patrick Baker
testified that discovery was “fluid” and that the
State was not always meticulous in documenting
what materials it had provided. PCR Transcript at
525. Chief Deputy Prosecutor Robert Cline stated
that prior to trial, he provided trial counsel with a
CD containing 3,000 pages of FBI reports, and
possibly other kinds of reports, without
documenting the transfer. Additionally, Patrick
Baker testified that he reviewed boxes of
investigative reports from the FBI, the Indiana
State Police, the Bloomington Police Department,
and the Indiana University Police Department at
17
the Putnamville State Police Post.

17

Myers makes much of the fact that Patrick Baker testified that he
read these reports in the post’s property room. Sergeant
Christopher Lewis, an ISP crime scene investigator, testified that
police reports are not kept in the property room. He testified
further, however, that reports are kept at the Putnamville Post.
Thus, while trial counsel might have been mistaken in stating that
he read the reports in the property room, this in no way establishes

115a
[93] We agree with the post-conviction court’s conclusion
that based on the evidence presented at the PCR
hearing, it is unclear whether trial counsel was
provided with or had access to all of the relevant
investigative reports. Consequently, Myers has not
satisfied his burden of establishing that the State
suppressed such evidence. Moreover, even if we
assume the State failed to disclose some evidence,
without knowing what that evidence was, we cannot
begin to determine whether it was favorable to the
defense and material to an issue at trial, or merely
cumulative of what was disclosed to Myers.
Additionally, Myers has made no attempt
whatsoever to establish that the allegedly
suppressed investigative reports were not available
to him through the exercise of reasonable diligence.
Essentially, Myers asks us to ignore his evidentiary
burden and presume not only that investigative
reports were suppressed, but also that somewhere
among the allegedly suppressed reports, a nugget of
evidence satisfying the requirements of Brady must
exist. This we will not do.
3.
[94] Finally, Myers argues that he is entitled to reversal
of his conviction because the State committed
prosecutorial misconduct at trial. Specifically, he
that he did not view the reports at the Putnamville Post. Sergeant
Lewis testified further that the systems used to track who has
viewed physical evidence held in the property room do not track
who has viewed police reports. Thus, the fact that trial counsel’s
viewing of the police reports was not documented in evidence logs
likewise does not establish that he did not view the reports.

116a
asserts that the State committed prosecutorial
misconduct by knowingly presenting false evidence
and perjured testimony. See Giglio v. United States,
405 U.S. 150, 153 (1972) (explaining that “deliberate
deception of a court and jurors by the presentation
of known false evidence is incompatible with
‘rudimentary demands of justice’” (quoting Mooney
v. Holohan, 294 U.S. 103, 112 (1935)).
[95] Myers has fallen far short of establishing that the
complained-of testimony and evidence were false or
that the State knew as much. But Myers’s claims of
prosecutorial misconduct fail for a more
fundamental reason. “Post-conviction procedures do
not provide a petitioner with an opportunity to
present freestanding claims that contend the
original trial court committed error.” Wrinkles v.
State, 749 N.E.2d 1179, 1187 n.3 (Ind. 2001). Rather,
“‘[i]n post-conviction proceedings, complaints that
something went awry at trial are generally
cognizable only when they show deprivation of the
right to effective counsel or issues demonstrably
unavailable at the time of trial or direct appeal’”
Bunch v. State, 778 N.E.2d 1285, 1289-90 (Ind. 2002)
(quoting Sanders v. State, 765 N.E.2d 591, 592 (Ind.
2002)). “An available grounds for relief not raised at
trial or on direct appeal is not available as a grounds
for collateral attack.” Canaan v. State, 683 N.E.2d
227, 235 (Ind. 1997). Myers has made no attempt to
establish that his claims of prosecutorial misconduct
were demonstrably unavailable at trial or on direct
appeal. His claims of prosecutorial misconduct are

117a
freestanding claims of trial error, and as such are not
cognizable in this PCR proceeding.
[96] Judgment affirmed.
Vaidik, C.J., and Robb, J., concur.

118a
Appendix C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
JOHN MYERS,
Petitioner,
v.
SUPERINTENDENT,
Indiana State Prison,
Respondent.

)
)
)
)
)
)
)
)
)
)

No. 1:16-cv-02023-JRSDML

ORDER GRANTING PETITION
FOR A WRIT OF HABEAS CORPUS
Petitioner John Myers filed a petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254 in this Court
challenging his murder conviction. A jury convicted Mr.
Myers of murder in Morgan County, Indiana in 2006. His
conviction was affirmed by the Indiana Court of
Appeals. He then challenged his conviction in state postconviction proceedings but was unsuccessful. Mr. Myers
now seeks a writ of habeas corpus, arguing that his
counsel provided ineffective assistance during trial, the
State presented false evidence, and the State withheld
exculpatory evidence.

119a
The record presented in this case is massive,
involving several thousand pages of grand jury
proceedings, trial transcripts, state post-conviction
transcripts, and exhibits from those proceedings. The
parties’ briefing spans three hundred pages. The Court’s
lengthy ruling is the product of this record.
After reviewing the record and the parties’ briefs in
detail, the Court concludes that Mr. Myers received
ineffective assistance of counsel at trial in violation of his
Sixth Amendment rights. Most notably, Mr. Myers’s
counsel made false statements to the jury during
opening arguments, which counsel admitted to the
Indiana Supreme Court in a subsequent attorney
disciplinary proceeding. He also failed to object to two
significant categories of evidence that should not have
been presented to the jury. In the end, these serious
errors all but destroyed the defense that trial counsel
presented to the jury and tainted the entire trial.
In denying Mr. Myers’s ineffective-assistance-ofcounsel claim, the Indiana Court of Appeals
unreasonably applied clearly established Federal law as
determined by the United States Supreme Court in
Strickland v. Washington, 466 U.S. 668 (1984), and
Wiggins v. Smith, 539 U.S. 510 (2003). When these
standards are correctly applied, they reveal that Mr.
Myers’s counsel’s errors “so undermined the proper
functioning of the adversarial process that the trial
cannot be relied on as having produced a just result.”
Strickland, 466 U.S. at 686.
A federal habeas court “will not lightly conclude that
a State’s criminal justice system has experienced the

120a
‘extreme malfunctio[n]’ for which federal habeas relief is
the remedy.” Burt v. Titlow, 571 U.S. 12, 20 (2013)
(alteration in original) (citation omitted). But this case
presents a rare instance where this has occurred.
Accordingly, Mr. Myers’s petition for a writ of habeas
corpus is GRANTED. A writ of habeas corpus shall
issue ordering Mr. Myers’s release from custody unless
the State elects to retry Mr. Myers within 120 days of
the entry of Final Judgment in this action.
A new trial will likely come only at considerable
cost—to the State, yes, but, more important, to the
victim’s family and community still wounded by their
tragic loss. Such costs do not enter into the
constitutional analysis; and yet, the Court cannot help
but express its empathy for those who must bear them
for the sake of our Constitution and its protections.
I.

BACKGROUND

The factual background necessary to understand
Mr. Myers’s claims is extensive. The Indiana Court of
Appeals summarized much of the factual and procedural
background in its opinion denying Mr. Myers postconviction relief. The Court will set out that background
here in full and will discuss the factual background
necessary to understand each of Mr. Myers’s claims in
Part II below.
On appeal from the denial of post-conviction relief,
the Indiana Court of Appeals summarized the relevant
factual and procedural history as follows:

121a
The facts underlying Myers’ conviction were set
forth as follows in th[e] [Indiana Court of
Appeals’] opinion arising out of his direct appeal:
In the spring of 2000, John Myers II
lived approximately seven tenths of a
mile from the intersection of North
Maple Grove Road and West Maple
Grove Road, at 1465 West Maple Grove
Road, north of Bloomington in Monroe
County. Myers was on vacation from
work the week of May 29 through June
2.
On the morning of May 31, 2000, Jill
Behrman, an accomplished bicyclist
who had just completed her freshman
year at Indiana University, left her
Bloomington home to take a bicycle
ride. She logged off of her home
computer at 9:32 a.m. Behrman did not
report to the Student Recreational
Sports Center, where she was
scheduled to work from noon to 3:00
p.m. that day, nor did she appear at a
postwork lunch scheduled with her
father and grandparents. Following
nationwide search efforts, Behrman’s
remains were ultimately discovered on
March 9, 2003, in a wooded area near the
intersection of Warthen and Duckworth
Roads in Morgan County. The cause of

122a
her death was ruled to be a contact
shotgun wound to the back of the head.
With respect to the events surrounding
Behrman’s disappearance, one report
indicated that a young woman matching
Behrman’s description was seen riding
her bicycle north of Bloomington on
North
Maple
Grove
Road
at
approximately 10:00 a.m. the morning of
May 31. A tracking dog later
corroborated this report. While another
report placed Behrman south of
Bloomington at 4700 Harrell Road at
approximately
9:38
a.m.,
some
authorities later discounted this report
due to her log-off time of 9:32 a.m. and
the minimum fourteen minutes it would
take to bicycle to Harrell Road. The
tracking dog did not detect Behrman’s
scent trail south of Bloomington.
At approximately 8:30 a.m. on the
morning of May 31, 2000, in the North
Maple Grove Road area, a witness saw
a white “commercial looking” Ford van
without identification on its doors or
sides drive slowly past his driveway on
North Maple Grove Road, heading
south. Two men were inside the van.
This witness saw the van two additional
times that morning by approximately
9:00 a.m. and later identified the van as

123a
“exactly like” a Bloomington Hospital
van.
At some point before noon on May 31,
2000, another witness saw a bicycle
later determined to be Behrman’s lying
off of the east side of North Maple
Grove Road near the intersection of
North Maple Grove Road and West
Maple Grove Road. The location of the
bicycle was approximately one mile
from Myers’ residence and ten and onehalf miles from Behrman’s house.
On May 31, the date of Behrman’s
disappearance,
two
witnesses
separately noted that the windows in
Myers’ trailer were covered, which was
unusual. One of these witnesses also
observed that Myers’ car was parked
fifty yards from its normal location and
remained out of sight from the road for
approximately three days. Myers told
this witness that he had parked his car
in that secluded spot because he did not
want anyone to know he was home.
Myers’ account of his activities during
his vacation week of May 29 through
June 2 was reportedly that he was “here
and there.” Myers’ employer at the time
was
the
Bloomington
Hospital
warehouse, where he had access to two
white panel Ford vans. Besides being

124a
“here and there,” Myers indicated that
he had been mostly at home, that he had
gone to a gas station, and that he had
gone to Kentucky Kingdom but found it
was closed. Myers additionally stated
that he and his girlfriend, Carly
Goodman, had cancelled their plans to
go to Myrtle Beach, South Carolina, and
to Kings Island, Ohio, that week. Phone
calls made from Myers’ trailer on May
31 were at the following times: 9:15 a.m.;
9:17 a.m.; 9:18 a.m.; 10:37 a.m.; 10:45
a.m.; and 6:48 p.m. [Mr. Myers made
these calls.] The calls were to drive-in
theaters and various state parks.
Myers was reportedly almost hysterical
on May 31 and spoke of leaving town
and never coming back. Myers’ aunt,
Debbie Bell, observed that Myers had
been very depressed in the preceding
month and believed that this was due to
problems with his girlfriend. In late
April 2000, Myers had called Bell
because he had been having problems
with his girlfriend and felt like “a
balloon full of hot air about to burst.”
Carly Goodman was Myers’ girlfriend
beginning in approximately late
October 1999. In March of 2000, Myers
took Goodman for a long drive through
Gosport, “over a bridge where there

125a
was a creek and into some woods.”
Myers pulled his car into a clearing in
the woods where the two of them
argued, which scared Goodman.
Although it was nighttime, Goodman
observed the appearance of this
clearing from the car’s headlights. In
late April or early May of 2000,
Goodman broke off her relationship
with Myers. Goodman denied that she
and Myers had ever made plans to go to
Myrtle Beach or to Kings Island the
week of May 29.
On June 5, 2000, Bell again spoke with
Myers. Myers mentioned that a girl had
been abducted in the area, and he was
afraid he would be blamed for it. Myers
further stated that the girl’s bicycle had
been found about a mile from his house
and that “they blame [him] for
everything.”
Myers
additionally
asserted, “[T]hey haven’t found her
body yet” and guessed that the girl was
dead. In that same conversation, Myers
indicated that he had been stopped by a
roadblock and was “scared” of
roadblocks, but he later changed his
mind, laughed, and said he was not
really “scared.”
Following a tip due to this conversation,
on June 27, 2000, Detective Rick

126a
Crussen of the Bloomington Police
Department interviewed Jodie [Myers]
and Myers’ father, John Myers Sr., at
their residence at 3909 West Delap
Road. The following day, Detective
Crussen interviewed Myers.
On June 27, 2000, immediately after
Detective Crussen interviewed Myers’
parents and the day before he
interviewed Myers, Myers called his
grandmother, Betty Swaffard, and
asked to borrow $200. Myers told
Swaffard he was unable to come to her
house for the money because there were
roadblocks on Maple Grove Road, and
he did not want to leave his home.
Myers additionally stated that he was a
suspect
in
the
Jill
Behrman
disappearance. Myers did not come to
Swaffard’s home for the money.
In July 2000, Bell noticed that John
Myers Sr. was unusually nervous and
agitated when in Myers’ presence.
Sometime in approximately August of
2000, Myers’ brother, Samuel, who
owned a twelve-gauge shotgun and had
stored it at his parents’ house on Delap
Road since approximately 1997, noted
that the gun was missing.
Myers raised the topic of Behrman’s
disappearance multiple times and in

127a
multiple contexts following
her
disappearance.
Before
Detective
Crussen interviewed him, Myers falsely
stated to his Bloomington Hospital
supervisor that police had questioned
him in connection with Behrman’s
disappearance because her bicycle was
found close to his home. Also in June of
2000, Myers stated to a co-worker that
he wondered whether authorities had
investigated a barn in a field located on
Bottom Road off of Maple Grove Road.
Additionally,
some
weeks
after
Behrman disappeared, Myers told
another co-worker during a delivery
run that Behrman’s bicycle was found in
his neighborhood, and that Behrman
was probably abducted near that site.
Later in 2000 or 2001, while driving with
his then-girlfriend, Kanya Bailey,
Myers directed Bailey’s attention to a
location a short distance from his
mother’s residence and stated he had
found Behrman’s bicycle there.
In the late spring to late summer of
2001, Myers again raised the topic of
Behrman’s disappearance with another
co-worker. As the two were driving on
Bottom and Maple Grove Roads, Myers
pointed out where he lived and stated
that Behrman’s bicycle had been found
close to where he used to live. A short

128a
time later, while on Maple Grove Road,
Myers stated that if he was ever going
to hide a body he would hide it in a
wooded area up “this way,” pointing
north. On another occasion, Myers
stated to this co-worker that he knew of
someone in Florida who had Behrman’s
identification card or checkbook.
Sometime in November or December of
2001, Myers raised the topic of
Behrman’s disappearance with a family
member, indicating his bet that
Behrman would be found in the woods.
During this conversation, Myers
further indicated his familiarity with
the Paragon area and with Horseshoe
Bend, where he liked to hunt.
Also in 2001, Myers stated to his
mother, Jodie, that he had been fishing
in a creek and had found a pair of
panties and a bone in a tree. Jodie
suggested that this might be helpful in
the Behrman case, and Myers agreed to
call the FBI. FBI Agent Gary Dunn
later returned the call and left a
message. Myers told Jodie that they
should save the answering machine tape
in case they were questioned.
Sometime in 2002, Wendy Owings
confessed to Behrman’s murder,
claiming that she, Alicia Sowders-

129a
Evans, and Uriah Clouse struck
Behrman with a car on Harrell Road,
stabbed her with a knife in her chest and
heart, wrapped her body in plastic tied
with bungee cords, and disposed of her
body in Salt Creek. In September 2002,
authorities drained a portion of Salt
Creek. They found, among other things,
a knife, a bungee cord, and two sheets of
plastic. Owings later recanted her
confession.
On March 27, 2002, Myers, who at the
time was in the Monroe County Jail on
an unrelated charge, told Correctional
Officer Johnny Kinser that he had found
some letters in some food trays one
morning that he believed Kinser should
look at, apparently in connection with
the Behrman disappearance. Myers said
he felt bad about what had happened to
that “young lady” and that he wished to
help find her if he could. Myers
additionally compiled a list of places
potentially
providing
clues
to
Behrman’s location. Indiana State
Police
Trooper
James
Minton
investigated the list, including gravel
pits off of Texas Ridge Road between
Stinesville and Gosport. A route from
Gosport to the intersection of Warthen
and Duckworth Roads in Morgan
County passes by Horseshoe Bend.

130a
On March 9, 2003, Behrman’s remains
were discovered by a hunter in a
wooded area near the intersection of
Warthen and Duckworth Roads in
Morgan County approximately thirtyfive to forty yards from a clearing in the
timber north of Warthen Road.
Authorities recovered approximately
half of the bones in Behrman’s skeleton.
No soft tissue remained. Six rib bones
were among the bones missing from her
skeleton. There was no evidence of stab
or knife wounds, nor was there evidence
of blunt force trauma. Investigators
recovered a shotgun shell wadding from
the scene, as well as 380 number eight
shot lead pellets. The wadding found at
the scene was typical of a twelve-gauge
shotgun shell wadding. The cause of
Behrman’s death was ruled to be a
contact shotgun wound to the back of
the head. Scattered skull fragments and
the presence of lead pellets in a variety
of places, together with certain soil
stains
consistent
with
body
decomposition, suggested that after
being shot, Behrman’s body had come to
rest and had decomposed at the spot
where it was found. No clothing was
found at the scene. There is nothing in
the record to clarify whether Behrman’s
clothing, if it had been left at the scene,
would or would not have completely

131a
disintegrated prior to her body being
found.
In March 2003, Myers told another coworker, who had brought a newspaper
to work announcing the discovery of
Behrman’s remains, that the woods
pictured in the newspaper article looked
familiar to him, and that he had hunted
there before. According to this coworker, the woods pictured in the
newspaper article did not appear
distinctive. Myers also stated that it
was good that Behrman had been found
and that he was surprised that he had
not been contacted because he knew the
people who police thought had
committed the crime. Myers knew
Wendy Owings, who had falsely
confessed to the crime, as well as Uriah
Clouse and Alicia Sowders-Evans.
Myers had a “cocky” tone of voice when
he made these comments, according to
the co-worker.
More than a year later, in November
2004, Myers called his grandmother,
Swaffard. Myers, who was upset and
stated that he needed time to himself,
said to Swaffard, “Grandma, if you just
knew the things that I’ve got on my
mind. [I]f the authorities knew it, I’d be
in prison for the rest of my life.” Myers

132a
further stated that his father, John
Myers Sr., “knew” and had “[taken] it to
the grave with him.” Subsequently,
when Myers arrived at Swaffard’s
house, he said with tears in his eyes,
“Grandma, I wish I wasn’t a bad person.
I wish I hadn’t done these bad things.”
Indiana State Police Detectives Tom
Arvin and Rick Lang interviewed
Myers again on May 2, 2005. During this
taped interview, Myers denied having
told anyone in his family that he was
“scared” of the roadblocks or that he
had talked to anyone besides the police
about the case. Also in May of 2005,
Myers, who was again in the Monroe
County Jail on an unrelated charge,
mentioned to his bunkmate that the
state police were investigating him
because Behrman’s bicycle had been
found in the vicinity of his house. Myers
made approximately three or four
references to Behrman’s bicycle and
was nervous and pacing at the time.
During that conversation, Myers, who
was also angry, made reference to the
“bitch,” and stated to this bunkmate,
“[I]f she [referring to Behrman]
wouldn’t have said anything, . . . none of
this would have happened.”

133a
On February 17, 2006, Detective Lang
took Goodman on a thirty-six-mile drive
north of Myers’ home on Maple Grove
Road and into rural Morgan County.
Goodman recognized a clearing in the
woods near the corner of Warthen and
Duckworth
Roads,
approximately
thirty-five to forty yards from where
Behrman’s remains were discovered, as
the place that Myers had driven her in
March 2000.
Myers v. State, 887 N.E.2d 170, 176-80 (Ind. Ct.
App. 2008) [(“Myers I”)] (footnotes and citations
to the record omitted), trans. denied.
Myers v. State, 33 N.E.3d 1077, 1083-88 (Ind. Ct. App.
1
2015) (footnote omitted) (“Myers II”).
Various law enforcement agencies began
investigating Ms. Behrman’s disappearance after she
was reported missing, including the Bloomington Police
Department and the Indiana State Police and agencies
from surrounding counties. Agent Gary Dunn of the
Federal Bureau of Investigation (“FBI”) became
involved in the search for Ms. Behrman on June 4, 2000,
and was the lead investigator until his retirement in
1

The Indiana Court of Appeals in Myers I stated that Mr. Myers’s
mother, Jodie Myers, made the phone calls from Mr. Myers’s trailer
the day Ms. Behrman disappeared. But in Myers II, the Indiana
Court of Appeals recognized that this was incorrect. 33 N.E.3d at
1085 n.1. It is undisputed that Mr. Myers made these calls, and thus
the Court altered the above recitation of the facts to so reflect.

134a
January 2003. Ms. Behrman’s remains were discovered
in March 2003. From this time through trial, Indiana
State Police Detectives Rick Lang and Tom Arvin lead
the investigation.
Mr. Myers was indicted by a grand jury for murder
in April 2006. A twelve-day jury trial began on October
16, 2006. Mr. Myers was found guilty and sentenced to
sixty-five years’ imprisonment. Mr. Myers’s conviction
was affirmed on direct appeal. See Myers I, 887 N.E.2d
at 197.
Mr. Myers petitioned for post-conviction relief in
state court. The state post-conviction court denied relief.
The Indiana Court of Appeals affirmed the denial of
post-conviction relief. See Myers II, 33 N.E.3d at 1083.
Mr. Myers filed a petition to transfer with the Indiana
Supreme Court, and it denied transfer on November 10,
2015. See Myers v. State, 40 N.E.3d 858 (Ind. 2015). He
then filed the instant petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. The parties have submitted
five briefs, and Mr. Myers’s habeas petition is now ripe
for ruling.
II.

LEGAL STANDARDS

A federal court may grant habeas relief only if the
petitioner demonstrates that he is in custody “in
violation of the Constitution or laws . . . of the United
States.” 28 U.S.C. § 2254(a). The Antiterrorism and
Effective Death Penalty Act (“AEDPA”) of 1996 directs
how the Court must consider petitions for habeas relief
under § 2254. “In considering habeas corpus petitions
challenging state court convictions, [the Court’s] review

135a
is governed (and greatly limited) by AEDPA.” Dassey v.
Dittmann, 877 F.3d 297, 301 (7th Cir. 2017) (en banc)
(citation and quotation marks omitted). “The standards
in 28 U.S.C. § 2254(d) were designed to prevent federal
habeas retrials and to ensure that state-court
convictions are given effect to the extent possible under
law.” Id. (citation and quotation marks omitted).
A federal habeas court cannot grant relief unless the
state courts’ adjudication of a federal claim on the
merits:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
28 U.S.C. § 2254(d).
“The decision federal courts look to is the ‘last
reasoned state-court decision’ to decide the merits of the
case, even if the state’s supreme court then denied
discretionary review.” Dassey, 877 F.3d at 302 (quoting
Johnson v. Williams, 568 U.S. 289, 297 n.1 (2013)).
“Deciding whether a state court’s decision ‘involved’ an
unreasonable application of federal law or ‘was based on’
an unreasonable determination of fact requires the
federal habeas court to train its attention on the
particular reasons—both legal and factual—why state

136a
courts rejected a state prisoner’s federal claims, and to
give appropriate deference to that decision[.]” Wilson v.
Sellers, 138 S. Ct. 1188, 1191-92 (2018) (citation and
quotation marks omitted). “This is a straightforward
inquiry when the last state court to decide a prisoner’s
federal claim explains its decision on the merits in a
reasoned opinion.” Id. “In that case, a federal habeas
court simply reviews the specific reasons given by the
state court and defers to those reasons if they are
reasonable.” Id.
“For purposes of § 2254(d)(1), an unreasonable
application of federal law is different from an incorrect
application of federal law.” Harrington v. Richter, 562
U.S. 86, 101 (2011). “A state court’s determination that a
claim lacks merit precludes federal habeas relief so long
as fairminded jurists could disagree on the correctness
of the state court’s decision.” Id. “If this standard is
difficult to meet, that is because it was meant to be.” Id.
at 102. “The issue is not whether federal judges agree
with the state court decision or even whether the state
court decision was correct. The issue is whether the
decision was unreasonably wrong under an objective
standard.” Dassey, 877 F.3d at 302. “Put another way,
[the Court] ask[s] whether the state court decision ‘was
so lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.’” Id.
(quoting Richter, 562 U.S. at 103). “The bounds of a
reasonable application depend on the nature of the
relevant rule. The more general the rule, the more
leeway courts have in reaching outcomes in case-by-case
determinations.” Schmidt v. Foster, 911 F.3d 469, 477

137a
(7th Cir. 2018) (en banc) (citation and quotation marks
omitted).
III. DISCUSSION
Mr. Myers raises three constitutional claims in his
2
habeas petition: (1) trial counsel provided ineffective
assistance in violation of the Sixth Amendment; (2) the
State violated his due process rights by presenting false
evidence to the jury; and (3) the State violated his due
process rights by failing to disclose all exculpatory
evidence. The respondent maintains that Mr. Myers is
not entitled to habeas relief on any of these claims. The
Court concludes that Mr. Myers is entitled to relief on
his ineffective-assistance-of-counsel claim, and thus the
Court will not reach his other two claims.
A criminal defendant has a right under the Sixth
Amendment to effective assistance of counsel. See
Strickland, 466 U.S. at 687. For a petitioner to establish
that “counsel’s assistance was so defective as to require
reversal,” he must make two showings: (1) that counsel
2

Mr. Myers was represented by Patrick Baker, Hugh Baker, and
Mike Keifer. The Court will use the term “trial counsel” and the
pronoun “he” to refer to all three attorneys but will refer to the
attorneys by name when appropriate or necessary. Patrick Baker
and Hugh Baker represented Mr. Myers during trial, with Patrick
Baker serving as lead counsel. Mike Keifer only entered an
appearance to read the grand jury transcripts. He testified during
the post-conviction hearing that he read no more than half of the
grand jury transcripts and shared comments on them and that he
may have assisted with the jury questionnaires, but he declined
Patrick Baker’s offer to assist with trial because he did not have
time. See PCR Tr. 1071-73.

138a
rendered deficient performance that (2) prejudiced the
petitioner. Id. “This inquiry into a lawyer’s performance
and its effects turns on the facts of the particular case,
which must be viewed as of the time of counsel’s
conduct.” Laux v. Zatecky, 890 F.3d 666, 673-74 (7th Cir.
2018) (citation and quotation marks omitted). “As for the
performance prong, because it is all too easy to conclude
that a particular act or omission of counsel was
unreasonable in the harsh light of hindsight, Strickland
directs courts to adopt a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. at 674 (citation
and quotation marks omitted). “The prejudice prong
requires the defendant or petitioner to ‘show that there
is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would
have been different.’” Id. (quoting Strickland, 466 U.S.
at 694).
The Indiana Court of Appeals in Myers II resolved
several of the instances where Mr. Myers asserted his
counsel provided ineffective assistance by addressing
only one of the two Strickland prongs. In these
instances, this Court reviews the unaddressed prong de
novo rather than through AEDPA’s deferential lens. See
Harris v. Thompson, 698 F.3d 609, 625 (7th Cir. 2012)
(“[When] the state courts address one prong of the twoprong Strickland v. Washington test for ineffective
assistance of counsel[] but not the other[,] . . . federal
courts apply AEDPA deference to the prong the state
courts reached but review the unaddressed prong de
novo.”); Sussman v. Jenkins, 636 F.3d 329, 350 (7th Cir.
2011) (“[I]f a state court does not reach either the issue

139a
of performance or prejudice on the merits, then “federal
review of this issue ‘is not circumscribed by a state court
conclusion,’ and our review is de novo.” (citation and
quotation marks omitted)); see also Porter v. McCollum,
558 U.S. 30, 38 (2009); Rompilla v. Beard, 545 U.S. 374,
390 (2005).
The Indiana Court of Appeals in Myers II assessed
each allegation of ineffective assistance individually,
denying it on either the performance prong, the
prejudice prong, or both. But as discussed in further
detail below, if counsel rendered deficient performance
in multiple respects, the prejudice from each error
cannot be adjudged in isolation. See Hooks v. Workman,
689 F.3d 1148, 1188 (10th Cir. 2012) (noting that
resolving each allegation of ineffective assistance on
prejudice grounds is “not . . . sufficient to dispose of [an
ineffective assistance] claim because a further analysis
of ‘cumulative prejudice’ [is] necessary”). The prejudice
inquiry requires the Court to “evaluate the totality of
the available . . . evidence—both that adduced at trial
and the additional available evidence that adequate
counsel would have procured.” Harris, 698 F.3d at 648.
“The ‘predictive judgment’ [required by Strickland’s
prejudice analysis] does not depend ‘on the notion that a
single item of omitted evidence . . . would require a new
hearing.’” Id. (quoting Williams v. Taylor, 529 U.S. 362,
397 (2000)). Instead, the Court “ must assess ‘the totality
of the omitted evidence’ under Strickland rather than
the individual errors,” Washington v. Smith, 219 F.3d
620, 634-35 (7th Cir. 2000) (quoting Strickland, 466 U.S.
at 695), and determine whether trial counsel’s

140a
unprofessional errors prejudiced the defense, id.
(citation and quotation marks omitted).
Accordingly, the Court will not assess each
allegation of ineffective assistance in isolation. Instead,
the Court will first determine whether trial counsel’s
performance was deficient in each of the ways alleged by
Mr. Myers. The Court will then consider whether the
cumulative impact of all trial counsel’s errors prejudiced
Mr. Myers.
A. Deficient Performance
Mr. Myers contends that trial counsel provided
deficient performance in thirteen different ways.
Ultimately, the Court concludes that trial counsel’s
performance was deficient in three respects: he made
two false statements to the jury during opening, he
failed to object to inadmissible bloodhound evidence, and
he failed to object to evidence that Ms. Behrman was
raped before she was murdered. In the end, the
cumulative prejudice flowing from these errors is
sufficient to entitle Mr. Myers to relief. Therefore, the
Court need not definitively decide two of the allegations
of deficient performance. Nevertheless, all thirteen
allegations of deficient performance, including those not
ultimately decided, are discussed in turn.
1.

Presentation of Mr. Myers’s Interview with
Law Enforcement

Mr. Myers first argues that trial counsel’s
performance was deficient for failing to present a
portion of his interview by law enforcement to the jury.

141a
The Court begins with how and what portions of Mr.
Myers’s interview were presented to the jury.
Mr. Myers was twice interviewed by law
enforcement regarding Ms. Behrman’s murder on May
2, 2005, for a total of five hours. The first portion of this
interview, conducted by Detective Lang and Detective
Arvin, occurred before Mr. Myers was arrested for an
unrelated offense (the “pre-arrest interview”). After he
was arrested and booked into jail, the interview
continued with those two detectives and Detective Heck
(the “post-arrest interview”). The parties and trial judge
discussed this interview and the redaction of it on
several occasions throughout the trial. See, e.g., Trial Tr.
3
407-09, 1391-96, 1861-69, 2314-18.
Ultimately, a
redacted portion of the pre-arrest interview was played
for the jury. See id. at 2390; Trial Ex. 96B. But the jury
did not hear any portion of the post-arrest interview.
During both the pre- and post-arrest interviews, Mr.
Myers consistently denied any involvement in Ms.
Behrman’s murder and disclaimed any knowledge of it.
The jury heard many of these denials during the portions
of the pre-arrest interview played during trial. For
example, the jury heard Mr. Myers state he does not
have “a clue” about the case, Trial Ex. 96B at 13; that he
3

The Court uses the following citation format throughout this
Order: “Trial Tr.” – Trial Transcripts; “Trial Ex.” – State’s Trial
Exhibit; “D. Trial Ex.” – Defendant’s Trial Exhibit; “DA App.” –
Direct Appeal Appendix; “PCR Tr.” – Post-Conviction Hearing
Transcript; “PCR Ex.” – Post-Conviction Exhibit; “GJ Tr.” – Grand
Jury Transcript (admitted as PCR Ex. 248); “GJ Ex.” – Grand Jury
Exhibit (admitted as PCR Ex. 244).

142a
has “never . . . been around any of this,” has “no
knowledge of [it],” and that if he did he “would be more
than happy” to tell them about it, id. at 89; when asked
about his DNA, that they would “not find any of [his]
DNA anywhere because [he has] got nothing to do with
[it],” id. at 91; and, even though detectives pretended to
have a letter from Mr. Myers’s father stating that Mr.
Myers confessed to him, Mr. Myers denied confessing to
his father because he “didn’t have anything to do with
the Behrman case and [has] no knowledge other than
what [he] ha[d] seen in the newspapers and what [he]
ha[d] heard [as] street rumor,” id. 91-92.
Because trial counsel agreed not to submit any of the
post-arrest interview to the jury, they did not hear any
of Mr. Myers’s denials during that interview. Mr. Myers
argues that trial counsel provided deficient performance
by agreeing not to redact and present the post-arrest
interview to the jury. He maintains that this was the
“most exculpatory” portion of the interview because it
contains “ten denials” of his involvement in Ms.
Behrman’s murder. Filing No. 9 at 24.
Mr. Myers indeed continued to assert his innocence
throughout the post-arrest interview. For example,
after the detectives told Mr. Myers they were going to
test his DNA against evidence they had recovered, Mr.
Myers asked if he would get to leave after the DNA
“comes back and proves that I’m telling the truth here.”
PCR Ex. 305A at 139. Later during the post-arrest
interview, Mr. Myers continued to assert his innocence,
stating “I didn’t kill Jill Behrman and I have no
involvement with Jill Behrman . . . I don’t know how to

143a
convince you of that,” id. at 204, and “I hate being a
broken record for you all but I don’t . . . not only was I
not involved but my knowledge is . . . at zero,” id. at 229.
The parties had multiple discussions about the May
2 interview and redacting it for the jury during the trial.
These discussions provide necessary context for
understanding the Indiana Court of Appeals’ decision on
this allegation of deficient performance and Mr. Myers’s
arguments as to why it was flawed. At the outset of trial,
it appears trial counsel did not realize that certain
statements the State attributed to Mr. Myers were from
the May 2 interview. See Trial Tr. 407. This is supported
by the State’s representation that trial counsel was
instructed by the trial judge to redact the statement but
had not yet done so. See id. at 408. The trial judge asked
Patrick Baker whether he had redacted the statement,
and although he responded “[i]n part,” he immediately
clarified that he was referring to “what we addressed
here today,” which was very little, if any, of the
statement. Id. at 409.
On the morning of the fifth day of trial, Friday,
October 20, 2006, the parties again discussed the
redaction of the May 2 interview because the State had
filed a motion to impose a deadline on trial counsel to
redact the interview. See Trial Tr. 1391. After some
initial confusion by trial counsel as to whether he had
“the entire” statement, trial counsel acknowledged that
he did. Id. at 1394-95. Trial counsel informed the trial
court that the redaction would be complete on the
following Monday morning, October 23. Id. at 1396.

144a
On the morning of October 23, Hugh Baker informed
the trial court that he “spent all day yesterday reviewing
the statement of . . . the defendant,” and he would have
the proposed redactions complete “by noon” or
“certainly by the end of the day.” Id. at 1861. Hugh
Baker forewarned the trial court that he found much of
the interview objectionable; for example, he pointed out
that “there are numerous numerous pages where the
interrogator is not asking questions but is simply
engaging in . . . psycho babble, attempting to extricate a
confession.” Id. at 1862. After Hugh Baker said the
interview was 246 pages, the State interjected that an
agreement had been reached with Patrick Baker that
they would stop at page 136 (i.e., the end of the prearrest interview). Id. at 1863. Patrick Baker stated that
he made no such agreement. Id. The trial judge then
questioned why they would spend time redacting the
pages after page 136 if they were only presenting up
through page 136, to which Hugh Baker responded, “we
probably can live with that.” Id. at 1864.
Hugh Baker elaborated on his decision to not
present any of the post-arrest interview: “I’ve reviewed
the [interview] carefully because I wanted to look at the
number of times that the Defendant denied being
involved in this and . . . the tactics used.” Id. He then
explained that as long as he could question Detective
Lang how long the entire interview lasted, he did not
need to present the specific contents of the post-arrest
interview. Id. at 1865-68; see also id. at 2317 (trial
counsel arguing to the trial court, “I don’t think it’s
misleading that the exact questioning [during the postarrest interview] is redacted. The time period is what is

145a
crucial here.”). The trial court suggested that if they only
presented the pre-arrest interview, the length of the
post-arrest interview was irrelevant. Id. at 1868-69. In
the end, Hugh Baker agreed with the trial court that he
would focus on the first 136 pages, and the trial court
would “hear objections if you start drilling into other
stuff.” Id. at 1869.
Despite this conversation, trial counsel began its
cross-examination of Detective Arvin by asking him the
length of the full interview. Detective Arvin testified,
“there were two interviews that I was present for. The
first one was approximately an hour and a half maybe.
And the other one was probably an hour, hour and
fifteen minutes.” Id. at 2211. Although Detective Arvin
underestimated the total length of the two interviews
(which was approximately five hours), he alerted the
jury to the fact that there were two interviews that
together lasted substantially longer than the interview
the jury would hear.
Detective Arvin’s testimony led the State to file a
motion in limine on the morning of October 25. The State
moved to prohibit, among other things, references to the
length of the interview since the post-arrest interview
would not be presented to the jury. Id. at 2314-15. After
some discussion, the trial court granted the motion, and
instructed trial counsel to “frame your questions
focusing on not specific time periods but the interview
took [a] long time,” thus allowing trial counsel to say that
it went on for a “very long time,” but “without specifying
five hours.” Id. at 2318.

146a
Again, Mr. Myers maintains that trial counsel
provided deficient performance by agreeing to not
present the post-arrest interview to the jury. The
Indiana Court of Appeals addressed this claim on the
merits in Myers II, concluding that trial counsel’s
performance was not deficient nor was Mr. Myers
prejudiced by it. It found, in relevant part:
We have reviewed both the redacted and
unredacted interrogation, and Myers has not
established either deficient performance or
prejudice stemming from the redaction of the
post-arrest
interview.
The
post-arrest
interview contained several long monologues in
which the interviewer attempted to appeal to
Myers’ moral sensibilities, followed by
relatively short responses from Myers. Some of
these monologues spanned several pages of
transcript and made specific reference to Myers’
past substance abuse and recovery process. The
trial court described the post-arrest interview
as largely filled with “a lot of irrelevant
gibberish” that “add[ed] nothing to the factual
determination in this case.” Trial Transcript at
26. We think this is a fair characterization.
Although Myers continued to proclaim his
innocence in the post-arrest interview, his
denials of involvement were merely cumulative
of his previous statements in the pre-arrest
interview, which the jury heard. Myers also
made statements in the post-arrest interview
that the jury could have viewed as flippant
under the circumstances. For example, at one

147a
point, Myers stated, “you know, as we’re sitting
there talking, I’m thinking cigarettes, I’m
thinking coffee[.]” PCR Exhibit 305A at 154. It
was not deficient performance for trial counsel
to agree to redact the post-arrest interview in
its entirety because it could have harmed Myers
and, in any event, would have added little, if
anything, to the pre-arrest interview. For the
same reason, Myers was not prejudiced by the
redaction.
Myers II, 33 N.E.3d at 1090.
Mr. Myers contends that the Indiana Court of
Appeals’ decision is an unreasonable application of
Strickland. As an initial matter, Mr. Myers appears
correct that trial counsel did not review the entire
interview until five days into trial. See Filing No. 33 at
20-23. This is, at minimum, troubling. But while this
failure perhaps informs trial counsel’s approach to the
post-arrest interview, it is not the core of Mr. Myers’s
claim. Rather, his claim is that trial counsel provided
deficient performance by failing to present the postarrest interview to the jury. See Filing No. 9 at 24.
As to this specific claim, the record reveals that trial
counsel agreed to not present the post-arrest interview
to the jury only after he had reviewed the entire
interview. Id. at 1861. Trial counsel did so on the basis
that he could still question law enforcement regarding
the length of both interviews. Although the trial court
ultimately ruled that such questions were inappropriate,
id. at 2318, it did so only after trial counsel elicited from
Detective Arvin that there were two interviews that

148a
together were significantly longer than the audio clip the
jury would hear, id. at 2211. Thus, trial counsel’s
objective was at least partially achieved.
In light of the foregoing, it is difficult to see how Mr.
Myers has carried his burden to establish that the
Indiana Court of Appeals’ resolution of the performance
4
prong was an unreasonable application of Strickland.
As correctly explained by the Indiana Court of Appeals,
“the post-arrest interview contained several long
monologues in which the interviewer attempted to
appeal to Myers’s moral sensibilities, followed by
relatively short response from Myers.” Myers II, 33
N.E.3d at 1090; see, e.g., PCR Ex. 305A at 219-27. Mr.
Myers is correct that the post-arrest interview also
contained several additional denials of his involvement
with Ms. Behrman’s murder, but the Indiana Court of
Appeals again correctly observed that “his denials of
involvement were merely cumulative of his previous
statements in the pre-arrest interview, which the jury
heard.” Myers II, 33 N.E.3d at 1090. Finally, the Indiana
Court of Appeals was correct that Mr. Myers made
statements during the post-arrest interview that the
jury may have viewed as flippant, such as his statement,
“‘you know, as we’re sitting there talking, I’m thinking

4

To the extent that Mr. Myers argues that his counsel’s failure
permitted the State to present a false picture of the May 2
interview, that argument is addressed below.

149a
5

cigarettes, I’m thinking coffee.’” Id. (quoting PCR Ex.
305A at 154); see also, e.g., PCR Ex. 305A at 186.
To summarize, Mr. Myers’s trial counsel decided
that he need not present the post-arrest interview—
even though he knew it contained additional denials of
involvement that were generally helpful, see PCR Tr.
593—so long as he could put before the jury the length
of the interrogation and the tactics used, which he at
least did in part. This allowed him to attack the methods
used to interrogate Mr. Myers, while not presenting the
jury with cumulative denials that were mixed in
amongst certain unfavorable statements by Mr. Myers
and “several long monologues,” id., or in trial counsel’s

5

Mr. Myers argues that, had trial counsel’s performance not been
deficient, much of the unfavorable portions of the post-arrest
interview would have been redacted, as was true for the pre-arrest
interview. This is undoubtedly true for certain portions of the postarrest interview. For example, the trial court excluded all reference
to polygraphs, Trial Tr. 331, so such references in the post-arrest
interview would not have been presented to the jury. But Mr.
Myers does not explain on what basis other unfavorable portions of
the post-arrest interview would have been redacted. This is true not
only for the “I’m thinking cigarettes” comment on which the Indiana
Court of Appeals relied, but also similarly unfavorable comments.
For example, Mr. Myers responded to a lengthy monologue by
Detective Heck— during which he stated that Mr. Myers’s body
language showed he wanted to “get rid” of his burden caused by his
involvement in Ms. Behrman’s murder—by stating, “My body
language wants a cigarette.” PCR Ex. 305A at 186. Thus, Mr. Myers
has failed to show that the Indiana Court of Appeals was mistaken
in concluding that portions of the post-arrest interview would not
be favorable to Mr. Myers.

150a
6

words, “numerous pages . . . [of] psycho babble.” Trial
Tr. 1862. The Indiana Court of Appeals relied on these
factors to conclude that trial counsel’s performance was
not deficient because his approach to the post-arrest
interview was a reasonable trial strategy.
The Supreme Court made clear in Strickland that
“strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually
unchallengeable[.]” Strickland, 466 U.S. at 690-91; see
United States v. Jansen, 884 F.3d 649, 656 (7th Cir. 2018)
(“Generally when an attorney articulates a strategic
reason for a decision, the court defers to that choice.”
(citation and quotation marks omitted)). Because the
record is not inconsistent with its assessment that trial
counsel made a strategic decision not to present the
post-arrest interview to the jury, the Indiana Court of
Appeals did not unreasonably apply Strickland.

6

Mr. Myers argues that the Indiana Court of Appeals engaged in
post-hoc rationalization of trial counsel’s strategy, which is
forbidden when assessing counsel’s performance. See Wiggins v.
Smith, 539 U.S. 510, 526-27 (2003). Unlike in Wiggins, the Indiana
Court of Appeals’ recitation is a fair approximation of what the
record reveals trial counsel’s strategy appeared to be at the time.
Of course, counsel’s strategy is not always apparent from the trial
records (or their post-conviction testimony). But it appears from the
trial records that, after reviewing the entire statement, trial counsel
did not believe that the additional cumulative denials were helpful
enough to outweigh exposing the jury to “numerous pages . . . of
psycho babble.” Trial Tr. 1862. As explained above, trial counsel’s
expressed strategy at the time was to tell the jury that there were
two interviews lasting five hours and was at least partially
successful in pursuing this strategy.

2.

151a
Failure to Object to Testimony and
Arguments Regarding the May 2, 2005
Interview That Inaccurately Describe the
Interview

Mr. Myers’s second allegation of deficient
performance also relates to the May 2, 2005 interview.
He argues that trial counsel failed to object to certain
testimony and arguments by the State that were
“inaccurate and inadmissible.” Filing No. 9 at 26.
Specifically, Mr. Myers contends that trial counsel
should have objected to the following: (1) the State
argued during opening that Mr. Myers was “nonchalant”
during the interview, Trial Tr. 460, and Detective Arvin
testified that Mr. Myers was “cavalier,” “nonchalant,”
and “rehearsed,” during the interview, id. at 2207, 2244;
(2) Detective Arvin testified that Mr. Myers “never
adamantly denied” the crime and “never expressly
denied it,” id. at 2211-12; and (3) Detective Lang
testified that he did not expect Mr. Myers to confess
during the interview based on his “prior intelligence”
and because “murder . . . is one of the least [sic] things
somebody’s going to confess to,” id. at 2380-81.
The Indiana Court of Appeals addressed these
arguments on the merits in Myers II. It “[a]ssum[ed]
arguendo that the testimony was objectionable,” but
concluded that Mr. Myers could not establish prejudice
from any of trial counsel’s alleged failures. Myers II, 33
N.E.3d at 1090. Because the Indiana Court of Appeals
did not address trial counsel’s performance, this Court
must review it de novo. See Porter, 558 U.S. at 38;
Rompilla, 545 U.S. at 390.

152a
Mr. Myers fails to develop his arguments with
respect to these allegations of deficient performance. To
the extent he points to these statements as part of the
prejudice flowing from trial counsel’s failure to admit the
post-arrest interview, see Filing No. 9 at 26; Filing No.
33 at 25-26, trial counsel’s performance was not deficient
for the reasons outlined above and thus prejudice need
not be assessed. If Mr. Myers meant them to be
standalone allegations of deficient performance, he has
not attempted to explain why an objection to any of the
above challenged statements would have been
sustained. This is perhaps why the Indiana Court of
Appeals thought it easier to resolve these allegations of
ineffective assistance on the prejudice prong. Before
doing so, it noted that the “sum total of [Mr.] Myers’
argument that this testimony was inadmissible is
contained in . . . [one] conclusory statement in his
appellant’s brief” that the “opinion evidence offered by
[Detective] Arvin was objectionable, irrelevant and
prejudicial.” Myers II, 33 N.E.3d at 1090 (quotation
marks omitted).
Without further development of these claims, Mr.
Myers has failed to demonstrate that the challenged
statements were objectionable even under de novo
review. He does not explain on what legal basis trial
counsel should have objected to these statements, nor
explained why the objections would have been sustained
under Indiana law. Hough v. Anderson, 272 F.3d 878, 898
(7th Cir. 2000) (“An ineffective assistance claim based on
a failure to object is tied to the admissibility of the
underlying evidence. If evidence admitted without
objection was admissible, then the complained of action

153a
fails both prongs of the Strickland test[.]”). Without
such development, Mr. Myers has failed to carry his
burden to establish that trial counsel’s performance was
deficient for failing to object to these statements.
3.

Trial Counsel’s False Statements during
Opening Arguments

Mr. Myers argues that trial counsel provided
ineffective assistance by making two false statements to
the jury during opening arguments. Trial counsel made
the following statements that Mr. Myers contends were
false: (1) shortly after Ms. Behrman disappeared a
tracking dog went to the home of Ms. Behrman’s coworker Mr. Hollars, but the police pulled the dog away;
and (2) Mr. Hollars and Ms. Behrman were seen arguing
days before she disappeared.
Understanding this claim requires an understanding
of trial counsel’s defense strategy. During opening, trial
counsel offered two theories for who else may have
murdered Ms. Behrman and an alibi defense. He
referenced these theories throughout trial and during
closing argument. The first theory (the “Owings
theory”) was that Ms. Owings, Ms. Sowders, and Mr.
Clouse hit Ms. Behrman with a vehicle when they were
driving south of Ms. Behrman’s residence while high on
drugs, then killed her to cover up their crime, placed her
body in Salt Creek, and eventually moved it to where it
was ultimately found three years later. Trial Tr. 471-72.
This theory, trial counsel argued, was supported by
several things, including Ms. Owings’s confession to law
enforcement, portions of which were corroborated. Id. at
473. Trial counsel maintained that the corroborating

154a
evidence included that Ms. Behrman was last seen by a
high school classmate riding on 4700 Harrell Road, which
was several miles south of her residence, and a
significant distance from Mr. Myers’s residence, which
was several miles north of her residence. Id. at 471-73.
This, trial counsel said, was “[t]heory number one.” Id.
at 474.
“Theory number two,” trial counsel explained, was
that Ms. Behrman’s supervisor at the Student
Recreational Sports Center (“SRSC”), Mr. Hollars,
killed Ms. Behrman. Id. at 474. This theory (the “Hollars
theory”) was problematic for reasons that are explored
in some detail below, as trial counsel’s pursuit of this
theory pervades several of Mr. Myers’s claims and the
Indiana Court of Appeals’ resolution of them. At this
juncture, it is sufficient to explain that this theory was
predicated on allegations that Mr. Hollars (who was
married to someone else) and Ms. Behrman were in a
romantic relationship, Ms. Behrman became pregnant,
and Mr. Hollars killed her to cover it up.
Lastly, trial counsel offered an alibi defense. The
alibi defense was based on phone records showing that
Mr. Myers was at his residence several miles north of
Ms. Behrman’s residence during the timeframe Ms.
Behrman disappeared. See D. Trial Ex. A. Trial counsel
argued that if Ms. Behrman rode south, the phone
records established that it was “absolutely impossible
for [Mr. Myers] to be involved.” Trial Tr. 475.
Establishing that Ms. Behrman rode south also aligned
with the Owings theory, which alleged that Ms. Owings,
Ms. Sowders, and Mr. Clouse hit Ms. Behrman with a

155a
vehicle when she was riding south of her residence on
Harrell Road.
Trial counsel’s false statements related to the
Hollars theory. During opening, Patrick Baker
introduced the Hollars theory as follows:
They sent dogs out. They sent dogs out right
after the disappearance on May 31st. You’ll hear
from [Detective] Tom Arvin that a dog followed
a scent, went to a home of a coworker. Did he go
inside? No. He pulled the dog off. Why did he
pull the dog off? He goes up to the house where
the coworker lives, and he calls the dog off. Did
he question him? Yes. Questioned him about a
gun, a 12-gauge shotgun. The man was a skeet
shooter. Name’s Brian Hollars. Brian Hollars
was seen arguing with Jill Behrman a day or two
days before she disappeared. . . . Theory number
two. Coworker who was possibly involved with
her with a dog going up to his house was
involved.
Id. at 474. Simply put, Patrick Baker introduced the jury
to the Hollars theory by stating that evidence will show
that Mr. Hollars and Ms. Behrman were in some sort of
dispute immediately before she disappeared, and despite
the fact that a bloodhound tracked Ms. Behrman’s scent
to Mr. Hollars’s residence on the day she disappeared,
law enforcement covered it up.
Hugh Baker further explained the Hollars theory
later during opening, arguing that Mr. Hollars may have
been the older man rumored to have asked Ms. Behrman

156a
on a date, that his alibi was not solid, and that law
enforcement failed to test Mr. Hollars’s shotgun. See id.
481-82. He also repeated Patrick Baker’s false
statements regarding the bloodhound. Id. at 481-82
(“[T]he police ruled [Mr. Hollars] out, ignored the fact
that the dog went up to his house, ignored the fact that
he worked with her . . . that they knew that there was a
rumor that she had a crush on him. (emphasis added)).
Finally, throughout trial, trial counsel attempted to
show that Ms. Behrman may have been pregnant, that
Mr. Hollars may have been in a relationship with her,
and because Mr. Hollars was married, the pregnancy
gave Mr. Hollars motive to murder Ms. Behrman.
However, the two critical facts on which Patrick
Baker relied to cast suspicion on Mr. Hollars were false:
a bloodhound did not follow Ms. Behrman’s scent to Mr.
Hollars’s residence, let alone was one purposefully
pulled away by Detective Arvin, nor were Mr. Hollars
and Ms. Behrman seen arguing a day or two before she
disappeared. The parties both acknowledge that no
7
evidence supported either of these contentions.

7

Mr. Myers argued to the Indiana Court of Appeals that trial
counsel additionally misled the jury by stating that he would call
Monroe County Prosecutor Carl Salzman who would testify that
Mr. Myers was never a suspect and that Owings, Sowders, and
Clouse were his primary suspects. Trial counsel never called Mr.
Salzman as a witness. Mr. Myers briefly references this argument
in his habeas petition, Filing No. 9 and 28, but does not elaborate on
it in his reply brief. The Indiana Court of Appeals concluded that
Mr. Myers had failed to carry his burden to show that this was
deficient performance because he failed during the post-conviction
hearing to elicit any “testimony from trial counsel concerning the

157a
Several years after the trial had concluded, Patrick
Baker was disciplined by the Indiana Supreme Court
for, among other things, making the false statement
regarding the bloodhound during opening. See In re
8
Baker, 955 N.E.2d 729 (Ind. 2011). Patrick Baker
failure to call Salzman as a witness” and thus “made no attempt to
discount the possibility that trial counsel made a strategic decision
not to call Salzman to testify.” Myers II, 33 N.E.3d at 1095. This
analysis is potentially problematic. See Reeves v. Alabama, 138 S.
Ct. 22, 26 (2017) (Sotomayor, J., dissenting from the denial of cert.)
(“This Court has never . . . required that a defendant present
evidence of his counsel’s actions or reasoning in the form of
testimony from counsel, nor has it ever rejected an ineffectiveassistance claim solely because the record did not include such
testimony.”). Nevertheless, Mr. Myers’s failure to attempt to
explain to this Court why the analysis is an unreasonable application
of Strickland’s performance prong precludes success on this claim.
8

Patrick Baker was also disciplined for improperly soliciting Mr.
Myers as a client and unreasonably collecting expenses from Mr.
Myers’s mother that need not have been collected. In re Baker, 955
N.E.2d at 729-30. The Court has grave concerns about Patrick
Baker’s testimony during the post-conviction hearing, which
occurred in 2013, that directly contradicts facts he stipulated were
true to the Indiana Supreme Court in 2011. Although these
contradictions do not impact the Court’s resolution of any of the
claims discussed herein, they are nevertheless troubling because
they cast doubt on Patrick Baker’s honesty while testifying under
oath during the post-conviction proceedings. For example, he
stipulated to the Indiana Supreme Court that “[w]ithout invitation
from [Mr. Myers] or anyone else, [Patrick Baker] visited [Mr.
Myers] in jail and agreed to represent him without charge.” In re
Baker, 955 N.E.2d 729, 729 (Ind. 2011) (emphasis added). Yet during
the post-conviction hearing, Patrick Baker testified that he received
a voicemail from an unknown individual who asked him if he would
help Mr. Myers, which prompted him to visit Mr. Myers in jail. PCR
Tr. 493-94. Even the State’s proposed conclusions of law for the
post-conviction court recognized that Patrick Baker’s testimony at

158a
stipulated to the following facts during his attorney
disciplinary proceeding: “During his opening statement,
[Patrick Baker] stated that search dogs were sent out
shortly after the victim’s disappearance and one dog
‘alerted’ at the home of [Mr. Hollars], but the dog was
called off. These statements were false and [Patrick
Baker] should have known that no evidence would be
admitted at trial to support them.” Id. at 729.
The Indiana Court of Appeals addressed Mr.
Myers’s claim regarding trial counsel’s false statements
on the merits in Myers II. Beginning with the
performance prong, it agreed with Mr. Myers that
“[t]rial counsel did not present evidence to support the[]
claims” made during opening. Myers II, 33 N.E.3d at
1091. The Indiana Court of Appeals also acknowledged
that Patrick Baker was disciplined by the Indiana
Supreme Court, but noted that the disciplinary
proceeding did not address whether his performance
was deficient or whether Mr. Myers was prejudiced by
9
it. Id. Nevertheless, it “presume[d] . . . that an attorney
who tells the jury that he will present evidence that he
the post-conviction hearing was contradicted by the facts to which
he stipulated before the Indiana Supreme Court, and thus urged the
post-conviction court to reject this aspect of Mr. Baker’s testimony.
See DA App. at 542. Nevertheless, it appears that Patrick Baker’s
testimony as it relates to his representation of Mr. Myers was
otherwise taken as true.
9

The Indiana Supreme Court specifically noted “that there is no
allegation in th[e] [attorney discipline] proceeding that [Patrick
Baker] provided substandard services to [Mr. Myers] or that
[Patrick Baker’s] improper representations during his opening
statement prejudiced [Mr. Myers] or the State.” In re Baker, 955
N.E.2d at 729.

159a
either knows or should know will not be presented has
acted unreasonably for the purposes of the Strickland
analysis.” Id. “Thus,” the Indiana Court of Appeals
concluded, “at least with respect to trial counsel’s
statement that a search dog alerted to Hollars’s
residence, we accept Myers’s argument that trial
counsel’s performance was deficient. We are left to
consider whether the statements prejudiced Myers
within the meaning of Strickland.” Id.
Arguably, the Indiana Court of Appeals “accepted”
only that trial counsel’s false statement that a dog
alerted at Mr. Hollars’s residence was false and thus
constituted deficient performance, which leaves this
Court to analyze de novo whether trial counsel’s false
statements regarding Mr. Hollars and Ms. Behrman
arguing the day before she disappeared also amount to
deficient performance. See Harris, 698 F.3d at 625;
Sussman, 636 F.3d at 350. The respondent,
understandably, does not advance an argument that it
was not deficient performance for trial counsel to make
this false statement during opening. No strategic or
other reason has been suggested at any stage of this case
as to why trial counsel made these false statements.
Of course, failing to follow through on statements
during opening does not always amount to deficient
performance, such as when “unforeseeable events” or
“unexpected developments . . . warrant . . . changes in
previously announced trial strategies.” United States ex
rel. Hampton v. Leibach, 347 F.3d 219, 257 (7th Cir. 2003)
(citations and quotation marks omitted). But this is not
such a case, since the statements at issue were nothing

160a
more than false representations about what the evidence
would show, and trial counsel should have known these
statements were false when he made them. These false
statements served no purpose but to undermine the
defense offered and diminish trial counsel’s credibility
with the jury. See id. (“[L]ittle is more damaging than to
fail to produce important evidence that had been
promised in an opening.” (citation and quotation marks
omitted)); id. at 259 (“Promising a particular type of
testimony creates an expectation in the minds of jurors,
and when defense counsel without explanation fails to
keep that promise, the jury may well infer that the
testimony would have been adverse to his client and may
also question the attorney’s credibility.”). Such harmful
conduct constitutes deficient performance. See id.; see
also English v. Romanowski, 602 F.3d 714, 728 (6th Cir.
2010) (“[I]t was objectively unreasonable for [the
defendant’s] trial attorney to decide before trial to call .
. . a [certain] witness, make that promise to the jury, and
then later abandon that strategy, all without having fully
investigated [that witness] and her story prior to
opening statements.”); McAleese v. Mazurkiewicz, 1
F.3d 159, 166 (3d Cir. 1993) (“The failure of counsel to
produce evidence which he promised the jury during his
opening statement that he would produce is indeed a
damaging failure sufficient of itself to support a claim of
ineffectiveness of counsel.”); Harris v. Reed, 894 F.2d
871, 879 (7th Cir. 1990) (holding counsel’s performance
deficient and prejudicial where counsel promised the
jury evidence that another suspect committed the crime
and then failed to call any defense witnesses without
explaining why to the jury).

161a
Accordingly, the Court concludes that it was
deficient performance for trial counsel to make the
above false statements during opening. The Court will
consider the prejudice flowing from this deficient
performance, along with the other aspects of trial
counsel’s performance that were deficient, in the
prejudice analysis below.
4.

Failure to Sufficiently Challenge the State’s
Theory that Ms. Behrman Rode North and to
Object to Improper Testimony that She Rode
South

Mr. Myers next contends that trial counsel provided
deficient performance by failing to adequately challenge
the State’s evidence that Ms. Behrman rode north on the
day she disappeared. Whether Ms. Behrman rode her
bicycle north or south of her house on the day she
disappeared was important for investigators when they
were attempting to solve Ms. Behrman’s murder. It was
also critical at trial. Ms. Behrman logged off her home
computer at 9:32 a.m. the morning she disappeared. She
was scheduled to work at the SRSC at noon. Mr. Myers’s
phone records show that he was at home—several miles
northwest of Ms. Behrman’s residence—during the
timeframe when Ms. Behrman disappeared. Specifically,
Mr. Myers called several Indiana State Parks at 9:15,
9:17, and 9:18 a.m., and he called nearby movie theaters
at 10:37 and 10:45 a.m. See D. Trial Ex. A. Given this, if
Ms. Behrman had ridden south on the day she
disappeared, Mr. Myers had a solid alibi. Establishing
that Ms. Behrman rode south would have also
corroborated the Owings theory—that Ms. Owings, Ms.

162a
Sowders, and Mr. Clouse hit Ms. Behrman with a vehicle
when she was riding south of her residence, killed her,
dumped her bike, and hid her body.
Trial counsel recognized how beneficial establishing
that Ms. Behrman rode south would be for Mr. Myers’s
alibi defense. Indeed, trial counsel highlighted on several
occasions during both opening and closing that the
evidence showed Ms. Behrman rode south. During
opening, trial counsel pointed out that Ms. Behrman was
last seen south on Harrell Road by her former high
10
school classmate, Maral Papakhian. Trial Tr. 472. Trial
counsel then argued that Mr. Myers’s phone records
make it impossible for him to have murdered Ms.
Behrman: “This man’s at home making telephone calls at
the exact time when she’s last seen [south on Harrell
Road].” Id. at 475. During closing, trial counsel again
argued that the phone records establish Mr. Myers’s
innocence given that Ms. Behrman was last seen south
on Harrell Road. Id. at 2781. Trial counsel argued
further that Agent Dunn “worked this case for three
years” and “believed that theory because it matches as
to where Jill Behrman was last seen, 4700 South
[Harrell] Road.” Id. at 2781-82. This southern route
theory, trial counsel continued, was “corroborated by
the Wendy Owings statement.” Id. at 2782.

10

Various spellings of Ms. Papakhian’s name appear in the records.
The State reports that her name is misspelled in the trial
transcripts, and the proper spelling is “Papakhian.” Filing No. 2016 at 14 n.8. The Court will use this spelling, but different spellings
are used if quoting from another source.

163a
The State presented evidence that Ms. Behrman
rode north—in the direction of Mr. Myers’s residence—
and attempted to undermine the evidence that she rode
south. As discussed further below, the State presented
evidence that six days after Ms. Behrman disappeared,
Deputy Charles Douthett handled a bloodhound that
tracked Ms. Behrman’s scent along the northern route.
See id. at 957-91. The State called Robert England, who
testified that he saw a female cyclist in her early
twenties on North Maple Grove Road who matched Ms.
Behrman’s description either on Wednesday (the day
Ms. Behrman disappeared) or Thursday. See id. at 101926. Dr. Norman Houze—the leader of a bicycle group Ms.
Behrman was in—testified that Ms. Behrman could have
ridden the northern route to where her bicycle was
found and back in time to make her noon shift at the
SRSC. See id. at 1265-71.
Detective Arvin offered testimony attempting to
undermine Ms. Papakhian’s sighting of Ms. Behrman.
Detective Arvin testified that he interviewed Ms.
Papakhian and disagreed with Agent Dunn’s original
conclusion that Ms. Papakhian saw Ms. Behrman on the
Wednesday morning she went missing. Id. at 2228.
Instead, after interviewing her and five other
individuals who were at the same party as Ms.
Papakhian the night before she saw Ms. Behrman, id. at
2203, Detective Arvin concluded that it was “more likely
Tuesday that she saw Jill Behrman,” id. at 2228; see also
id. at 2230-32.
During the post-conviction hearing, Patrick Baker
was asked about his strategy with respect to whether he

164a
wanted to establish that Ms. Behrman rode north or
south the morning she went missing. Patrick Baker
answered as follows:
Q. What did you want the jury to believe about
where Jill rode her bike the morning of May
31st?
A. I didn’t want her going north. I think . . . our
strategy was to show that she was going on
a southern route from her home. There were
two theories, a southern route and a
northern route, Judge.
Q. But you wanted the jury to believe that she
had ridden south.
A. Yes.
Q. Do you recall that part of the evidence . .
A. Well, I . . no. I . . can I explain, Judge? We
wanted the jury to believe that she couldn’t
have made it to [Mr. Myers’] house and back
in time for work. So I don’t know if we
differentiated between the southern route
and maybe partially of the northern route
but we wanted the jury to believe that she
couldn’t have ridden to his house and back.
PCR Tr. 598-99.
Mr. Myers sets forth two allegations of deficient
performance with respect to how trial counsel handled
the issue of whether Ms. Behrman rode north or south

165a
the morning she disappeared. The Court will address
each in turn.
a.

Failure to Challenge
Northern Route Theory

the

State’s

Mr. Myers argues that trial counsel provided
deficient performance by failing to use readily available
evidence to show that Ms. Behrman rode south on the
day she disappeared. See Trial Tr. 2746. He points to
three specific ways in which trial counsel should have
undermined the State’s northern theory: (1) crossexamining Ms. Behrman’s parents regarding their prior
belief that she would not have ridden north; (2)
impeaching Dr. Houze’s timed reconstruction of the
northern route; and (3) presenting evidence that Ms.
Behrman hated riding through traffic, including crossing
Highway 37, which she was required to do on the
northern route. See Filing No. 33 at 48.
The Indiana Court of Appeals addressed these
contentions on the merits in Myers II:
Myers’ arguments on this issue presume that
the only reasonable strategy trial counsel could
have pursued was one that depended heavily on
establishing that Behrman rode south rather
than north on the date of her disappearance. But
trial counsel were not limited to presenting a
single theory of defense. Indeed, in a case such
as this, based solely on circumstantial evidence,
the most advantageous approach may be to
establish reasonable doubt by presenting
multiple possible alternative theories of the

166a
crime that point away from the accused’s guilt.
As the U.S. Supreme Court has explained, “[t]o
support a defense argument that the
prosecution has not proved its case it sometimes
is better to try to cast pervasive suspicion of
doubt than to strive to prove a certainty that
exonerates.” Harrington v. Richter, 562 U.S. 86,
109 (2011).
At the PCR hearing, when asked what he
wanted the jury to believe concerning
Behrman’s bicycle route, Patrick Baker initially
stated that he “didn’t want her going north.”
PCR Transcript at 598. He went on to clarify,
however, that he had “two theories, a southern
route and a northern route”. Id. Specifically, he
testified as follows:
We wanted the jury to believe that she
couldn’t have made it to [Myers’] house
and back in time for work. So I don’t
know if we differentiated between the
southern route and maybe partially of
the northern route but we wanted the
jury to believe that she couldn’t have
ridden to his house and back.
Id. at 598–99. Thus, it was not trial counsel’s
strategy to eliminate the possibility that
Behrman had ridden north—rather, trial
counsel sought to establish that Behrman would
not have followed the north route all the way to
Myers’ residence in light of her schedule that
day.

167a
We cannot conclude that trial counsel’s decision
to pursue a defense theory that allowed for the
possibility that Behrman had ridden north was
unreasonable. As an initial matter, we note that
trial counsel presented evidence supporting the
theory that Behrman had ridden south. Trial
counsel elicited testimony that Maral
Papakhian, a high school classmate of
Behrman’s, had reported seeing Behrman riding
her bike on Harrell Road, i.e., the southern
route, on the morning of her disappearance. The
jury was also presented with evidence of
Owings’ confession, in which she stated that she
and Sowders[] had been passengers in Clouse’s
vehicle when he struck Behrman and abducted
her on Harrell Road. Additionally, in both
opening statements and closing arguments, trial
counsel argued that the evidence presented
supported a conclusion that Behrman had
ridden south.
We also note, however, that trial counsel’s
Hollars theory was premised in part on the fact
that a bloodhound had scented Behrman on the
northern route near Hollars’ residence. Thus,
presenting a theory of defense that depended on
proving to a certainty that Behrman had ridden
south would have undermined this alternative
theory. Moreover, there was other evidence
that Behrman had ridden north. Robert
England testified that he saw a cyclist matching
Behrman’s description riding north on Maple
Grove Road either at 10:00 a.m. on the day

168a
Behrman disappeared or at 9:00 a.m. the next
day. Moreover, Behrman’s bike was discovered
on the north route, less than one mile from
Myers’ residence. Although it has been
suggested that Behrman could have taken the
south route, been abducted and subdued there,
and her bike dumped on the north route, the
timeline for such a scenario is tight. Behrman
logged off of her computer at 9:32 a.m. and her
bike was spotted near Myers’ residence “before
noon.” Trial Transcript at 1226. Additionally,
evidence from the bloodhound tracking search
was consistent with Behrman having ridden the
bike to its final location as opposed to being
driven there in a vehicle. Thus, although it is not
impossible for the bike to have been dumped, we
cannot conclude that it was unreasonable for
trial counsel to decline to pursue a theory of
defense that was wholly dependent on the jury
reaching such a conclusion. While it might have
been helpful to the defense to conclusively
eliminate the possibility that Behrman had
ridden north that morning, the evidence simply
did not allow for such certainty.
Myers II, 33 N.E.3d at 1095-96.
Mr. Myers contends that the Indiana Court of
Appeals’ decision was an unreasonable determination of
the facts as well as an unreasonable application of
Strickland. For example, Mr. Myers argues that the
“two theories” to which Patrick Baker referred were
actually two arguments supporting the same theory. See

169a
Filing No. 33 at 50. As Patrick Baker testified during the
post-conviction hearing, he did not differentiate between
two theories at trial, he was simply trying to prove that
Ms. Behrman could not have ridden near Mr. Myers’s
residence and back in time to show up to work at the
SRSC. If trial counsel could show this—either by
showing that she rode south or by showing she only
“partially” rode north, see PCR Tr. 598—then Mr.
Myers’s alibi that he was home making phone calls would
be very persuasive. To posit that such a strategy would
lead trial counsel to withhold evidence that Ms. Behrman
rode south—even if it undermined trial counsel’s Hollars
11
theory —is perplexing at best. More important, the
notion that trial counsel strategically withheld evidence
that Ms. Behrman rode south is contrary to trial
counsel’s actual conduct at trial. During both opening
and closing, and throughout trial more generally, trial
counsel repeatedly argued and attempted to prove that
Ms. Behrman rode south. See, e.g., Trial Tr. 472, 475-76,
2780-81.
For these reasons, and reasons similar to those set
forth below regarding the Indiana Court of Appeals’
resolution of Mr. Myers’s claim regarding the
11

As discussed further below, evidence that Ms. Behrman rode
south would have hardly, if at all, undermined the Hollars theory.
Even if Ms. Behrman rode north past Mr. Hollars’ residence, there
was no evidence that Mr. Hollars was home. Instead, the nearly
undisputed evidence was that Mr. Hollars was at work at the SRSC.
Moreover, as concluded below, trial counsel’s investigation of the
bloodhound evidence was deficient such that he did not understand
the bloodhound evidence well enough to determine whether its
potential detriment to the alibi defense was worth whatever
minimal support it provided to the Hollars theory.

170a
bloodhound tracking evidence, the Indiana Court of
Appeals’ resolution of this claim may well be an
unreasonable application of Strickland and Wiggins.
Despite the Court’s concern, it need not ultimately
decide this question. As discussed below, the three
instances of deficient performance identified by the
Court are more than sufficient for Mr. Myers to establish
prejudice and be entitled to habeas relief. Accordingly,
the Court need not resolve whether trial counsel’s
performance was deficient for not presenting the
additional evidence that Ms. Behrman rode south.
b. Failure to Object to Alleged Hearsay
Regarding Ms. Papakhian
Mr. Myers next argues that trial counsel failed to
object to Detective Arvin’s testimony undermining Ms.
Papakhian’s sighting of Ms. Behrman riding south the
Wednesday morning she disappeared. Specifically, Mr.
Myers argues that Detective Arvin concluded the
timeline did not fit for Ms. Papakhian to have seen Ms.
Behrman on Wednesday morning based at least in part
on statements of other individuals he interviewed and
that, without objection, Detective Arvin placed the
hearsay statements of those individuals before the jury.
The Indiana Court of Appeals addressed this claim on
the merits in Myers II as follows:
Myers also argues that trial counsel were
ineffective for failing to object to hearsay
testimony discrediting Papakhian’s sighting of
Behrman on Harrell Road on the morning of her
disappearance. Hearsay is an out-of-court
statement offered in court to prove the truth of

171a
the matter asserted. Boatner v. State, 934
N.E.2d 184 (Ind. Ct. App. 2010). As a general
rule, hearsay is inadmissible unless the
statement falls within one of the established
hearsay exceptions. Yamobi v. State, 672 N.E.2d
1344 (Ind. 1996).
Detective Arvin testified that Papakhian told
police she believed she saw Behrman on the 4700
block of Harrell Road on the morning of
Wednesday, May 31, but that she could not be
one hundred percent certain that she had not
seen her on Tuesday. Detective Arvin testified
further that when he interviewed Papakhian,
she recalled having an argument with her
boyfriend at a small party the night before the
sighting, and she named several other people
who had attended the party. Detective Arvin
testified that he interviewed five people as a
result of his interview with Papakhian, and that
he ultimately reported to Detective Lang “that
the timeline that [Papakhian] had presented did
not fit.” Trial Transcript at 2203. He testified
further that based on his investigation, he
believed that it was more likely that Papakhian
had seen Behrman on Tuesday, the day before
her disappearance. Detective Arvin explained
that Papakhian told him that she regularly left
her house forty-five minutes before her 10:20
a.m. class (i.e., at 9:35 a.m.) and Detective Arvin
determined that it would take her only three
minutes to drive to the 4700 block of Harrell
Road. Because Behrman had logged off of her

172a
computer at 9:32 a.m., and it would take a
minimum of fifteen minutes for her to bike from
the Behrman residence to Harrell Road (not
including additional time to change clothes, put
on cycling shoes, fill a water bottle, etc.),
Detective Arvin believed that Behrman could
not have made it to the 4700 block of Harrell
Road in time for Papakhian to have seen her
there on the date of her disappearance.
Myers argues that Detective Arvin testified to
statements made to him by the other partygoers
Papakhian identified, and that a hearsay
objection to this testimony would have been
sustained. But Myers has not directed our
attention to a single out-of-court statement
made by these unnamed individuals and
admitted into evidence through Detective
Arvin’s testimony. Instead, Detective Arvin
testified that after interviewing Papakhian and
five other witnesses, he came to the conclusion
that Papakhian’s timeline did not fit and she had
probably seen Behrman on Tuesday. When
giving a further explanation of why he reached
the conclusion, Detective Arvin referred not to
any statements or information gathered from
the partygoers, but to the timeline he had
worked out based on Papakhian’s statements
and Behrman’s computer logoff time. Because
Myers has not established that Detective Arvin
testified to any out-of-court statements made by
the unnamed witnesses he interviewed, Myers

173a
has not established that trial counsel were
ineffective for failing to object based on hearsay.
Myers II, 33 N.E.3d at 1097-98. The Indiana Court of
Appeals also noted that Mr. Myers did not argue that
trial counsel should have objected to the out-of-court
statements of Ms. Papakhian “and for good reason.
Because Papakhian did not testify at trial, the only way
to get evidence of her sighting before the jury was
through the testimony of others.” Id. at 1098 n.6.
Mr. Myers argues that this was an unreasonable
application of Strickland in two respects. First, he
argues that Detective Arvin’s testimony “clearly
suggests that his conclusions were based on his
interview with partygoers.” Filing No. 33 at 45 (citing
Trial Tr. 2203, 2226-28). Second, he argues that even
though Detective Arvin “also testified at trial, on
redirect, that the timeline did not fit based on his
estimates of the time it would have taken Jill to ride from
her home to the approximate location Papakhian saw
Behrman (4700 South Harrell Road), and the driving
time from Papakhian’s residence to that location, there
are problems with this testimony as well.” Id. at 46
(citation omitted).
As to Mr. Myers’s first argument, the Court agrees
that Detective Arvin’s testimony suggests his
conclusion that the timeline “did not fit” was reached at
least in part due to what the partygoers told him. During
direct examination, Detective Arvin testified that he
interviewed five other people while investigating Ms.
Papakhian’s sighting and ultimately concluded that the
“timeline that she had presented did not fit.” Trial Tr.

174a
2203. Trial counsel pressed Detective Arvin about this
during cross-examination:
Q. . . . [The FBI] had focused on Wednesday,
the day . . . she disappeared as the day that
. . . Papa[khian] . . . saw her. Correct?
....
A. She had stated that she believed that she’d
seen Jill on that date, but then . . . when I reinterviewed her, she told me that she
recalled that the night before she had seen
Jill she had attended a party and that she
had forgotten to mention that to the . . . FBI.
So I set out to find out . . . when the party
was . . . . When I asked her about the party,
she named several people that were present
at the party.
Q. . . . [B]ut the FBI believed that she had seen
her on Wednesday and conducted a threeyear investigation based upon that belief,
didn’t they?
A. I’m thinking the FBI may have thought that
she saw her on Wednesday, but based on my
investigation, I believe that it was more
likely Tuesday that she saw Jill Behrman.
Id. at 2227-28.
Although Detective Arvin’s testimony shows he
relied in part on what the other partygoers told him

175a
about the date of the party in reaching his conclusion, he
never shared what any of the five partygoers he
interviewed told him. Simply put, Detective Arvin’s
testimony included no out-of-court statements of the
partygoers. This is the basis on which the Indiana Court
of Appeals rejected Mr. Myers’s assertion that his
counsel should have raised a hearsay objection. It began
by defining hearsay as “an out-of-court statement
offered in court to prove the truth of the matter
asserted.” Myers II, 33 N.E.3d at 1097 (citing Boatner,
934 N.E.2d 184). Then it ultimately concluded that
“[b]ecause Myers has not established that Detective
Arvin testified to any out-of-court statements made by
the unnamed witnesses he interviewed, Myers has not
established that trial counsel were ineffective for failing
to object based on hearsay.” Id. at 1098.
This is a reasonable application of Strickland.
Notably, Mr. Myers has again not identified a specific
out-of-court statement offered through Detective Arvin.
Without a specific hearsay statement about which an
objection would have been sustained, it cannot have
been deficient performance for trial counsel to fail to
raise such an objection. See Hough, 272 F.3d at 898. This
12
failure dooms Mr. Myers’s claim.

12

Even though Mr. Myers’s specific allegation of deficient
performance lacks merit, it is worth noting that much about trial
counsel’s performance with respect to Ms. Papakhian’s sighting of
Ms. Behrman was, at best, underwhelming. For example, Mr. Myers
points out that Detective Arvin’s interviews with the partygoers
fell well short of casting doubt on Ms. Papakhian’s initial memory—
which she first reported two days after Ms. Behrman disappeared—

5.

176a
Failure to Challenge Bloodhound Evidence

Mr. Myers maintains that trial counsel provided
deficient performance by failing to exclude or otherwise
impeach the bloodhound evidence offered by Deputy
that she saw Ms. Behrman on the Wednesday morning Ms.
Behrman disappeared. Filing No. 33 at 44-45. Detective Arvin
testified during the post-conviction hearing that his trial testimony
that the timeline did not fit was “based on the interview[s] with all
of the parties involved.” PCR Tr. 1190. But he clarified that none of
the partygoers undermined Ms. Papakhian’s original report—which
Agent Dunn believed—that she saw Ms. Behrman on Wednesday.
Instead, all the partygoers told Detective Arvin that “nobody could
remember what night the party was.” Id. This is not only
unsurprising given that Detective Arvin conducted these
interviews three years later, but it also shows that his interviews
with the partygoers did not, as he implied during trial, provide him
information undermining Ms. Papakhian’s report. The partygoers
simply did not remember.
Nevertheless, this failure was not presented as a ground for relief
in state court. Mr. Myers’s claim was simply that trial counsel was
deficient for failing to object to the alleged hearsay statements
offered through Detective Arvin. See Filing No. 20-14 at 45-46.
Although in this Court Mr. Myers toes the line between focusing on
the unraised hearsay objection and expanding his claim to include
failing to “otherwise correct” Detective Arvin’s misleading
testimony, see, e.g., Filing No. 33 at 44, the Court cannot conclude
that the Indiana Court of Appeals’ resolution of a claim was
unreasonable when the claim presented to this Court has been
meaningfully altered. If Mr. Myers truly intended to also argue to
this Court that trial counsel’s performance was additionally
deficient for conducting a deficient cross-examination of Detective
Arvin, such a claim was not raised in state court and thus is
procedurally defaulted. See Snow v. Pfister, 880 F.3d 857, 864 (7th
Cir. 2018) (explaining that one type of procedural default occurs
when a petitioner failed to exhaust claims through one complete
round of state court review).

177a
Douthett. The Indiana Court of Appeals summarized the
factual background of this claim in Myers II as follows:
At trial, Porter County Sheriff’s Deputy and
canine handler Charles Douthett testified
concerning a search he performed with his
bloodhound, Sam. Deputy Douthett testified
that he had been working with Sam for over ten
years, and that he and Sam had attended
numerous seminars and trainings and worked
homicide investigations in six states. Deputy
Douthett testified further that he and Sam had
conducted numerous real-world tracking
searches, including some cases involving
tracking bicyclists. Deputy Douthett went on to
describe the process used to present a
bloodhound with a scent and to track that scent.
Deputy Douthett testified further that the FBI
contacted him and asked him to come to
Bloomington to conduct a tracking search in the
Behrman case. An exhaustive description of the
tracking search is not necessary here. It suffices
for our purposes to note that Deputy Douthett
and Sam were taken to a spot on North Maple
Grove Road roughly one-half mile southwest of
where Behrman’s bike had been discovered.
Sam tracked Behrman’s scent to the spot the
bike had been found and continued tracking the
scent northward briefly before losing the scent
and doubling back to the starting point of the
search. At that point, Deputy Douthett and Sam
got into a vehicle and were driven southward

178a
along the path Sam had been following. They
stopped and got out of the vehicle at an
intersection a few hundred yards away from
Highway 37. Hollars’ residence is very close to
this intersection. Sam was able to pick the scent
back up at that point and she followed it across
Highway 37 before turning south on Kinser
Pike.
Myers II, 33 N.E.3d at 1098.
The following map is a representation of a larger
map that was admitted during trial. The blue lines
represent the relevant locations where the bloodhound
tracked according to Deputy Douthett’s testimony, the
red dot (just south of the “2”) is where Ms. Behrman’s
bike was found, the black dot (just north of the “3”) is
Mr. Hollars’s residence, and the blue dot (east/northeast
of the “2”) is Mr. Myers’s residence. The bloodhound
tracked from the “1” to the “2,” before being dropped at
the “3” and tracking along the blue line.

179a

See Trial Ex. 74; Trial Tr. 1094.
Toward the end of Deputy Douthett’s testimony, he
was explicitly asked by the State, “at any time during
your track did Samantha [the bloodhound] take you . . .
to any houses,” and Deputy Douthett responded, “[n]o.”
Trial Tr. 986. In summation, Deputy Douthett testified
that what the bloodhound
show[ed] us was possibly the bicycle route that
the person had taken from Bloomington up to
the point where the field entrance was because
there was no scent. The dog did not show signs
of a scent trail from that position anywhere
farther north. The fact that we were running a
nose down trail on the sidewalk which was 15

180a
feet from the roadway was a strong indicator to
me that we were following either a walking or
bicycle trail.
Id. at 988-89.
As discussed above, whether Ms. Behrman rode
north or south of her residence on the day she
disappeared featured prominently at trial. To undermine
Mr. Myers’s alibi and the Owings theory, the State
attempted to prove that Ms. Behrman rode north to
where her bicycle was found. The State did so primarily
via the testimony of Deputy Douthett. His testimony, if
credited, showed that Ms. Behrman rode north to the
field where her bicycle was found and stopped there.
This not only undermined Mr. Myers’s alibi, given that
the field was very close to his residence, but it also
undermined the Owings theory, which depended on Ms.
Behrman being hit while riding south of her residence
and her bike being dumped in the field where it was
found.
Mr. Myers argued during state post-conviction
proceedings that trial counsel’s performance was
deficient for failing to object to or otherwise impeach
Deputy Douthett’s bloodhound evidence. Mr. Myers
pointed out that Indiana common law deems bloodhound
tracking evidence too unreliable to be admissible, and
thus trial counsel should have objected to Deputy
Douthett’s testimony regarding his bloodhound track.
The Indiana Court of Appeals in Myers II briefly
mentioned the common-law authorities on which Mr.
Myers relied to argue the evidence was inadmissible,

181a
and it also noted that the question may now be governed
by Indiana Evidence Rule 702(b). See Myers II, 33
N.E.3d at 1099. But it ultimately concluded that it “need
not address whether the bloodhound tracking evidence
in this case was admissible or subject to impeachment”
because “[a]n objection to inadmissible evidence may be
waived as part of reasonable trial strategy, which will
not be second-guessed by this court,” and “[t]rial counsel
may also choose to forego opportunities to impeach
evidence when doing so serves a reasonable strategic
purpose.” Id. (citations and quotation marks omitted). It
then explained its conclusion that trial counsel’s failure
to object or impeach Deputy Douthett’s bloodhound
tracking evidence was a strategic decision:
At the PCR hearing, Patrick Baker testified
that he could not recall whether he considered
objecting to the bloodhound tracking evidence.
Likewise, he could not recall whether he
considered consulting with an expert on
bloodhounds or researched the admissibility of
such evidence, although he believed he or
someone in his office had probably done some
research on the issue. He noted on crossexamination that the bloodhound evidence put
Behrman within a reasonable proximity of
Hollars’ house around the time of her
disappearance.
It is Myers’ burden to overcome the
presumption that there were strategic reasons
for the decisions trial counsel made. If Myers
cannot satisfy that burden, he cannot establish

182a
deficient performance. Patrick Baker’s inability
to recall at the time of the PCR hearing whether
he researched bloodhound evidence or
considered objecting to its introduction at trial
over six years earlier is insufficient to overcome
the presumption in this case. This is so because
we judge counsel’s performance “by the
standard of objective reasonableness, not his
subjective state of mind.” Woodson v. State, 961
N.E.2d 1035, 1041 (Ind. Ct. App. 2012) (citing
Harrington v. Richter, 562 U.S. 86), trans.
denied. “Although courts may not indulge ‘post
hoc rationalization’ for counsel’s decisionmaking
that contradicts the available evidence of
counsel’s actions, neither may they insist
counsel confirm every aspect of the strategic
basis for his or her actions.” Harrington v.
Richter, 562 U.S. at 109 (internal citation
omitted).
Judging trial counsel’s performance by an
objective standard of reasonableness, as we
must, we conclude that there were valid
strategic reasons for declining to object to or
impeach the bloodhound tracking evidence
irrespective of Patrick Baker’s inability to recall
his thoughts on the subject. One of trial
counsel’s tactics throughout trial was to cast
suspicion on Hollars, and the bloodhound
tracking evidence supported that strategy
because it placed Behrman near Hollars’
residence. Indeed, trial counsel relied on the
bloodhound tracking evidence and its link to

183a
Hollars in both opening statements and closing
arguments. We will not speculate on the
ultimate wisdom of trial counsel’s strategic
decisions on this issue. Because Myers has not
overcome the presumption that trial counsel
acted competently in declining to object to or
impeach the bloodhound tracking evidence, he
has not established ineffective assistance in this
regard.
Id. at 1099-1100.
The Court first explains why the foregoing is an
unreasonable application of Strickland and Wiggins.
While doing so, the Court also explains why, had the
Indiana Court of Appeals reasonably applied Strickland
and Wiggins, it would have concluded that trial counsel’s
investigation of the bloodhound evidence was deficient.
The Court also explains why an adequate investigation
of the bloodhound evidence would have led trial counsel
to object to it. Given that the Indiana Court of Appeals’
decision was based on an unreasonable application of
Strickland and Wiggins, the Court must turn next to
whether the Court’s own de novo review governs or
whether the Court must consider what other grounds
could have supported the Indiana Court of Appeals’
decision. Although the Supreme Court’s decision in
Wilson suggests this Court should simply review this
allegation of deficient performance de novo, the Court
applies currently controlling Seventh Circuit precedent
requiring an analysis of what other grounds could have
supported the Indiana Court of Appeals’ decision.
Ultimately, neither the state post-conviction court’s

184a
alternative basis nor the respondent’s proposed
resolution could have supported the Indiana Court of
Appeals’ decision. This leaves the Court’s de novo
conclusion that trial counsel’s performance was deficient
for failing to object to the bloodhound evidence.
a.

Indiana Court of Appeals’ Analysis of
Strickland’s Performance Prong

Mr. Myers contends that the Indiana Court of
Appeals’ decision constitutes an unreasonable
application of clearly established federal law as set forth
by the Supreme Court in Strickland and Wiggins for two
related reasons. First, he argues that the Indiana Court
of Appeals engaged in the post-hoc rationalization it
foreswore. Trial counsel’s actual conduct and statements
at trial, contends Mr. Myers, clearly show both that he
wanted to prove that Ms. Behrman rode south, and that
trial counsel did not make a strategic decision to let in
the bloodhound evidence to support the Hollars theory.
Second, Mr. Myers argues that, even assuming trial
counsel made a strategic decision not to object to the
bloodhound evidence “because it placed Behrman near
Hollars’ residence,” Myers II, 33 N.E.3d at 1100, trial
counsel failed to reasonably investigate the evidence
before deciding to pursue this strategy. Mr. Myers
maintains that it was contrary to Strickland and
Wiggins for the Indiana Court of Appeals to defer to trial
counsel’s purported strategy without assessing the
reasonableness of trial counsel’s investigation before
deciding on that strategy.

185a
The Indiana Court of Appeals’ decision was
unreasonable on both bases for reasons that significantly
overlap. This Court will focus primarily on Mr. Myers’s
second argument because the Indiana Court of Appeals
completely failed to consider whether trial counsel
conducted a reasonable investigation before deciding on
the purported strategy. While explaining this
conclusion, this Court will also discuss how trial
counsel’s actual conduct both undermines the notion that
he made a strategic decision regarding the bloodhound
evidence, as well as bolsters the conclusion that trial
counsel’s investigation was deficient. In the end, this
analysis shows not only that the Indiana Court of
Appeals unreasonably applied Strickland and Wiggins,
but also that trial counsel’s performance was deficient.
The Indiana Court of Appeals reasoned that trial
counsel made a strategic decision not to object to Deputy
Douthett’s bloodhound testimony “because it placed
Behrman near Hollars’ residence,” Myers II, 33 N.E.3d
at 1099, and thus that evidence supported trial counsel’s
Hollars theory. Identifying a strategy counsel may have
been pursuing and then deferring to it should not have
been the entirety of the Indiana Court of Appeals’
analysis. To apply Strickland and Wiggins, it had to
examine whether trial counsel’s strategic decision was
made after a reasonably competent investigation of the
facts and law underlying that strategic choice. See
Wiggins, 539 U.S. at 527 (“[A] reviewing court must
consider the reasonableness of the investigation said to
support [the asserted] strategy.”). The Indiana Court of
Appeals did not do this analysis at all, and, as explained
further below, such a failure constitutes an unreasonable

186a
13

application of Strickland and Wiggins. See id. at 528
(“The Court of Appeals’ assumption that the
investigation was adequate . . . reflected an unreasonable
application of Strickland.).
“The Supreme Court held in Wiggins . . . that ‘the
deference owed to . . . strategic judgments’ depends on
‘the adequacy of the investigations supporting those
judgments.’” Jordan v. Hepp, 831 F.3d 837, 848 (7th Cir.
2016) (quoting Wiggins, 539 U.S. at 521). “[S]trategic
choices made after less than complete investigation are
reasonable precisely to the extent that reasonable
professional judgments support the limitations on
investigation.” Strickland, 466 U.S. at 690-91. Thus,
labelling a decision as strategic, as the Indiana Court of
Appeals did here, does not automatically insulate it from
review. See Jansen, 884 F.3d at 656 (“[A]n attorney’s
decisions are not immune from examination simply
because they are deemed tactical.” (citation and
quotation marks omitted)). Instead, the Indiana Court of
Appeals had to examine whether the strategic decision
was made after a reasonable investigation into the law
and facts was performed. See id. (“A strategic choice
based on a misunderstanding of law or fact . . . can
amount to ineffective assistance.” (citation and quotation
13

The Indiana Court of Appeals acknowledged that Strickland
requires a consideration of counsel’s investigation, see Myers II, 33
N.E.3d at 1089, and even held that trial counsel reasonably
truncated his investigation into the Owings theory, id. at 1112 n.13.
But it did not address trial counsel’s investigation or lack thereof
regarding the bloodhound evidence, even though Mr. Myers argued
that trial counsel “did not understand the bloodhound evidence.”
Filing No. 20-16 at 13.

187a
marks omitted)). “In assessing counsel’s investigation,”
a court must engage in a “context-dependent
consideration of the challenged conduct as seen ‘from
counsel’s perspective at the time.’” Wiggins, 539 U.S. at
523 (quoting Strickland, 466 U.S. at 689).
Had the Indiana Court of Appeals considered trial
counsel’s investigation, it would have recognized that
trial counsel did not adequately investigate the
bloodhound evidence in the case, including Deputy
Douthett’s bloodhound search, before deciding to not
object to or meaningfully impeach Deputy Douthett’s
testimony. Several related factors lead to this
conclusion.
First, and most important, trial counsel failed to
take basic steps to investigate the bloodhound evidence
even though he knew of the bloodhound searches in May
2005, long before trial. See PCR Tr. 600. Although trial
counsel reviewed the grand jury transcripts, Deputy
Douthett did not testify during grand jury proceedings,
nor did trial counsel depose him, even though he was on
the State’s witness list. See, e.g., Trial Tr. 990. Patrick
Baker could not recall what, if any, steps he took to
investigate the bloodhound evidence as a factual or legal
matter. See Myers II, 33 N.E.3d at 1099 (noting that
Patrick Baker could not recall “whether he considered
objecting to the bloodhound tracking evidence[,] . . . [or]
whether he considered consulting with an expert on
bloodhounds or researched the admissibility of such
evidence.”); see also PCR Tr. 599-600. Critically, Patrick
Baker admitted to the Indiana Supreme Court that his
investigation regarding the bloodhound evidence was

188a
inadequate. Patrick Baker stipulated to the Indiana
Supreme Court that he “should have known” that no
evidence would be admitted at trial to support his
statements during opening regarding what the
bloodhound evidence would show. See In re Baker, 955
N.E.2d at 729.
It is clear trial counsel’s investigation was wholly
deficient because he did not know even basic information
about what occurred during the bloodhound searches in
this case. Had trial counsel conducted a reasonable
investigation—for example, by deposing Deputy
Douthett—he would have known that neither Deputy
14
Douthett nor Detective Arvin would testify that a
bloodhound tracked to any residence, let alone to Mr.
Hollars’s. Trial counsel also would have learned, more
generally, that Deputy Douthett’s testimony would
completely undermine Mr. Myers’s alibi.
Only with this information could trial counsel have
made an appropriate strategic judgment regarding
whether he should challenge the admissibility of the
bloodhound evidence. Trial counsel would have had
adequate information to make the strategic decision
whether (1) he should move to exclude the bloodhound
14

Detective Arvin, who trial counsel said would testify about the
bloodhound tracking to Mr. Hollars’ residence, testified near the
end of the State’s case. He testified that he had never been a canine
officer, never owned a tracking dog, and never even “been with a
tracking dog on this case.” Trial Tr. 2199. Even more damaging for
trial counsel’s promise, Detective Arvin testified that he was not
involved in investigating Ms. Behrman’s case until Ms. Behrman’s
remains were found in 2003—years after any bloodhound tracking
occurred. Id. at 2199, 2223.

189a
evidence in order to keep out by far the best evidence
undermining his alibi defense (and evidence that also
undermined his Owings theory); or (2) even though it
harmed these defenses, the bloodhound evidence was
worth admitting because it supported the Hollars theory
by showing that Ms. Behrman rode near, but long past,
Mr. Hollars residence. When one considers that the
latter evidence hardly cast suspicion on Mr. Hollars
since the nearly undisputed evidence shows Mr. Hollars
was working at the SRSC and no evidence was
presented showing Mr. Hollars was home, trial counsel’s
choice would have been objectively clear. But because
trial counsel failed to investigate, he, at minimum,
thought the bloodhound evidence cast significantly more
suspicion on Mr. Hollars than it did—namely, he thought
the bloodhound tracked directly to Mr. Hollars’s door
and was pulled away by law enforcement.
Second, trial counsel’s handling of Deputy
Douthett’s testimony shows that his “failure to
investigate thoroughly resulted from inattention, not
reasoned strategic judgment.” Wiggins, 529 U.S. at 526.
Deputy Douthett testified early during trial regarding
the bloodhound tracking. As noted above, Deputy
Douthett concluded his testimony by explaining that his
bloodhound showed that Ms. Behrman rode to the field
where her bike was found and stopped there—that is,
Ms. Behrman rode to the field near Mr. Myers’s
residence where she was abducted. Trial Tr. 988-89.
Despite this detailed testimony that Ms. Behrman’s
ride ended very near Mr. Myers’s residence, Patrick
Baker did not ask Deputy Douthett any questions about

190a
it during cross-examination. Nor did he ask any
questions about the proximity of the bike route to Mr.
Hollars’s residence. Instead, Patrick Baker asked
Deputy Douthett five questions during crossexamination, all of which related to a bloodhound track
south of Bloomington that Deputy Douthett performed
more than two weeks later, on June 23, 2000. Deputy
Douthett testified that he was called back to perform a
bloodhound track on that date because “they had a
possible witness that observed . . . Ms. Behrman riding
her bicycle south of Bloomington.” Id. at 989. Neither
party asked Deputy Douthett more questions.
Patrick Baker, however, asked the trial judge for an
opportunity to compare Deputy Douthett’s trail log,
which he had just received, to Deputy Douthett’s
testimony because his testimony was “very confusing.”
Id. at 990. After the trial judge asked if he wanted to
compare it to Deputy Douthett’s grand jury testimony,
the State explained that Deputy Douthett did not testify
during grand jury proceedings, but that he was listed as
a witness and Patrick Baker “could have deposed” him.
Id. Patrick Baker then asked that Deputy Douthett
remain under subpoena so Deputy Douthett could be
recalled if necessary, but he was not recalled during
trial. Id. at 990-91.
In the end, trial counsel’s conduct during and
immediately after Deputy Douthett’s testimony
supports the conclusion that his conduct was the result
of a lack of investigation and preparation rather than a
strategic choice. See Wiggins, 539 U.S. at 526 (“The
record of the . . . proceedings underscores the

191a
unreasonableness of counsel’s conduct by suggesting
that [the] failure to investigate thoroughly resulted from
inattention, not reasoned strategic judgment.”). He
failed to ask any questions regarding the northern route
even though, according to the Indiana Court of Appeals,
he made the strategic decision to let this testimony in to
show the northern route’s proximity to Mr. Hollars’s
residence. The lack of questions by trial counsel
regarding the northern route, combined with his
admitted confusion and desire to consider recalling
Deputy Douthett, point to counsel’s unawareness of
what Deputy Douthett would testify to, not to his
exercise of strategic judgment.
Third, trial counsel’s pivot from his arguments
during opening to those made at closing shows his
fundamental misunderstanding of the bloodhound
evidence—a misunderstanding that would not have
occurred had he properly investigated the evidence
before trial. Again, trial counsel promised during
opening that Detective Arvin would testify that a
bloodhound tracked to Mr. Hollars’s residence on the
day Ms. Behrman disappeared, May 31, 2000, but was
pulled away. See Trial Tr. 474. By the end of trial, no
evidence had been produced of a bloodhound tracking to
Mr. Hollars’s residence or evidence that Detective Arvin
at all participated in bloodhound searches.
As trial counsel must have anticipated, during
closing the State pointed out trial counsel’s unfulfilled
promise made during opening. See id. at 2817 (“[The
bloodhound] never tracked at Brian Hollars’ front door
as you heard the Defense [during] opening.”). It is

192a
therefore unsurprising that trial counsel no longer
argued that Detective Arvin pulled a bloodhound away
that had tracked Ms. Behrman’s scent to Mr. Hollars’s
residence. Instead, trial counsel argued the most the
evidence showed—that “Samantha [tracked] . . . near
the house of Mr. Hollars, but the trail was stopped.” Id.
at 2792 (emphasis added).
Thus the bloodhound evidence that trial counsel
maintained supported the Hollars theory at closing was
completely different from the evidence promised during
opening: it was Deputy Douthett’s bloodhound tracking
(not Detective Arvin’s) on June 6 (not May 31) that
tracked “near” Mr. Hollars’s residence (not to his door
then pulled away) that supported the Hollars theory.
This change can only be explained by trial counsel’s
unawareness of what the bloodhound evidence would
show before trial, discovering that whatever he thought
it would show before trial was incorrect, and then
significantly changing his argument in closing to tailor it
to what the evidence revealed.
These three related factors show that trial counsel’s
handling of the bloodhound evidence was caused by a
lack of investigation and preparation rather than a
strategy. The Court thus agrees with Mr. Myers that the
purported strategic decision on which the Indiana Court
of Appeals relied appears to be more a “post hoc
rationalization of counsel’s conduct [rather] than an
accurate description” of what occurred. Wiggins, 539
U.S. at 526-27.
But, more important, even if it was trial counsel’s
strategy to not object to Deputy Douthett’s bloodhound

193a
evidence because it would show Ms. Behrman rode near
Mr. Hollars’s residence, he chose this strategy without
15
having first reasonably investigated the evidence. The
Indiana Court of Appeals did not at all discuss trial
counsel’s investigation of the bloodhound evidence
before deferring to trial counsel’s purported strategy
regarding this evidence. Contrary to Wiggins, the
Indiana Court of Appeals “merely assumed that the
investigation was adequate.” 539 U.S. at 528. A court
cannot defer to trial counsel’s strategic judgment
without assessing “‘the adequacy of the investigations
supporting th[at] [strategy].’” Jordan, 831 F.3d at 848
(quoting Wiggins, 539 U.S. at 521). The Indiana Court of
Appeals—despite recognizing earlier in its opinion that
trial counsel should have known its representations
about the bloodhound evidence were false—ignored this
fact and its implications when analyzing this claim. It
concluded that there was an objectively reasonable
strategy supporting trial counsel’s failure to object
without assessing whether trial counsel could have
settled on such a strategy given trial counsel’s lack of
investigation and misunderstanding of the evidence—an
analysis that Strickland and Wiggins mandate before
15

Alternatively, trial counsel did not object to or impeach the
bloodhound evidence because his failure to investigate its
admissibility left him without the knowledge that there were valid
bases on which to object. Such a lack of legal knowledge regarding
an important piece of evidence that undermined Mr. Myers’s alibi
would amount to deficient performance. See Hinton v. Alabama, 571
U.S. 263, 274 (2014) (“An attorney’s ignorance of a point of law that
is fundamental to his case combined with his failure to perform basic
research on that point is a quintessential example of unreasonable
performance under Strickland.”).

194a
deferring to a proposed strategic justification. Wiggins,
539 U.S. at 527 (“[A] reviewing court must consider the
reasonableness of the investigation said to support th[e]
strategy.”); see Strickland, 466 U.S. at 690-91.
For these reasons, the Indiana Court of Appeals’
decision with respect to this allegation of deficient
performance “involved an unreasonable application of[]
clearly established Federal law.” 28 U.S.C. § 2254(d)(1).
It did so by failing to analyze whether a reasonable
investigation supported the purported strategy, as
clearly required by Strickland and Wiggins. See
Wiggins, 539 U.S. at 528 (“The Court of Appeals’
assumption that the investigation was adequate . . .
reflected an unreasonable application of Strickland.”).
Indeed, the Indiana Court of Appeals noted that this
analysis was necessary when evaluating ineffectiveassistance-of-counsel claims earlier in its opinion, but
simply failed to consider it when analyzing this
allegation of deficient performance. Failing to properly
apply these aspects of Strickland and Wiggins
constitutes an “‘error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.’” Ward, 835 F.3d at 703
(quoting Richter, 562 U.S. at 103).
b. Appropriate Standard of Review
The Court has concluded that the Indiana Court of
Appeals unreasonably applied Strickland and Wiggins
to this allegation of deficient performance, but the
Court’s inquiry cannot end there. Federal courts have
debated whether, even after concluding that a state
court unreasonably applied clearly established federal

195a
law as determined by the Supreme Court, the federal
habeas court then reviews the issue de novo or if
deferential review under § 2254(d) is still required. This
debate centers on the “could have supported”
framework set forth by the Supreme Court in Richter:
Under § 2254(d), a habeas court must determine
what arguments or theories supported or, as
here, could have supported, the state court’s
decision; and then it must ask whether it is
possible fairminded jurists could disagree that
those arguments or theories are inconsistent
with the holding in a prior decision of this Court.
Richter, 562 U.S. at 102. “Prior to Richter, if a state court
offered a rationale to support its decision denying
habeas relief, [the federal habeas court] assessed the
actual reason offered by the state court to determine
whether the decision was the result of an unreasonable
application of federal law.” Whatley v. Zatecky, 833 F.3d
762, 774 (7th Cir. 2016). But after Richter, the Seventh
Circuit questioned:
first, whether Richter (a) applies only to cases in
which the state court offers no reasoning, or
instead (b) holds in effect that federal courts
should always entirely disregard the state
court’s rationale and decide independently if the
bottom line is justifiable; and second, if Richter
applies only to summary dispositions, how a
federal court should evaluate a case in which the
state court offers a reason, but that reason is
either wrong as a matter of law or patently
irrational.

196a
Id. (quoting Brady v. Pfister, 711 F.3d 818, 824-25 (7th
Cir. 2013)).
In other words, unlike in Richter but like this case,
“[t]he problem is . . . not silence; it is what to do if the last
state court to render a decision offers a bad reason for
its decision.” Brady, 711 F.3d at 826. “At that point,” the
Seventh Circuit held, “we concluded that although we
would no longer attach significance to the state court’s
expressed reasons, we would still apply AEDPA
deference to the judgment.” Whatley, 833 F.3d at 775
(citing Brady, 711 F.3d at 827). Thus, even “[i]f a state
court’s rationale does not pass muster under . . . Section
2254(d)(1) . . . , the only consequence is that further
inquiry is necessary.” Brady, 711 F.3d at 827. To conduct
this inquiry, “the federal court should turn to the
remainder of the state record, including explanations
offered by lower courts.” Id.; see Whatley, 833 F.3d at
775. In other words, the federal court should apply
Richter’s “could have supported” framework. See
Whatley, 833 F.3d at 775 (noting that a petitioner is not
“entitle[d] . . . to de novo review simply because the state
court’s rationale is unsound”).
Whether these holdings remain the law—that is,
whether Richter’s “could have supported” framework
applies when the last state court provides a reasoned
decision—was cast into doubt by the Supreme Court’s
decision in Wilson v. Sellers, 138 S. Ct. 1188 (2018); see
Thomas v. Vannoy, 898 F.3d 561, 568 (5th Cir. 2018)
(noting without deciding that Wilson may have
undermined the “continued viability” of the Fifth
Circuit’s application of Richter’s “could have supported”

197a
framework even when the state court provided a reason
for its decision). In Wilson, the Supreme Court stated
that application of AEDPA deference is “a
straightforward inquiry when the last state court to
decide a prisoner’s federal claim explains its decision on
the merits in a reasoned opinion. In that case, a federal
habeas court simply reviews the specific reasons given
by the state court and defers to those reasons if they are
reasonable.” 138 S. Ct. at 1192. In so stating, it cited to
three pre-Richter cases where the Supreme Court did
not apply the “could have supported” framework even
after finding specific reasons provided by the state court
involved an unreasonable application of Supreme Court
precedents. Id. (citing Porter, 558 U.S. at 39-44;
Rompilla, 545 U.S. at 388¬392; Wiggins, 539 U.S. at 523538).
The Supreme Court in Wilson further explained
that Richter does not control in all § 2254 cases, noting
that if it “[h]ad . . . intended Richter’s ‘could have
supported’ framework to apply even where there is a
reasoned decision by a lower state court,” its decision
issued the same day in Premo v. Moore, 562 U.S. 115
(2011), “would have looked very different.” Wilson, 138
S. Ct. at 1195. Instead, in Premo, the Supreme Court
“focused exclusively on the actual reasons given by the
lower state court, and we deferred to those reasons
under AEDPA.” Id. at 1195-96. Indeed, throughout
Wilson the Supreme Court juxtaposes the “look
through” presumption it adopts with the “could have
supported” framework, which is difficult to square if the
latter approach applied in all cases, even when reasons

198a
are provided for a state court’s decision. See id. at 119395.
Wilson casts serious doubt on the continued
application of the Richter framework when the last state
court decision provides reasons for the decision.
Ultimately, the Court need not decide whether Wilson
calls into doubt the Seventh Circuit’s decisions in Brady
and Whatley. Even applying the “could have supported”
framework, as the Court does below, failing to object to
or otherwise attempt to impeach the bloodhound
evidence amounted to an “‘error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.’” Ward, 835 F.3d at 703
(quoting Richter, 562 U.S. at 103).
Justice Gorsuch, dissenting on other grounds in
Wilson, aptly explained what the “could have
supported” framework from Richter requires. It does
not require “a federal court to imagine its own
arguments for denying habeas relief and engage in
decision-making-by-hypothetical.” Wilson, 138 S. Ct. at
1199 (Gorsuch, J., dissenting). Instead,
[i]n our adversarial system a federal court
generally isn’t required to imagine or
hypothesize arguments that neither the parties
before it nor any lower court has presented. To
determine if a reasonable basis “could have
supported” a summary denial of habeas relief
under Richter, a federal court must look to the
state lower court opinion (if there is one), any
argument presented by the parties in the state
proceedings, and any argument presented in the

199a
federal habeas proceeding. Of course, a federal
court sometimes may consider on its own motion
alternative bases for denying habeas relief
apparent in the law and the record, but it does
not generally bear an obligation to do so.
Id. (Gorsuch, J., dissenting). This is consistent with the
approach set out by the Seventh Circuit in Brady, 711
F.3d at 827, and Whatley, 833 F.3d at 775, and the mode
of analysis the Court will apply here.
The state post-conviction court and the respondent
both offer an alternative basis to conclude that trial
counsel’s performance regarding the bloodhound
evidence was not deficient. The state post-conviction
court agreed that the bloodhound evidence could have
been excluded had trial counsel objected but reasoned
that a different strategy than that offered by the Indiana
Court of Appeals led trial counsel not object to it. The
respondent argues that, even if trial counsel would have
objected to the bloodhound evidence, the objection
would not have been sustained. Filing No. 20 at 39-40.
The Court discusses and ultimately rejects each
argument in turn.
c.

State
Post-Conviction
Alternative Basis

Court’s

The state post-conviction court had a different basis
for ruling against Mr. Myers on this claim than the
Indiana Court of Appeals. Notably, the state postconviction court agreed with Mr. Myers that trial
counsel’s handling of the bloodhound evidence was
suboptimal, and it also agreed that had trial counsel

200a
objected to the bloodhound evidence, it would have been
excluded. But it held that trial counsel did not object to
the bloodhound evidence in support of a different
strategy. The state post-conviction court’s factual
findings in full were as follows:
The issues brought up by [Mr. Myers] . . . ha[ve]
merit. The promised bloodhound evidence was
not fleshed out well by [trial counsel]. His
opening statement was not supported fully by
the evidence. The court does take issue with
[Mr. Myers’] position that [trial counsel] should
have objected to the bloodhound evidence. The
trail the dog laid down kept going a long way
past [Mr. Myers’] home and would insinuate to
the jury that [Ms. Behrman] did not go to [Mr.
Myers’] home. The court agrees . . . that better
use could have been made of this. To say that
trial counsel should have attempted to exclude
this evidence is an overreach that the court will
not take. Using the submitted evidence had
value to [Mr. Myers’] case. Allowing bloodhound
evidence in is error if counsel so chooses to
object in any given case. Here it was not error
such that Strickland, id can be used to reverse
the verdict.
DA App. at 752; see also id. at 758 (“Allowing
bloodhound evidence was a valid trial tactic.”).
The state post-conviction court, like the Indiana
Court of Appeals in Myers II, held that it was a strategic
choice to not object to the bloodhound evidence. But the
purported strategy underlying trial counsel’s choice was

201a
different. Unlike the Indiana Court of Appeals’
conclusion that trial counsel admitted the bloodhound
evidence to support the Hollars theory, the state postconviction court reasoned that the bloodhound evidence
more generally aided Mr. Myers’s defense because it
established that Ms. Behrman rode “a long way past [Mr.
Myers’ home].” Id. at 752.
The state post-conviction court’s resolution of this
claim is both factually and legally flawed. This Court
focuses on the factual flaw, however, because the state
post-conviction court’s decision is clearly “based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d)(2). Factual determinations are not
unreasonable under § 2254(d)(2) “merely because the
federal habeas court would have reached a different
conclusion in the first instance,” nor are they
unreasonable if “[r]easonable minds reviewing the
record might disagree about the finding in question.”
Wood v. Allen, 558 U.S. 290, 301 (2010) (citation and
quotation marks omitted). But here, the state postconviction court’s factual premise is indisputably
incorrect.
The state post-conviction court concluded that
“[a]llowing bloodhound evidence was a valid trial tactic,”
DA App. at 758, based entirely on the factual premise
that “[t]he trail the dog laid down kept going a long way
past [Mr. Myers’] home and would insinuate to the jury
that [Ms. Behrman] did not go to [Mr. Myers’] home,” id.
at 752. But the bloodhound evidence did not show this.
As the above map shows, the bloodhound tracked a long

202a
16

way past Mr. Hollars’s residence, not Mr. Myers’s. See
Trial Ex. 74. Mr. Myers’s residence was north and east
of the field where Ms. Behrman’s bicycle was recovered,
and Deputy Douthett explicitly testified that the
bloodhound’s scent trail ended at the field. Trial Tr. 988
(“The dog did not show signs of a scent trail from that
position anywhere farther north.”).
In short, the bloodhound did not track “a long way
past” Mr. Myers’s residence, but tracked directly to the
field where Ms. Behrman’s bike was located, which is
less than a mile from Mr. Myers’s residence. Unlike
evidence that Ms. Behrman rode long past Mr. Myers’s
residence, which may have helped Mr. Myers’s defense,
evidence that her ride ended in a field shortly before Mr.
Myers’s residence hinders it, especially considering it
undermines Mr. Myers’s alibi that he was home making
phone calls. For this reason, the state post-conviction
court’s decision was “based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. §
17
2254(d)(2). It is thus not entitled to AEDPA deference.

16

Oddly enough, the state post-conviction court suggested that the
bloodhound tracking near but past Mr. Myers residence makes it
less likely Mr. Myers was involved. But the Indiana Court of
Appeals in Myers II held that evidence that Ms. Behrman rode near
but past Mr. Hollars’ residence cast suspicion on him.
17

It is an open question whether meeting the § 2254(d)(2) standard
necessarily requires meeting the § 2254(e)(1) standard. See Wood v.
Allen, 558 U.S. 290, 300 (2010); Price v. Thurmer, 637 F.3d 831, 837
(7th Cir. 2011). Although the Court analyzes the factual
determination under § 2254(d)(2), the arguably more demanding

203a
d. Respondent’s Alternative Basis
The Court turns next to the respondent’s contention
that trial counsel’s performance was not deficient
because an objection to the bloodhound evidence would
have been overruled. See Hough, 272 F.3d at 898 (“An
ineffective assistance claim based on a failure to object
is tied to the admissibility of the underlying evidence.”).
The parties dispute whether bloodhound evidence is
admissible under Indiana law. The Court’s analysis is
significantly hindered by the respondent’s failure to
meaningfully engage with the critical issues governing
the admissibility of bloodhound evidence. Mr. Myers
primarily relies on Indiana Supreme Court cases
discussed below, which hold that bloodhound tracking
evidence is inadmissible. These cases, however, were
decided prior to Indiana’s adoption of the Indiana Rules
of Evidence in 1994. Nevertheless, Mr. Myers argues
that the prior common law cases retain persuasive value.
Given that the respondent does not meaningfully
confront these complicated questions and Mr. Myers’s
arguments regarding them, this Court is not obligated
to construct such arguments for the respondent. Wilson,
138 S. Ct. at 1199 (Gorsuch, J., dissenting). Thus, after
showing why the authorities on which the State relies
are irrelevant to the admissibility of bloodhound
evidence, the Court concludes that the respondent has
standard of § 2254(e)(1) is also met because there is no evidence in
the record even suggesting that the bloodhound tracked long past
Mr. Myers’s residence, as the state post-conviction court concludes.
Instead, Deputy Douthett’s testimony shows the bloodhound did
not track as far north or east as Mr. Myers’s residence.

204a
failed to show another basis that “could have supported”
the Indiana Court of Appeals’ decision. See id. In the
alternative, the Court goes on to address the
admissibility question directly, concluding that all
indications point to the continued inadmissibility of
bloodhound evidence in Indiana. During this analysis,
the Court addresses the authorities on which the State
relies to contend otherwise, concluding they are
irrelevant.
The most compelling basis for this Court to conclude
that the bloodhound evidence would have been excluded
had trial counsel objected to it is that the state postconviction court reached this exact conclusion. In
analyzing Mr. Myers’ claim regarding the bloodhound
evidence, it noted that “[a]llowing bloodhound evidence
in is error if counsel so chooses to object in any given
case.” DA App. at 752. The state post-conviction court
reached this conclusion even though the State argued
that bloodhound evidence was admissible following the
adoption of the Indiana Rules of Evidence. See id. at 545.
Given the respect owed by a federal habeas court to
state-court decisions on questions of state law, this
Court should adhere to that decision, even though the
state post-conviction court is not the last reasoned
decision being reviewed in this action. See Wilson v.
Corcoran, 562 U.S. 1, 5 (2010) (per curiam) (“[I]t is not
the province of a federal habeas court to reexamine
state-court determinations on state-law questions.”
(citation and quotation marks omitted)); Miller v.
Zatecky, 820 F.3d 275, 277 (7th Cir. 2016) (“A federal
court cannot disagree with a state court’s resolution of

205a
an issue of state law.”). This basis alone is sufficient to
reject the respondent’s position.
Even if the state post-conviction court’s decision
was not determinative, all other Indiana authorities
suggest that the state post-conviction court’s
determination was correct. Bloodhound tracking
evidence has been inadmissible in Indiana for over a
century. It was first held inadmissible by the Indiana
Supreme Court in Ruse v. State, 115 N.E. 778 (1917). In
Ruse, the Indiana Supreme Court analyzed decisions
from other state courts on both sides of the issue, but
ultimately agreed with courts that had held “that the
conclusions of the bloodhound are generally too
unreliable to be accepted as evidence,” reasoning as
follows:
When it is considered that the use of
bloodhounds, even under the most favorable
conditions, is attended with some degree of
uncertainty, which may readily lead to the
conviction or accusation of innocent persons, and
that, at best, evidence as to their conduct in
following a supposed trail is properly not of
great probative value, it follows, as is suggested
in Brott v. State, 70 Neb. 395, 398, that both
reason and instinct condemn such evidence, and
courts should be too jealous of the life and
liberty of human beings to permit its reception
in a criminal case as proof of guilt.
Id. at 781. Since Ruse, the Indiana Supreme Court has
twice reaffirmed that bloodhound tracking evidence is
inadmissible. See Brafford v. State, 516 N.E.2d 45, 49

206a
(Ind. 1987) (“It has long been held in Indiana that
tracking dog or ‘bloodhound evidence’ is not sufficiently
reliable to be admitted into evidence.” (citing Ruse, 115
N.E. 778)); Hill v. State, 531 N.E.2d 1382, 1384 (Ind.
1989) (“[E]vidence of the result of the use of a tracking
dog is not admissible.” (citing Brafford, 516 N.E.2d 45));
see also Hill, 531 N.E.2d at 1385 (“It flows a fortiori from
th[e] rule [in Ruse] that no satisfactory foundation for
the admission of bloodhound evidence can be made. The
rule is based on upon the unobtainability of scientific and
other information which can furnish a satisfactory basis
or reason for admitting such evidence.”) (DeBruler, J.,
dissenting). These cases, however, were decided prior to
Indiana’s adoption of the Indiana Rules of Evidence in
1994.
The respondent does not argue that the Indiana
Rules of Evidence—particularly Rule 702 governing
expert testimony—undermine the reasoning or holdings
of Ruse and its progeny. Instead, the respondent argues
that these cases are simply distinguishable from the
instant case. The States contends that, unlike in Ruse,
Brafford, and Hill, the bloodhound here “was not used
to prove the identity of [Ms. Behrman’s] killer, but to
prove confirm [sic] portions of the route [Ms. Behrman]
took on the day she died.” Filing No. 20 at 39. As an
initial matter, the bloodhound evidence was certainly
used to prove that Mr. Myers was the perpetrator, at the
very least because it was used to show that Ms. Behrman
rode north toward his house; had Ms. Behrman ridden
south, Mr. Myers had an alibi. But the Court
understands the State to argue that Ruse and its
progeny only prevent bloodhound tracking evidence if

207a
the bloodhound is tracking the alleged perpetrator, not,
as here, the victim. This interpretation of these cases is
too narrow.
The Indiana Supreme Court in Ruse made clear that
bloodhound evidence generally was inadmissible
because it is unreliable. See 115 N.E. at 781 (“We agree
fully with the statement in Brott v. State [70 Neb. 395, 97
N. W. 593, 63 L. R. A. 789], that the ‘conclusions of the
bloodhound are generally too unreliable to be accepted
as evidence in either civil or criminal cases.”’).
The subsequent Indiana Supreme Court decisions
similarly stated Ruse’s holding in categorical terms. See
Hill, 531 N.E.2d at 1384 (“[E]vidence of the result of the
use of a tracking dog is not admissible.”); Brafford, 516
N.E.2d at 49 (“It has long been held in Indiana that
tracking dog or ‘bloodhound evidence’ is not sufficiently
reliable to be admitted into evidence.”). The holdings of
these cases are not that bloodhound evidence is
inadmissible when the bloodhound is tracking a
perpetrator, but that bloodhound evidence is
inadmissible altogether because it is unreliable. Cf.
Hubbard v. State, 742 N.E.2d 919, 923 n.9 (Ind. 2001)
(noting that the reason why polygraph test results are
being offered is irrelevant because they are “unreliable”
regardless of why they are offered).
The State next argues that even under the common
law “the behavior of animals has been held to be relevant
and admissible evidence.” Filing No. 20 at 39 (collecting
cases). But the three cases on which the State relies are
wholly inapplicable to the question of whether
bloodhound tracking evidence is admissible. First, in

208a
Price v. State, 911 N.E.2d 716, 720-21 (Ind. Ct. App.
2009), the court held that a dog’s loud screaming when
hit with a belt was sufficient evidence to convict the
defendant of cruelty to animals. Second, Ross v. Lowe,
619 N.E.2d 911, 914 (Ind. 1993), was a negligence action
in which the Indiana Supreme Court discussed the
standard of care owed to invitees for preventing injury
from a dog kept on the property. Third, in Neufhoff v.
State, 708 N.E.2d 889, 891 (Ind. Ct. App. 1999), the
Indiana Court of Appeals held that a probable cause
affidavit that relied on the alerting of a drug sniffing dog
was sufficiently reliable to establish probable cause. Not
only do these cases not relate specifically to bloodhound
tracking evidence, but none of them even deal with the
admissibility of evidence at all. The respondent’s
reliance on these cases is illustrative of the little
assistance provided to the Court in analyzing this
18
question of Indiana law.

18

The State relied on nearly the same arguments before the state
post-conviction court. For example, the State argued that Indiana
“[d]ecisions since the adoption of the rules have allowed such
evidence to prove a route taken without comment.” DA App. at 545
(citing Hill v. State, 773 N.E.2d 336, 339 (Ind. Ct. App. 2002)). But
the Indiana Court of Appeals decision in Hill, much like the cases
on which the respondent relies here, has no bearing on the
admissibility of bloodhound evidence. The admissibility of
bloodhound evidence was not discussed at all in Hill; the Indiana
Court of Appeals merely mentioned that a bloodhound was utilized
to track the perpetrator and did not mention, let alone rely, on that
fact again. See Hill, 773 N.E.2d at 339. This is far from legal
authority that Indiana courts “have allowed” bloodhound evidence
to be admissible, as the issue was not even presented or addressed
in the case. Most important, the state post-conviction court was

209a
This leaves the Court to determine what role Ruse
and its progeny play in determining the admissibility of
bloodhound evidence following the adoption of the
Indiana Rules of Evidence. As noted by the Indiana
Court of Appeals in Myers II, these cases were decided
prior to the adoption of the Indiana Rules of Evidence in
1994 and thus are no longer strictly binding precedent.
33 N.E.3d at 1099; see Albores v. State, 63 N.E.3d 34, *6
(Ind. Ct. App. 2016) (noting that Brafford “was decided
prior to the adoption of the Indiana Rules of Evidence
and is no longer controlling”). But no Indiana court has
decided whether or to what degree they remain
persuasive.
Mr. Myers contends that Ruse and its progeny
continue to provide guidance even after the adoption of
the Rules of Evidence. See Filing No. 33 at 59, 61.
Specifically, he suggests that previous common law
decisions provide a baseline for deciding whether
bloodhound evidence is reliable enough to pass through
Rule 702(b). Filing No. 33 at 61. Although the Myers II
court did not reach any ultimate conclusions regarding
admissibility, it suggested that Rule 702 governs. Rule
702 provides:
(a) A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an opinion
or otherwise if the expert’s scientific, technical,
or other specialized knowledge will help the

unconvinced, as it concluded that bloodhound evidence is
inadmissible should counsel object to it. See DA App. at 752.

210a
trier of fact to understand the evidence or to
determine a fact in issue.
(b) Expert scientific testimony is admissible
only if the court is satisfied that the expert
testimony rests upon reliable scientific
principles.
What role Ruse and its progeny have in determining
whether Deputy Douthett’s testimony rests on “reliable
scientific principles” under Rule 702(b) is the critical
question presented by Mr. Myers. Indiana courts have
not definitively decided the weight that should be given
to common law precedents following the enactment of
the Indiana Rules of Evidence. But significant guidance
is available. On one hand, the Indiana Supreme Court
has noted that “the Rules of Evidence generally
superseded previously existing common law.” Specht v.
State, 734 N.E.2d 239, 240 (Ind. 2000); see McIntyre v.
State, 717 N.E.2d 114, 121 (Ind. 1999) (suggesting that it
is an open question whether “common law decisions . . .
survive the Indiana Rules of Evidence”). Nevertheless,
Indiana courts have continued to apply the common law
when it is consistent with the Rules of Evidence and
there is “no reason to depart from the well established
common law rule.” Jackson v. State, 728 N.E.2d 147, 153
(Ind. 2000). Indeed, Indiana courts regularly look to the
common law for guidance even when the Rules of
Evidence now govern the analysis. See Lafayette v.
State, 917 N.E.2d 660, 662-64 (Ind. 2009) (examining
common law precedents regarding Rule 404(b) and
noting that the Indiana Supreme Court’s first
examination of the rule “largely tracked the common law

211a
of evidence . . . that had developed prior to our adoption
of the Rules of Evidence”); Jiosa v. State, 755 N.E.2d
605, 607 (Ind. 2001) (noting that when the Rule of
Evidence at issue does not specifically address the legal
question, “pre-1994 cases are instructive,” and
concluding that “[t]he common law presumption was not
changed by the adoption of the Rules of Evidence”);
Ealy v. State, 685 N.E.2d 1047, 1055 (Ind. 1997) (“Prior
to the enactment of the [Indiana Rules of Evidence], we
long held it proper for an expert to give an opinion based
upon an autopsy report prepared by another. We see no
reason to change that now.”); id. (finding support for an
interpretation of a Rule of Evidence by noting that the
interpretation is “consistent with our own” common
law); Grinstead v. State, 684 N.E.2d 482, 487 (Ind. 1997)
(considering pre-1994 cases to determine whether
expert testimony regarding blood spatter was
admissible under Rule 702). Notably, the respondent
does not cite, nor could the Court locate, a single instance
where an Indiana court has held that long-standing
common law precedents were irrelevant merely because
an Indiana Rule of Evidence now governs the legal
question when the Rule at issue did not explicitly
undermine those precedents.
Given this, the Court follows the same course here.
The above precedents show that Indiana courts
regularly look to common law precedents when applying
the Rules of Evidence. Thus, in determining whether
bloodhound evidence “rests on reliable scientific
principles” under Rule 702(b), Indiana courts would
likely continue to follow the determination in Ruse and
its progeny that it does not.

212a
Finally, the one source to have addressed this
question other than the state post-conviction court in
this case concluded that Indiana Rule of Evidence 702
did not change the inadmissibility of bloodhound
evidence established in Ruse. The preeminent Indiana
evidence treatise written by Judge Robert Miller
explicitly addresses the issue of the admissibility of
bloodhound evidence following the enactment of the
19
Rules of Evidence.
Judge Miller concludes that
bloodhound tracking testimony is not “expert scientific
testimony” under Rule 702(b), but that Ruse and its
progeny nevertheless remain controlling law: “Earlier
Indiana cases applied a ‘reliability’ test even as to plainly
non-scientific evidence. For example, tracking dog, or
‘bloodhound,’ evidence was deemed insufficiently
reliable for admission. Nothing in Rule 702 appears to
require a different result.” 13 R. Miller, Ind. Prac.,
Indiana Evidence § 702.208 (4th ed.) (citing Hill, 531
N.E.2d at 1384; Brafford, 516 N.E.2d at 49).
The Court finds Judge Miller’s position persuasive,
not least because it is consistent with how Indiana courts
have treated the admissibility of polygraph evidence
both before and after the enactment of the Indiana Rules
of Evidence. Long before the Indiana Rules of Evidence
were adopted, Indiana courts consistently deemed
polygraph evidence inadmissible because “the test is not
sufficiently accurate to permit its admission and the fear
the jury will give undue weight to the validity of a
19

The Indiana Supreme Court regularly relies on Judge Miller’s
evidence treatise. See, e.g., Malenchik v. State, 928 N.E.2d 564, 574
(Ind. 2010); Schultz v. Ford Motor Co., 857 N.E.2d 977, 984 (Ind.
2006); Ealy, 685 N.E.2d at 1051.

213a
polygraph test.” Hall v. State, 514 N.E.2d 1265 (Ind.
1987). After the Indiana Rules of Evidence were
adopted, Indiana courts continued to exclude polygraph
evidence, often without discussing the Indiana Rules of
Evidence generally or Rule 702 specifically. See Majors
v. State, 773 N.E.2d 231, 238 (Ind. 2002); Gray v. State,
758 N.E.2d 519, 522 (Ind. 2001). Indiana courts follow
this pattern even though a “polygraph examiner is an
expert witness” subject to the requirements of Rules
403 and 702. Hubbard v. State, 742 N.E.2d 919, 924 (Ind.
2001).
For all the foregoing reasons, had trial counsel
objected to the bloodhound evidence that objection
20
would have been sustained. Not only is this the
20

Mr. Myers argues in the alternative that even if the bloodhound
evidence would not have been excluded altogether, trial counsel’s
performance was deficient for failing to impeach Deputy Douthett’s
testimony. See Filing No. 33 at 62-64. For example, there was
evidence that prior to Deputy Douthett’s use of the bloodhound on
June 6, 2000 (six days after Ms. Behrman disappeared), law
enforcement attempted to use other scent tracking dogs to help
locate Ms. Behrman, but they did not pick up her scent near where
her bicycle was found. See PCR Ex. 232 at 28. This significantly
undermines evidence that during a later bloodhound search—after
the scent has further dissipated—the bloodhound was able to pick
up Ms. Behrman’s scent at that location.
Moreover, although Deputy Douthett testified that he attempted to
track Ms. Behrman’s scent along the southern route but there were
no “strong” scent trails, Trial Tr. 986, Agent Dunn testified to the
grand jury that Deputy Douthett told him Samantha picked up Ms.
Behrman’s scent on the southern route. See GJ Tr. 1337. The jury
did not hear this evidence, or any of the other bases on which
Deputy Douthett’s testimony could have been undermined. See

214a
conclusion of the only state court in this case to have
addressed the issue, but all other legal sources
addressing the question point in the same direction,
albeit for different reasons. The respondent’s contention
that trial counsel was not deficient for failing to object to
the bloodhound evidence because an objection would
have been overruled does not provide a basis that could
have supported the Indiana Court of Appeals’
conclusion.
In sum, trial counsel failed to conduct an
unreasonable investigation into the bloodhound
evidence before deciding not to object to it. Had a
reasonable investigation been conducted, trial counsel
would have realized that the bloodhound evidence did
not support the Hollars theory in the manner he thought
(and barely, if at all, supported it), which made it
obviously worth excluding given that it completely
undermined Mr. Myers’ alibi defense. The Indiana Court
of Appeals unreasonably applied Strickland and
Wiggins in concluding otherwise, and neither the state
post-conviction court nor the respondent offers a
justification that otherwise could have supported the
Indiana Court of Appeals’ decision. The Court will

Filing No. 33 at 62-64. Although the Court need not reach this issue,
there is significant evidence trial counsel could have used to
undermine the trustworthiness of the bloodhound tracking
presented by Deputy Douthett, see, e.g., Filing No. 33 at 62-64, but
trial counsel entirely failed to do so. Had the Court not concluded
that an objection to the bloodhound evidence would have been
sustained, this would have been an alternative basis to conclude that
trial counsel’s performance regarding the bloodhound evidence was
deficient.

215a
therefore consider this instance of deficient performance
in the prejudice analysis below.
6.

Failure to Impeach Ms. Swaffard

Mr. Myers argues trial counsel provided deficient
performance by failing to impeach Betty Swaffard’s
testimony. The Indiana Court of Appeals summarized
Ms. Swaffard’s testimony during direct- and crossexamination as follows:
Swaffard, Myers’ maternal grandmother,
testified to certain statements Myers made to
her following Behrman’s disappearance.
Specifically, Swaffard testified that on June 27,
2000, the date Detective Crussen interviewed
Myers’ parents, Myers called Swaffard and
asked to borrow money. Swaffard told Myers
that he would have to come to her house to pick
up the money, and he said he could not come
because there were road blocks up on Maple
Grove Road, and he did not want to go out
because he was a suspect in Behrman’s
disappearance. Swaffard testified further that
in November 2004, Myers called her and asked
her to look after his daughter because he needed
some time alone to think. Swaffard asked what
was on his mind, and Myers said, “Grandma, if
you just knew the things that I’ve got on my
mind . . . . [I]f the authorities knew it, I’d be in
prison for the rest of my life.” Trial Transcript
at 1833. Myers stated further that his father had
known it and “took it to the grave with him.” Id.
Later that evening, when Myers dropped his

216a
daughter off at Swaffard’s house, he had tears in
his eyes and said, “Grandma, I wish I wasn’t a
bad person. I wish I hadn’t done these bad
things.” Id. at 1833–34. On cross-examination,
trial counsel asked Swaffard only two questions,
both of which were apparently intended to
establish that Swaffard had developed an
unusually close relationship with Detective
Lang. First, counsel asked Swaffard whether
she knew Detective Lang’s telephone number,
and she responded affirmatively. Second,
counsel asked what Detective Lang’s phone
number was, and Swaffard began to answer but
was interrupted by an objection from the State.
The trial court sustained the objection, and trial
counsel declined to cross-examine Swaffard
further.
Myers II, 33 N.E.3d at 1100.
Mr. Myers argues that trial counsel had ample
grounds on which to impeach Ms. Swaffard and it was
deficient performance not to do so. Specifically, Mr.
Myers points to the fact that Detective Lang began
recording Ms. Swaffard’s phone calls with her consent in
late April and May 2005. PCR Tr. 1196-97, 1259. During
these calls—which trial counsel listened to before trial,
id. at 582—Mr. Myers repeatedly and adamantly denied
involvement in Ms. Behrman’s murder, PCR Ex. 101A
at 21-27. These denials, Mr. Myers contends, would have
impeached Ms. Swafford’s testimony regarding Mr.
Myers. Filing No. 9 at 35-36; Filing No. 33 at 64-67.

217a
Patrick Baker was questioned regarding his
strategy with respect to Ms. Swaffard’s testimony
during the post-conviction hearing. He testified that Ms.
Swaffard had “very damaging evidence and it was
probably the most challenging explanation of the entire
trial and I think probably remains the most challenging
explanation as to how a grandma could start a murder
case against her grandson.” PCR Tr. 584. “[B]ased upon
that,” Patrick Baker explained, “and based upon the
questioning . . . of . . . Mr. Sonnega . . . we wanted to ask
her very few questions, if any at all.” Id. Patrick Baker
explained further that Ms. Swaffard’s “presentation was
very credible so it wasn’t just her testimony. It was her
presentation and . . . her demeanor.” Id. at 585. In sum,
his strategy was “to get her off the stand . . . because the
longer she was before the jury, we felt, the more
damaging it could be.” Id. at 584.
The Indiana Court of Appeals rejected Mr. Myers’
allegation of deficient performance in Myers II,
reasoning that “[t]his is the sort of second-guessing of
trial strategy in which we will not engage on appeal. ‘It
is well settled that the nature and extent of crossexamination is a matter of strategy delegated to trial
counsel.’ Myers has not established that a strategy of
limiting the jury’s exposure to Swaffard’s testimony and
denying her the opportunity to elaborate further
thereon fell outside the wide range of constitutionally
competent assistance.” Myers II, 33 N.E.3d at 1101
(citation omitted).
Mr. Myers contends that this was an unreasonable
application of Strickland’s performance prong.

218a
Specifically, he argues that “[t]he state court’s
assumption that counsel’s presentation was adequate,
without any assessment of whether counsel’s conduct[]
‘actually
demonstrated
reasonable
professional
judgment’” was unreasonable. Filing No. 33 at 66-67
(quoting Wiggins, 539 U.S. at 528). Mr. Myers further
argues that “‘if no reason is or can be given for a tactic,
the label “tactic” will not prevent it from being used as
evidence of ineffective assistance of counsel.’” Id. at 66
(quoting Miller v. Anderson, 255 F.3d 455, 458 (7th Cir.
2001)).
As an initial matter, there was a strategic reason
given by trial counsel for essentially declining to cross
examine Ms. Swaffard—namely, that her evidence,
presentation, and demeanor were extremely damaging
to Mr. Myers and thus trial counsel wanted her off the
stand as quickly as possible. See PCR Tr. 584-85. The
Indiana Court of Appeals recognized trial counsel’s
testimony and credited trial counsel’s strategy
regarding cross-examination. See Myers II, 33 N.E.3d at
1100-01.
Furthermore, Mr. Myers is incorrect that the
Indiana Court of Appeals failed to assess “whether
counsel’s conduct[] ‘actually demonstrated reasonable
professional judgment.’” Filing No. 33 at 66-67 (quoting
Wiggins, 539 U.S. at 528). Again, trial counsel explained
his strategy behind failing to cross-examine Ms.
Swaffard. And one premise of this strategy—that Ms.
Swaffard’s testimony was extremely damaging evidence
for Mr. Myers—is undoubtedly true.

219a
The Supreme Court made clear in Strickland that
“strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually
unchallengeable[.]” Strickland, 466 U.S. at 690-91; see
Jansen, 884 F.3d at 656 (“Generally when an attorney
articulates a strategic reason for a decision, the court
defers to that choice.” (citation and quotation marks
omitted)). And “deciding what questions to ask a
prosecution witness on cross-examination is a matter of
strategy.” Peterson v. Douma, 751 F.3d 524, 531 (7th Cir.
2014) (citation and quotation marks omitted). These
principles are precisely what the Indiana Court of
Appeals recognized and applied when concluding that
trial counsel’s performance was not deficient.
Moreover, unlike with other allegations of deficient
performance, Mr. Myers raises no issue over whether
trial counsel sufficiently investigated potential
impeachment evidence for Ms. Swaffard before choosing
this strategy. This is likely because Patrick Baker
testified that he reviewed the recorded conversations
between Mr. Myers and Ms. Swaffard. He simply
decided that it was better to end Ms. Swaffard’s
testimony as quickly as possible—after two brief
questions—rather than delve into this or any other
evidence. Given that there is no allegation that trial
counsel’s investigation into Ms. Swaffard was
deficient—trial counsel’s testimony that he reviewed
those calls went undisputed—trial counsel’s strategic
decision is “virtually unchallengable,” Strickland, 466
U.S. at 691. This is the conclusion reached by the Indiana
Court of Appeals, and it was not an unreasonable
application of Strickland.

220a
Accordingly, Mr. Myers has not shown that trial
counsel’s performance was deficient for failing to
sufficiently cross-examine Ms. Swaffard.
7.

Failure to Object to Improper Religious
Vouching for Ms. Swaffard

Mr. Myers argues that trial counsel provided
deficient performance by failing to object to alleged
improper religious vouching for Ms. Swaffard’s
credibility by the State. Specifically, Mr. Myers
contends that, without objection, the State began Ms.
Swaffard’s testimony with the fact that she engages in
Bible study and is a lay counselor at her church and then,
during closing, the State referenced Ms. Swaffard’s
religious convictions to bolster the credibility of her
testimony. For example, the State argued during closing
that “with great prayer . . . [Ms. Swaffard] did come
forward,” Trial Tr. 2747, and at the conclusion of closing,
“[t]hanks to Betty Swaffard and her courage and her
strength and the grace of God she came forward and told
you the truth,” id. at 2827.
The Indiana Court of Appeals addressed this issue
on the merits in Myers II, concluding that trial counsel’s
failure to object was not deficient performance and, even
if it was, Mr. Myers was not prejudiced by it. See Myers
II, 33 N.E.3d at 1101-03. The Court need not consider
the Indiana Court of Appeals’ discussion of prejudice,
however, because its performance analysis forecloses
this claim.
The Indiana Court of Appeals recognized that
Indiana Rule of Evidence 610 provides that “[e]vidence

221a
of a witness’s religious beliefs or opinions is not
admissible to attack or support the witness’s
credibility.” After analyzing the alleged improper
religious bolstering by the State, id. at 1101-02, the
Indiana Court of Appeals held that it “cannot conclude
that Swaffard’s testimony concerning her religious
involvement constitutes vouching, religious or
otherwise,” id. at 1102. It continued: “Although the
relevance of Swaffard’s religious involvement is
certainly questionable . . . , her testimony contained no
express or implied assertion that she was more or less
likely to tell the truth due to her religious beliefs. Thus,
Myers has not established a reasonable probability that
an objection on this basis would have been sustained.”
Id.
Whether an objection under Rule 610—or any other
Indiana Rule of Evidence—would be sustained is purely
a question of state law. This Court cannot second-guess
that determination, as “it is not the province of a federal
habeas court to reexamine state-court determinations
on state-law questions.” Wilson, 131 S. Ct. at 16 (citation
and quotation marks omitted); see Miller, 820 F.3d at 277
(“A federal court cannot disagree with a state court’s
resolution of an issue of state law.”). Thus, “although
claims of ineffective assistance of counsel can be
premised on an attorney’s failure to raise state-law
issues, federal courts reviewing such claims must defer
to state-court precedent concerning the questions of
state law underlying the defendant’s ineffectiveness
claim.” Shaw v. Wilson, 721 F.3d 908, 914 (7th Cir. 2013)
(citations omitted); see Harper v. Brown, 865 F.3d 857,
859 (7th Cir. 2017) (holding that a habeas petitioner’s

222a
argument was really an attack on a state court’s
resolution of a question of state law embedded within its
analysis of a Strickland claim, and that federal courts are
not empowered to review such questions of state law
under § 2254).
Since this Court must accept the Indiana Court of
Appeals’ determination that any objection to the alleged
improper vouching would not have been sustained, Mr.
Myers cannot establish that his trial counsel’s
performance was deficient in this respect. This is
because “[i]f evidence admitted without objection is, in
fact, admissible, then failing to object to [that] evidence
cannot be a professionally unreasonable action.” Jones v.
Brown, 756 F.3d 1000, 1009 (7th Cir. 2014) (citation and
quotation marks omitted); Hough, 272 F.3d at 898 (“An
ineffective assistance claim based on a failure to object
is tied to the admissibility of the underlying evidence. If
evidence admitted without objection was admissible,
then the complained of action fails both prongs of the
Strickland test[.]”).
In sum, this Court must accept the Indiana Court of
Appeals’ conclusion that any objection to the alleged
improper vouching would not have been sustained, and
it cannot be deficient performance to not raise an
objection that would have been overruled. Accordingly,
Mr. Myers has failed to show that trial counsel rendered
deficient performance by failing to object to alleged
improper religious vouching for Ms. Swaffard’s
credibility.

8.

223a
Failure to Impeach Carly Goodman

Carly Goodman was a senior in high school and Mr.
Myers’ girlfriend from late 1999 to through early 2000.
She testified during trial that, among other things, while
they were dating, Mr. Myers took her to the very
location in the woods where Ms. Behrman’s remains
were found in 2003. Mr. Myers argues that trial counsel
provided deficient performance by failing to impeach
Ms. Goodman’s testimony regarding her identification of
the location in which Ms. Behrman’s remains were found
as a location Mr. Myers had previously taken her. He
contends that Ms. Goodman previously made
inconsistent statements about her identification of the
site, and trial counsel should have used these
inconsistent statements to impeach her testimony.
The Indiana Court of Appeals in Myers II
summarized the factual background of this claim as
follows:
Goodman testified that one night in March 2000,
Myers, her then-boyfriend, took her for a long
car ride through Gosport to a wooded area,
where he parked in a “clearance” surrounded by
a wooded area. Trial Transcript at 1899.
Goodman testified that after Myers stopped the
car, the couple argued and that she was afraid
and wanted to go home. Goodman testified
further that in February of 2006, she went for a
drive with Detective Lang to identify places
that Myers had taken her during their
relationship. She recognized one place as the
wooded area where she and Myers had argued

224a
in March 2000. This was the same area where
Behrman’s remains were discovered in 2003.
Myers II, 33 N.E.3d at 1103.
Mr. Myers’ claim focuses on the failure to impeach
Ms. Goodman’s identification of the site. Ms. Goodman
testified at trial that during a drive with Mr. Myers he
parked in a clearance that was completely surrounded
by woods. Trial Tr. 1899-1900. She was then shown
Exhibit 12, which was a picture of where Ms. Behrman’s
remains were found. Id. She stated she recognized the
place, and when asked by the State what she recognized
about it, she replied, “[t]hat’s where [Mr. Myers] took
me.” Id. at 1900.
Patrick Baker conducted a brief cross-examination
of Ms. Goodman, focusing on her ability to identify the
clearance in Exhibit 12 as the specific clearing to which
Mr. Myers took her. He asked her how she could
“differentiate that clearance from any other clearance?”
Id. at 1906. She responded that “it’s just what looks
familiar to me.” Id. When Patrick Baker next asked,
“[b]ut . . . that could be anywhere, correct,” she
responded, “yes.” Id. Cross-examination concluded
shortly thereafter following a few questions regarding
how well Ms. Goodman knows Detective Lang and how
familiar she is with the wooded areas near Bloomington.
See id. at 1906-07.
Mr. Myers argues that trial counsel should have
impeached Ms. Goodman’s testimony that she
recognized the exact place Ms. Behrman’s remains were
found via allegedly inconsistent statements she made to

225a
Detective Lang. Specifically, Mr. Myers contends that
Detective Lang’s grand jury testimony was that Ms.
Goodman “did not say that cut-away was the one to
which Myers took her, but could only say it was similar
to it.” Filing No. 33 at 70.
Patrick Baker testified during the post-conviction
hearing regarding his strategy with respect to Ms.
Goodman’s testimony. He stated that his strategy from
the outset was to “minimize” her testimony because she
“had a lot of information, 404(b) evidence, that regarded
domestic battery situations” with Mr. Myers, “regarded
her being held against her will in a trailer, I think, for
three or four days without any clothes,” and “protective
orders that she had filed against [Mr. Myers], all of which
. . . [the trial judge] had . . . ruled in our favor but we did
not want her bringing any of those issues up.” PCR Tr.
581. Patrick Baker was then asked whether he had any
plans to undermine her testimony with any prior
inconsistent statements. He responded that he did not
“know specifically,” but that he also had to “judge the
witnesses as they c[a]me up and . . . the demeanor and
the fear . . . on her face was so evident, I think that
whatever strategies we may have had or contemplated
were changed at that moment based upon her apparent
fear.” Id. at 582.
The Indiana Court of Appeals addressed the
performance prong on the merits in Myers II. It first
acknowledged Patrick Baker’s testimony at the postconviction hearing discussed above, then reasoned that
trial counsel’s performance was not deficient:

226a
Myers dismisses trial counsel’s explanation of
his strategy as unreasonable. He asserts that
counsel could have cross-examined Goodman
concerning her prior statements made to
Detective Lang at the time she identified the
site without eliciting or opening the door to
prejudicial and inadmissible testimony . . . . We
will not engage in this sort of second-guessing of
trial counsel’s strategic decisions concerning the
nature and scope of cross-examination. Myers
has not established that his trial counsel’s
strategy was unreasonable; to the contrary, it
was quite reasonable for trial counsel to
minimize the jury’s exposure to Goodman’s
fearful demeanor and avoid any inadvertent
mention of highly prejudicial and inadmissible
evidence by limiting the scope and duration of
his cross-examination, while simultaneously
eliciting testimony casting doubt on the
reliability of her identification of the area.
Myers II, 33 N.E.3d at 1103-04.
Mr. Myers contends the Indiana Court of Appeals’
resolution of the performance prong constitutes an
unreasonable application of Strickland. His primary
argument is that there “was no reason to believe that
impeaching Goodman with her prior inconsistent
statements to Lang would have elicited prohibited
404(b) evidence,” as the trial court was vigilantly
prohibiting such evidence from being admitted. Filing
No. 33 at 71. Moreover, Mr. Myers contends that trial
counsel “did cross examine Goodman, in an attempt to

227a
show her identification was implausible in light of the
lack of distinguishing features of this particular area of
the woods.” Id. (citing Trial Tr. 1905-07). This shows,
says Mr. Myers, that “the state court’s theory is based
on a ‘post-hoc rationalization of counsel’s conduct
[rather] than an accurate description of [counsel’s]
deliberations.’” Id. (first alteration in original) (quoting
Wiggins, 539 U.S. at 526-27).
As an initial matter, while Mr. Myers addresses the
concern about risking Rule 404(b) testimony from Ms.
Goodman, he fails to explain how trial counsel’s concern
about Ms. Goodman’s fearful demeanor did not provide a
reasonable strategic justification to limit her crossexamination. After all, Patrick Baker explained during
the post-conviction hearing “that whatever strategies
we may have had or contemplated were changed [during
Ms. Goodman’s testimony] based upon her apparent
fear.” PCR Tr. 582. The state courts accepted this
testimony and Mr. Myers does not dispute it. As noted
above, “[g]enerally when an attorney articulates a
strategic reason for a decision, the court defers to that
choice.” Jansen, 884 F.3d at 656 (quoting United States
v. Cieslowski, 410 F.3d 353, 360 (7th Cir. 2005)).
Given this strategy, Mr. Myers’ position fails for
essentially the same reasons his claim regarding his trial
counsel’s alleged failure to sufficiently cross-examine
Ms. Swaffard did— namely, that “strategic choices made
after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable[.]”
Strickland, 466 U.S. at 690-91; see Bryant v. Brown, 873
F.3d 988, 996 (7th Cir. 2017) (quoting Jones v. Butler, 778

228a
F.3d 575, 584 (7th Cir. 2015) (“A ‘decision not to impeach
a particular witness is normally considered a strategic
choice within the discretion of counsel.’”). This is
precisely the path the Indiana Court of Appeals followed
when it concluded that it would not “second-guess[] . . .
trial counsel’s strategic decisions concerning the nature
and scope of cross-examination,” especially given that it
is a reasonable strategy to “minimize the jury’s exposure
to Goodman’s fearful demeanor.” Myers II, 33 N.E.3d at
1104.
Mr. Myers resists this conclusion by arguing that
the proffered strategy is merely a post-hoc
rationalization for trial counsel’s decisions. But Patrick
Baker testified that his strategy developed at the very
time Ms. Goodman was on the stand because that was
when he could observe her demeanor and consider its
impact on the jury. Moreover, the objective evidence at
least partially corroborates that this was Patrick
Baker’s asserted strategy at the time. During crossexamination, he briefly attempted to undermine the
reliability of Ms. Goodman’s identification of the
clearance and was rather successful in doing so. See Trial
Tr. 1906 (Ms. Goodman responding “yes” when Patrick
Baker asked if the State’s picture of the clearance “could
be anywhere”). He then asked only a few more
questions—the entirety of cross-examination spans less
than two full transcript pages—before concluding his
cross-examination. Such a brief cross-examination—
after at least partially undermining her identification of
the clearance—of a witness that both parties agree was
important is consistent with Patrick Baker’s testimony
that, given Ms. Goodman’s fearful demeanor, he changed

229a
what strategy he previously had in the moment and
instead chose to expose the jury to her fearful demeanor
as little as possible.
In sum, even though Mr. Myers now argues trial
counsel should have done more to impeach Ms.
Goodman’s testimony, the Indiana Court of Appeals
reasonably applied Strickland in concluding that trial
counsel’s strategy is “virtually unchallengeable,”
Strickland, 466 U.S. at 690-91, under these
circumstances.
9.

Failure to Object to Carly
Testimony under Rule 404(b)

Goodman’s

Mr. Myers argues that trial counsel provided
deficient performance by failing to object under Indiana
Rule of Evidence 404(b) to certain testimony by Ms.
Goodman. Generally, Rule 404(b) prohibits admission of
“a crime, wrong, or other act . . . to prove a person’s
character in order to show that on a particular occasion
the person acted in accordance with the character.”
Prior to trial, the parties and the trial judge
discussed at some length Mr. Myers’ motion in limine to
exclude Rule 404(b) evidence that may have been
admitted through Ms. Goodman’s testimony. See Trial
Tr. 352-75. The trial court granted motions in limine
with respect to several categories of evidence Ms.
Goodman might offer. For example, the trial court
prohibited any reference to two protective orders Ms.
Goodman had sought against Mr. Myers and the reasons
she had sought those protective orders. Id. at 363-64.
The trial court also excluded any evidence from the

230a
State that Mr. Myers would make Ms. Goodman strip
naked in his trailer and take her clothing as a means to
control her. Id. at 375.
Early during Ms. Goodman’s testimony, trial counsel
raised several objections because the State’s open-ended
questions risked Ms. Goodman straying into forbidden
testimony. See id. at 1883-86. The trial court warned the
State during a bench conference that the State’s
questions were “leaving it wide open for her to start
talking about . . . protective order stuff,” and reminded
the State to “not go there.” Id. at 1886. Trial counsel
continued to raise numerous objections, some of which
were sustained. See, e.g., id. at 1887-91.
Mr. Myers argues that, even though trial counsel
objected to many of the State’s questions, trial counsel
failed to object to damaging Rule 404(b) testimony.
Specifically, Mr. Myers points to the following sequences
during the State’s questioning of Ms. Goodman:
Q. What did you do [during the ride with Mr.
Myers]?
A. I asked for him to take me home.
Q. Did he take you home?
A. No.
Q. How’d you feel?
A. Scared.
....

231a
Q. And when you parked the car in the
clearance, was this a romantic . . . romantic
type of . . .
PATRICK BAKER: Objection to leading.
THE COURT:

Sustained.

MR. SONNEGA: Okay. Rephrase.
Q. What did you and the Defendant do when he
parked his car . . .
PATRICK BAKER: Objection, Judge, to
relevance.
THE COURT:

Overruled.

A. We argued.
Q. Did you kiss him?
A. No.
Q. Did you want to go home?
A. Yes.
Q. Were you scared?
A. Yes.
....
Q. How long did you spend at that location?

232a
A. It’s hard to say. Maybe a half an hour, 45
minutes.
21

Trial Tr. 1893, 1899-1900, 1901.

Mr. Myers argues that trial counsel should have
objected to the foregoing questions under Rule 404(b)
because they were unrelated to the purpose of Ms.
Goodman’s testimony—that is, to show Mr. Myers had
knowledge of the location where Ms. Behrman’s remains
were found, see id. at 367—and were prejudicial. They
were especially prejudicial, says Mr. Myers, considering
that evidence that Ms. Behrman was raped (which is
discussed further below) was improperly presented to
the jury. “After hearing reference to a rape at the same
location,” Mr. Myers contends, “the jury was left to
wonder if Goodman had also been raped.” Filing No. 9 at
39.
The Indiana Court of Appeals addressed this claim
on the merits in Myers II. As an initial matter, it
concluded that the argument was waived because it was
not fully developed:
Myers also argues that his trial counsel were
ineffective for failing to object to Goodman’s
description of Myers’ behavior during the March
21

Ostensibly to show that objections to the latter questions would
have been sustained, Mr. Myers asserts that “[a] relevance
objection about whether the trip to the woods was romantic was
sustained.” Filing No. 9 at 39. But the objection in question was not
for relevance, but for leading. See Trial Tr. 1899. In fact, when the
State rephrased the question, trial counsel’s relevance objection
was overruled. See id.

233a
2000 car trip, which he calls ‘prejudicial 404(b)
testimony.’ Appellant’s Brief at 46. Myers does
not, however, cite the applicable language of
Indiana Evidence Rule 404(b) or make any
attempt to apply it. Accordingly, this argument
is waived for lack of cogency. See Davis v. State,
835 N.E.2d 1102, 1113 (Ind. Ct. App. 2005)
(explaining that “[a] party waives an issue
where the party fails to develop a cogent
argument or provide adequate citation to
authority and portions of the record”), trans.
denied.
Myers II, 33 N.E.3d at 1105-06.
The respondent first argues that the Indiana Court
of Appeals’ finding of waiver constitutes an independent
and adequate state law basis for denying this claim,
making this claim procedurally defaulted. See Filing No.
20 at 46-47. The respondent is correct that one type of
procedural default occurs when the state court decides a
federal claim on an independent and adequate state law
basis. See Walker v. Martin, 562 U.S. 307, 315 (2011)
(quoting Beard v. Kindler, 558 U.S. 53, 55 (2009)) (“A
federal habeas court will not review a claim rejected by
a state court if the decision of [the state] court rests on a
state law ground that is independent of the federal
question and adequate to support the judgment.”).
Mr. Myers resists this conclusion, arguing that the
Indiana Court of Appeals’ invocation of waiver is not an
“adequate” procedural ruling. He points out that Mr.
Myers’ appellate brief clearly invoked Rule 404(b),
pointed to the allegedly inappropriate questions and

234a
testimony in the record, cited another state case that
analyzes Rule 404(b) evidence, and discussed why this
evidence was prejudicial. See Filing No. 33 at 76.
Although Mr. Myers did not quote the language of
Rule 404(b) in his post-conviction appellate brief, he
clearly invoked the rule as the basis for this claim of
ineffective assistance. See Filing No. 20-14 at 56
(“Counsel’s failure to object to prejudicial 404(b)
testimony was ineffective assistance.”). He also
attempted to apply it; in his brief, he explicitly argued
that Ms. Goodman’s testimony was admitted over trial
counsel’s pre-trial objection under the latter portion of
Rule 404(b) “to show knowledge of the crime scene,” id.
(citing Trial Tr. 367), and whether she “wanted to go
home, or was scared was not relevant for that purpose,”
id.
Given this, it is a close question as to whether the
Indiana Court of Appeals relied upon an independent
and adequate state law ground. See Crockett v. Butler,
807 F.3d 160, 167 (7th Cir. 2015) (holding that a state rule
may be inadequate if it is applied “‘infrequently,
unexpectedly, or freakishly’” (quoting Prihoda v.
McCaughtry, 910 F.2d 1379, 1383 (7th Cir. 1990)). But it
is not one the Court must ultimately answer, as the
Indiana Court of Appeals went on to address the merits
of Mr. Myers’ claim. The Court will therefore bypass this
more difficult question of procedural default, as Mr.
Myers’ claim must be denied on the merits. See
Washington v. Boughton, 884 F.3d 692, 698 (7th Cir.
2018) (“Rather than work our way through the maze of
these procedural arguments, however, we think it best

235a
to cut to the chase and deny [the petitioner’s] due
process claim on the merits.”); see also Brown v. Watters,
599 F.3d 602, 610 (7th Cir. 2010).
The Indiana Court of Appeals also addressed Mr.
Myers’ claim on the merits. After detailing the evidence
set forth above, the Indiana Court of Appeals first
rejected Mr. Myers’ contention that Ms. Goodman’s
testimony, considered in conjunction with Dr. Radentz’s
testimony that Ms. Behrman had been raped, left an
impression that Ms. Goodman had also been raped. See
Myers II, 33 N.E.3d at 1106 (“Nothing about Goodman’s
testimony implied that she had been raped.”). It then
went on to explain why any objection under Rule 404(b)
would not have been sustained anyway:
In any event, it is apparent that the testimony
was admitted to show that Myers was familiar
with the area in which Behrman’s remains were
discovered and to explain why Goodman was
still able to remember the location so vividly
several years later, and not to establish that
Myers had a propensity to commit murder or
any other crime. Thus, the testimony did not
violate Evidence Rule 404(b), and Myers points
to no danger of unfair prejudice aside from his
unpersuasive argument that the testimony left
the jury with the impression that Goodman had
been raped. See Embry v. State, 923 N.E.2d 1, 9
(Ind. Ct. App. 2010) (explaining that “[i]n
assessing the admissibility of 404(b) evidence a
trial court must (1) determine that the evidence
of other crimes, wrongs, or acts is relevant to a

236a
matter at issue other than the defendant’s
propensity to commit the charged act and (2)
balance the probative value of the evidence
against its prejudicial effect pursuant to Indiana
Evidence Rule 403”), trans. denied. Thus, Myers
has not established a reasonable probability that
an objection on the basis of Evidence Rule
404(b) would have been sustained, and he is
consequently unable to show that counsel
performed deficiently by failing to object on that
basis.
Myers II, 33 N.E.3d at 1106.
In short, the Indiana Court of Appeals held that the
proposed Rule 404(b) objection would not have been
sustained. As discussed above, whether an unmade
evidentiary objection would have been sustained under
the Indiana Rules of Evidence is purely a question of
state law. This Court cannot second-guess that
determination, as “it is not the province of a federal
habeas court to reexamine state-court determinations
on state-law questions.” Wilson, 131 S. Ct. at 16 (quoting
Estelle v. McGuire, 502 U.S. 62, 67 (1991)); see also
Miller, 820 F.3d at 277; Shaw, 721 F.3d at 914.
Since this Court must accept the Indiana Court of
Appeals’ determination that the proposed Rule 404(b)
objections would not have been sustained, Mr. Myers
cannot establish that his trial counsel’s performance was
deficient in this respect. This is because “[i]f evidence
admitted without objection is, in fact, admissible, then
failing to object to [that] evidence cannot be a
professionally unreasonable action.” Jones, 756 F.3d at

237a
1008-09 (quoting Hough v. Anderson, 272 F.3d 878, 898
(7th Cir. 2001)).
Accordingly, Mr. Myers has failed to show that trial
counsel rendered deficient performance by failing to
object to certain of Ms. Goodman’s testimony under Rule
404(b).
10. Failure to Object to Testimony that Ms.
Behrman was Raped
Mr. Myers argues trial counsel provided deficient
performance by failing to object under Indiana Rule of
Evidence 403 to Dr. Radentz’s testimony that Ms.
Behrman was raped before she was murdered. Dr.
Radentz is a forensic pathologist who testified as an
expert witness for the State during trial. See Trial Tr.
1413-61. Among other things, he testified that the cause
of Ms. Behrman’s death was a “contact shotgun wound
to the back of the head,” id. at 1420, that Ms. Behrman
was killed at the site where her remains were located,
id. at 1423, that she was raped prior to being killed, id.
at 1423, and that, of the bones that were remaining (no
soft tissue remained), there was no evidence of stabbing,
being struck by a vehicle, or other trauma, id. at 1425,
1450.
At issue here is Dr. Radentz’s testimony that Ms.
Behrman was raped prior to being killed, describing this
as a “classic scenario . . . of a rape homicide.” Id. at 1423.
Trial counsel did not object to this or any of Dr.
Radentz’s other rape testimony, which is discussed in
more detail in the prejudice analysis below.

238a
Whether Rule 403 should have precluded the
admission of the evidence that Ms. Behrman was raped
was first addressed by the Indiana Court of Appeals on
direct appeal in Myers I:
Myers was not charged with rape. At trial,
forensic pathologist Dr. Stephen Radentz
nevertheless testified that the circumstances
surrounding the disposal of Behrman’s remains
suggested the classic scenario for a rapehomicide. The court subsequently submitted
Jury Question 84 without objection to Dr.
Radentz, which asked in part, “Do you believe
the body was raped before being shot?”, to
which Dr. Radentz answered, “Yes.” Tr. p. 1454.
During follow-up cross-examination, Dr.
Radentz admitted there was no physical
evidence to support such an assertion. During
additional re-direct examination, however, he
testified based upon his training and experience
that due to the facts that Behrman’s remains
were found in a remote area, without clothing,
and with a “depersonalizing” shotgun wound to
the back of the head, Behrman’s case was a
“rape homicide . . . until proven otherwise.” Tr.
p. 1460. Although Myers specifically challenges
on appeal the court’s submission of Question 84
to Dr. Radentz, defense counsel did not object to
Jury Question 84, which, but for a claim of
fundamental error, waives the issue. Myers also
claims, however, that [all of] Dr. Radentz’s
references to rape constituted fundamental
error.

239a
Myers I, 887 N.E.2d at 186.
Although the Indiana Court of Appeals in Myers I
concluded that Dr. Radentz’s testimony did not violate
Rule 702, it determined that it did violate Rule 403,
which states that “[t]he court may exclude relevant
evidence if its probative value is substantially
outweighed by a danger of . . . unfair prejudice.” The
Indiana Court of Appeals reasoned: “With respect to the
probative value of Dr. Radentz’s testimony, an essential
element of rape is penetration, no matter how slight.
Because none of Behrman’s soft tissue remained, there
was no physical evidence to support the rape
determination. In addition, Myers was not charged with
rape. We agree that the rape testimony was more
prejudicial than probative.” Myers I, 887 N.E.2d at 18687.
Having determined that the rape testimony should
have been excluded under Rule 403, the Indiana Court
of Appeals turned to whether it “constituted
fundamental error,” which requires a showing that the
error is “so prejudicial to the rights of the defendant as
to make a fair trial impossible.” See id. at 187 (quoting
Myers v. State, 718 N.E.2d 783, 790 (Ind. Ct. App. 1999))
(“In determining whether an alleged error rendered a
judicial proceeding unfair, we must consider whether
the resulting harm or potential for harm is substantial.
We look to the totality of the circumstances and decide
whether the error had a substantial influence upon the
outcome.”). The Indiana Court of Appeals concluded the
error did not amount to fundamental error and therefore
denied relief. See id.

240a
During post-conviction proceedings, Mr. Myers
argued that his counsel was ineffective for failing to
object to testimony regarding rape. The Indiana Court
of Appeals in Myers II denied this claim on the prejudice
prong of Strickland, without addressing trial counsel’s
performance. See Myers II, 33 N.E.3d at 1106-07. This
Court must therefore review trial counsel’s performance
de novo. See Porter, 558 U.S. at 38; Rompilla, 545 U.S.
at 390.
As an initial matter, the respondent’s argument
regarding this claim is at best confusing. The respondent
first asserts that the Indiana Court of Appeals in Myers
II “held that the [rape] testimony should have been
objected to.” Filing No. 20 at 49. But the Myers II court
did not assess trial counsel’s performance, deciding only
that Mr. Myers was not prejudiced. 33 N.E.2d at 110607. Although this at first appears to be a concession that
trial counsel’s performance was deficient, the
respondent then goes on to argue that the lack of
objection was part of trial counsel’s strategy.
Specifically, the respondent argues that trial counsel
purposefully did not object to Dr. Radentz’s opinion
because, given that there was “no physical evidence
indicating that Myers had killed Jill [Behrman],” it
allowed Mr. Myers “to argue that someone had moved
the body from Salt Creek,” which “suited Myers’ Owings
theory very well.” Filing No. 20 at 49.
There are multiple problems with this line of
reasoning, to the extent the Court can correctly discern
the respondent’s position. First, the notion that Dr.
Radentz’s testimony generally was helpful to Mr. Myers’

241a
theory that Ms. Owings, or perhaps others, may have
moved Ms. Behrman’s body from Salt Creek to where it
was eventually found is incorrect. Dr. Radentz testified
repeatedly that he did not believe that Ms. Behrman was
killed elsewhere and her body moved. See, e.g., Trial Tr.
1417 (stating that he had never seen a deceased person’s
body moved and then shot); id. at 1423-24 (explaining at
length why in his expert opinion Ms. Behrman was killed
at the location her remains were found).
Second, and more important, it appears that the
respondent’s argument that Dr. Radentz’s testimony
could have been helpful to Mr. Myers—and thus it may
have been strategic not to object to it—is based on the
entirety of Dr. Radentz’s opinion testimony, not the
specific rape testimony at issue here. Whatever
assistance Dr. Radentz’s testimony generally provided
for Mr. Myers’ theory that Ms. Behrman’s body was
moved—which, as noted, is likely none—his testimony
that Ms. Behrman was raped could have been objected
to without impacting the purportedly helpful testimony
regarding whether the body was moved. In other words,
Dr. Radentz’s testimony that there was no physical
evidence connecting Mr. Myers to the crime scene could
have been admitted even if his rape testimony was
excluded.
These two reasons show that the respondent’s
attempt to provide a strategic justification for trial
counsel’s failure is simply an impermissible “post-hoc
rationalization,” Wiggins, 539 U.S. at 526-27, of trial
counsel’s failure to object—a rationalization that the

242a
state courts did not consider let alone accept—and an
implausible rationalization at that.
In the end, the Court concludes that it was
objectively deficient performance for trial counsel not to
object to Dr. Radentz’s testimony regarding rape. The
Indiana Court of Appeals in Myers I concluded that the
evidence should have been excluded under Rule 403. See
Myers I, 887 N.E.2d at 186-87. And there is no possible
strategic reason for failing to object to this testimony.
Indeed, Hugh Baker’s own contemporaneous conduct
shows that he too believed the rape testimony to be
damaging to Mr. Myers’ case. He attempted—with
some, albeit limited, success— during cross-examination
to undermine Dr. Radentz’s conclusion that Ms.
Behrman was raped. See Trial Tr. 1458-61. But, had he
raised a Rule 403 objection, all of the rape testimony
would have been excluded, and the State, among other
things, would not have been able to argue during its
closing argument that Mr. Myers had motive to murder
Ms. Behrman. See House v. Bell, 547 U.S. 518, 540 (2006)
(“When identity is in question, motive is key.”). Given
the foregoing, trial counsel’s inexplicable failure to
object to Dr. Radentz’s rape testimony constitutes
deficient performance.
As noted above, the prejudice analysis must
consider the cumulative prejudice flowing from all of
trial counsel’s errors. Accordingly, the Court will
consider the prejudice from trial counsel’s failure to
object to Dr. Radentz’s rape testimony in the prejudice
analysis below.

243a
11. Failure to Object to Evidence Regarding Mr.
Myers’ Access to Shotguns
Mr. Myers maintains that trial counsel performed
deficiently by failing to object to allegedly irrelevant
evidence regarding shotguns. During trial, the State
introduced evidence that shotguns were missing from a
barn near Mr. Myers’ home, as well as evidence that Mr.
Myers sold shotguns to his uncle at Mr. Myers’ father’s
funeral. Trial Tr. 1798-1802. This evidence was
irrelevant and prejudicial, says Mr. Myers, because the
shotguns went missing after Ms. Behrman was
murdered and thus none of them could have been the
murder weapon. Mr. Myers suggests trial counsel knew
this because Detective Lang testified to as much during
grand jury proceedings. Filing No. 9 at 41. Therefore,
had his trial counsel objected as to relevancy, Mr. Myers
contends that the objection would have been sustained.
The Indiana Court of Appeals addressed this
allegation on the merits, concluding that trial counsel’s
performance was not deficient, nor was Mr. Myers
prejudiced. See Myers II, 33 N.E.3d at 1107-09. It agreed
with Mr. Myers that “‘[e]vidence of weapons possessed
by a defendant but not used in the crime for which the
defendant is charged should generally not be introduced
because the evidence is irrelevant and highly
prejudicial.’” Id. at 1108 (quoting Oldham v. State, 779
N.E.2d 1162, 1174 (Ind. Ct. App. 2002)). But it disagreed
that Detective Lang’s grand jury testimony completely
foreclosed the possibility that one of the stolen shotguns
was the murder weapon. It began by quoting the
following portion of Detective Lang’s testimony:

244a
I talked to Mr. Maher, [the owner of the barn],
the burglary he reported in November 2000,
which would have been after the death
obviously of [Behrman]. I asked him if it could
be possible that he would not have known
between May and November when he reported
it that any of those weapons were missing? In
his opinion, he said no. I don’t know. You know
I mean he . . . if they were all missing, I’m sure
he’s correct. If he took one, you know, it could
have been out and he would not [have] noticed it
in my opinion. But, he said that the air
conditioner was removed and that was what
tipped him off that something was wrong and
then he found the guns were gone, so. He stated
that he made trips to the barn on several
occasions enough between May and November
that he would have known somewhere in
between that time that they would have been
gone.
Id. (quoting Grand Jury Tr. 5483-84). Based on this
testimony, the Indiana Court of Appeals agreed with the
post-conviction court’s conclusion that the “testimony
concerning the guns [was] relevant because they (or at
least one of them) could have been taken during a
previous, undiscovered entry.” Id. And if the evidence
was relevant, the Indiana Court of Appeals reasoned,
any objection would not have been sustained. Id.
Mr. Myers cannot assail this decision by the Indiana
Court of Appeals for the same reasons discussed above
regarding his claim that trial counsel should have

245a
objected to allegedly improper vouching for Ms.
Swaffard’s credibility—namely, whether an objection
would have been sustained is purely a question of state
law that this Court cannot reexamine. See Wilson, 131 S.
Ct. at 16 (quoting Estelle, 502 U.S. at 67); Miller, 820
F.3d at 277. In analyzing Mr. Myers’ allegation of
deficient performance, the Indiana Court of Appeals
determined as a matter of state evidentiary law that the
shotgun evidence was relevant. This Court must defer
to determinations of state law embedded in ineffective
assistance of counsel claims. See Harper, 865 F.3d at 859;
Shaw, 721 F.3d at 914. Doing so precludes this Court
from concluding that trial counsel rendered deficient
performance for not objecting to the gun evidence, given
that any such objection would have been overruled. See
Jones, 756 F.3d at 1009; Hough, 272 F.3d at 898.
Accordingly, Mr. Myers has failed to show that trial
counsel’s performance was deficient in this respect.
12. Failure to Object to John Roell’s Testimony
Mr. Myers argues that trial counsel provided
deficient performance by failing to object to the
testimony of Mr. Myers’ former cellmate at the Monroe
County Jail, John Roell. Mr. Roell testified at trial that,
among other things, Mr. Myers made comments
appearing to implicate himself in Ms. Behrman’s murder.
Mr. Myers argues that trial counsel should have moved
to exclude Mr. Roell’s testimony under Rule 403, which
provides in relevant part that relevant evidence may be
excluded “if its probative value is substantially
outweighed by a danger of . . . unfair prejudice.” In
support of this argument, Mr. Myers primarily relies on

246a
the numerous inconsistencies between Mr. Roell’s
deposition and trial testimony to argue that the
probative value of his testimony was minimal given his
lack of credibility.
The Indiana Court of Appeals addressed this claim
on the merits in Myers II. See Myers II, 33 N.E.3d at
1109-10. It set forth the relevant state law governing
objections under Indiana Evidence Rule 403, before
reasoning as follows:
The crux of Myers’ argument is that the
probative value of Roell’s testimony was low
because he was not a credible witness due to
inconsistencies among his initial statement to
police, his deposition testimony, and his trial
testimony. But it was for the trier of fact, not the
trial court, to judge Roell’s credibility.
Ultimately, Myers’ argument in this regard goes
to the weight to be afforded to Roell’s
testimony, not its admissibility. See Embrey v.
State, 989 N.E.2d 1260, 1268 (Ind. Ct. App. 2013)
(“[i]nconsistencies in witness testimony go to
the weight and credibility of the testimony, the
resolution of which is within the province of the
trier of fact” (internal quotation omitted)).
Roell’s testimony, if credited by the trier of fact,
was highly probative of Myers’ guilt.
Myers II, 33 N.E.3d at 1109. It then went on to note that
Mr. Myers’ argument regarding prejudice was
underdeveloped and would not be made for him. Id. at
1110. Given these determinations, the Indiana Court of
Appeals concluded that Mr. Myers had “not satisfied his

247a
burden of establishing that an objection to Roell’s
testimony on the basis of Evidence Rule 403 would have
been sustained, he has consequently failed to establish
deficient performance and resulting prejudice.” Id.
As with other alleged errors on trial counsel’s part,
the Indiana Court of Appeals determined that, as a
matter of state evidentiary law, the suggested objection
would not have been sustained. Again, this state-law
determination is unreviewable by this federal habeas
court. See Wilson, 131 S. Ct. at 16; Miller, 820 F.3d at
277. Such is true even when, as here, it is embedded in
an ineffective assistance of counsel claim. See Harper,
865 F.3d at 859; Shaw, 721 F.3d at 914. Accordingly,
accepting that the objection to Mr. Roell’s testimony
would have been overruled, Mr. Myers cannot establish
that his counsel rendered deficient performance by
failing to object. See Jones, 756 F.3d at 1009; Hough, 272
F.3d at 898.
13. Failure to Present Evidence Supporting the
Theory that Ms. Owings, Ms. Sowders, and
Mr. Clouse May have Murdered Ms. Behrman
Mr. Myers’ final allegation of deficient performance
is that trial counsel failed to impeach Ms. Owings’s
testimony with inculpatory evidence that she and others
murdered Ms. Behrman. Filing No. 9 at 44. Specifically,
Mr. Myers contends that trial counsel failed to “impeach
Owings; produce evidence corroborating Owings’s
confession; produce witnesses to whom Owings, Clouse,
and Sowders made incriminating statements; produce
evidence of Owings, Clouse, and Sowders false or shaky

248a
alibis; [and] produce evidence of Sowders’s flight to
Texas.” Filing No. 9 at 44-45; Filing No. 33 at 87-100.
The Indiana Court of Appeals addressed this claim
on the merits in Myers II. It relied on Hugh Baker’s
testimony during the post-conviction hearing that the
failure to present much of the above evidence was a
strategic decision:
Trial counsel Hugh Baker . . . testified that the
defense team made a strategic decision not to
pursue Owings’ confession as its primary theory
of defense. Specifically, he testified as follows:
. . . [W]e felt that trying to present to a
jury and convince a jury what the
Federal Bureau of Investigations, the
Bloomington Police Department, and
the Indiana State Police had concluded
was false was not a good strategy, that
is the Owings’ confession. She’d
recanted this confession. And they
hadn’t found Jill Behrman in the . . . in
Salt Creek. Rather, she was found . . .
her remains were found in Morgan
County and she . . . hadn’t died from
drowning but she’d died from 99.9
percent certainty of being shot.
PCR Transcript at 840. For these reasons, a
decision not to pursue the Owings theory would
clearly reflect a reasonable strategic judgment.

249a
Myers II, 33 N.E.3d at 1111. Mr. Myers, however,
argued to the Indiana Court of Appeals and argues here
that trial counsel pursued the Owings theory during
trial, thus it was deficient performance not to present
significant evidence in support of it. After noting that
trial counsel “pursued the Owings theory to some
extent,” the Indiana Court of Appeals concluded that,
contrary to Mr. Myers’ argument, trial counsel was not
“obligated to take an all-or-nothing approach to the
Owings theory—either forego it entirely or present all
evidence supporting it.” Id. at 1112. The Indiana Court
of Appeals, because the State called Owings to testify as
to why she recanted, reasoned:
trial counsel did not act unreasonably by making
a strategic decision to attempt to present just
enough evidence to keep the possibility of
Owings’ involvement alive in the minds of the
jurors, without making the Owings theory the
crux of Myers’ defense. Indeed, it appears to us
that trial counsel’s decision to pursue the
Owings theory to only a limited extent was
actually quite shrewd because it prevented the
jury from being exposed to all of the many
conflicting versions of the story Owings,
Sowders–Evans, and Clouse allegedly told. This
information might have resulted not only in the
elimination in the jurors’ minds of the possibility
that Owings’ confession was true, but also in
trial counsel’s loss of credibility with the jury.
As the State argues in its brief, “the best counsel
could hope for was to keep Owings on the
delicate, razor-thin edge of jurors’ credibility

250a
assessments. That strategy would have been
ruined if counsel had pursued the over-zealous
course of action advocated by Myers in this
proceeding.”
Appellee’s
Brief
at
50.
Accordingly, Myers has not established that
trial counsel performed deficiently in this
regard.
Id.
Mr. Myers details at length the evidence regarding
the Owings theory that was not put before the jury. See
Filing No. 33 at 89-93. This includes evidence that Ms.
Owings gave a false alibi and that she confessed to nonlaw enforcement individuals that she killed Ms.
Behrman long before she confessed to law enforcement.
The latter undermines the State’s theory at trial that
Ms. Owings only confessed to receive beneficial
treatment with respect to pending drug charges against
her (which itself is a somewhat dubious justification for
confessing to murder). Mr. Myers also points to evidence
that Mr. Clouse and Ms. Sowders also confessed to nonlaw enforcement individuals, which could have
undermined the State’s argument at trial that there was
no such evidence.
With this evidence in mind, Mr. Myers argues that
the Indiana Court of Appeals unreasonably applied
Strickland and Wiggins in concluding that trial counsel’s
performance was not deficient in this respect. See Filing
No. 33 at 96-98. Specifically, he argues that (1) its
reasoning represents an impermissible post-hoc
rationalization of trial counsel’s conduct because trial
counsel actually wanted to and attempted to prove the

251a
Owings theory at trial, rather than presenting “just
enough” evidence to keep the jury interested; and (2)
trial counsel could not have adequately made the posited
strategic decision because trial counsel unreasonably
failed to sufficiently investigate much of the above
evidence supporting the Owings theory. Id.
The Court has serious concerns regarding trial
counsel’s performance related to the Owings theory, as
well as the Indiana Court of Appeals resolution of this
22
claim. Whether the Indiana Court of Appeals’ analysis
was an objectively unreasonable application of
Strickland, however, presents a difficult question.
Therefore, as the Court did with Mr. Myers’ claim
regarding trial counsel’s alleged failure to challenge the
State’s theory that Ms. Behrman rode north, the Court
will not ultimately resolve this instance of deficient
performance. As discussed below, the three instances of
deficient performance identified are more than sufficient
for Mr. Myers to establish prejudice and thus be entitled
to habeas relief, making resolution of this claim
unnecessary.

22

It is striking to the Court that Hugh Baker testified during the
post-conviction hearing that it was not sound trial strategy to
attempt to “convince a jury what the Federal Bureau of
Investigations, the Bloomington Police Department, and the
Indiana State Police had concluded was false,” PCR Tr. 840, yet this
is precisely what trial counsel did in focusing much of their defense
on the Hollars theory. As noted below, even Mr. Myers’s own
witness, Agent Dunn, testified that Mr. Hollars was “absolutely”
excluded as a suspect. Trial Tr. 2599-61. The evidence implicating
Ms. Owings available to trial counsel was by far more inculpatory
than that implicating Mr. Hollars.

252a
B. Prejudice
Trial counsel’s performance was deficient in at least
the three ways identified above, so the Court must
consider the prejudice flowing from those errors. To do
so, the Court will turn first to the Indiana Court of
Appeals’ analysis of prejudice in Myers II. After
concluding that the Indiana Court of Appeals
unreasonably applied Strickland in concluding that Mr.
Myers was not prejudiced by trial counsel’s deficient
performance, the Court then turns to its own prejudice
analysis.
1.

Indiana Court
Prejudice

of Appeals’

Analysis of

The Indiana Court of Appeals in Myers II addressed
each allegation of ineffective assistance in isolation. See
Myers II, 33 N.E.3d at 1089-1114. Certain claims were
decided on only the performance prong, others were
decided on only the prejudice prong, and others were
decided on both. For example, regarding whether trial
counsel was ineffective for making false statements
during opening, the Indiana Court of Appeals held that
it was deficient performance for trial counsel to make
these unfulfilled promises, but concluded Mr. Myers was
not prejudiced by this error. See Myers II, 33 N.E.3d at
1091-95. The Indiana Court of Appeals bypassed
whether trial counsel’s handling of Dr. Radentz’s
improper rape testimony constituted deficient
performance and instead decided only that Mr. Myers
was not prejudiced by that evidence. See id. at 1106-07.

253a
After reviewing each allegation of ineffective
assistance in this manner, the Indiana Court of Appeals
turned to Mr. Myers’s contention “that the cumulative
effect of trial counsel’s errors amounted to ineffective
assistance entitling him to a new trial.” Id. at 1114. Its
resolution of this claim, in full, is as follows:
We have reviewed each of Myers’ claims of error
in detail and concluded that none of them
amount to ineffective assistance of counsel.
Indeed, most of Myers’ claims of ineffective
assistance are nothing more than quarrels with
trial counsel’s reasonable strategic decisions.
“Alleged ‘[t]rial irregularities which standing
alone do not amount to error do not gain the
stature of reversible error when taken
together.’” Kubsch v. State, 934 N.E.2d at 1154
(quoting Reaves v. State, 586 N.E.2d 847, 858
(Ind. 1992)) (alteration in original). Accordingly,
we are unpersuaded by Myers’ cumulative error
argument.
Id.
Although the Indiana Court of Appeals correctly set
out Strickland’s prejudice standard at the outset of its
opinion, Mr. Myers is correct that it unreasonably
applied that standard in its analysis. The prejudice
analysis requires the reviewing court to “assess ‘the
totality of the omitted evidence’ under Strickland rather
than the individual errors,” Washington, 219 F.3d at 63435 (quoting Strickland, 466 U.S. at 695), and determine
whether trial counsel’s unprofessional errors prejudiced
the defense, id.; see also Williams v. Taylor, 529 U.S.

254a
362, 397-98 (2000) (holding that the state court’s
prejudice analysis was an unreasonable application of
Strickland “insofar as it failed to evaluate the totality of
the available . . . evidence—both that adduced at trial,
and the evidence adduced in the habeas proceeding”);
Sussman, 636 F.3d at 360-61 (explaining that when faced
with multiple errors by counsel, the Court “must
consider the[ir] cumulative impact” to determine
prejudice). Thus “even if [counsel’s] errors, in isolation,
were not sufficiently prejudicial, their cumulative effect”
can amount to prejudice under Strickland. Martin, 424
F.3d at 592; see Hooks, 689 F.3d at 1188 (noting that
resolving each allegation of ineffective assistance on
prejudice grounds is “not . . . sufficient to dispose of [an
ineffective assistance] claim because a further analysis
of ‘cumulative prejudice’ [is] necessary”).
The Indiana Court of Appeals in Myers II failed to
consider the cumulative prejudice of trial counsel’s
instances of deficient performance, even though it
decided multiple of Mr. Myers’s claims based on a lack of
prejudice. Instead, it referred to its assessment of trial
counsel’s errors in isolation, noting that “none of them
amount to ineffective assistance of counsel.” Myers II, 33
N.E.3d at 1114. Relying on the principle that “[a]lleged
trial irregularities which standing alone do not amount
to error do not gain the stature of reversible error when
taken together,” id. (quoting Kubsch, 934 N.E.2d at
1154) (quotation marks omitted), the Indiana Court of
Appeals thus concluded that Mr. Myers’s “cumulative
error argument” lacked merit, id.

255a
The principle from Kubsch on which the Indiana
Court of Appeals relied is inconsistent with the
prejudice analysis mandated by Strickland—that the
prejudice flowing from all instances of deficient
performance must be considered cumulatively, not
considered in isolation. Put differently, the Indiana
Court of Appeals was wrong to treat each allegation of
deficient performance as a stand-alone ineffectiveassistance-of-counsel claim; such a claim encompasses all
instances of deficient performance and asks whether all
of those instances, taken together, were prejudicial. Had
the Indiana Court of Appeals correctly applied
Strickland, it would have had to consider how the
cumulative prejudice flowing from every instance where
it concluded that trial counsel’s performance was
deficient or where it bypassed that question and focused
solely on prejudice. But, by improperly relying on
Kubsch, it failed to do so.
Notably, the Seventh Circuit has concluded that the
exact mode of analysis employed by the Myers II court
constitutes an unreasonable application of Strickland.
See Harris, 698 F.3d at 648 (“The question is whether
counsel’s entire performance . . . prejudiced [the
petitioner]. By analyzing each deficiency in isolation, the
[state] appellate court clearly misapplied the Strickland
prejudice prong . . . the state appellate court’s prejudice
determination was unreasonable insofar as it failed to
apply the correct framework.”); Goodman v. Bertrand,
467 F.3d 1022, 1030 (7th Cir. 2006) (“Rather than
evaluating each error in isolation, as did the Wisconsin
Court of Appeals, the pattern of counsel’s deficiencies
must be considered in their totality. In weighing each

256a
error individually, the Wisconsin Court of Appeals
overlooked a pattern of ineffective assistance and
unreasonably applied Strickland.” (citing Washington,
219 F.3d at 634-35); see also Raether v. Meisner, 608 Fed.
Appx. 409, 415 (7th Cir. 2015) (“The state court
examined the prejudice flowing from each alleged error
individually, but the correct question is whether [the
defendant] was prejudiced by counsel’s errors in the
aggregate.”).
Having concluded that the Indiana Court of Appeals
unreasonably applied Strickland’s prejudice analysis,
the Court must determine under what standard to
evaluate prejudice. As discussed above when analyzing
the Indiana Court of Appeals’ resolution of Mr. Myers’s
claim regarding the bloodhound evidence, the continuing
applicability of Richter’s “could have supported”
framework when a state court gives reasons for its
decision was cast into doubt by the Supreme Court in
Wilson. See 138 S. Ct. at 1192-95. The Supreme Court’s
analysis in Wilson suggests that the Court should
review prejudice de novo rather than using Richter’s
“could have supported” framework. Id. But the Court
need not resolve this question. In the end, even if the
“could have supported” framework continues to apply,
the Court concludes that no “fairminded jurist[]” could
conclude that trial counsel’s cumulative errors did not
meet Strickland’s prejudice standard. Richter, 562 U.S.
at 101.
2.

This Court’s Prejudice Analysis

The Court turns now to the cumulative prejudice
analysis mandated by Strickland. To properly evaluate

257a
prejudice, the Court will first set forth the evidence
supporting the verdict and evaluate its strength. See
Strickland, 466 U.S. at 696 (“[A] verdict or conclusion
only weakly supported by the record is more likely to
have been affected by errors than one with
overwhelming record support.”). The Court will then
discuss each of trial counsel’s errors and assess whether
there is a reasonable probability those errors, taken
23
together, impacted the jury’s verdict.

23

The Court ordered the parties to submit supplemental briefing
solely on two specific questions regarding cumulative prejudice. See
Filing No. 36 at 3. In the supplemental brief, the respondent for the
first time argues that certain errors are procedurally defaulted. See
Filing No. 41 at 6. Specifically, the respondent argues that certain
of trial counsel’s errors cannot be considered in the cumulative
prejudice analysis because Mr. Myers failed to repeat them in the
cumulative prejudice portion of his petition to transfer to the
Indiana Supreme Court, even though they were individually
included.
The respondent’s procedural default argument is waived and lacks
merit. Rule 5(b) of the Rules Governing Habeas Corpus Cases
under Section 2254 provides that the respondent’s answer “must
state whether any claim in the petition is barred . . . by a procedural
bar.” The respondent’s answer did not include this argument, and
the Court’s supplemental-briefing order did not provide an
additional opportunity to raise it. Procedural default is an
affirmative defense that can be waived. See Blackmon v. Williams,
823 F.3d 1088, 1100 (7th Cir. 2016). The respondent waived it by not
raising it in the initial answer. Moreover, for the reasons in Mr.
Myers’s supplemental brief, the newly raised procedural default
argument lacks merit. See Filing No. 46 at 9-15.

a.

258a
Evidence Supporting Verdict

Much of the evidence supporting the verdict was
referenced in the Indiana Court of Appeals’ recitation of
the facts in Myers II quoted at the beginning of this
Order. See Myers II, 33 N.E.3d at 1083-88. This evidence
can be broken down into five general categories: (1)
evidence that Mr. Myers had the opportunity to commit
the crime because Ms. Behrman rode north near his
residence on the day she disappeared, which also
undermined Mr. Myers’s alibi that he was home making
phone calls; (2) evidence that Mr. Myers had the means
to commit the crime in that he had access to a shotgun;
(3) evidence suggesting Mr. Myers had a consciousness
of guilt; (4) evidence of a connection to the crime or crime
scene; and (5) evidence that Mr. Myers exhibited
suspicious or strange behavior. The Court will
summarize each category of evidence and briefly analyze
its potential impact on the verdict.
i.

Evidence Ms. Behrman Rode North

It was critical for the State to prove that Ms.
Behrman rode north from her residence (toward Mr.
Myers’s residence) rather than south on the day she
disappeared. This is because Mr. Myers had an
uncontested alibi if she rode south—namely, phone
records establish he was home making phone calls when
Ms. Behrman disappeared.
The State presented four types of evidence to prove
Ms. Behrman rode north that day. First was the mere
fact that her bicycle was found in a field along a route
north of Ms. Behrman’s residence. This does not,

259a
however, conclusively establish whether Ms. Behrman
rode to that location or whether her bicycle was dumped
there by the perpetrator. See, e.g., Trial Tr. 2561-62
(Agent Dunn testifying that although he did not have a
“firm conclusion” about whether Ms. Behrman rode to
the field or the bicycle was dumped there, there was
some likelihood that Ms. Behrman’s bike was dumped in
the field because there was a “strong possibility” that
Ms. Papakhian’s sighting on Harrell Road was accurate).
The State’s primary evidence that Ms. Behrman
actually rode north was the testimony of the bloodhound
handler, Deputy Douthett. He testified at length
regarding the bloodhound tracking he conducted six
days after Ms. Behrman disappeared. See Trial Tr. 95788. He concluded that the bloodhound trail showed it was
likely Ms. Behrman rode north from her house to the
field where the bike was found, which was close to Mr.
Myers’s residence, and her ride ended there. Id. at 98889. As discussed above, trial counsel should have
objected to this bloodhound evidence and, had trial
counsel done so, it would not have been admitted at trial.
The remaining evidence that Ms. Behrman rode
north consists of the testimony of Robert England and
Dr. Houze. Mr. England briefly testified that he saw a
female cyclist in her twenties with a bike shirt and
helmet that matched Ms. Behrman’s description. Id. at
1021-22. He was not sure, however, whether he saw this
bicyclist on Wednesday morning (the day Ms. Behrman
disappeared) or Thursday morning. Id. at 1026-28.
Dr. Houze was an experienced bicyclist who
testified regarding a timed simulation he conducted of

260a
Ms. Behrman’s proposed route north. He testified that it
would have taken Ms. Behrman between forty and fortyone minutes to ride from her house to the field where her
bike was found. Id. at 1271. This evidence was presented
to show that it was possible for Ms. Behrman to have
ridden north to where her bicycle was found and made it
back on time for her shift at the SRSC that began at
noon.
Had the bloodhound evidence not been admitted, the
evidence that Ms. Behrman rode north rather than south
was quite weak. Dr. Houze merely demonstrated that
Ms. Behrman could have ridden north and returned in
time for her work shift. This leaves only Mr. England’s
testimony that Ms. Behrman actually rode north. While
he testified that he saw a bicyclist matching Ms.
Behrman’s description, he was uncertain whether he
saw this biker on the relevant day or not. One witness
testifying that he saw a cyclist matching Ms. Behrman’s
description perhaps on the day in question is far from
compelling evidence that Ms. Behrman rode north. As
discussed further below, such evidence is, at best, no
more convincing than the evidence that Ms. Behrman
road south.
ii. Access to Shotguns
Dan Downing, the Morgan County Coroner, and Dr.
Radentz, a forensic pathologist, both testified that the
cause of Ms. Behrman’s death was a shotgun wound on
the back of the head. Id. at 517, 1420; see also id. at 621,
664 (Dr. Nawrocki, the forensic anthropologist,
providing further details regarding the shotgun wound
and related evidence). Mark Keisler, a firearms expert

261a
with the Indiana State Police, further explained that a
twelve-gauge shotgun was used with number eight shot
and “very unique” wadding manufactured by the
Federal Cartridge Company. Id. at 740-41. Due to this
evidence regarding the cause of death, it was important
for the State to prove that Mr. Myers had access to
shotguns during the time Ms. Behrman was murdered,
as no murder weapon was produced at trial.
The State adduced such evidence by way of several
witnesses. Although no witness testified that Mr. Myers
owned or otherwise possessed a shotgun on the date Ms.
Behrman disappeared, multiple witnesses testified that
he had access to shotguns around this time. For example,
Mr. Myers’s brother, Samuel Myers, testified that the
shotgun he kept at his parents’ house went missing
around the relevant timeframe. Id. at 1667-70, 1675.
Richard Swinney, the husband of Mr. Myers’s cousin,
testified that he spoke with Mr. Myers about hunting
with shotguns. Id. at 1921. Debbie Bell, Mr. Myers’s
aunt, testified that Mr. Myers sold a shotgun to her
husband at Mr. Myers’s father’s funeral. Id. at 17981802.
In sum, the State produced essentially uncontested
evidence that—even though the specific murder weapon
was not found, Mr. Myers did not own a shotgun, and
there was no evidence that Mr. Myers had a shotgun on
the day Ms. Behrman disappeared—Mr. Myers had
access to twelve-gauge shotguns around the relevant
period.

262a
iii. Consciousness-of-Guilt Evidence
The State’s strongest evidence of guilt consisted of
consciousness-of-guilt evidence—evidence that Mr.
Myers made statements or exhibited behavior that a
guilty person would. This evidence falls into two main
categories. First, evidence was presented regarding Mr.
Myers’s mental and emotional state on and around the
day Ms. Behrman disappeared, May 31, 2000, and in the
months and years that followed. The evidence came
primarily from Mr. Myers’s aunt, Ms. Bell, and Mr.
Myers’s grandmother, Ms. Swaffard. Second, the State
presented evidence—with varying degrees of success—
that Mr. Myers implicitly or explicitly acknowledged his
involvement in Ms. Behrman’s murder. This evidence
consisted of Mr. Myers’s May 2, 2005 interview with law
enforcement and the testimony of Mr. Myers’s former
cellmate at the Monroe County Jail, Mr. Roell. The
Court summarizes these two categories of evidence in
detail below.
Ms. Bell testified that Mr. Myers was distraught
around the time Ms. Behrman disappeared. Although
she lived in Tennessee, she occasionally spoke with Mr.
Myers. She testified that in April 2000, Mr. Myers asked
her for help with his daughter because he was having
trouble with his girlfriend (Ms. Goodman) and “felt like
he was a balloon full of hot air ready to burst.” Id. at
1779. Ms. Bell testified that Mr. Myers’s mother, Jodie,
told her that on May 31 (the day Ms. Behrman
disappeared), Mr. Myers was at his parents’ house
“crying,” “distraught,” and “almost hysterical,” stating
that “he was leaving town and never coming back.” Id.

263a
at 1786. Ms. Bell did not testify why Mr. Myers was
upset. Jodie Myers testified that it was because Mr.
Myers’s father had surgery regarding his cancer the day
before, which made “all of [her] boys distraught,” id. at
1705, but Ms. Bell could not corroborate this, id. at 1786.
Five days later, on June 5, Ms. Bell spoke with Mr.
Myers and asked him how he was doing and if everything
was okay. He told her he was “scared” because “there
was a girl who was abducted up here, and [he was] afraid
they’re going to blame” him since “they found her bicycle
about a mile from [his] house, and they blame [him] for
everything.” Id. at 1788. Ms. Bell asked if the girl was
dead, and Mr. Myers responded, “uh, well, yeah, I
guess.” Id. at 1789. Mr. Myers told Ms. Bell during that
same conversation that he was stopped by a roadblock,
which scared him. When Ms. Bell asked him why he was
scared, he switched from being scared to “laughing,”
saying he was “not really scared.” Id.
Ms. Swaffard, who lived near Mr. Myers and would
regularly help take care of his daughter, similarly
testified about Mr. Myers’s mental and emotional state
during this period. She testified that Mr. Myers told her
he loved his girlfriend, Ms. Goodman, and hoped to
marry her, but that their relationship started to
deteriorate in the Spring of 2000, which made Mr. Myers
“real upset” and would cause him to “get teary-eyed.” Id.
at 1820-22.
Ms. Swaffard also testified regarding a conversation
she had with Mr. Myers on the phone on June 27, 2000,
nearly four weeks after Ms. Behrman disappeared.
Earlier that day, law enforcement spoke with Mr.

264a
Myers’s parents about whether Mr. Myers was involved
in Ms. Behrman’s disappearance. Mr. Myers called Ms.
Swaffard and asked to borrow two hundred dollars. She
responded that she only had ten dollars, and he said he
would “take that.” Id. at 1828. When Ms. Swaffard told
Mr. Myers that he would have to come get it from her
house, he responded that he could not “because they
have road blocks up on Maple Grove Road” and he is “a
suspect in the Jill Behrman disappearance.” Id. She
testified that Mr. Myers had previously borrowed
money from her, but he did not state on this occasion the
reason he needed the money. Id. at 1828-29.
Ms. Swaffard then called her daughter, Jodie Myers,
and told her what Mr. Myers had said. Ms. Swaffard
testified that Jodie Myers was upset, stating that she
knew Mr. Myers was a suspect because she had spent
“three hours of hell talking to the police about it.” Id. at
1831.
Lastly, Ms. Swaffard testified regarding a
conversation she had with Mr. Myers more than three
years later, in November 2004. Mr. Myers called her,
asking if she could watch his daughter. Although she
initially declined, she called him back and said she could.
Ms. Swaffard testified regarding that conversation as
follows:
[H]e said, I appreciate it, Grandma. And his
voice kind of broke. And I said, are you and your
girlfriend going out for the evening or
something? And he said, no, I just need the time
to myself. He said, I’ve got a lot of things I need
to think about. . . . [H]e said, Grandma, if you

265a
just knew the things that I’ve got on my mind.
He said, if the authorities knew it, I’d be in
prison for the rest of my life. . . . [H]e said, my
dad knew it. He took it to the grave with him.
Id. at 1833. Mr. Myers then took his daughter to Ms.
Swaffard’s house. He sat in her living room and said, “I
wish I hadn’t done these bad things.” Id. at 1835.
Ms. Swaffard testified that she reported this to Carl
Salzman, the Monroe County Prosecutor, who attended
her church. Id. at 1838. She did so because her
“conscience demanded it,” explaining that she “couldn’t
live with the fact that he had said something like this to
me, and I didn’t know what it might mean.” Id. at 1835.
She said she “thought about” her conversation with Mr.
Myers in June 2000 when she chose to come forward in
2004. Id. at 1836.
Although Mr. Myers never acknowledged any
involvement in Ms. Behrman’s murder to his relatives
Ms. Bell and Ms. Swaffard, their testimony undoubtedly
weighed heavily in the jury’s assessment of Mr. Myers’s
guilt. Indeed, Detective Lang testified that it was
“significant” when Ms. Bell and Ms. Swaffard contacted
law enforcement in December 2004 because they were
acting “against their own best interest by providing
information about a family member.” Id. at 2362. If Mr.
Myers’s own relatives, especially his Grandmother,
believed his comments described above and his
emotional state could be related to his involvement in
Ms. Behrman’s murder, the jury would undoubtedly give
his own relatives’ assessment great weight.

266a
Next, the State presented two types of evidence
that it portrayed as Mr. Myers’s acknowledgment of
guilt. First, as discussed in some detail above, Mr. Myers
was interviewed by law enforcement regarding his
potential involvement in Ms. Behrman’s murder on May
2, 2005, nearly five years after she disappeared. The jury
listened to the audio of a redacted version of the prearrest interview. See Trial Ex. 96B, Trial Tr. 2390. It is
not obvious what impact this interview had on the
juror’s assessment of Mr. Myers’s guilt, as different
aspects of the interview cut for and against Mr. Myers’s
guilt.
Casting suspicion on Mr. Myers were statements he
made during the interview that directly contradicted
24
other witnesses’ testimony. For example, he denied
talking to people other than law enforcement about the
case, Trial Ex. 96B at 29-30, and he denied telling anyone
in his family that he was afraid of the roadblocks police
had set up, id. at 65. Mr. Myers also readily
acknowledged other behaviors that would seems
suspicious, such as traveling to Kentucky Kingdom
(where Ms. Goodman’s senior trip was) by himself, id. at
50-51, being “[e]xtremely upset” at the time Ms.
24

Mr. Myers also made such statements when he was interviewed
regarding Ms. Behrman by Detective Crussen on June 27, 2000. Mr.
Myers told Detective Crussen that he planned on going to Myrtle
Beach with Ms. Goodman during the week he was on vacation, but
that those plans were cancelled. Trial Tr. 1499-1500. Ms. Goodman
denied having such plans. Id. at 1892. However, Mr. Myers’s phone
records show that he made calls to Myrtle Beach around that time,
as well as Kentucky Kingdom, King’s Island, and other locations
where one would vacation. Id. at 2439-40.

267a
Behrman disappeared, id. at 62, and hanging up blankets
over the windows of his trailer (offering that he does this
still to block the light since he sleeps in the living room),
id. at 63-65.
The State portrayed Mr. Myers’s conduct during the
interview as that of a guilty person. Detective Arvin
testified that during the interview Mr. Myers “never
adamantly denied” and “never expressly denied”
25
murdering Ms. Behrman.
Trial Tr. 2211-12. Yet
Detective Arvin’s testimony, at least with respect to the
lack of denials, was completely undermined by the audio
of the interview. Mr. Myers consistently and
categorically denied involvement during the portion of
the interview played to the jury. See, e.g., Trial Ex. 96B
at 13, 83, 89-96, 103-04. Indeed, even when law
enforcement falsely claimed they had a letter from Mr.
Myers’s father stating that Mr. Myers confessed to him,
Mr. Myers denied confessing to his father because he
“didn’t have anything to do with the Behrman case and
[has] no knowledge other than what [he] ha[d] seen in
the newspapers and what [he] ha[d] heard [as] street
rumor.” Id. at 91-92.
Finally, the State introduced the testimony of Mr.
Myers’s former cellmate, Mr. Roell, and portrayed Mr.
Myers’s statements to Mr. Roell as akin to a confession.
Mr. Roell testified that he shared a cell with Mr. Myers
in Monroe County Jail for two days in May 2005. During
25

The State presented a slideshow during closing argument, and the
slides were admitted during the post-conviction proceedings. See
PCR Ex. 132. Five slides dedicated to the May 2 Interview were
each entitled, “When pressed Defendant never denies guilt.” Id.

268a
those two days, Mr. Myers brought up Ms. Behrman,
saying that the State Police were investigating her bike
being found near his residence, and Mr. Myers was
“scared and nervous.” Trial Tr. 2269. Mr. Roell thought
Mr. Myers brought up the bike “[t]hree or four times.”
Id. at 2270. According to Mr. Roell, Mr. Myers was angry
when he stated, “if she . . . if nothing would have been
said, if she wouldn’t have said anything, this probably . .
. none of this would have happened,” and Mr. Roell
testified that the pronoun “she” referred to Ms.
Behrman. Id. When asked whether Mr. Myers used any
derogatory terms regarding Ms. Behrman, Mr. Roell
testified, “There was one comment made in reference to
a bitch.” Id.
Later during his testimony, Mr. Roell was
somewhat equivocal on whether the pronoun “she”
referred to Ms. Behrman. He initially testified that “she”
referred to Ms. Behrman, id., and explained later during
re-direct that it did not refer to anyone else because “Jill
Behrman was basically the only person that was [sic]
talked about,” id. at 2279. But when pressed about who
Mr. Myers meant by “she,” his testimony was less
certain:
Q. Someone else could have been the person
that said something that caused things to
happen. Isn’t that possible?
A. I . . anything’s . . that’s not for me to . . I don’t
. . I don’t know. That’s just what was said.
Q. He never said to you, did he, that if Jill
Behrman would have said . . wouldn’t have

269a
said anything that nothing would have
happened to her?
A. No, he did not use her name.
Q. Could have been anyone, couldn’t it?
A. I don’t know.
Id. at 2276.
Mr. Roell also testified regarding how he ended up
sharing this information with law enforcement. He was
arrested in May 2006 for attempting to bring narcotics
to his wife, who was incarcerated at the Monroe County
Jail. Id. at 2266. After he was arrested—which was a
year after he shared a cell with Mr. Myers—Mr. Roell
brought up “the Behrman case” to law enforcement
because he was afraid and “thought that perhaps it could
help me.” Id. at 2267. He met with Detective Lang in the
months following May 2006 and told him what he knew.
Id. at 2272-73.
Although Mr. Roell testified during direct
examination that law enforcement did not promise him
any benefit for his testimony, he acknowledged during
cross-examination that when he stated he thought “it
could help” him to tell law enforcement, he was “hoping”
it would get him “out of a jam.” Id. at 2274. He even
acknowledged that he stated this hope “several times”
when he gave his statement to law enforcement, id., and
that his “motivation” in coming forward was to obtain
release from jail, id. at 2275. On re-direct examination,
Mr. Roell elaborated that selfish reasons were not his

270a
sole motivation, as he had a daughter and coming
forward seemed like the right thing to do. Id. at 2278.
How Mr. Roell’s testimony weighed in the juror’s
minds, like much of the evidence in this case, depends on
whether it was trustworthy. It either amounted to an
implicit acknowledgement by Mr. Myers of his
involvement with Ms. Behrman’s murder or was the
fabrication of a man who was afraid and trying to “get
out of a jam.” Id. at 2274. When pressed during crossexamination,
Mr.
Roell
almost
immediately
acknowledged he was unsure whether Mr. Myers was
talking about Ms. Behrman or not, although he was
rehabilitated on this point during re-direct examination.
Moreover, the fact that Mr. Roell acknowledged that his
motivation in coming forward was to obtain release, and
that he repeatedly asked law enforcement if this would
benefit him, makes his testimony much less probative
than the testimony of Ms. Swaffard or Ms. Bell who
lacked any motivation to lie. Cf. House, 547 U.S. at 552
(noting that evidence from witnesses with no motive to
lie “has more probative value than, for example,
incriminating testimony from inmates”). Notably,
Detective Lang acknowledged that law enforcement had
concerns about jailhouse informants, testifying this was
such a “high profile media case” that he was concerned
about certain information coming out because “people
that were currently in jail would use it as their possible
get-out-of-jail-free card.” Trial Tr. 2347; see also id. at
2399 (Detective Lang, testifying that they did not
publicly name Mr. Myers as a suspect because he “didn’t
want to gain a bunch of false leads like they did within
the confines of most jails. I didn’t want any false

271a
implications of Mr. Myers for somebody to gain
something out of that”)
iv. Connection to the Crime or Crime
Scene
Little evidence was presented during trial that
directly connected Mr. Myers to the crime. Other than
certain of the consciousness-of-guilt evidence discussed
above, the primary evidence directly connecting Mr.
Myers to the crime was the State’s attempt to show that
Mr. Myers previously took his former girlfriend, Ms.
Goodman, to the wooded area where Ms. Behrman’s
26
remains were found. This evidence was primarily
26

Other than Ms. Goodman’s testimony regarding Mr. Myers’s
possible connection to the crime scene, the other primary way the
State attempted to connect Mr. Myers to the crime was by creating
suspicion that two men driving a white delivery van may have
abducted Ms. Behrman near where her bike was found and by
establishing that Mr. Myers drove similar white delivery vans as
part of his employment at Bloomington Hospital. Joe Penden, a
farmer who owned the land adjacent to where Ms. Behrman’s
bicycle was found, testified that he saw a white van with two men
in it driving back and forth three times on Maple Grove Road at
approximately 9:00 a.m. the morning Ms. Behrman disappeared. Id.
at 1245-49. They were driving slowly, and he thought “the people
were looking for an address or something.” Id. at 1249. Indeed,
during Mr. Myers’s May 2, 2005 Interview with law enforcement,
Mr. Myers offered that he knew there were rumors about a white
van being involved and that he worked at Bloomington Hospital
where he drove their white vans. Trial Ex. 96B. at 14.
In the end, however, there was no evidence presented that Mr.
Myers was in the white van in question, nor evidence that the
individuals driving the van were connected to Ms. Behrman’s
murder. Not only did Mr. Myers’s supervisor at Bloomington

272a
introduced through the testimony of Detective Lang and
Ms. Goodman.
Detective Lang testified the he drove Ms. Goodman
around the roads near where Ms. Behrman’s remains
were found to see if she would recognize any of them. He
explained that, while driving across an “iron grated
bridge,” Ms. Goodman recognized the area, which was
approximately seven-tenths of a mile from where Ms.
Behrman’s remains were found. Id. at 2409-13. He then
turned around and “stopped directly south” of where Ms.
Behrman’s remains were found and exited the vehicle.
Id. at 2414. Ms. Goodman told him she recognized the
“cut that was in the wooded area” and the “positioning
of the woods.” Id. On cross-examination, Detective Lang
acknowledged that the “iron grated bridge” on which he
was driving when Ms. Goodman stated she recognized
the area was not installed until 2001, that is, a year after
she and Mr. Myers relationship ended and Ms. Behrman
was killed. Id. at 2473. Detective Lang testified,
however, that it was the area, not the bridge, that Ms.
Goodman recognized. Id.
As detailed above, Ms. Goodman testified regarding
her recognition of this clearance. She testified that “it
was just a wooded area. There was a clearance where
you could actually drive into the woods. It wasn’t a road.
Hospital testify that Mr. Myers did not have access to the white
vans while he was on vacation the week Ms. Behrman disappeared,
id. at 2005, but Detective Lang testified that he attempted but was
unable “to positively tie the white van from the hospital to this
case,” id. at 2397, and that hospital employees told him they would
have noticed if a white van was missing when Mr. Myers was on
vacation, id. at 2498.

273a
It was just kind of a clearance. And it was completely
surrounded by woods.” Id. at 1900. She was then shown
a picture of the clearance where Ms. Behrman’s remains
were found in 2003, see Trial Ex. 12, and testified that
she recognized it as where Mr. Myers took her in March
2000, Trial Tr. 1900.
Ms. Goodman also testified regarding how she came
to provide law enforcement with this information.
Detective Lang contacted her about the case in 2005. In
February 2006, he drove Ms. Goodman around the rural
area north of Bloomington for at least an hour to
different places Mr. Myers had taken her when they
were dating several years prior. Ms. Goodman testified
that she recognized Gosport, “the creek that we had to
go over, and . . . the wooded area and the clearance in the
woods.” Id. at 1905. She testified that those places were
familiar to her “[b]ecause that’s where [Mr. Myers] took
me.” Id.
During cross-examination, Ms. Goodman struggled
to explain what about the clearing in Exhibit 12 where
Ms. Behrman’s remains were found allowed her to
identify it as the clearing Mr. Myers drove her to six
years earlier. She testified as follows:
Q. How do you differentiate [Exhibit 12] from
any other picture that’d be taken in the
woods?
A. Because of the way the clearance is.
Q. How do you . . . differentiate that clearance
from any other clearance?

274a
A. It’s . . . just what looks familiar to me.
Q. But you don’t know . . . that could be
anywhere, correct?
A. Yes.
Id. at 1905-06.
Ms. Goodman’s testimony, if credited by the jury,
would have weighed significantly in favor of Mr. Myers’s
guilt. If Mr. Myers had previously taken Ms. Goodman
to the exact clearance in the woods where Ms.
Behrman’s remains laid undiscovered for three years,
the State established some likelihood that Mr. Myers
knew the area where Ms. Behrman was killed.
Corroborating Ms. Goodman’s testimony is Detective
Lang’s testimony that Ms. Goodman offered on her own
accord that she recognized the area seven-tenths of a
mile from where Ms. Behrman’s remains were found.
However, it is far from certain whether the jury
would credit Ms. Goodman’s recollection of the
clearance. The picture shown to Ms. Goodman depicts a
rather nondescript clearance in the woods. See Trial Ex.
12. This aligns with Ms. Goodman’s inability during
cross-examination to describe any feature of the
clearance that stood out to her, as well as her explicit
acknowledgment that the picture shown to her “could be
anywhere.” Trial Tr. 1906. Moreover, Mr. Myers had
taken her to the wooded clearance at night, while
Detective Lang drove her there during the day (and
Exhibit 12 is a picture of the clearance during the day),

275a
which casts further doubt on her ability to identify the
specific clearance in question. Id. at 2471, 2474.
Like Mr. Roell’s testimony, the jury could view Ms.
Goodman’s testimony in at least two ways. It either cast
significant suspicion on Mr. Myers in that it shows he
had previously been to the exact location in the woods
where Ms. Behrman’s remains were found, or it could be
viewed as the unreliable testimony of an ex-girlfriend
who, six years later, essentially acknowledged that she
could not distinguish the clearance at issue from any
other clearance in the woods.
v. Strange or Suspicious Behavior
The State called several witnesses to testify about
strange or suspicious behavior that Mr. Myers exhibited
either near the time Ms. Behrman disappeared or in the
years that followed. Certain of the evidence is indeed
suspicious, while other evidence is simply strange. The
Court will summarize these witnesses’ testimony below.
First, the State presented testimony that Mr. Myers
covered the windows of his trailer and hid his car in the
days following Ms. Behrman’s disappearance. Mr.
Myers’s neighbor, Billy Dodd, testified that on the day
Ms. Behrman disappeared, Mr. Myers covered the
windows of his trailer and parked his car where it could
not be seen from the main road, neither of which Mr.
Dodd had seen Mr. Myers do before. Id. at 1559-63; see
also id. at 1581 (testimony of Marlin Dodge, a State of
Indiana Conservation Officer, that he observed Mr.
Myers’s windows covered in the week following Ms.
Behrman’s disappearance). Mr. Myers left the car there

276a
for three days and never parked it there again. Id. at
1563. When Mr. Dodd inquired why his car was parked
there, Mr. Myers told him “he just didn’t want nobody to
know he was at home.” Id. Detective Crussen testified
that the windows of Mr. Myers’s trailer were also
covered by blankets or sheets when he interviewed him
a few weeks later. Id. at 1529. Mr. Myers’s mother, Jodie
Myers, testified that Mr. Myers had blankets on the
windows of his trailer between May 31 and June 4, 2000,
and Mr. Myers told her they were there because he was
growing marijuana plants (she testified that she did not
see any plants but would not have expected to). Id. at
1714-15.
Second, the State presented evidence that Mr.
Myers was so interested in Ms. Behrman’s
disappearance that he tried to assist law enforcement in
solving it. Jodie Myers testified that sometime in 2001,
Mr. Myers told her he was fishing and found a “bone”
and “panties.” Id. at 1736. She told him they should
report it to law enforcement in case it could help with
“the Jill Behrman case.” Id. at 1738. They both agreed
that was the best course, so Mr. Myers called the FBI to
report what he found. Id. at 1738-39. Agent Dunn
returned their call and left a message on Jodie Myers’s
answering machine two weeks later. Id. at 1739. Mr.
Myers suggested that “they should save the tape in case
they question that this conversation took place.” Id. at
1740.
The State also presented the testimony of Johnny
Kinser, a correctional officer at Monroe County Jail
while Mr. Myers was incarcerated there in March 2002,

277a
who testified that Mr. Myers again attempted to assist
law enforcement. He explained that there were a couple
of inmates on Mr. Myers’s cellblock being held in relation
to Ms. Behrman’s disappearance. Id. at 2160. Mr. Myers
told Officer Kinser that “he’d found some letters” from
other inmates in his cellblock that law enforcement
should see, and he also gave Officer Kinser a list of places
Mr. Myers created where law enforcement should look
for Ms. Behrman’s remains. Id.; see also Trial Ex. 93 (the
handwritten list Mr. Myers provided Officer Kinser
listing seven locations). Officer Kinser testified that Mr.
Myers provided this list shortly after law enforcement
had drained Salt Creek, that Mr. Myers said he felt bad
“that this had happened to that young lady,” and that he
thought Mr. Myers “seemed like he generally wanted to
help.” Trial Tr. 2163. James Minton, an Indiana State
Police Officer, searched the locations provided by Mr.
Myers, but he did not find relevant evidence at any of
the locations. Id. at 2197.
Third, the State presented several witnesses who
testified that Mr. Myers raised Ms. Behrman’s
disappearance, raised the proximity of his residence to
where her bike was found, or raised what may have
happened to her in the years that followed her
disappearance. The witnesses provided the following
testimony:


James Cantwell, the warehouse supervisor at
Bloomington Hospital where Mr. Myers
worked, testified that the week following Ms.
Behrman’s disappearance, Mr. Myers claimed
that police had questioned him about Ms.

278a
Behrman “because the bike was found fairly
close to his home,” id. at 1998, which was false
since Mr. Myers was not questioned by law
enforcement until four weeks later.


Matthew Colbert, who performed deliveries for
Bloomington Hospital with Mr. Myers for four
months beginning in March 2000, testified that,
after Ms. Behrman disappeared, Mr. Myers
wondered why law enforcement had searched a
particular barn in a field. Id. at 1983.



James Swanay, who worked with Mr. Myers at
Bloomington Hospital in 2000, testified that a
few weeks after posters about Ms. Behrman’s
disappearance were hung in the hospital, Mr.
Myers mentioned to him that Ms. Behrman was
“probably [abducted] around . . . where they
found the bicycle.” Id. at 2145; see also id. at
2140-47.



Kanya Bailey, who dated Mr. Myers’ sometime
in 2000 or 2001, testified that Mr. Myers pointed
to a field while they were driving near his home
and told her that is where he found Ms.
Behrman’s bicycle, even though Mr. Myers was
not the one who found her bicycle. She did not
know why Mr. Myers brought this up, and they
did not discuss it any further. Id. at 1600-03.



Doug Alexander, who worked with Mr. Myers
delivering furniture in mid-2001, testified that
Mr. Myers raised Ms. Behrman’s disappearance
once during a delivery, stating that her bike was

279a
found near his residence, that he was questioned
a couple times about the case, and that “if he was
ever going to hide a body, he would hide it up
[north] in a wooded area.” Id. at 1944. On a
different occasion, Mr. Myers told him that he
knew someone in Florida who had Ms.
Behrman’s ID or checkbook. Id. at 1951.


Richard Swinney, the husband of Mr. Myers’
cousin,
testified
that
Ms.
Behrman’s
disappearance came up at a family get-together
in late 2001. He was outside with Mr. Myers
when Mr. Myers mentioned his familiarity with
the Paragon and Horseshoe Bend areas, where
he liked to hunt, and commented, “I bet she’s
found in the woods.” Id. at 1921-23.



Mike Franey, who worked with Mr. Myers at a
Kroger grocery store in 2003, testified that on
the day the newspaper ran an article about Ms.
Behrman’s remains being discovered, Mr.
Myers saw the newspaper in the break room and
said the picture of the woods “looked familiar to
him” because “he had hunted there before,”
even though the woods did not look distinctive.
Id. at 2009. Mr. Myers further stated that “it
was good they finally found the remains” and, in
a tone Mr. Franey described as “probably
cocky,” Mr. Myers stated he was surprised law
enforcement had not contacted him “because he
knew the people that they thought . . . did the
crime.” Id. at 2010.



280a
Michelle Lang, a neighbor of Mr. Myers’ who
babysat for his daughter, testified that Mr.
Myers stated in May 2005 that “the police
w[ould] not find [Ms. Behrman’s] killer because
there’s no evidence” and that the police should
“look into the low-lifes that live on Delap Road.”
Id. at 2304.

The foregoing evidence clearly established that Mr.
Myers discussed Ms. Behrman’s disappearance with
several people over the five-year period between her
disappearance and his arrest. Not only did he theorize
about where or how the crime was committed and where
her remains would be found, but he lied to increase his
perceived knowledge about the case. Perhaps most
notably, he was correct that her remains were found in
the woods. These comments certainly cast suspicion on
Mr. Myers, even though they are far from even an
implicit acknowledgment of involvement in Ms.
Behrman’s murder. They undoubtedly raised the
question as to why Mr. Myers appeared so interested in
the case and whether his comments that she would be
found in the woods were based on actual knowledge.
The probative value of these comments, however,
must be evaluated in context. They are the comments of
an individual who lived very close to where Ms.
Behrman’s bicycle was found and was interviewed by
law enforcement within a month of her disappearance—
that is, an individual who has likely spent significant
time thinking about Ms. Behrman’s disappearance.
His comments must also be considered in light of the
fact that nearly everyone in the area was constantly

281a
talking about Ms. Behrman’s disappearance at the time.
Multiple witnesses testified to this effect. See, e.g., id. at
1522 (Detective Crussen testifying that in the early
stages of the investigation, “in Monroe County during
this period of time you couldn’t go to the grocery store
without talking about Jill Behrman. You couldn’t pick up
your laundry without talking about Jill Behrman”); id. at
1925-26 (Richard Sweeney testifying that he had heard
people other than Mr. Myers discuss Ms. Behrman’s case
on “several” occasions); id. at 1966 (Bill Mueller, Mr.
Myers’s employer in 2001, testifying that around this
time others discussed Ms. Behrman’s case “quite often”).
Indeed, when Ms. Owings testified regarding her
confession
and
subsequent
recantation,
she
acknowledged that she had told an individual she
“partied with” that she killed Ms. Behrman and told a
group of friends that Ms. Behrman was “turtle bait.” Id.
at 2103-04. She downplayed these comments implicating
herself and others that were much more suspicious than
those made by Mr. Myers by testifying that Ms.
Behrman was constantly discussed by nearly everyone
in the area. See id. at 2105-06 (Ms. Owings testifying, “I
have several different kinds of groups of friends, and
[Ms. Behrman] was a subject of conversation in all of
them. . . . Some people were saying that it was an
accident. Some people were saying they thought it was
a serial killer. Some people were saying that they
thought that it was me and [Alisha Sowders and Uriah
Clouse].”); id. at 2106 (Ms. Owings testifying that people
discussing Ms. Behrman regularly speculated about how
she died and where she would be found).

282a
Thus, like much of the evidence of Mr. Myers’s guilt,
the weight given to these comments significantly
depends on the jury’s credibility assessment and the
assessment of the other evidence against Mr. Myers.
This is especially true given that the jury discounted Ms.
Owings’s much more inculpatory comments presumably
because the jury believed other evidence did not support
her guilt. Thus, depending on the jury’s evaluation of the
other evidence and Mr. Myers’s defense, his comments
were either those of an individual who knew something
about Ms. Behrman’s disappearance and was potentially
involved, or they were the strange and embellished
comments of one who, like much of the community, was
interested in the case and what happened to Ms.
Behrman.
vi. Totality
Verdict

of

Evidence

Supporting

The foregoing summary of the evidence supporting
the jury’s verdict shows it was far from overwhelming.
Other than Mr. Roell’s testimony, there was no direct
evidence linking Mr. Myers to the crime; there were no
witnesses that ever saw Mr. Myers with Ms. Behrman;
there was no physical evidence linking Mr. Myers to the
crime; and, had the rape evidence been properly
excluded, there was no evidence that Mr. Myers had any
motive to kill Ms. Behrman.
The affirmative evidence supporting Mr. Myers’s
guilt consisted primarily of consciousness of guilt
evidence from two family members, the testimony of a
former girlfriend that Mr. Myers had taken to the
wooded location Ms. Behrman was ultimately found, and

283a
the testimony of a former cellmate that Mr. Myers
essentially acknowledged guilt. The testimony of Mr.
Myers’s grandmother and aunt undoubtedly had a
strong impact on the jury, although neither testified that
Mr. Myers ever acknowledged involvement. The
testimony of Ms. Goodman and Mr. Roell was likely even
more damaging for Mr. Myers, but only if credited by the
jury; both witnesses’ testimony, unlike Mr. Myers’s
relatives’ testimony, directly connected Mr. Myers to
Ms. Behrman’s murder, but the accuracy of both
witnesses’ testimony was called into question during
cross-examination. Thus, much of the jury’s assessment
of this evidence depended on a credibility judgment.
Together, this evidence is easily more than sufficient
for the jury to find Mr. Myers guilty beyond a reasonable
doubt, but it is far from a strong case of guilt. Given this,
the prejudice caused by trial counsel’s errors more likely
impacted the verdict. See Strickland, 466 U.S. at 696
(“[A] verdict or conclusion only weakly supported by the
record is more likely to have been affected by errors
than one with overwhelming record support.”).
b. The Prejudice Caused by Trial Counsel’s
Errors
Having discussed the strength of the evidence
supporting the verdict, the Court turns to how trial
counsel’s deficient performance prejudiced Mr. Myers’s
defense. The Court will first discuss each of the three
instances of deficient performance and the prejudice

284a
flowing therefrom. The Court will then assess the
27
cumulative prejudice of these errors.
i.

Trial Counsel’s False Statements
During Opening

As detailed above, trial counsel made two critical
false statements to the jury during opening regarding
the Hollars theory—namely, that a bloodhound tracked
Ms. Behrman’s scent to Mr. Hollars’s residence but was
pulled away by law enforcement and that Mr. Hollars
and Ms. Behrman were seen arguing a day or two before
she disappeared. No evidence was admitted supporting
either of these assertions. As to the former, Patrick
Baker admitted to the Indiana Supreme Court that he
should have known that no evidence supported this
assertion. See In re Baker, 955 N.E.2d at 729.
These false statements prejudiced Mr. Myers in two
ways. First, they eliminated whatever remaining
possibility that the Hollars theory created reasonable
27

As discussed above, the Indiana Court of Appeals did not assess
cumulative prejudice as Strickland requires. This leaves the Court
to analyze cumulative prejudice in the first instance. The Court
notes, however, that for two of the identified errors—trial counsel’s
errors regarding the false statements and the rape evidence—the
Indiana Court of Appeals determined that Mr. Myers was not
sufficiently prejudiced by the individual error such that relief was
warranted. Thus, even though this Court’s cumulative prejudice
analysis is necessarily different than the individual prejudice
analysis conducted by the Indiana Court of Appeals, the Court will,
when appropriate, discuss in several footnotes below how the
Indiana Court of Appeals assessed the prejudice from the individual
errors.

285a
doubt. Second, and more prejudicial, they destroyed
trial counsel’s credibility with the jury as a general
matter. Trial counsel’s false statements left the jury
with the impression that Mr. Myers’s best defense
involved trial counsel concocting a sensational theory of
an unwanted pregnancy leading to murder and a police
cover-up.
To evaluate these two types of prejudice, it is
important to examine how the Hollars theory was
otherwise supported during trial. As explained below,
trial counsel presented scant evidence supporting the
Hollars theory, and the State presented compelling
evidence undermining it. This would leave the jury with
the unmistakable impression that the two false
statements by trial counsel during opening were not
mere oversights of peripheral matters regarding an
otherwise strong theory. Instead, the false statements
would more likely be perceived as deliberate
fabrications meant to focus the jury’s attention on a
theory of the crime that, in truth, was supported by very
little compelling evidence. The jury would ultimately be
left to believe that a false sensational story was part of
Mr. Myers’s best defense.
As an initial matter, Mr. Hollars had a solid alibi.
Both he and Ms. Behrman’s supervisor at the SRSC,
Wes Burton, testified that Mr. Hollars was working at
the SRSC during the timeframe in which Ms. Behrman
disappeared. Trial Tr. 1044-50. Trial counsel did not
meaningfully undermine this evidence during crossexamination. At most, it was acknowledged that Mr.

286a
Hollars’s whereabouts could not be confirmed minuteby-minute.
Moreover, law enforcement witnesses, who
investigated Ms. Behrman’s murder both before and
after her remains were found, testified without
meaningful opposition that Mr. Hollars was categorically
excluded as a suspect. Detective Arvin explained that he
interviewed Mr. Hollars and five or six other individuals
regarding Mr. Hollars and concluded he had “no
involvement.” See Trial Tr. 2204-06. He further
explained that Mr. Hollars became a “person of interest
due to a psychic from Michigan that had labeled him,”
and that he followed up with the psychic and determined
she was not credible. Id. at 2203-04; see also id. at 942
(Marilyn Behrman testifying that Mr. Hollars’s possible
involvement was first raised by “a psychic”); id. at 2241
(Detective Arvin testifying, in response to a juror’s
question regarding why Mr. Hollars became a person of
interest, that “a psychic from Michigan . . . stated that
she was a specialist in remote viewing and [Ms.
Behrman] had shown her that . . . possibly [Mr. Hollars]
was involved.”); id. at 2493 (Detective Lang testifying,
in response to a juror’s question of whether Mr. Hollars
was ever implicated, that his understanding is that Mr.
Hollars’s “implication comes from a conversation that
Eric Behrman had with a psychic early-on in the
investigation.”). Agent Dunn, who was Mr. Myers’s
witness, testified that Mr. Hollars was “absolutely”
excluded as a suspect and that the “sole connecti[on]”
between Mr. Hollars and Ms. Behrman was that they
worked together. Id. at 2584, 2599-61. The State
highlighted this during closing, noting that it showed

287a
how thorough law enforcement’s investigation had been.
See id. at 2817 (noting that Mr. Hollars “was a suspect
because of a psychic”); id. at 2823 (arguing that
Detectives Dunn and Arvin investigated Mr. Hollars
“and eliminated him,” and noting that it was even
surprising that they looked at him at all “based on the
word of a psychic,” but this “shows you the detail” with
which law enforcement investigated).
Against this, trial counsel provided little evidence
connecting Mr. Hollars to Ms. Behrman, let alone
28
implicating him in her murder. Indeed, the evidence
meant to cast suspicion on Mr. Hollars was the following:

28



Mr. Hollars interviewed Ms. Behrman when she
applied to work at the SRSC, id. at 1100;



Mr. Hollars gave Ms. Behrman his name and
telephone number because he heard she was a
member of a cycling club, Discycles, and he had

When setting forth the evidence implicating Mr. Hollars, the
Indiana Court of Appeals stated, “[i]mportantly, the jury was
presented with evidence that a bloodhound tracked Behrman’s
scent near Hollars’ residence.” Myers II, 33 N.E.3d at 1093. First,
this evidence would have been excluded from trial but for trial
counsel’s deficient performance. Second, even if it was not excluded,
this fact did little, if anything, to implicate Mr. Hollars. Not only did
Mr. Hollars have a solid alibi that he was at work and no evidence
was presented that he was at home, but the bloodhound evidence
itself suggested that Ms. Behrman rode several miles past Mr.
Hollars’s residence and ultimately to the field in which her bike was
found. Without more, such evidence hardly implicates Mr. Hollars.
Most important, as discussed herein, trial counsel should have
objected to the bloodhound evidence and that objection would likely
have been sustained.

288a
a nice road bike he wanted to sell, id. at 921; Ms.
Behrman told her mother about this and her
mother did not see anything “unusual” about it
because Mr. Hollars was “just a guy she met at
work,” id. at 924, 942;


Mr. Hollars called Ms. Behrman’s residence
multiple times the day after she disappeared,
which Ms. Behrman’s mother thought was odd,
see id. at 1529, but Detective Lang testified that
Mr. Hollars first called because Ms. Behrman’s
tennis shoes were left at the SRSC, and after he
heard she was missing, he thought this might
help provide a reference time for her
whereabouts; Marilyn Behrman could not
remember the contents of the second call, id. at
2453-54, 2483;



Mr. Hollars owned a twelve-gauge shotgun,
which was the type of gun used to kill Ms.
Behrman; but despite trial counsel making much
of law enforcement’s failure to test this gun, the
State presented evidence that the shotgun
wadding found with Ms. Behrman’s remains did
not match the wadding used by Mr. Hollars, id.
at 740-41, 747, 1118, 2815-16; and



Ms. Behrman missed church because she
(incorrectly) thought she was subbing for
someone’s work shift at the SRSC on a Sunday
morning in mid-May, so instead of returning to
church, Ms. Behrman exercised but at a
different recreational center than normal, which

289a
her mother testified was “unusual,” id. at 91329
18.
Trial counsel also repeatedly suggested and
attempted to prove that Ms. Behrman was pregnant,
arguing this could have been Mr. Hollars’s motive for
murdering her. Evidence was presented that condoms, a
pregnancy test, emergency contraceptive medication,
and several books regarding pregnancy were found in
Ms. Behrman’s bedroom. See, e.g., id. at 925-31. But
there was also significant evidence presented that Ms.
Behrman was not pregnant, including testimony from
Marilyn Behrman (that her daughter would have told
her had she been pregnant and that she did not see any
signs of morning sickness) and Detective Lang (that his
investigation uncovered no evidence that she was
pregnant). See, e.g., id. at 926-27, 952-54, 2484.
More important, even if the jury believed Ms.
Behrman was pregnant, there was no specific evidence
29

The Indiana Court of Appeals cited to this evidence, reasoning
that “although trial counsel failed to deliver on these specific
promises, other evidence casting suspicion on Hollars was
presented to the jury.” Myers II, 33 N.E.3d at 1093. But, as noted,
the “other evidence” potentially implicating Mr. Hollars was at best
weak. Given this, it is unclear to the Court how this makes trial
counsel’s false promises that he would present much more damaging
evidence regarding Mr. Hollars less prejudicial. The opposite is
more likely. Presented with very little evidence that Mr. Hollars
was involved, trial counsel’s false statements regarding the two
most potentially damaging pieces of evidence makes the already
weak case against Mr. Hollars have the appearance of being a
deliberate fabrication to bolster an unsupportable theory with
dramatic claims.

290a
presented that Mr. Hollars and Ms. Behrman had any
sort of relationship, let alone a sexual relationship to
cause a pregnancy and thus a motive for murder. The
closest such evidence was the testimony of Becky
Shoemake, who was Ms. Behrman’s cousin and
roommate at Indiana University. She testified that an
older man “wanted to go out to lunch or something, and
[Ms. Behrman] was concerned because he was over 21,
and she wasn’t old enough to drink, so she wasn’t sure,
you know, do I go . . . .” Id. at 1013. Ms. Shoemake made
clear that she had no idea who this person was or
anything other information about him. See id. at 1013-14.
Against this evidence—evidence that at most
invites the jury to engage in complete speculation that
30
the older man was Mr. Hollars —several witnesses
consistently testified that there was no evidence
substantiating a relationship between Mr. Hollars and
Ms. Behrman. Mr. Hollars denied it. See id. at 1100-01.
But more persuasive are the litany of other witnesses
who testified that there was no such relationship. See,
e.g., id. at 942 (Marilyn Behrman testifying that Mr.
Hollars was “just a guy she met at work”); id. at 1055
30

Mr. Myers aptly explains why this theory is simply implausible:
“Behrman’s mother testified that Jill had only met Hollars in midMay, one or two weeks before her disappearance. Trial Tr. 945, 92124. That is, even if Behrman (who had recently expressed doubts
about the propriety of having lunch with someone over 21 years old
because she wasn’t old enough to drink (Trial Tr. 1014)) had decided
to have unprotected sex with Hollars the day she met him . . . , it is
unlikely she would have been aware of any resulting pregnancy
before she was abducted, let alone been able to share this
information with Hollars.” Filing No. 33 at 36-37 (citation format
altered).

291a
(Mr. Burton denying knowledge of any relationship); id.
at 2456 (Detective Lang testifying “that there was . . . no
basis . . . of any kind of rumor that [Mr. Hollars] and Jill
were ever romantically linked”); id. at 2601 (Agent Dunn
testifying that the “sole connecti[on]” between Mr.
Hollars and Ms. Behrman was that they worked
together).
Perhaps no incident at trial highlighted both how
poorly the Hollars theory came off and how blatantly
false trial counsel’s promises were than trial counsel’s
lone attempt to present any evidence supporting his
second false statement—that Ms. Behrman and Mr.
Hollars were seen arguing a day or two before she
disappeared. During Detective Lang’s testimony,
Patrick Baker directed him to a case report Detective
Lang had written to refresh his memory about what Ms.
Behrman’s father told him. See Trial Tr. 2454. The report
stated: “Mr. Behrman recalled that on May 30th, 2000,
BRIAN had a softball game at the Cascades in
Bloomington. BRIAN and his girlfriend were present at
the game. Mr. BEHRMAN recalled JILL was also
present at the game and seeing her and BRIAN talk. He
learned that they actually made plans to have lunch
together before JILL went to camp.” D. Trial Ex. B at
5. After Detective Lang reviewed this paragraph, trial
counsel asked the following questions:
Q. Does that refresh your recollection?
A. I’m still looking for Hollars in the first
paragraph.

292a
Q. First complete paragraph on that page, sir.
He talked about Brian Hollars being at the
softball game.
A. In the middle of the page?
MR. SONNEGA: Judge, objection. That’s
not Brian. .
THE COURT:
He’s just trying to get
him focused on what he’s asking about. You
want to point to it or tell him?
A. I . . . found it.
....
Q. Mr. Behrman told you that Jill had been
talking to Brian at the softball game. Is that
correct?
A. That’s her brother.
Q. She’d been talking to Brian. Correct?
A. Brian, her brother.
Q. And they actually made plans to go have
lunch. Is that correct?
MR. SONNEGA: Judge,
object.
A. It’s her brother.

I’m

going

to

293a
Trial Tr. 2454-55. In short, trial counsel believed (or at
least tried to deceive the jury into believing) that Mr.
Hollars had been with Ms. Behrman at a softball game
and made plans to have lunch together shortly before
she disappeared (presumably, attempting to prove that
Mr. Hollars and Ms. Behrman were together the evening
before she disappeared and/or that Mr. Hollars was the
older man Ms. Shoemake testified asked Ms. Behrman
on a date). But the “Brian” in the report was not Brian
Hollars; it was Ms. Behrman’s brother, Brian Behrman.
This incident is a microcosm of how poorly the
Hollars theory went during trial. Not only did trial
counsel have little to no evidence supporting the Hollars
theory, but this incident undoubtedly created the same
impression trial counsel’s false statements did—that
trial counsel was trying to mislead them. After all, the
jury had by this time already heard Ms. Behrman’s
mother testify that their family went to watch Jill’s
brother Brian’s softball game the evening before Jill
disappeared. See id. at 901.
Finally, the parties’ closing arguments highlighted
how damaging trial counsel’s false statements were.
Patrick Baker returned to the Hollars theory in closing.
At that point he knew that he had failed to present
evidence supporting his two false promises during
opening argument, but he did not address this failure
head on. Instead, he attempted to press forward with the
Hollars theory, albeit in a significantly watered-down
fashion. The below portion of Patrick Baker’s closing
argument, especially the emphasized portions, show how

294a
tenuous the Hollars theory had become by the end of
trial, even in trial counsel’s own telling of it:
Motive, there is actual motive here. Not motive
by John Myers. There’s evidence that the victim
may have been involved with an older man.
There’s your evidence right there. . . . There is
evidence that the victim was concerned about
being pregnant. Brian Hollars, an older man
who . . . worked with her[] is considered a
suspect. Ladies and Gentlemen, these books
[found in Ms. Behrman’s bedroom] are not for
sexuality class, okay. Let’s talk about the new
medicine books, “Pills That Don’t Work Overthe Counter” ones, “Pregnant Too Soon”, “Poor
Baby, Poor Body”, a pregnancy kit from IU.
This is the physical evidence as to motive. The
police dropped Brian Hollars as a suspect
without following all of the very important
evidence. He interacted with Jill Behrman. Yes
he gave her his number regarding a bicycle and
maybe he says, I want to sell a bicycle, but he
calls three or four times the next day after her
disappearance. Is that about a bicycle? The
bloodhound, Samantha, followed his scent,
which was near the house of Mr. Hollars, but the
trail was stopped. She was taken to the other side
of 37, which by the way is pretty hard to get
across on a bicycle. Mr. Hollars was an
enthusiastic hunter owning a twelve-gauge
shotgun matching the description of the gun
that the doctors said that was used. Matching
the description of the same gun the doctors said

295a
was used. They questioned Mr. Hollars but they
did not examine his shotgun. Why? Why didn’t
the police take that extra step to look at his
shotgun? Twelve gauge. Mr. Hollars had a
twelve gauge. That’s why this is important.
That’s why these books are important, ladies
and gentlemen. This lady should not have lost
her life but ladies and gentlemen it’s called
motive. It’s called the motive of Brian Hollars or
someone else. (Inaudible) associated with Brian
Hollars or maybe it was another man
completely. An unwanted pregnancy who it had
motivated someone to commit this crime. There
it is.
31

Trial Tr. 2791-92 (emphases added). Trial counsel had
produced so little evidence supporting the Hollars
31

Patrick Baker’s description of the bloodhound evidence during
closing—that the bloodhound tracked near Mr. Hollars’ “but the
trail was stopped”—appears to be an attempt to continue pressing
the false narrative he began during opening that law enforcement
somehow directed the bloodhound away from Mr. Hollars’s
residence. At best, this is a misleading gloss on the evidence, if not
simply false. Deputy Douthett testified about the need to use drop
trails— where a bloodhound is driven along the direction it is
scenting and then periodically dropped off to see if it can pick up the
scent—so the bloodhound does not become too tired. See Trial Tr.
975-96, 983. After the bloodhound scented near the field where Ms.
Behrman’s bicycle was found, drop trails were used to allow the
bloodhound to scent south along Maple Grove Road. Id. at 974-75.
Deputy Douthett requested that law enforcement driving the
vehicle “stop prior to any major roadway.” Id. at 978. Thus the
bloodhound was loaded into the vehicle significantly north of Mr.
Hollars’s residence near Maple Grove Road and dropped off shortly
before Highway 37, where it picked up the scent and continued

296a
theory—and no evidence supporting his two most
important promises during opening related to that
theory—that he nearly abandons it in closing, vaguely
suggesting that it could have been another man
altogether who murdered Ms. Behrman because she was
(perhaps) pregnant.
During closing, the State capitalized on trial
counsel’s false statement regarding Detective Arvin
leading a bloodhound to Mr. Hollars’s residence.
Specifically, the State noted that the bloodhound
Samantha “never tracked at Brian Hollars’ front door as
you heard the Defense [claim during] opening.” Id. at
2817. The State then juxtaposed trial counsel’s failure to
follow through with their promises to the State’s
truthfulness during opening argument:

tracking south and east along the proposed northern route. Id. at
974-85. The drop trail near Highway 37 was past Mr. Hollars’s
residence when heading south, and the bloodhound continued
tracking south. See Trial Ex. 74. Nothing about this testimony
suggests that the bloodhound scented “near” Mr. Hollars’s
residence but was then “stopped,” as Patrick Baker argued. If
anything, it showed that the drop trail began long before Mr.
Hollars’s residence and the bloodhound was not dropped off until
immediately after Mr. Hollars’s residence. It is true that this
prevented the bloodhound from having the opportunity to divert
toward Mr. Hollars’s residence. But this is not what Patrick Baker
argued. The bloodhound did not, as he stated, track near Mr.
Hollars’s residence but was then stopped. Notably, during Deputy
Douthett’s testimony Patrick Baker did not attempt to elicit any
testimony regarding Mr. Hollars’s residence, nor did he ever
suggest that the drop trail locations were selected for any reason
but that testified to by Deputy Douthett—namely, to stop before
any major intersection.

297a
In the State’s opening the State showed you
everything we were going to show you and then
think we delivered that and more. We didn’t tell
you about the dog. We played poker too but we
showed you everything and we told you and we
proved everything (inaudible). In the Defense’s
opening the dog (inaudible) Tom Arvin’s dog
(inaudible) right up to the front door. I don’t
know if it’s in evidence whether it’s a toy poodle
or not but he certainly doesn’t have a police dog.
Id. at 2822-23.
In sum, the evidence presented at trial regarding
the Hollars theory revealed that Mr. Hollars had a
strong alibi; there was no evidence that Mr. Hollars was
romantically involved with Ms. Behrman; law
enforcement absolutely excluded him as a suspect,
including Mr. Myers’s own witness; despite trial
counsel’s protestations that law enforcement refused to
check Mr. Hollars’s shotgun, Mr. Hollars used shotgun
wadding different than that found at the crime scene;
and Mr. Hollars was only even considered a suspect due
to a psychic from Michigan. The only evidence
connecting Mr. Hollars to Ms. Behrman is that they
worked together, Mr. Hollars gave Ms. Behrman his
phone number because he was trying to sell a bicycle
(perhaps to someone in Ms. Behrman’s cycling club), and
he called her house multiple times the day she
disappeared after she did not show up for work.
Against this backdrop, trial counsel’s two false
statements during opening were prejudicial. Had they
been true, they would have been by far the strongest

298a
evidence supporting the Hollars theory showing (1) Ms.
Behrman was at Mr. Hollars’s residence the morning she
disappeared, (2) law enforcement covered it up, and (3)
the possibility of a relationship between Mr. Hollars and
Ms. Behrman shortly before her disappearance.
Simply put, trial counsel promised to produce
specific, dramatic evidence to implicate Mr. Hollars, but,
without explanation, failed to follow through. This
caused significant prejudice. See Anderson v. Butler, 858
F.2d 16, 17 (1st Cir. 1988) (“[L]ittle is more damaging
than to fail to produce important evidence that had been
promised in an opening. . . . The promise was dramatic,
and the indicated testimony strikingly significant.”);
United States v. Crawford, 680 F. Supp. 2d 1177, 1194-95
(E.D. Cal. 2009) (“Failure to produce a witness promised
in opening statement may constitute ineffective
assistance of counsel, if the promise was sufficiently
specific and dramatic and the evidence omitted would
have been significant.”). When, as here, counsel’s
unfulfilled promises relate directly to a critical aspect of
the defense, it is even more prejudicial. See Saesee v.
McDonald, 725 F.3d 1045, 1049-50 (9th Cir. 2013) (noting
that prejudice exists “particularly [in] cases where the
promised witness was key to the defense theory of the
case and where the witness’s absence goes
unexplained”). Whatever viability the Hollars theory
had—which, to be sure, was not much—trial counsel’s
false statements undoubtedly led the jury to reject it.
More importantly, trial counsel’s false statements
undermined Mr. Myers’s defense in a second, more
fundamental way: They destroyed trial counsel’s

299a
credibility with the jury. It is true that the evidence
supporting the Hollars theory was so weak that even
without considering trial counsel’s false statements, the
jury likely would have rejected it. But given how weak
the Hollars theory was, trial counsel’s false statements
likely created the impression that Mr. Myers’s best
defense involved trial counsel concocting a sensational
theory that was utterly unsupported by the evidence
such that trial counsel needed to falsely promise that
strong evidence would be presented to support it.
Counsel’s credibility with the jury is of immense
importance during a trial. Even small misstatements
about what the evidence will show could damage
counsel’s credibility and thereby prejudice the jury
against the defendant. But as detailed above, trial
counsel’s false statements here were not peripheral.
Trial counsel promised a sensational story of a young
woman in a relationship with an older coworker who
then murders her because she becomes pregnant. The
most direct way trial counsel promised to show this was
also rather sensational: law enforcement used a
bloodhound to track to Mr. Hollars residence but pulled
the dog away, implying that law enforcement were
32
covering for the true murderer. Trial counsel also
32

In its prejudice analysis of trial counsel’s false statements during
opening, the Indiana Court of Appeals stated that the jurors’
questions showed they were interested in the Hollars theory
generally—including questions regarding Mr. Hollars’s alibi and
whether he was romantically involved Ms. Behrman—but they did
not ask the “canine handler,” Deputy Douthett, regarding trial
counsel’s claim that a bloodhound had alerted at Mr. Hollars’s
residence. Myers II, 33 N.E.3d at 1093-94. This, reasoned the

300a
promised evidence of a fraying relationship shortly
before Ms. Behrman was murdered: Mr. Hollars and Ms.
Behrman were seen arguing shortly before she
disappeared.
As the jury found out during trial, however, neither
of these critical promises was true. Since trial counsel
was untruthful regarding two key pieces of evidence
that were supposed to support his defense theory, the
jury was left with the unmistakable impression that Mr.
Myers’s best defense involved misleading the jury and
attempting to distract them with sensational claims.
Any reasonable jury would conclude not merely that the
Hollars theory was meritless, but that any defendant
whose best defense includes a sensational theory
predicated on lies has no viable defense at all. This would
Indiana Court of Appeals, shows that the jury was not focused on
trial counsel’s misstatements and thus the false statements were
not prejudicial.
This analysis ignores the fact that the State asked Deputy Douthett
on direct whether the bloodhound tracked to “any houses,” to which
he responded, “[n]o.” Trial Tr. 986. It is thus entirely unsurprising
that the jurors did not repeat this question. They were already
categorically told that the bloodhound did not track to any houses.
Moreover, jurors did ask questions regarding the bloodhound
tracking to Mr. Hollars’s residence to other witness, thus showing
that they remembered trial counsel’s false promises during opening
and were searching for supporting evidence. For example, a juror
asked Mr. Hollars if he was “ever questioned about a bloodhound
coming up to your door?” Trial Tr. 1162. Mr. Hollars responded that
“the first time [he] ever heard that was in the paper, and so I don’t
know anything about a bloodhound coming to my door, no.” Id.
Jurors also asked Mr. Hollars and Mr. Burton whether Ms.
Behrman had been to Mr. Hollars’s house, both of whom responded
in the negative. See id. at 1057, 1159.

301a
lead the jury to discount trial counsel’s other defense
theories, not to mention trial counsel’s credibility
regarding anything else disputed during trial.
Federal courts have recognized the negative effects
caused when defense counsel is untruthful with the jury:
the jury imputes defense counsel’s lack of credibility to
the defendant himself, which can cause substantial
prejudice. The Seventh Circuit explained this in
Hampton: “Promising a particular type of testimony
creates an expectation in the minds of jurors, and when
defense counsel without explanation fails to keep that
promise, the jury may well infer that the testimony
would have been adverse to his client and may also
question the attorney’s credibility.” 347 F.3d at 260
33
(emphasis added). Similarly, the Ninth Circuit aptly
33

The Indiana Court of Appeals concluded that Mr. Myers was not
prejudiced, in part, because Hampton is distinguishable in that the
false promise made by the defendant’s counsel in Hampton was that
the defendant himself would testify, but never did. The Indiana
Court of Appeals is correct that Hampton is distinguishable on that
basis. See Barrow v. Uchtman, 398 F.3d 597, 606-07 (7th Cir. 2005)
(distinguishing Hampton on multiple bases, one of which that in
Hampton the Seventh Circuit “placed special importance on the fact
that trial counsel had specifically promised the jury that the
defendant would testify himself”). But that is not the end of the
analysis. Merely because this case does not fall directly within
Hampton’s specific holding, does not mean either that different
false promises during opening cannot be prejudicial nor that
Hampton’s reasoning is not persuasive in a different, albeit related,
context. Indeed, the Seventh Circuit and others have recognized
that the failure to follow through on promises about what evidence
will be presented can amount to ineffective assistance of counsel
even when the promised evidence is not the defendant’s own
testimony. See English, 602 F.3d at 728; Harris, 894 F.2d at 879.

302a
described how damaging counsel’s promise that a
witness will testify can be when it goes unfulfilled.
Saesee, 725 F.3d at 1049-50. This dynamic plays out in a
similar manner when, as here, critically important
promised evidence goes unpresented:
A juror’s impression is fragile. It is shaped by
his confidence in counsel’s integrity. . . . Having
waited vigilantly for the promised testimony,
counting on it to verify the defense theory, the
juror may resolve his confusion through
negative inferences. In addition to doubting the
defense theory, the juror may also doubt the
credibility of counsel. By failing to present
promised testimony, counsel has broken a pact
between counsel and jury, in which the juror
promises to keep an open mind in return for the
counsel’s submission of proof. When counsel
breaks that pact, he breaks also the jury’s trust
in the client. Thus, in some cases—particularly
cases where the promised witness was key to
the defense theory of the case and where the
witness’s
absence
goes
unexplained—a
counsel’s broken promise to produce the witness
may result in prejudice to the defendant.
Id. (citing Williams v. Woodford, 859 F. Supp. 2d 1154,
1167 (E.D. Cal. 2012)); see English, 602 F.3d at 729 (“The
jury in this case must have wondered what happened to
[the witness] after she was promised [during opening] as
a corroborating witness for [the defendant’s] story, and
the jury may well have counted this unfulfilled promise
against [the defendant] and his attorney.”); McAleese, 1

303a
F.3d at 166 (“The failure of counsel to produce evidence
which he promised the jury during his opening
statement that he would produce is indeed a damaging
failure sufficient of itself to support a claim of
ineffectiveness of counsel.”).
The Court will consider below how the two types of
prejudice flowing from trial counsel’s false statements,
along with the prejudice from trial counsel’s other
errors, impacted the jury’s verdict.
ii. Improper Rape Evidence
The Court turns next to the prejudice flowing from
trial counsel’s failure to object to the improper evidence
that Ms. Behrman was raped before she was murdered.
To assess the impact this evidence had at trial, the Court
will first set forth the improper rape evidence that was
presented and how the State used it during closing
argument.
As detailed above, Dr. Radentz, a forensic
pathologist called by the State, testified regarding the
“dumping” of a body:
[A] homicide in which the individual is taken to
a remote spot and dumped. Sometimes they are
killed at the spot or killed elsewhere. The classic
scenario is that of a rape homicide in which you
have the remains of a young female, and the
clothes, if they’re present, are in disarray, and in
this case though there is very little, if no,
clothing found at the scene. So this is a fairly

304a
classic for a rape homicide and then subsequent
dumping of the body.
Trial Tr. 1423. This testimony undoubtedly prompted a
juror to ask Dr. Radentz, “Do you believe the body was
raped before being shot,” to which Dr. Radentz replied,
“yes.” Id. at 1454.
During follow-up questioning, trial counsel
attempted to undermine this testimony instead of simply
objecting to it. On one hand, trial counsel brought out
testimony that there was no physical evidence proving
that Ms. Behrman was raped. But on the other, the
exchanges—which, again, would not have been
necessary had counsel simply objected to the
testimony—belabored
Dr.
Radentz’s
testimony
regarding rape and, worse still, allowed Dr. Radentz to
further explain why he strongly believed Ms. Behrman
was raped.
Trial counsel asked and Dr. Radentz answered as
follows:
Q. . . . [Y]ou don’t have any evidence that she
was raped, do you?
A. No. That’s based on my training and
experience.
Q. It’s based on speculation, isn’t it?
A. No. As an expert witness, it’s based on my
training and experience.

305a
Q. Yeah, but you’re looking at that from a way
that a scientist looks at statistics. You don’t
have any evidence that . . . here because you
don’t have any soft tissues. Isn’t that
correct?
A. In terms of physical evidence.
Q. . . . Right.
A. No.
Id. at 1458. Trial counsel ended his questioning, and the
State immediately followed-up on this
subject:
Q. . . . Based on your training and experience,
what did you observe that led you to that
conclusion?
A. The . . . scene is classic . . . with a dumping
or a scene of a homicide, more specifically a
rape homicide. When you find the remains
of a female in a remote area with, again,
clothing either in disarray or being absent,
as I believe it was in this case, that is
considered a rape homicide and dumping
until proven otherwise. The other
characteristic of this case which is found in
the rape homicides is the depersonalization
effect of the shotgun wound to the back of
the head. It is fairly common for an
individual after a rape to occur to

306a
depersonalize the individual to make the
crime seem less severe to them, so they’ll
frequently disfigure the face with multiple
blunt force injuries or a massive wound to
the head such as a shotgun would which
would completely fragment and disrupt the
head and face.
Id. at 1459-60. Thus, not only was Dr. Radentz permitted
to testify that the jury should believe Ms. Behrman was
raped unless Mr. Myers “prove[s] otherwise,” he was
permitted to elaborate on his theory of why this case was
a rape-homicide in a manner that, as set forth below, the
State utilized during closing argument.
Finally, trial counsel followed-up with further
questioning, again attempting to undermine Dr.
Radentz’s testimony:
Q. And you have no evidence of [rape] in this
case other than your own opinion . . .
correct?
A. Well, I mean, other than the evidence of the
fact that the body was found in a remote
scene, the fact that the body was that of a
young female, the fact . . . that there were
very few if no clothing items present. Other
than that, no.
Q. Okay. And . . . you certainly . . . even if your
conclusion is correct, you don’t know who
performed that duty because you don’t have
any scientific evidence to determine that.

307a
A. That’s correct.
Id. at 1460-61. Dr. Radentz was so insistent that Ms.
Behrman was raped that Hugh Baker essentially ceded
the point by pointing out that, even if she was raped,
there’s no scientific evidence establishing who raped
her.
Dr. Radentz’s testimony regarding rape featured in
the State’s closing in three respects. First, the State
detailed the factors Dr. Radentz discussed that make
this the “classic” rape-homicide. Id. at 2750, 2753.
Specifically, the State argued that “Dr. Radentz also
talked about a classic rape versus homicide case,” and
compared the two types of body “dumping.” Id. at 2750,
2753. The State downplayed the first type where an
individual overdoses and friends or acquaintances who
panic leave the body somewhere it will easily be found,
then turned to this case:
And compare that that with what Dr. Radentz
said was the classic rape homicide. Look at those
factors and see how they apply to this case.
Yo[u]ng female. That’s Jill. Remote area. That’s
that area up there, isn’t it? Remote? Yeah.
There’s barely a house around, very little traffic,
it’s way off the beaten path. No clothing found.
Dr. Nawrocki searched. Detective Lang had the
recruit school out. No clothing was found. And
then depersonalization. Can you think of
anything more . . . dehumanizing or more
impersonal than putting somebody down,
stripped naked, shooting them in the back of the
head?

308a
34

Id. at 2753.

Second, the State returned to Dr. Radentz’s
testimony regarding depersonalization of a rape victim
to argue that Mr. Roell’s testimony was credible. In the
midst of discussing Mr. Roell’s testimony, the State
noted that Mr. Roell, given that he was facing criminal
charges, had a reason to lie, but his testimony should be
believed because he “said things that were
corroborated.” Id. at 2764. First, Mr. Myers “talked
three or four times about the bike. Remember the
Defendant’s pacing, he’s nervous, the Defendant was
worried about the bike.” Id. Second, the State explained:
He also said something pretty important and
I’m not going to use the language but he used
the B word. The Defendant was angry and
referred to Jill using the B word. Now
remember what Doctor Radentz said about
depersonalizing the victims. Stop and think
what more way, better way or worse way
rather, to depersonalize a human than refer to
her as a female dog. It’s starting to make sense.

34

The State’s slideshow used during closing contained two slides
regarding Dr. Radentz’s testimony, one of which highlighted Dr.
Radentz’s testimony regarding rape. Specifically, it noted that Dr.
Radentz, “Explained ‘Body Dump vs Rape/Homicide’” and
highlighted that this was a “Classic Rape/Homicide case” because it
involved a “Young female,” “Remote Area,” “No clothing found,”
and “‘Depersonalization of the Victim.’” Id.

309a
35

Id.

Third, the State turned to the evidence of rape to
show that Mr. Myers was the perpetrator of the crime,
as rape was his motive:
You know the motive in this crime is clear. It’s
(inaudible) when Doctor Radentz told you that
this was a classic rape murder. Rape is a crime
of control. Rape is not a sex crime. It is pure and
simple control over another human being and
dominating them. The Defendant did not have
control over [Ms. Goodman]. He was a balloon of
hot air about ready to burst, April 28th, 2000.
She broke up with him May 5th, that first week
he didn’t have to (inaudible). He was still
obsessing about her when she went on her high
school trip to Kentucky Kingdom. He wanted
control over her pure and simple and
unfortunately Jill happened to be between
Carly’s house and Lost Man’s Lane near the
Defendant’s trailer at the wrong place at the
wrong time.
Id. at 2816-17.

35

The State folded back to Dr. Radentz’s depersonalization theory
later during closing: “[R]ecall what Doctor Radentz said about
depersonalizing the victim. At a time when everybody is hoping that
Jill comes home safe . . . here’s what [Mr. Myers] calls this, a piece
of human excrement, waste, it’s depersonalizing and when you see
what Doctor Radentz said you start adding the pieces up.” Id. at
2772.

310a
The foregoing shows that trial counsel’s failure to
object to Dr. Radentz’s testimony regarding rape caused
three distinct types of prejudice. First is the general
prejudice flowing from society’s desire to ensure that
those who commit sex crimes are held accountable.
Second, the State used the rape evidence to bolster Mr.
Roell’s credibility—a witness whose credibility was
otherwise questionable but was important to the State’s
case. Third, and perhaps most prejudicial, the rape
evidence allowed the State to create motive for Mr.
Myers to murder a complete stranger when there
otherwise was none.
The Supreme Court has discussed the first two
types of prejudice in an analogous, albeit different,
context. In House, the Supreme Court held that the
petitioner had demonstrated his actual innocence—a
difficult standard requiring a showing that “it is more
likely than not that no reasonable juror would have
found petitioner guilty beyond a reasonable doubt”—
such that his procedural default of certain claims could
be overlooked. 547 U.S. at 537. The Supreme Court
discussed several factors that led to this conclusion. One
such factor was that, in direct contradiction of evidence
presented at trial, DNA evidence showed that semen on
the victim’s nightgown came from her husband, not the
petitioner. The State argued that this evidence was
immaterial because “neither sexual contact nor motive
were elements of the offense” of murder. Id. at 540. But,
by way of reasoning directly applicable to this case, the
Supreme Court held that the new evidence was of
“central importance.” Id.

311a
First, the Supreme Court noted as a general matter
that “[l]aw and society, as they ought to do, demand
accountability when a sexual offense has been
committed.” Id. at 541. Thus, the fact that a sexual
offense occurred, even though the petitioner was not
charged with one, “likely was a factor in persuading the
jury not to let him go free.” Id. Much the same can be
said for Mr. Myers. Although Mr. Myers was not charged
with rape, the fact that the jury believed Ms. Behrman
was raped before she was murdered was likely a factor
in their decision to find him guilty. Cf. Daniel v.
Commissioner, 822 F.3d 1248, 1277 (11th Cir. 2016)
(“Rape is, of course, highly inflammatory, so unrebutted
evidence that [the defendant] tried to rape someone is
highly prejudicial.”).
Second, the Supreme Court rejected the State’s
argument in House that the new evidence was irrelevant
by noting how important evidence of motive is in
criminal cases, especially cases like the instant case
where the primary issue at trial is the identity of the
perpetrator. The Supreme Court observed that the trial
in House “[f]rom beginning to end . . . [was] about who
committed the crime,” and “[w]hen identity is in
question, motive is key.” House, 547 U.S. at 540; see also
Ford v. Wilson, 747 F.3d 944, 952 (7th Cir. 2014)
(“[W]hile motive was not an element of the offense, it
was certainly relevant.”); Turner v. State, 953 N.E.2d
1039, 1057 (Ind. 2011) (“Evidence of a defendant’s motive
is always relevant in the proof of a crime.”). The
Supreme Court highlighted that the importance of
motive “was not lost on the prosecution, for it introduced
the evidence and relied on it in the final guilt-phase

312a
closing argument,” House, 547 U.S. at 540, just as the
State did during closing here.
In both this case and House, the jury was told rape
was the motive, but the evidence supporting that should
not have been presented. The Supreme Court explained
how this can impact the jury:
A jury informed that fluids on [the victim’s]
garments could have come from House might
have found that House trekked the nearly two
miles to the victim’s home and lured her away in
order to commit a sexual offense. By contrast a
jury acting without the assumption that the
semen could have come from House would have
found it necessary to establish some different
motive, or, if the same motive, an intent far more
speculative.
Id. at 541. Moreover, the Supreme Court noted how
evidence of sexual assault as motive can color the jury’s
perception of other evidence: without the evidence of
sexual assault as motive, “House’s odd evening walk and
his false statements to authorities, while still potentially
incriminating, might appear less suspicious.” Id.
In sum, the rape evidence prejudiced Mr. Myers in
the three foregoing ways. How this prejudice weighs in
cumulation with the prejudice flowing from trial
36
counsel’s other errors is considered below.

36

The Indiana Court of Appeals in Myers II addressed the
improperly admitted rape evidence only on the prejudice prong. See

313a
Myers II, 33 N.E.3d at 1106-07. It first set forth the reasons the
Myers I court determined that the admission of the rape evidence,
although an error, did not amount to fundamental error such that
Mr. Myers was entitled to a new trial. Those reasons were: (1) “the
question of rape was peripheral to the murder charge and received
relatively minimal attention at trial”; (2) “defense counsel
thoroughly cross-examined Dr. Radentz, eliciting his testimony that
there was no physical evidence that Behrman had been raped and
that the only basis upon which he opined that a rape had occurred
was his training and experience with respect to circumstances
surrounding the general disposal of human remains”; and (3)
because all other evidence that Mr. Myers engaged in inappropriate
sexual conduct was excluded, “[t]he references to rape . . . did
nothing to implicate Myers as the perpetrator of this charged crime,
which was the central issue at trial.” Id. at 1107 (quoting Myers I,
887 N.E.2d at 187) (internal quotation marks omitted). The Myers
II court recognized that establishing prejudice under Strickland
requires a lesser showing than that to establish fundamental error,
but stated that “[f]or the same reasons this court [in Myers I]
concluded no fundamental error occurred, we also conclude that
Myers has not established prejudice.” Id. at 1107.
The preceding analysis of the rape evidence undermines all three
bases on which the Indiana Court of Appeals discounted its
prejudicial effect. First, the rape evidence was only “peripheral” in
the sense that only Dr. Radentz, who was one of many witnesses at
trial, testified about it. But he was also the only witness who could
have, given that the rape testimony was based solely on his
expertise. More important, it was not at all peripheral in the sense
that it was the only evidence of motive and was discussed several
times by the State during closing, both to argue that Mr. Myers had
motive and to bolster Mr. Roell’s credibility. Second, Dr. Radentz
forcefully and rather persuasively defended his opinion that Ms.
Behrman was raped during cross-examination. He even testified
that all relevant factors suggesting Ms. Behrman was raped were
met such that the jury should conclude as much unless Mr. Myers
“prove[s] otherwise.” Trial Tr. 1459-60. Finally, the Supreme
Court’s analysis in House—of how evidence of sexual assault and
motive are critical for determining who committed a crime—is

314a
iii. Improper Bloodhound Evidence
The Court turns finally to the bloodhound
37
evidence. The Court concluded above that trial counsel
should have objected to Deputy Douthett’s testimony
regarding his bloodhound search and, had trial counsel
done so, that objection likely would have been sustained.
To assess the potential prejudice flowing from this error,
the Court will set forth the role the bloodhound evidence
played during trial and, had it not been introduced, what
the remaining evidentiary picture would have led the
jury likely to conclude. In the end, the bloodhound
evidence was the State’s strongest evidence
undermining Mr. Myers’s alibi, and it also undermined
the Owings theory.
Trial counsel’s defense of Mr. Myers consisted of
offering two different theories of who else may have
committed the crime, the Hollars and Owings theories,
and offering an alibi for Mr. Myers. See Trial Tr. 472-75.
The alibi, as previously discussed, was based on phone
records showing that Mr. Myers was home several miles
northwest of Ms. Behrman’s residence during the
timeframe when she disappeared. See D. Trial Ex. A.
Given this, if Ms. Behrman had ridden south from her
home on the day she disappeared, Mr. Myers had a solid
directly contrary to the Indiana Court of Appeals’ conclusion that
the rape evidence “did nothing to implicate Myers as the
perpetrator of this charged crime.” Myers II, 33 N.E.3d at 1107.
37

The Indiana Court of Appeals did not address prejudice as to Mr.
Myers’s claim regarding the bloodhound evidence, as it decided this
claim only on the deficient performance prong. See Myers II, 33
N.E.3d at 1099-1100.

315a
alibi. Establishing that Ms. Behrman rode south also
aligned with the Owings theory—that Ms. Owings, Ms.
Sowders, and Mr. Clouse hit Ms. Behrman with a vehicle
when she was riding south of her residence, killed her,
dumped her bike, and hid her body.
Mr. Myers’s alibi was a central part of his defense.
Trial counsel noted several times during opening that
Ms. Behrman was last seen south of her residence by Ms.
Papakhian. See Trial Tr. 472-74, 480. He not only argued
that if Ms. Behrman rode south, the phone records
establish that it was “absolutely impossible for [Mr.
Myers] to be involved,” id. at 475, but he pointed out
that, after several years of investigations and grand jury
proceedings, law enforcement never even obtained or
considered Mr. Myers’s phone records, id. at 475-76.
Trial counsel returned to this argument during closing,
arguing that Agent Dunn “worked this case for three
years” and “believed [the southern] theory because it
matches as to where Jill Behrman was last seen, 4700
South [Harrell] Road.” Id. at 2781-82. This southern
route theory, trial counsel continued, was “corroborated
by the Wendy Owings statement.” Id. at 2782.
Indeed, the alibi was likely his best defense, as it was
undisputed during trial that Mr. Myers made phone calls
from his residence. Thus, trial counsel only had to show
some reasonable likelihood Ms. Behrman rode south for
Mr. Myers’s alibi to create reasonable doubt. This stands
in stark contrast to the difficulty of creating reasonable
doubt by convincing the jury of the Hollars or Owings
theories, both of which had significant problems.

316a
To undermine Mr. Myers’s alibi and the Owings
theory, the State attempted to prove that Ms. Behrman
rode north on the day she disappeared. As described
above, the State attempted to prove this by pointing out
that the bike was found on the northern route and
offering three additional witnesses. By far the most
compelling evidence was the bloodhound testimony of
Deputy Douthett. His testimony, if credited by the jury,
showed that Ms. Behrman rode north to the field where
her bicycle was found and stopped there. Id. at 988-89.
Such evidence almost entirely undermined Mr. Myers’s
alibi that he was home, given that the field was less than
a mile from Mr. Myers’s residence.
Had trial counsel moved to exclude this evidence, as
he should have sought to do, the remaining evidence that
Ms. Behrman rode north rather than south was quite
weak. As noted above, Dr. Houze merely demonstrated
that Ms. Behrman could have ridden north and returned
in time for her work shift, which leaves only Mr.
England’s testimony that Ms. Behrman actually rode
north. Mr. England testified that he saw a bicyclist
matching Ms. Behrman’s description, but he was
uncertain whether he saw this biker on the relevant day
or not. Trial Tr. 1019-26. One witness testifying that he
saw a cyclist matching Ms. Behrman’s description
perhaps on the day in question is far from compelling
evidence that Ms. Behrman rode north. Notably, the
State argued during closing that other than Ms.
Papakhian’s sighting of Ms. Behrman, “all the other
evidence points north,” but to support this argument,
pointed only to the bloodhound evidence that should
have been excluded. Id. at 2746.

317a
Critically, the remaining evidence that Ms. Behrman
rode north is just as tenuous as the evidence presented
showing Ms. Behrman rode south. The jury heard that
Ms. Behrman’s high school classmate, Ms. Papakhian,
originally told law enforcement that she saw Ms.
Behrman riding south on May 31, 2000, the day she
38
disappeared. Id. at 2203. Agent Dunn confirmed this,
testifying that, based on various sources of information,
he thought there was a “strong possibility that [Ms.
Behrman] was on South Harrell Road” where Ms.
Papakhian saw her. Id. at 2563; see also id. at 1080 (Brian
Behrman testifying that he was aware of reports that his
sister was last seen south on Harrell Road); id. at 2463
(Detective Lang testifying that there were “several”
reported sightings of Ms. Behrman, but Agent Dunn
focused solely on Ms. Papakhian’s sighting of Ms.
Behrman south on Harrell Road). This was also
consistent with the story Ms. Owings originally told law
enforcement (although she testified during trial that it
was false)—namely, that while driving on Harrell Road,
she hit Ms. Behrman. Id. at 2095.
Detective Arvin, however, testified that he
interviewed Ms. Papakhian several years later and
38

The Court did not ultimately decide whether trial counsel’s
performance was deficient for failing to present additional evidence
that Ms. Behrman rode south on the day in question because the
three errors identified were together sufficient to establish
prejudice. If trial counsel was also deficient for this reason, the
additional evidence supporting that Ms. Behrman rode south that
trial counsel should have presented would, of course, make it even
more likely that the jury would have concluded Ms. Behrman rode
south on the day in question. This, in turn, would have made Mr.
Myers’s alibi defense even stronger.

318a
disagreed with Agent Dunn’s and the FBI’s original
conclusion that Ms. Papakhian saw Ms. Behrman on the
Wednesday morning she went missing. Id. at 2227-28.
Instead, after interviewing five other individuals who
were at the same party as Ms. Papakhian the night
before she saw Ms. Behrman, id. at 2203, Detective
Arvin concluded that it was “more likely” Ms. Papakhian
saw Ms. Behrman the day before she disappeared, id. at
2228. Detective Arvin also concluded that the timeline
for Ms. Papakhian to have seen Ms. Behrman, based on
when Ms. Behrman logged off her computer and when
Ms. Papakhian almost always left for class, suggested
that it was unlikely Ms. Papakhian saw her on the day
she disappeared. See id. at 2230-32.
Without the bloodhound evidence, the jury would
have been left with evidence that an individual who
personally knew Ms. Behrman reported to law
enforcement that she saw her riding south on the day in
question. The FBI’s investigation led it to believe there
was a “strong possibility” that this report was correct.
Trial Tr. 2561-62. But, based on interviews and a
recreation of the timing of that sighting conducted
several years later, different law enforcement officials
concluded the sighting was the day before Ms. Behrman
disappeared. Id. at 2228. The jury would have had to
weigh this evidence that Ms. Behrman rode south—that
may have been undermined—against the testimony of
Mr. England, an individual who did not know Ms.
Behrman but saw a rider matching her description on
the northern route either the day she disappeared or the
day after. Because Mr. Myers had a solid alibi if Ms.
Behrman rode south, the jury would only need to believe

319a
there was some likelihood Ms. Behrman rode south to
create reasonable doubt that Mr. Myers murdered her.
Given this, it would be difficult to overstate how
prejudicial the bloodhound evidence was to Mr. Myers’s
alibi defense.
The bloodhound evidence also damaged trial
counsel’s Owings theory. During opening, trial counsel
offered the Owings theory and Hollars theory as
alternative bases on which to find reasonable doubt that
Mr. Myers murdered Ms. Behrman. Trial counsel told
the jury that Ms. Owings, Ms. Sowders, and Mr. Clouse
hit Ms. Behrman with a vehicle when they were driving
south of Ms. Behrman’s residence, then killed her to
cover up their crime, placed her body in Salt Creek, and
eventually moved it to where it was ultimately found
three years later. Trial Tr. 471-72. This theory, trial
counsel argued, was supported by several things, one of
which was that Ms. Behrman was last seen by Ms.
Papakhian riding on 4700 Harrell Road. Id. at 471-73. As
discussed above, Ms. Owings confessed (but later
recanted) that while driving on Harrell Road, she hit Ms.
Behrman. Id. at 2095. The bloodhound evidence
bolstered the State’s position that Ms. Owings’s
confession was false because it showed Ms. Behrman
rode north, not south on Harrell Road.
Much like the Hollars theory, there were significant
problems with the Owings theory even without trial
counsel’s errors. The most glaring were that (1) Ms.
Owings told law enforcement Ms. Behrman was stabbed
to death, yet once Ms. Behrman’s remains were found,
the forensic evidence strongly suggested that her cause

320a
of death was a shotgun wound, and (2) Ms. Behrman’s
remains were not found in Salt Creek. Id. at 517, 621,
664, 1420. For these reasons, and because all law
enforcement agencies believed Ms. Owings’s confession
was false, the Indiana Court of Appeals determined that
trial counsel decided not to “pursue Owings’s confession
as its primary theory of defense” and thus only pursued
it “to some extent.” Myers II, 33 N.E.3d at 1111.
Despite these difficulties and trial counsel’s own
reservations about the strength of the theory, trial
counsel repeatedly presented the Owings theory to the
jury as a basis for reasonable doubt. Yet trial counsel’s
failure the exclude the bloodhound evidence undermined
a key part of Ms. Owings’s confession—that she hit Ms.
Behrman on Harrell Road, the very road where Ms.
Papakhian saw Ms. Behrman. Thus, to the extent the
jury thought the Owings theory could have been true,
the bloodhound evidence undermined its foundation—
that the incident started by Ms. Owings hitting Ms.
Behrman on Harrell Road.
In sum, trial counsel’s failure to move to exclude the
unreliable bloodhound evidence destroyed Mr. Myers’s
otherwise strong alibi defense and weakened the already
weak Owings theory. The Court will consider this
prejudice along with the prejudice flowing from trial
counsel’s other errors below.
c.

Cumulative Prejudice Analysis

The Court turns finally to the cumulative prejudice
analysis required by Strickland. To demonstrate
prejudice, Mr. Myers “must show that there is a

321a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would
have been different. A reasonable probability is a
probability sufficient to undermine confidence in the
outcome.” Strickland, 466 U.S. at 694. This requires a
“substantial, not just conceivable” likelihood of a
different result. Richter, 562 U.S. at 112. But prejudice
can be shown “[e]ven if the odds that the defendant
would have been acquitted had he received effective
representation appear to be less than fifty percent, . . .
so long as the chances of acquittal are better than
negligible.” Harris, 698 F.3d at 644. As noted above and
applicable here, “a verdict or conclusion only weakly
supported by the record is more likely to have been
affected by errors than one with overwhelming record
support.” 466 U.S. at 696.
The prejudice analysis requires the Court to “assess
the totality of the omitted evidence under Strickland
rather than the individual errors.” Washington, 219 F.3d
at 634-35 (citing Williams, 529 U.S. at 397-98); Sussman,
636 F.3d at 360-61. “[E]ven if [counsel’s] errors, in
isolation, were not sufficiently prejudicial, their
cumulative effect” can amount to prejudice under
Strickland. Martin, 424 F.3d at 592 (citing Alvarez v.
Boyd, 225 F.3d 820, 824 (7th Cir. 2000)).
The cumulative impact of trial counsel’s errors was
devastating to Mr. Myers’s defense. Trial counsel’s
errors impacted the jury’s verdict in at least four specific
ways that, taken together, undermine the Court’s
confidence in its accuracy. Because the Court discussed
the prejudice flowing from each of trial counsel’s errors

322a
in detail above, the Court will more succinctly
summarize how those types of prejudice, together, show
that there is a “reasonable probability” they impacted
the outcome of trial. Strickland, 466 U.S. at 694.
i.

Trial Counsel Undermined All Three
of Mr. Myers’s Defenses

Trial counsel’s false statements during opening and
failure to object to the bloodhound evidence, together,
significantly undermined all three of Mr. Myers’s
defenses. Trial counsel’s false statements regarding the
Hollars theory—that a bloodhound tracked Ms.
Behrman’s scent to Mr. Hollars’s residence and that he
was seen arguing with Ms. Behrman shortly before she
disappeared—were, if true, the best evidence
supporting the theory. But they were simply false. Thus,
to whatever extent the jury was considering the Hollars
theory by the end of trial, it came to realize not only that
the best evidence promised to support it was not
presented, but that the theory was predicated on rather
sensational lies. After this, no reasonable jury would
consider the Hollars theory a basis for reasonable doubt.
Then, trial counsel’s failure to exclude the
bloodhound evidence undermined Mr. Myers’s
remaining two defenses. As explained above, Mr.
Myers’s alibi defense was likely his strongest defense.
But for the bloodhound evidence, the evidence of
whether Ms. Behrman rode north toward Mr. Myers’s
residence or south (in which case Mr. Myers had an alibi)
was at best a close call, as there was not compelling or
undisputed evidence either way. Given this, the
bloodhound evidence tipped the scale strongly in favor

323a
of Ms. Behrman riding north and, in doing so, destroyed
Mr. Myers’s alibi.
Because the Owings theory relied on Ms. Behrman
riding south, the bloodhound evidence undermined it as
well. Even though trial counsel only pursued the Owings
theory “to some extent,” Myers II, 33 N.E.3d at 1111,
trial counsel repeatedly offered it to the jury as a basis
to find reasonable doubt. But trial counsel’s failure the
exclude the bloodhound evidence undermined a key part
of Ms. Owings’s confession—that she hit Ms. Behrman
on Harrell Road, the very road where Ms. Papakhian
saw Ms. Behrman. This failure showed yet another
aspect of Ms. Owings’s confession that was false.
In the end, trial counsel’s errors undermined all
three of Mr. Myers defenses. The errors destroyed two
of his defenses, including his best defense, and further
undermined a defense that trial counsel only attempted
to pursue in a limited fashion. Together, this left Mr.
Myers without a meaningful defense theory through
which any jury would find reasonable doubt.
ii. Trial Counsel Allowed the State to
Present Evidence of Motive when
There was Otherwise None
Trial counsel’s failure to object to the rape evidence
allowed the State to argue that Mr. Myers had motive
when, but for that error, the State had no evidence
explaining why Mr. Myers would have murdered Ms.
Behrman. The State was able to use the rape evidence
to argue in closing that Mr. Myers’s motive was
“clear”—rape is a “crime of control,” and since he could

324a
not control his ex-girlfriend, Ms. Goodman, he used rape
to control Ms. Behrman, who was “at the wrong place at
the wrong time.” Trial Tr. 2816-17. Whether Mr. Myers
or someone else killed Ms. Behrman was essentially the
only question at trial, and the Supreme Court has made
clear that “[w]hen identity is in question, motive is key.”
House, 547 U.S. at 540. Without the rape evidence, the
jury “would have found it necessary to establish some
different motive, or, if the same motive, an intent far
more speculative.” Id. at 541. Simply put, the rape
evidence was the only evidence that allowed the jury to
make sense of why Mr. Myers would have randomly
murdered a stranger riding a bicycle near his residence.
Trial counsel’s failure to keep out the evidence that
allowed the State to explain why Mr. Myers did so, when
no other reason was apparent, was extremely
prejudicial. See id. at 540-41 (“Particularly in a case like
this where the proof was . . . circumstantial, we think a
jury would have given th[e] evidence [of sexual assault]
great weight.”).
iii. Trial Counsel Allowed the State to
Bolster the Credibility of its Most
Important
Witness,
Who
had
Significant Credibility Problems
Trial counsel’s failure to object to the rape evidence
also permitted the State to bolster the otherwise weak
credibility of Mr. Roell, who, if credited, was one of the
most, if not the most, damaging witness against Mr.
Myers. When asked if Mr. Myers used any derogatory
terms regarding Ms. Behrman, Mr. Roell testified,
“There was one comment made in reference to a bitch.”

325a
Trial Tr. 2271. The State, recognizing both the
importance of Mr. Roell’s testimony and his credibility
issues, twice during closing argument connected this
testimony to the rape evidence to bolster Mr. Roell’s
credibility.
After acknowledging that Mr. Roell had a motive to
lie, id. at 2763, the State argued, “Mr. Roell though said
things that were corroborated,” id. at 2764. One of those
things—that the State described as “pretty
important”—was that Mr. Myers “referred to [Ms.
Behrman] using the ‘B’ word.” Id. The State then tied
that “depersonalizing” language to Dr. Radentz’s rape
testimony, arguing what “better way . . . to
depersonalize a human than refer to her as a female
dog.” Id. Connecting Mr. Roell’s testimony to the rape
evidence, the State argued, made the whole picture
“start[] to make sense.” Id. at 2764.
How much this line of argument bolstered Mr.
Roell’s credibility is debatable. But, given the strong
reasons to doubt Mr. Roell’s credibility, even minimal
corroboration meaningfully prejudiced Mr. Myers
because Mr. Roell’s testimony was the only direct
evidence of Mr. Myers’s guilt introduced during the
entire trial. If the jury did not credit it, the following
jury instruction would come into play: “Where proof of
guilt is by circumstantial evidence only, it must be so
conclusive in character and point so surely and
unerringly to the guilt of the accused as to exclude every
reasonable theory of innocence.” Id. at 2734. At the very
least, Mr. Myers’s alibi was a reasonable theory of
innocence, if not a strong one. Thus Mr. Roell’s

326a
credibility was paramount for the State. Had trial
counsel excluded the rape testimony, the State would
not have been able to bolster the credibility of arguably
the most important witness, whose credibility was
certainly in question.
iv. Trial Counsel’s Errors Cast a
Prejudicial Cloud Over the Entire
Trial, Leading the Jury to Believe He
was Untrustworthy and that Mr.
Myers Committed a Sex Crime
Trial counsel’s false statements and failure to object
to the rape evidence cast two clouds over Mr. Myers and
the entire trial. The former created the impression that
trial counsel was untrustworthy, and the inflammatory
rape evidence caused the jury to feel that Mr. Myers
could not be set free, since “society . . . demand[s]
accountability when a sexual offense has been
committed.” House, 547 U.S. at 541. It is difficult to
know precisely how these more amorphous forms of
prejudice impacted the verdict, yet they likely caused
significant prejudice.
Trial counsel falsely promised evidence supporting a
sensational story of a pregnant college student in a
relationship with an older, married coworker who
murdered her because she was pregnant, and whose
guilt was covered up by law enforcement who pulled a
tracking dog away from the coworker’s residence. Given
the dramatic opening by trial counsel, the false promises
did not simply destroy whatever was left of the Hollars
theory as a viable defense, but they undoubtedly turned
the jury against both trial counsel and Mr. Myers

327a
generally. See Saesee, 725 F.3d at 1049-50 (“A juror’s
impression is fragile. It is shaped by his confidence in
counsel’s integrity. . . . In addition to doubting the
defense theory, the juror may also doubt the credibility
of counsel. By failing to present promised testimony,
counsel has broken a pact between counsel and jury, in
which the juror promises to keep an open mind in return
for the counsel’s submission of proof. When counsel
breaks that pact, he breaks also the jury’s trust in the
client.”).
In a case highly dependent on how the jury would
evaluate the credibility of witnesses, the prejudice to
Mr. Myers was significant. When one defense theory is
presented as equal to the others, but it turns out to be in
large part a sensational theory predicated on lies, it
39
undermines the jury’s confidence in the others. For
39

Notably, the Indiana Court of Appeals in Myers II recognized that
trial counsel’s credibility with the jury is an important consideration
and that presenting a weak theory can damage that credibility. In
concluding that trial counsel’s performance was not deficient for
failing to more aggressively present evidence supporting the
Owings theory (an allegation this Court did not ultimately decided),
the Indiana Court of Appeals concluded that trial counsel’s decision
to only “pursue the Owings theory to a limited extent was actually
quite shrewd” because it prevented the jury from being exposed to
“many conflicting versions of the story.” Myers II, 33 N.E.3d at
1112. “This information,” the Indiana Court of Appeals continued,
“might have resulted not only in the elimination in the jurors’ minds
of the possibility that Owings’s confession was true, but also in trial
counsel’s loss of credibility with the jury.” Id. (emphasis added). But
if it was shrewd to not expose the jury to significant weaknesses in
the Owings theory in part because that would damage trial counsel’s
credibility, it was catastrophic for trial counsel’s credibility to make
sensational false claims in support of the Hollars theory. This is

328a
example, why would the jury have any faith in trial
counsel’s alibi defense or Owings theory when he lied
about sensational evidence supporting the Hollars
theory? Why would the jury give any credence to the
fact that law enforcement failed to obtain Mr. Myers’s
phone records that may have given him an alibi during
six years of investigating when trial counsel lied about
an alleged cover-up of evidence implicating Mr. Hollars?
Why would the jury credit trial counsel’s attempt to
undermine Mr. Roell’s or Ms. Goodman’s credibility,
when trial counsel himself lacked credibility?
The improper rape evidence similarly prejudiced
Mr. Myers as a general matter. Rape is “highly
inflammatory” and undoubtedly gives any jury second
thoughts about finding a defendant not guilty. Cf.
Daniel, 822 F.3d at 1277 (“Rape is, of course, highly
inflammatory, so unrebutted evidence that [the
defendant] tried to rape someone is highly prejudicial.”).
When a jury believes a victim was raped before being
murdered, the jury’s desire to hold someone accountable
increases. House, 547 U.S. at 541 (“Law and society, as
they ought to do, demand accountability when a sexual
offense has been committed, so not only did th[e]
evidence [of sexual assault] link [the defendant] to the
crime; it likely was a factor in persuading the jury not to
let him go free.”). Thus, like trial counsel’s sensational
false promises, the inflammatory rape evidence
prejudiced Mr. Myers in that it made it less likely the

especially true given that, unlike the Owings theory, all of the
weaknesses in the Hollars theory were presented to the jury in
detail.

329a
jury would resolve close or difficult credibility decision
in his favor.
v. Cumulative Prejudice Conclusion
In the end, the cumulative prejudice caused by trial
counsel’s errors create a “reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466
U.S. at 694. Together, trial counsel’s errors all but
destroyed Mr. Myers’s best defense (his alibi);
eviscerated the Hollars theory, which although weak,
was the defense theory on which trial counsel focused;
and undermined the Owings theory, which was his only
remaining defense, one that trial counsel declined to
push too hard given its perceived weaknesses. This left
Mr. Myers without even a tenable defense. This is likely
prejudice sufficient to warrant relief, but it is
undoubtedly so when considered with trial counsel’s
other errors.
Trial counsel’s cumulative errors not only left him
without a defense, but they also allowed the State to
create evidence of a motive when there otherwise was
none and bolster the credibility of arguably the State’s
most important witness who had significant credibility
issues. Finally, trial counsel’s false statements and the
inflammatory rape evidence both cast a shadow over the
entire trial, making it even more unlikely that the jury
would trust anything trial counsel presented or be
capable of neutrally weighing the evidence.
The foregoing analysis reveals why it is critical to
evaluate the cumulative prejudice from trial counsel’s

330a
errors, rather than the prejudice from each error in
isolation. The Indiana Court of Appeals in Myers II
considered only the latter. When doing so, it is much
easier to view the prejudice from a single error as
insufficient to meet the Strickland standard. But when
considered together, trial counsel’s errors “so
undermined the proper functioning of the adversarial
process that the trial cannot be relied on as having
produced a just result.” Strickland, 466 U.S. at 686. This
is especially true given that the case against Mr. Myers
was based almost entirely on circumstantial evidence
that was far from overwhelming. See Strickland, 466
U.S. at 696 (“[A] verdict or conclusion only weakly
supported by the record is more likely to have been
affected by errors than one with overwhelming record
support.”). In short, the Court concludes that trial
counsel’s errors were “so serious” that Mr. Myers was
deprived of a trial “whose result is reliable.” Id. at 687.
Trial counsel’s errors so fundamentally undermined
his own strategy, that even if Richter’s “could have
supported” framework remains applicable after Wilson,
“no fairminded jurist” could conclude that Mr. Myers has
not met Strickland’s prejudice standard. See Richter,
562 U.S. at 102. And this is so even though “[t]he
Strickland standard is a general one, so the range of
reasonable applications is substantial.” Id. at 105. Simply
put, when trial counsel lies to the jury during opening
regarding what the evidence will show; undermines all
three of his own defense theories, including a strong alibi
defense; allows the State to improperly introduce
evidence of motive when there otherwise was none; and
improperly permits inflammatory rape evidence to be

331a
introduced, there is “no reasonable argument” that
Strickland’s prejudice standard was not met. Id.
For these reasons, § 2254(d) does not pose a barrier
to relief, and Mr. Myers has established that he failed to
receive the effective assistance of counsel to which he
was entitled under the Sixth Amendment.
IV. CONCLUSION
For the reasons explained above, Mr. Myers’s
petition for a writ of habeas corpus is granted because
he failed to receive effective assistance of counsel during
trial in violation of his Sixth Amendment rights. Since
Mr. Myers is entitled to relief on this claim, the Court
need not reach his claims that the State presented false
evidence in violation of Giglio v. United States, 405 U.S.
150, 153 (1972), and withheld exculpatory evidence in
violation of Brady v. Maryland, 373 U.S. 83, 87 (1963).
A writ of habeas corpus shall issue ordering Mr.
Myers’s release from custody unless the State elects to
retry Mr. Myers within 120 days of entry of Final
Judgment in this action.
Again, a new trial will likely come only at
considerable cost—to the State and to the victim’s
family and community—but the Constitution and its
protections demand a new trial in this case.
IT IS SO ORDERED.

332a

Date: 9/30/2019

Distribution:
Marie F. Donnelly
ATTORNEY AT LAW
mfdonnelly05@gmail.com
Andrew A. Kobe
INDIANA ATTORNEY GENERAL
andrew.kobe@atg.in.gov

333a
Appendix D

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 16, 2020
Before
JOEL M. FLAUM, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-3158
JOHN MYERS,
Petitioner-Appellee,
v.
RON NEAL,
Respondent-Appellant.
_________________________
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:16-cv-2023 — James R. Sweeney, II, Judge.
_________________________

334a
ORDER
Petitioner‐appellee filed a petition for rehearing
and rehearing en banc on September 1, 2020. No judge
in regular active service has requested a vote on the
petition for rehearing en banc and all members of the
original panel have voted to deny rehearing and to issue
an amended opinion. The court’s opinion dated August 4,
2020 is amended by the attached opinion, which includes
changes on pages 30 and 31.
Accordingly, IT IS ORDERED that the petition
for rehearing and rehearing en banc is therefore
DENIED.

